No. 21AIn the

Supreme Court of the United States
JOHN DOE,
Petitioner,
v.
The Superior Court of the State of California
For the County of Contra Costa,
Respondent,
Megan Keefer; Keith Rogenski, San Ramon
Valley Unified School District,
Real Parties In Interest.

To the Honorable Elena K agan Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Ninth Circuit

Application For Immediate Stay Of Indefinite
emergency removal From Public High School

Dan Roth
Law Office of Dan Roth
803 Hearst Avenue
Berkeley, California 94710
(510) 849-1389

Mark M. Hathaway
Counsel of Record
Jenna E. Parker
Hathaway Parker Inc.
445 South Figueroa Street, 31st Floor
Los Angeles, California 90071
(213) 529-9000
mark@hathawayparker.com
Counsel for Petitioner

307171

A
(800) 274-3321 • (800) 359-6859

QUESTIONS PRESENTED
1. Whether a public high school may indefinitely suspend a student from
campus under Title IX, pursuant to the Emergency Removal provisions in
34 C.F.R. § 106.44, subd.(c), without evidence showing that the student
presents “an immediate threat to the physical health or safety of any
student or other individual.”
2. Should this Court issue a stay of an Emergency Removal order issued
pursuant to 34 C.F.R. § 106.44, subd. (c) in order to prevent irreparable
harm to a student where school administrators make no showing that the
student presents “an immediate threat to the physical health or safety of
any student or other individual”?

i

PARTIES TO THE PROCEEDING
Petitioner JOHN DOE, through his guardian ad litem JANE DOE, was, at all
times relevant, a 15-year-old first-year student at California High School, a high
school within the San Ramon Valley Unified School District.
Respondent MEGAN KEEFER was, at all times relevant, an individual in
her official capacity as Principal and Title IX Coordinator Designee, California High
School, a high school within Respondent San Ramon Valley Unified School District,
and the decisionmaker who decided and imposed and upheld the Title IX
Emergency Removal decision and order.
Respondent KEITH ROGENSKI was, at all times relevant, an individual in
his official capacity as the individual designated by Respondent San Ramon Valley
Unified School District as the employee responsible for coordinating the District’s
response to complaints and for complying with state and federal civil rights laws.
Respondent KEITH ROGENSKI serves as the compliance officer and responsible
employee who handles complaints regarding sex discrimination, receiving and
coordinating the investigation of complaints and ensuring district compliance with
law.
SAN RAMON VALLEY UNIFIED SCHOOL DISTRICT (hereinafter
“District”) was, at all times relevant, a business entity of form unknown, having its
principal place of business in Contra Costa County in the State of California. The
San Ramon Valley Unified School District covers an 18 square mile area,
encompassing the communities of Alamo, Blackhawk, Danville, Diablo, and San
Ramon (including the new Dougherty Valley communities in east San Ramon) as
well as a small portion of the cities of Walnut Creek and Pleasanton. The District is
comprised of 36 schools serving more than 32,000 students in Transitional
Kindergarten through Grade 12.
CORPORATE DISCLOSURE STATEMENT
Petitioner is an individual. Respondent San Ramon Valley Unified School
District is a public school district in Contra Costa County in the State of California
ii

and has no shareholders. The remaining Respondents are individuals named in
their official capacities as employees of the District.
RELATED PROCEEDINGS BELOW
•

Doe v. Keefer, et al., No. CIVMSN21-1450, Superior Court Of The State Of
California For Contra Costa County. Order denying Petitioner’s request for
immediate stay of the Emergency Removal entered August 9, 2021.
(Appendix A.)

•

Doe v. Superior Court for the County of Contra Costa, No. A163237, California
Court Of Appeal, First Appellate District. Order denying the petition for writ
of supersedeas/prohibition and accompanying stay request issued August 12,
2021. (Appendix B.)

•

John Doe v. S.C. (Keefer) No. S270383, California Supreme Court. Docket
entry of order denying petition for review and application for stay issued
August 25, 2021. (Appendix C.)

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................................................................... i
CORPORATE DISCLOSURE STATEMENT ............................................................... ii
RELATED PROCEEDINGS BELOW .......................................................................... iii
TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH CIRCUIT; .......... 1
JURISDICTION............................................................................................................. 3
STATEMENT OF THE CASE ....................................................................................... 4
I.

FACTUAL SUMMARY................................................................................. 4
A. THE DISTRICT ISSUES THE EMERGENCY REMOVAL ORDER ..... 5
B. THE DISTRICT DENIES PETITIONER’S CHALLENGE TO THE
EMERGENCY REMOVAL ORDER ........................................................ 8
C. PETITIONER SEEKS A STAY PENDING JUDICIAL REVIEW
OF THE EMERGENCY REMOVAL ORDER ......................................... 9
D. PETITIONER HAS EXHAUSTED HIS APPLICATION FOR STAY
RELIEF IN ALL LOWER COURTS ...................................................... 10

REASONS FOR GRANTING THE APPLICATION .................................................. 10
I.

EMERGENCY REMOVAL UNDER 34 C.F.R. 106.44, SUBD. (C)
DOES NOT PERMIT REMOVAL OF STUDENTS FROM CAMPUS
WITHOUT AN EMERGENCY OR SHOWING OF AN IMMEDIATE
THREAT TO THE PHYSICAL HEALTH OR SAFETY OF ANY
STUDENT OR OTHER INDIVIDUAL ...................................................... 10

II.

RIGHT TO DUE PROCESS APPLIES TO PUBLIC K-12 SCHOOLS
AND PUBLIC POST-SECONDARY EDUCATION. ................................. 12

III.

A STAY IS NECESSARY TO PREVENT STUDENTS’ IMPROPER
SEPARATION FROM THEIR EDUCATIONAL PROGRAMS AND
ACTIVITIES WHILE JUDICIAL REVIEW IS PENDING. ..................... 13

CONCLUSION............................................................................................................. 14

iv

TABLE OF APPENDICES
APPENDIX A - NOTICE OF ORDER DENYING EX PARTE IN THE
SUPERIOR COURT OF THE STATE OF CALIFORNIA FOR THE
COUNTY OF CONTRA COSTA, FILED AUGUST 11, 2021
APPENDIX B - ORDER IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA, FIRST APPELLATE DISTRICT, DIVISION FIVE,
FILED AUGUST 12, 2021
APPENDIX C - DENIAL IN THE SUPREME COURT OF
CALIFORNIA, FILED AUGUST 27, 2021
APPENDIX D - EXHIBITS IN SUPPORT OF PETITION FOR WRIT
OF SUPERSEDEAS IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA, FIRST APPELLATE DISTRICT,
FILED AUGUST 11, 2021

v

TABLE OF AUTHORITIES

Federal Cases
Coplin v. Conejo Valley Unified School District (1995)
903 F. Supp. 1377 ................................................................................................... 12
Doe v. Regents of the University of California (9th Cir. 2018)
891 F.3d 1147 ......................................................................................................... 13
Goss v. Lopez (1975)
419 U.S. 565 .................................................................................................. 1, 11, 12
California Cases
American Indian Model Schools v. Oakland Unified School Dist. (2014)
227 Cal.App.4th 258 ............................................................................................... 14
Association of Orange County Deputy Sheriffs v. County of Orange
(2013)
217 Cal.App.4th 29 ................................................................................................. 14
Canyon Crest Conservancy v. County of Los Angeles (2020)
46 Cal.App.5th 398 ................................................................................................. 13
Collins v. Thurmond (2019)
41 Cal.App.5th 879 ................................................................................................. 12
County of Kern v. T.C.E.F., Inc. (2016)
246 Cal.App.4th 301 ............................................................................................... 14
Doe v. Regents of University of California (2018)
28 Cal.App.5th 44 ................................................................................................... 12
Gupta v. Stanford University (2004)
124 Cal.App.4th 407 ............................................................................................... 13
O’Connell v. Superior Court (2006)
141 Cal.App.4th 1452 ............................................................................................. 12
Pomona College v. Superior Court (1996)
45 Cal.App.4th 1716 ............................................................................................... 13
Right Site Coalition v. Los Angeles Unified School Dist. (2008)
160 Cal.App.4th 336 ............................................................................................... 14
vi

Constitutional Provisions
USCS Const. Amendment 14 ...................................................................................... 12
Federal Statutes
28 U.S.C.
§ 1257 .................................................................................................................... 1, 3
Title IX ..................................................................................................................passim
California Statutes
Code Civ. Proc.
§ 1094.5 ................................................................................................. 11, 12, 13, 14
Federal Regulations
34 C.F.R. § 106.44, subd.(c) ........................................................................... 1, 2, 10, 11

vii

TO THE HONORABLE ELENA KAGAN, ASSOCIATE
JUSTICE OF THE SUPREME COURT AND CIRCUIT
JUSTICE FOR THE NINTH CIRCUIT;
Pursuant to Rules 22, and 23 of the Rules of this Court, and 28 U.S.C. § 1257,
Applicant/Petitioner John Doe respectfully requests that this Honorable Court issue
a stay of his indefinite Emergency Removal from his public high school. The stay
would be in effect pending judicial review in the California Superior Court of the
merits of his petition for writ of mandate to set aside the public high school’s
arbitrary Emergency Removal order, which was issued and is maintained in the
absence of any emergency and absence of any showing that Petitioner poses an
“immediate threat to the physical health or safety of a student or other individual
arising from the allegations of Title IX Sexual Harassment.” (Appendix D, p. 17;
see, 34 C.F.R. § 106.44, subd. (c).)
In Goss v. Lopez (1975) 419 U.S. 565, the Supreme Court held that students
in public schools are entitled to constitutional due process. The court also found that
when the school delays in granting this right, “the student meanwhile will
irreparably lose his educational benefits.” (Goss, at 581, n. 10, emphasis added.)
This is a recognition that the loss of time, in the school setting, is irreparable. This
request for a stay involves the irreparable loss of the benefits and experiences of
high school.
This case appears to be one of first impression challenging a public high
school’s Emergency Removal of a student in reliance on new federal Title IX
regulations at 34 C.F.R. § 106.44, subd. (c), which applies to some 15.3 million K-12
students in the United States,1 as well as students at community colleges and
private and public colleges and universities.
Emergency Removal is an appropriate tool for school administrators to

California Department of Education, Fingertip Facts on Education in California
(April 29, 2021) https://www.cde.ca.gov/ds/ad/ceffingertipfacts.asp
Nationwide, 15.3 million student attend grades 9 to 12.
https://nces.ed.gov/fastfacts/display.asp?id=372#K12-enrollment
1
1

address actual emergencies and threats to student safety, but not where, when
challenged, the school administrators cannot show an emergency or a threat to the
physical health or safety of a student or other individual arising from the
allegations of Title IX sexual harassment.
In the absence of unequivocal direction from courts regarding the showing
required before school administrators may impose an Emergency Removal on a
student pursuant to 34 C.F.R. § 106.44, subd. (c), or to maintain the Emergency
Removal when challenged by the student, school administrators may arbitrarily
decide that an “emergency” situation exists the moment any allegation of sexual
harassment is made, regardless of its lack of veracity and the absence of an actual
and “immediate threat to the physical health or safety of any student or other
individual.” The result is that students such as Petitioner are indefinitely
separated from their educational programs and activities without any evidence or
showing of an emergency or threat.
Students removed by school administrator on an emergency basis simply
have no recourse to challenge the Title IX Emergency Removal other than by
seeking writ relief, injunction, or applications for stay from the courts. Given the
procedural posture of trial court stay orders, the issues presented here are unlikely
to ever be addressed by courts except on request for extraordinary relief or this
application for a stay. Without a stay, students suffer the irreparable and harmful
consequences of lengthy, indefinite suspensions.
Here the California Superior Court trial judge denied that stay and set a
hearing on the merits of the Emergency Removal for January 7, 2022, meaning that
the student will suffer a five-month suspension from campus, with no showing of an
emergency and no showing of an immediate threat to anyone.
Rather than an indefinite suspension under the guise of Emergency Removal,
the District can simply have Petitioner avoid contact with Jane Roe and make sure
they are not assigned to the same classes.

2

JURISDICTION
Petitioner sought a stay of the improper Emergency Removal order from the
California Superior Court, the California Court of Appeal, and the California
Supreme Court without success. The California Supreme Court denied Petitioner’s
request for a stay of the Emergency Removal and petition for review on August 25,
2021. The relief sought in this Application is not available from any other court or
judge. This Court has jurisdiction to issue the requested relief in the form of a stay
pursuant to 28 U.S.C. § 1257 and Rule 23.

3

STATEMENT OF THE CASE
The record of the California Superior Court proceedings was filed with the
Court of Appeal, Exhibits In Support Of Petition For Writ Of Supersedeas,
Prohibition And/Or Other Appropriate Relief, which is attached as Appendix D.
Petitioner believes the materials are essential to understand this application for
stay due to the factual nature of an Emergency Removal and stay relief.
I. FACTUAL SUMMARY
Petitioner John Doe, 15, dated classmate Jane Roe, 15, from approximately
March 17, 2021, until April 13, 2021. After school on Tuesday, April 13, 2021,
Petitioner informed Jane Roe via text messages that he did not love her and was
breaking up with her. Jane Roe did not want to break up, and asked to talk, but
Petitioner reiterated that he was “done with this relationship.” (Appendix D, p.
118.)
At 7:37 p.m. on April 13, 2021, Jane Roe sent text messages to Petitioner
pleading, “No [John] please, I can change” and “I know how to.” Jane Roe sent a
series of text message to Petitioner saying, “Please don’t do this. I love u aka love u
a lot. And I need u. [John] please talk to me what did I even do.” (Appendix D, pp.
135-136.)
At 7:40 p.m., Petitioner responded, “we’ve been talking about this, please
don’t beg me it’s not changing my mind, I’m done with this relationship. I have to
go.” (Appendix D, p. 136.)
At 7:41 p.m., Jane Roe responded “No [John] please. I have been there for u.
And I need u in my fucking life. And I like u hella.” (Appendix D, p. 136.)
At 7:42 p.m., Petitioner wrote “you don’t need me in your life to live.” Jane
Roe responded, “I do, u have been there for me. And you always loves (sic) me.
Loved. Cared about me. And never gave up on me.” (Appendix D, p. 137.)
At 7:58 p.m., Petitioner texted Jane Roe, “we are done”. (Appendix D,
4

Exhibit 6, p. 137.)
On April 15, 2021, Petitioner and Jane Roe were in theater class again and
he offered her his hand to help her get up from sitting on the floor. (Appendix D, p.
137.)
Thereafter, Jane Roe told at least one other student that Petitioner had
sexually assaulted her in a classroom with the teacher Laura Woods2 and other
students in the room. (Appendix D, pp. 111-112, 117, 127.)
According to social worker Lacy Canton, on April 21, 2021, Jane Roe told her
that Petitioner had “sexually assaulted her last Wednesday [April 14] during
theater class.” (Appendix D, pp. 130-131.) Ms. Canton reported that Jane Roe also
claimed that she had heard that another student had been sexually assaulted by
“the perpetrator,” John Doe, and said that John Doe sent numerous
“provocative” messages to her, including pictures of his genitals. (Id.)
Social worker Ms. Canton emailed a “Student Incident” report to Respondent
Keefer. (Id.)
On April 22, 2021, Respondent Megan Keefer called Petitioner to her office
and informed him generally that Jane Roe had alleged that during a support period
after their Theater class on April 15, 2021, Petitioner had sexually assaulted her.
Petitioner denied the allegations. (Appendix D, p. 16.)
A. THE DISTRICT ISSUES THE EMERGENCY REMOVAL ORDER
Respondent Megan Keefer then left the room and returned moments later
with a “Notice of Title IX Emergency Removal of Student” dated April 22, 2021,
which asserts in relevant part:
In response to the initial allegations, the District has
undertaken an individualized safety and risk analysis and
has determined that you pose an immediate threat to the
physical health or safety of a student or other individual
As a public school teacher, Laura Woods is a mandatory reporter. The District
has provided no evidence indicating that Ms. Woods saw or heard what Jane Roe
claims occurred.
5
2

arising from the allegations of Title IX Sexual Harassment.
The specific reasons for the decision are: substantial
evidence leading to allegations of sexual assault(s) to
students while on campus.
(Appendix D, pp. 143-144.)
Respondents did not provide any evidence nor even describe the evidence that
Respondents claimed justified the issuance of the Emergency Removal order. (Id.)
Petitioner was required to leave school immediately and was told not to
return and that he would be completing his school year through independent study,
with no direct instruction. (Appendix D, p. 16.) Petitioner was not provided any
information about how he was supposed to complete his schoolwork until Monday,
April 26, 2021. (Id.) Petitioner was told that he would need to personally contact
his teachers to get assignments and instructions. Petitioner repeatedly requested
and was not provided any results or analysis from any individualized safety and
risk analysis. (Appendix D, p. 18.)
On April 26, 2021, after Respondents imposed the Title IX Emergency
Removal on Petitioner, Jane Roe filed a Formal Complaint under the District’s Title
IX Sexual Harassment Complaint Procedures. (Appendix D, pp. 110-112.) In her
Formal Complaint, which the District first provided to Petitioner almost three
months later on July 13, 2021, Jane Roe alleges:
In theatre, 4/15, during 5th period, [Petitioner] was
involved.
[Petitioner] started making out with me when I said no, He
started going to my neck and started giving me hickeys
when I kept saying no He started touching my boobs and
kept playing with them when I kept saying no He then
went down in my pants started rubbing and fingering me
when I grabbed his hands to pull them out and I said no,
he asked why, I said because we are in school plus I am not
feeling the best He then kept doing it the he grabbed my
hand and put my hand in his pants and I kept pulling my
hand out and saying no
(Appendix D, pp. 111-112.)
6

On Friday, April 30, 2021, Petitioner’s Advisor sent an email to Respondent
Keefer with the subject “Challenge to Removal of [John Doe] …” noting that Doe “is
now receiving no instruction – either live or remote” and “has been removed from
his academic environment and deprived of his educational opportunities."
(Appendix D, pp. 193-194.) “This is effectively a suspension,” the email continued,
“which as a matter of long-standing federal law requires meaningful notice and a
hearing – neither of which [John Doe] has been provided.” (Id.)
On Monday, May 4, 2021, Petitioner’s Advisor sent a follow-up email to
Respondent Keefer attaching Petitioner’s sworn declaration, including images of the
text messages supporting exactly what Petitioner had told Respondent Keefer on
April 22: that he had broken up with Jane Roe on April 13, and Roe was very upset
and begged him not to break up with her. (Appendix D, pp. 192-193.) The
declaration, signed under penalty of perjury, asserted that Jane Roe’s allegations
against him are “completely false.” (Appendix D, p. 139.)
On May 7, 2021, Respondents issued a CORRECTED Notice of Title IX
Emergency Removal of Student.
In response to the initial allegations, the District has
undertaken an individualized safety and risk analysis and
has determined that you pose an immediate threat to the
physical health or safety of a student or other individual
arising from the allegations of Title IX Sexual Harassment.
The specific reasons for the decision are: substantial
allegations of sexual assault(s) to students while on
campus.
(Appendix D, pp. 101.)
The change is that Respondents no longer refer to “substantial evidence” as
justification for the Emergency Removal order but rather refer to “substantial
allegations.” (Emphasis supplied.)

7

B. THE DISTRICT DENIES PETITIONER’S CHALLENGE TO THE
EMERGENCY REMOVAL ORDER
On May 17, 2021, Petitioner’s advisor requested a meeting to challenge the
Title IX Emergency Removal order. (Appendix D, pp. 20, 104.)
On May 19, 2021, Petitioner was permitted to make a statement and present
information to challenge the determination of “substantial allegations of sexual
assault(s) to students while on campus.” (Id.) Petitioner again denied the
allegations, asserted that he does not pose a danger to anyone, and submitted a
signed declaration under penalty of perjury attesting that Jane Roe’s allegations are
“completely false.” (Id.; see also Appendix D, pp. 135-139.)
On May 21, 2021, Respondent Megan Keefer issued an “Outcome of
Challenge to Title IX Emergency Removal of Student,” upholding her own Title IX
Emergency Removal decision. (Appendix D, pp. 104-105.) By challenging the Title
IX Emergency Removal decision, Petitioner has exhausted his administrative
remedies. Petitioner has no further avenue of administrative appeal to challenge
Respondents’ decision regarding the Title IX Emergency Removal.
On June 2, 2021, Jane Roe changed her allegations and claimed that the
alleged conduct had occurred on April 13, 2021, hours before she and Petitioner
broke up and she had begged him not to break up with her. (Appendix D, p. 81.)
On June 3, 2021, the District issued an Amended Notice of Allegations of
Title IX Sexual Harassment by a Complainant. The Amended Notice, signed by
Ken Nelson, Title IX Coordinator for the District states that F3Law attorneys serve
as the investigator, judge, and appellate body vis-a-vis the District’s Title IX
administrative process. (Appendix D, p. 82.)

8

C. PETITIONER SEEKS A STAY PENDING JUDICIAL REVIEW OF
THE EMERGENCY REMOVAL ORDER
On July 12, 2021, Counsel for Respondents confirmed that the Emergency
Removal order would remain in effect for the start of the 2021-2022 school year.
(Appendix D, p. 164.)
On July 13, 2021, the District provided Petitioner with an evidence packet for
the first time. The evidence contains no witness statements. (See Appendix D, pp.
107-108, pp. 109-139.)
On July 30, 2021, Petitioner filed his Petition for Writ of Mandate to seek
judicial review of the District’s final Emergency Removal order. (Appendix D, p. 9.)
On August 4, 2021, Petitioner filed his application for an ex parte order to
stay the Emergency Removal, which was amended to redact students’ names.
(Appendix D, Exhibit 5, pp. 57-79.)
Petitioner also sought to disqualify the District’s law firm of F3Law as
attorneys from the firm were actually conducting all roles in the Title IX
administrative process, serving as investigator, decider, and appellate decider.
(Appendix D, Exhibit 2, pp. 24-37.)
On August 9, 2021, the trial court denied Petitioner’s ex parte application for
a stay of the Emergency Removal order. (Appendix A.)
Petitioner is informed and believes, and on that basis alleges that on Friday,
August 6, Respondent Kravitz informed Petitioner that he would have two options if
the Emergency Removal was not struck down: (1) Independent Study, and (2) the
District’s new “Virtual Academy.” The Virtual Academy is district-wide, so
Petitioner has not been returned to his peer group at California High School. After
Petitioner’s request for a Stay of the Emergency Removal was denied on Monday,
August 9, Petitioner immediately requested that he be enrolled in the Virtual
Academy. As of the morning of August 11 – the second day of school – Petitioner
had not received classroom links. The harm to Petitioner in not attending in-person
education is not only educational, but also emotionally damaging, and precludes
Petitioner from participating in the comradery, physical education and other
9

opportunities that are associated with attending high school.
D. PETITIONER HAS EXHAUSTED HIS APPLICATION FOR STAY
RELIEF IN ALL LOWER COURTS
On August 11, 2021, Petitioner filed his Petition for Writ of Supersedeas,
Prohibition, and/or Other Appropriate Relief in the First Appellate District.
On August 12, 2021, Division Five of the First Appellate District denied
Petitioner’s Petition. (Appendix B.)
On August 25, 2021, the California Supreme Court denied Petitioner’s
Petition for Review and requested stay of Emergency Removal order. (Appendix C.)
REASONS FOR GRANTING THE APPLICATION
I. EMERGENCY REMOVAL UNDER 34 C.F.R. 106.44, SUBD. (C) DOES
NOT PERMIT REMOVAL OF STUDENTS FROM CAMPUS WITHOUT
AN EMERGENCY OR SHOWING OF AN IMMEDIATE THREAT TO THE
PHYSICAL HEALTH OR SAFETY OF ANY STUDENT OR OTHER
INDIVIDUAL
(c) Emergency removal. Nothing in this part precludes
a recipient from removing a respondent from the recipient’s
education program or activity on an emergency basis,
provided that the recipient undertakes an individualized
safety and risk analysis, determines that an immediate
threat to the physical health or safety of any student or
other individual arising from the allegations of sexual
harassment justifies removal, and provides the respondent
with notice and an opportunity to challenge the decision
immediately following the removal. This provision may not
be construed to modify any rights under the Individuals
with Disabilities Education Act, Section 504 of the
Rehabilitation Act of 1973, or the Americans with
Disabilities Act.
(34 C.F.R. § 106.44, subd. (c).)
Federal regulations do not permit the maintenance of an Emergency Removal
order in the absence of an emergency and in the absence of a showing of an
10

immediate threat to the physical health or safety of any student or other individual
arising from the allegations of sexual harassment.
Respondents issued their Emergency Removal order on April 22, 2021 based
on the allegations of sexual harassment; however, Petitioner timely challenged the
removal order as lacking any evidentiary support that Petitioner posed an
immediate threat to the physical health or safety of any student or other individual.
Respondents presented no evidence that Petitioner poses a threat to the physical
health or safety of any student or other individual. Respondents’ determination
that Petitioner “poses an immediate threat to the physical health or safety of a
student(s) or other individual(s)” in the absence of any such showing, is arbitrary
and capricious.
In Goss v. Lopez (1975) 419 U.S. 565, the Supreme Court held that students
in public schools are entitled to constitutional due process. The court also found that
when the school delays in granting this right, “the student meanwhile will
irreparably lose his educational benefits.” (Goss, at 581, n. 10, emphasis added.)
This is a recognition that the loss of time, in the school setting, is irreparable. This
request for a stay involves the irreparable loss of the benefits and experiences of
high school.
In the absence of unequivocal direction from courts and lawmakers regarding
the showing required before a school may impose an “Emergency removal” on a
student pursuant to 34 C.F.R. § 106.44, subd. (c), some school administrators have
decided that an “emergency” situation exists the moment an allegation of sexual
misconduct is made, regardless of its lack of veracity and the absence of an actual
and “immediate threat to the physical health or safety of any student or other
individual.” The result is that students such as Petitioner are indefinitely
separated from their education programs and activities without any evidence.
Students removed from school on an emergency basis have no recourse to
challenge the Title IX Emergency removal, which can last for months while the
Title IX investigation is ongoing. Given the procedural posture of trial court stay
orders under Code Civ. Proc., § 1094.5, subd. (g), the issues presented are unlikely
11

to ever be addressed except on request for extraordinary relief.
II. RIGHT TO DUE PROCESS APPLIES TO PUBLIC K-12 SCHOOLS AND
PUBLIC POST-SECONDARY EDUCATION.
The Fourteenth Amendment of the United States Constitution guarantees
the right to procedural due process. (USCS Const. Amend. 14.) It is triggered when
a state agency seeks to deprive a person of protected interests. (Goss v. Lopez
(1975) 419 U.S. 565, 572.) A state cannot deprive a person of a public education
without providing sufficient procedural due process. (Coplin v. Conejo Valley
Unified School District (1995) 903 F. Supp. 1377.) “California has enshrined the
right to education within its own Constitution. Accordingly, ‘established California
case law holds that there is a fundamental right of equal access to public education,
warranting strict scrutiny of legislative and executive action that is alleged to
infringe on that right.’ (O’Connell v. Superior Court (2006) 141 Cal.App.4th 1452,
1465.)” (Collins v. Thurmond (2019) 41 Cal.App.5th 879, 896.)
California statutory law, Code Civ. Proc., § 1094.5, requires that (1) there be
“a fair trial,” which “means that there must have been ‘a fair administrative
hearing’”; (2) the proceeding must be conducted “in the manner required by law”; (3)
the decision must be “supported by the findings”; and (4) the findings must be
“supported by the weight of the evidence,” or where an administrative action does
not affect vested fundamental rights, the findings must be “supported by
substantial evidence in the light of the whole record.”3 (Code Civ. Proc., § 1094.5,
subds. (a)-(c).) Petitioner’s fundamental right to access to his public-school
educational programs and activities are denied by Respondents’ improper
administrative removal order.

The Court may refrain from evaluating the sufficiency of evidence if there are
errors in the administrative process. (Doe v. Regents of University of California
(2018) 28 Cal.App.5th 44, 61.)
12
3

III. A STAY IS NECESSARY TO PREVENT STUDENTS’ IMPROPER
SEPARATION FROM THEIR EDUCATIONAL PROGRAMS AND
ACTIVITIES WHILE JUDICIAL REVIEW IS PENDING.
Students have no other remedy to address unfair administrative disciplinary
actions without first exhausting judicial remedies under Code Civ. Proc., § 1094.5.
(Pomona College v. Superior Court (1996) 45 Cal.App.4th 1716, 1722–1723 (Code
Civ. Proc., § 1094.5 applicable to private universities); Gupta v. Stanford University
(2004) 124 Cal.App.4th 407, 411 (Code Civ. Proc., § 1094.5 applied to student who
was subject to university disciplinary proceedings); Doe v. Regents of the University
of California (9th Cir. 2018) 891 F.3d 1147, 1155 (“A party must exhaust judicial
remedies by filing a § 1094.5 petition, the exclusive and ‘established process for
judicial review’ of an agency decision.”))
Under Code Civ. Proc., § 1094.5, subd. (g), trial courts have discretion to issue
a stay of the operation of the administrative order or decision and are only required
to be satisfied that the stay is not against the public interest. The statute does not
require the court to make any additional findings in order to grant the stay.
(Canyon Crest Conservancy v. County of Los Angeles (2020) 46 Cal.App.5th 398,
407.) If the Legislature had intended to require the trial court to make further
findings to issue a stay, the Legislature would have included such language in Code
Civ. Proc., § 1094.5, subd. (g).
Trial courts, however, impose on students additional burdens for the stay, not
required by the statute, such as establishing that the stay is in the public interest
or meeting the burden for issuance of a preliminary injunction.
The stay should issue in student conduct matters unless there is a showing
that satisfies the court that the requested stay would be against the public interest.
Petitioner has no burden to show the requested stay is in the public interest.
Although “public interest” is not defined in the statute, there is most certainly
public interest in fair disciplinary proceedings at California colleges, universities
and high schools and little public interest, absent some evidence of danger, in the
imposition of sanctions and discipline prior to judicial review on the merits.
13

Trial courts may not require, as often happens, that the student satisfy the
two interrelated factors of (1) the likelihood that the plaintiff will prevail on the
merits at trial and (2) the interim harm the plaintiff may suffer if the injunction is
denied as compared to the harm that the defendant may suffer if the injunction is
granted. (Right Site Coalition v. Los Angeles Unified School Dist. (2008) 160
Cal.App.4th 336, 338-339, 342; Association of Orange County Deputy Sheriffs v.
County of Orange (2013) 217 Cal.App.4th 29, 49 (there must be “some possibility
that the plaintiff would ultimately prevail on the merits of the claim.”); County of
Kern v. T.C.E.F., Inc. (2016) 246 Cal.App.4th 301, 317; see also American Indian
Model Schools v. Oakland Unified School Dist. (2014) 227 Cal.App.4th 258, 271
(trial court’s issuance of a preliminary injunction was also proper under Code Civ.
Proc., § 1094.5, subd. (g), as not against the public interest.))
Without a stay, the student may suffer the entire adverse consequences of an
improper Emergency Removal order, only to prevail later on the merits.
CONCLUSION
Based on the foregoing arguments in this application, the Applicant
respectfully requests that the Circuit Justice or the Court issue a stay in light of
the actual facts of the case and the well-settled law that students may not be
separated from their educational programs, even temporarily, without Due Process.
Dated this 30th Day of August, 2021.
Respectfully Submitted,
By:
MARK M. HATHAWAY
Counsel of Record
JENNA E. PARKER
HATHAWAY PARKER INC.
445 S. Figueroa Street, 31st Floor
Los Angeles, California 90071
mark@hathawayparker.com
(213) 529-9000

/s/ Mark M. Hathaway
Counsel of Record

DAN ROTH
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, California 94710
dan@drothlaw.com
(510) 849-1389

14

APPENDIX A

1

and Dan Roth, of Law Office of Dan Roth, appeared on behalf of Petitioner. David R. Mishook

2

and Jacqueline M. Litra, of Fagen Friedman & Fulfrost, LLP, appeared on behalf of Respondent.

3

Judge Barry Baskin, having considered the parties’ pleadings and oral arguments, denied

4

Petitioner’s ex parte application for stay of administrative decision pending court review of writ

5

petition.

6

No court reporter was present and there is no transcript of the ex parte hearing.
HATHAWAY PARKER

7
8
9
10

Dated: August 10, 2021

By:

____________________
Mark M. Hathaway
Jenna E. Parker
Attorneys for Petitioner

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
NOTICE OF ORDER DENYING PETITIONER’S EX PARTE APPLICATION FOR STAY
2

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21

PROOF OF SERVICE
STATE OF CALIFORNIA

)
) ss.
COUNTY OF LOS ANGELES )
I am employed in the County of Los Angeles, State of California. I am over the age of 18 and not a party to the within action;
my business address is 445 South Figueroa Street, 31st Floor, Los Angeles, CA 90071.
On August 10, 2021, I served the foregoing document described NOTICE OF ORDER DENYING PETITIONER’S EX PARTE
APPLICATION FOR STAY OF ADMINISTRATIVE DECISION PENDING COURT REVIEW OF WRIT PETITION on all
interested parties listed below by transmitting to all interested parties a true copy thereof as follows:
Jacqueline M. Litra
Fagen Friedman & Fulfrost LLP
6300 Wilshire Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone: (323) 330-6300
Fax: (323) 330-6311
Email: jlitra@f3law.com
ATTORNEYS FOR RESPONDENTS

David Mishook
Fagen Friedman & Fulfrost LLP
70 Washington Street, Suite 205
Oakland, California 94607
Phone: 510.550.8200
Fax: 510.550.8211
Email: dmishook@f3law.com
ATTORNEYS FOR RESPONDENTS

☐ BY FACSIMILE TRANSMISSION from FAX number (213) 529-0783 to the fax number set forth above. The facsimile
machine I used complied with Rule 2003(3) and no error was reported by the machine. Pursuant to Rule 2005(i), I caused the
machine to print a transmission record of the transmission, a copy of which is attached to this declaration.
☐ BY MAIL by placing a true copy thereof enclosed in a sealed envelope addressed as set forth above. I am readily familiar
with the firm’s practice of collection and processing correspondence for mailing. Under that practice it would be deposited with
U.S. postal service on that same day with postage thereon fully prepaid at Los Angeles, California in the ordinary course of
business. I am aware that on motion of party served, service is presumed invalid if postal cancellation date or postage meter
date is more than one (1) day after date of deposit for mailing in affidavit.
☐ BY PERSONAL SERVICE by delivering a copy of the document(s) by hand to the addressee or I cause such envelope to
be delivered by process server.
☐ BY EXPRESS SERVICE by depositing in a box or other facility regularly maintained by the express service carrier or
delivering to an authorized courier or driver authorized by the express service carrier to receive documents, in an envelope or
package designated by the express service carrier with delivery fees paid or provided for, addressed to the person on whom it
is to be served.
☒ BY ELECTRONIC TRANSMISSION by transmitting a PDF version of the document(s) by electronic mail to the party(s)
identified on the service list using the e-mail address(es) indicated.

22

☒ I declare under penalty of perjury under the laws of the State of California that the above is true and correct.

23

☐ I declare under penalty of perjury under the laws of the United States of America that the above is true and correct.

24
25

Executed on August 10, 2021 in Los Angeles, California

_________________________________
Adriana Recendez

26
27
28
NOTICE OF ORDER DENYING PETITIONER’S EX PARTE APPLICATION FOR STAY
3

APPENDIXB

Court of Appeal, First Appellate District
Charles D. Johnson, Clerk/ Administrator
Electronically FILED
by A. Reasoner, Deputy Clerk, on 8/12/21

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE

JOHN DOE,
Petitioner,
V.

SUPERIOR COURT FOR THE COUNTY OF
CONTRA COSTA,
Respondent;
MEGAN KEEFER, KEITH ROGENSKI, and
SAN RAMON VALLEY SCHOOL DISTRICT,
Real Parties in Interest.
A163237
Contra Costa County No. NC211450

BY THE COURT:*
The petition for writ of supersedeas/prohibition and accompanying stay
request are denied.

Date: 8/12/2021

Simons, J.,

, Acting P.J.

* Before Simons, Acting P.J., Burns, J., and Rodriguez, J. (Judge of the
Alameda County Superior Court, assigned by the Chief Justice pursuant to
article VI, section 6 of the California Constitution)

APPENDIX C

8/27/2021

California Courts - Appellate Court Case Information

Appellate Courts Case Information
!Change court

Supreme Court

v

I

Disposition
JOHN DOE v. S.C. (KEEFER)
Division SF
Case Number S270383
Only the following dispositions are displayed below: Orders Denying Petitions, Orders Granting Rehearing and Opinions. Go
to the Docket Entries screen for information regarding orders granting review.

Case Citation:
none
Date

Description

08/25/2021

Petition and Stay denied

Click here to request automatic e-mail notifications about this case.

Careers
Privacy

I

Contact Us

I

Accessibility

I

Public Access to Records

I

Terms of Use

I

© 2021 Judicial Council of California

https://appellatecases.courtinfo.ca .gov/search/case/disposition .cfm ?dist=O&doc_id=2355912&doc_ no=S270383&request_token=N i lwLSEm Tkw3W1 B. . .

1/ 1

APPENDIXD

Court of Appeal, First Appellate District

Court of Appeal, First Appellate District

Charles D. Johnson, Clerk/Executive Officer

Charles D. Johnson, Clerk/Executive Officer

Electronically RECEIVED on 8/11/2021 at 5:17:46 PM

Electronically LODGED on 8/11/2021 by R. Neeley, Deputy Clerk
CASE #: A163237, Div: 5

IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION _____

A___________
JOHN DOE,
Petitioner,
v.
THE SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF CONTRA COSTA,
Respondent,
MEGAN KEEFER; KEITH ROGENSKI;
and SAN RAMON VALLEY UNIFIED SCHOOL DISTRICT,
Real Parties in Interest.
_______________________________________

FROM A DECISION OF THE SUPERIOR COURT OF CALIFORNIA,
COUNTY OF CONTRA COSTA ∙ THE HONORABLE BARRY BASKIN
PHONE NO. (925) 608-1107 ∙ DEPARTMENT 7 ∙ CASE NO. NC21-1450
IMMEDIATE STAY IS REQUESTED OF RESPONDENTS’ ADMINISTRATIVE ORDER
OF MAY 21, 2021 (SUPERIOR COURT’S DENIAL OF REQUEST FOR STAY OF THE
ADMINISTRATIVE ORDER WAS ISSUED ON AUGUST 9, 2021)

EXHIBITS IN SUPPORT OF PETITION FOR WRIT OF SUPERSEDEAS,
PROHIBITION AND/OR OTHER APPROPRIATE RELIEF
*MARK M. HATHAWAY (SBN 151332))
Jenna E. Parker (SBN 303560)
HATHAWAY PARKER INC.
445 South Figueroa Street, 31st Floor
Los Angeles, California 90071
(213) 529-9000 Telephone
(213) 529-0783 Facsimile

DAN ROTH (SBN 270569)
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, California 94710
(510) 849-1389 Telephone
(510) 295-2680 Facsimile
dan@drothlaw.com

mark@hathawayparker.com
jenna@hathawayparker.com

Attorneys for Petitioner John Doe
COUNSEL PRESS ∙ (213) 680-2300

PRINTED ON RECYCLED PAPER

TABLE OF EXHIBITS
(Chronological)
Exhibit Description

Page

1

Petitioner’s Petition for Writ of Mandate,
Filed July 30, 2021

8

2

Ex Parte Application For Order To Disqualify Fagen,
Friedman & Fulfrost, LLP (“F3law”) As Attorneys For
Respondents,
Filed August 4, 2021

24

Exhibit 1: Amended Notice of Allegations of Title IX
Sexual Harassment by a Complainant,
[Redacted], Dated June 3, 2021
3

Opposition To Ex Parte To Disqualify Respondents’
Counsel,
Filed August 4, 2021
Declaration of Jacqueline Litra in Support of
Opposition to Ex Parte to Disqualify Counsel,
Dated August 4, 2021

38

43

48

4

Reply To Opposition To Ex Parte Application For Order
To Disqualify Fagen, Friedman & Fulfrost, LLP As
Attorneys For Respondents,
Filed August 5, 2021

51

5

Petitioner’s Amended Ex Parte Application for Stay of
Administrative Decision Pending Court Review of Writ
Petition; Declaration; Exhibits,
Filed August 5, 2021

57

Exhibit 1: Amended Notice of Allegations of Title IX
Sexual Harassment by a Complainant
[Redacted], Dated June 3, 2021

80

Exhibit 2: Title IX Sexual Harassment Procedures
of the San Ramon Unified School District

84

2

Exhibit Description

Page

Exhibit 3: Corrected Copy of Title IX Emergency
Removal, Dated May 7, 2021

100

Exhibit 4: Outcome of Challenge to Title IX
Emergency Removal of Student
[Redacted], Dated May 21, 2021

103

Exhibit 5: Notice of Access to Directly Related
Evidence [Redacted], Dated July 13, 2021

106

Exhibit 6: Updated Evidence Packet dated July 15,
2021 [Redacted], Dated July 15, 2021

109

Exhibit 7: Email Jacqueline M. Litra, SRVUSD
counsel, re continuation of Emergency
Removal [Redacted], Dated July 12, 2021

140

Exhibit 8: Initial Notice of Title IX Emergency
Removal of Student [Redacted],
Dated April 22, 2021

142

6

[Proposed] Order Granting Ex Parte Application For
Stay Of Administrative Disciplinary Action In Excess
Of Jurisdiction Pending Court Review Of Writ Petition,
LODGED

146

7

Respondents’ Opposition to Ex Parte Request to
Stay Emergency Removal; Appendix; Declaration of
Jacqueline Litra; Declaration of Dave Kravitz,
Filed August 6, 2021

149

APPENDIX

168

Federal Register / Vol. 85, No. 97 / Tuesday,
May 19, 2020 / Rules and Regulations

169

Declaration of Jacqueline Litra in Support of
Opposition to Ex Parte Request to Stay Emergency
Removal, Dated August 6, 2021

189

3

Exhibit Description

Page

Exhibit A: May 4, 2021 email to Petitioner’s
Counsel

191

Exhibit B: May 7, 2021 email to Petitioner and
Petitioner’s parents re supportive
measures

196

Exhibit C: May 7, 2021 email to “Mr. Roth”
offering supportive measures to
facilitate Petitioner’s education
during the emergency removal
process

198

Exhibit D: May 11–12, 2021 email exchange
between the parties re the
implementation of supportive
measures for Petitioner

204

8

Petitioner’s Reply to Opposition to Application for
Stay of Administrative Order,
Filed August 6, 2021

224

9

Notice Of Order Denying Petitioner’s Ex Parte
Application For Stay Of Administrative Decision
Pending Court Review Of Writ Petition,
Filed August 10, 2021

235

4

TABLE OF EXHIBITS
(Alphabetical)
Exhibit Description
2

Page

Ex Parte Application For Order To Disqualify Fagen,
Friedman & Fulfrost, LLP (“F3law”) As Attorneys For
Respondents,
Filed August 4, 2021
Exhibit 1: Amended Notice of Allegations of Title IX
Sexual Harassment by a Complainant,
[Redacted], Dated June 3, 2021

24

38

9

Notice Of Order Denying Petitioner’s Ex Parte
Application For Stay Of Administrative Decision
Pending Court Review Of Writ Petition,
Filed August 10, 2021

235

3

Opposition To Ex Parte To Disqualify Respondents’
Counsel,
Filed August 4, 2021

43

Declaration of Jacqueline Litra in Support of
Opposition to Ex Parte to Disqualify Counsel,
Dated August 4, 2021
5

Petitioner’s Amended Ex Parte Application for Stay of
Administrative Decision Pending Court Review of Writ
Petition; Declaration; Exhibits,
Filed August 5, 2021

48

57

Exhibit 1: Amended Notice of Allegations of Title IX
Sexual Harassment by a Complainant
[Redacted], Dated June 3, 2021

80

Exhibit 2: Title IX Sexual Harassment Procedures
of the San Ramon Unified School District

84

Exhibit 3: Corrected Copy of Title IX Emergency
Removal, Dated May 7, 2021

100

5

Exhibit Description

Page

Exhibit 4: Outcome of Challenge to Title IX
Emergency Removal of Student
[Redacted], Dated May 21, 2021

103

Exhibit 5: Notice of Access to Directly Related
Evidence [Redacted], Dated July 13, 2021

106

Exhibit 6: Updated Evidence Packet dated July 15,
2021 [Redacted], Dated July 15, 2021

109

Exhibit 7: Email Jacqueline M. Litra, SRVUSD
counsel, re continuation of Emergency
Removal [Redacted], Dated July 12, 2021

140

Exhibit 8: Initial Notice of Title IX Emergency
Removal of Student [Redacted],
Dated April 22, 2021

142

1

Petitioner’s Petition for Writ of Mandate,
Filed July 30, 2021

8

Petitioner’s Reply to Opposition to Application for
Stay of Administrative Order,
Filed August 6, 2021

224

6

[Proposed] Order Granting Ex Parte Application For
Stay Of Administrative Disciplinary Action In Excess
Of Jurisdiction Pending Court Review Of Writ Petition,
LODGED

146

4

Reply To Opposition To Ex Parte Application For Order
To Disqualify Fagen, Friedman & Fulfrost, LLP As
Attorneys For Respondents,
Filed August 5, 2021

51

6

8

Exhibit Description
7

Page

Respondents’ Opposition to Ex Parte Request to
Stay Emergency Removal; Appendix; Declaration of
Jacqueline Litra; Declaration of Dave Kravitz,
Filed August 6, 2021

149

APPENDIX

168

Federal Register / Vol. 85, No. 97 / Tuesday,
May 19, 2020 / Rules and Regulations

169

Declaration of Jacqueline Litra in Support of
Opposition to Ex Parte Request to Stay Emergency
Removal, Dated August 6, 2021

189

Exhibit A: May 4, 2021 email to Petitioner’s
Counsel

191

Exhibit B: May 7, 2021 email to Petitioner and
Petitioner’s parents re supportive
measures

196

Exhibit C: May 7, 2021 email to “Mr. Roth”
offering supportive measures to
facilitate Petitioner’s education
during the emergency removal
process

198

Exhibit D: May 11–12, 2021 email exchange
between the parties re the
implementation of supportive
measures for Petitioner

204

7

EXHIBIT 1

8

1
2
3
4
5
6
7

MARK M. HATHAWAY
(CA 151332; DC 437335; NY 2431682)
JENNA E. PARKER (CA 303560)
HATHAWAY PARKER INC.
445 S. Figueroa Street, 31st Floor
Los Angeles, California 90071
Telephone: (213) 529-9000
Facsimile: (213) 529-0783
E-Mail: mark@hathawayparker.com
E-Mail: jenna@hathawayparker.com

L

_
R)

JUL 302021
y k
b
lA•tHR C
ow
. TM!COURT

a•N•ovnrrwu.oavU
e"+u
r.

,
P

8 DAN ROTH (CA 270569)
LAW OFFICE OF DAN ROTH
9
803 Hearst Avenue
Berkeley,
CA 94710
10
Telephone: (510) 849-1389
11
Facsimile: (510) 295-2680
12 E-mail: dan@drothlaw.com
13

Attomeys for Petitioner John Doe

14
15

SUPERIOR COURT OF THE STATE OF CALIFORNIA

16

FOR CONTRA COSTA COUNTY

17
18

20

V.

21

MEGAN KEEFER, an individual, in her
official capacity as Pri ncipal, California
High School and Title IX Coordinator
Designee, California High School; KEITH
ROGENSKI, an individual, in his official
capacity as Assistant Superintendent of
Human Resources; SAN RAMON
VALLEY UNIFIED SCHOOL
DISTRICT, aCalifornia corporation; and
DOES 1through 20, inclusive

23
24
25
26

N2.1-1450

PETITION FOR WRIT OF
MANDATE

Petitioner,

19

22

Case No.:

JOHN DOE, an individual, minor through
his parent and next friend JANE DOE,

[Code Civ. Proc., §§ 1085, 1086, 1094.5]

PER LOCAL RULE, THIS
CASE IS ASSIGNED TO
DEPT W FOR ALL
PUOSES.

Respondents.

27
28

Petitioner, an aggrieved high school student in the San Ramon Unified School Distric
PETITION FOR WRIT OF MANDAMUS
1

9

I petitions for writ of mandate under Code Civ. Proc., § 1094.5, or in the alternative under Code
2

Civ. Proc., § 1085, directed to Respondents in order to redress their improper Title IX

3

disciplinary decision and order. Petitioner alleges further:

4
5

THE PARTIES
1.

Petitioner JOHN DOE, through his guardian ad litem JANE DOE, was, at all times

6

relevant, a15-year-old first-year student at California High School, ahigh school within

7

Respondent SAN RAMON VALLEY UNIFIED SCHOOL DISTRICT, and aresident of San

8

Ramon in Contra Costa County in the State of California.

9

2.

Respondent MEGAN KEEFER was, at all times relevant, an individual in her official

10

capacity as Principal and Title IX Coordinator Designee, California High School, ahigh school

11

within Respondent SAN RAMON VALLEY UNIFIED SCHOOL DISTRICT, and the

12

decisionmaker who decided and imposed and upheld the Title IX Emergency Removal decision

13

and order on Petitioner JOHN DOE.

14

3.

Respondent KEITH ROGENSKI was, at all times relevant, an individual in his official

15

capacity as individual designated by Respondent SAN RAMON VALLEY UNIFIED SCHOOL

16

DISTRICT as the employee responsible for coordinating the district's response to complaints

17

and for complying with state and federal civil rights laws. Respondent KEITH ROGENSKI

18

serves as the compliance officer and responsible employee who handles complaints regarding

19

sex discrimination, receiving and coordinating the investigation of complaints and ensuring

20

district compliance with law.

21

4.

SAN RAMON VALLEY UNIFIED SCHOOL DISTRICT (hereinafter "District") was,

22

at all times relevant, abusiness entity of form unknown, having its principal place of business in

23

Contra Costa County in the State of California. The SAN RAMON VALLEY UNIFIED

24

SCHOOL DISTRICT covers an 18 square mile area, encompassing the communities of Alamo,

25

Blackhawk, Danville, Diablo, and San Ramon (including the new Dougherty Valley

26

communities in east San Ramon) as well as asmall portion of the cities of Walnut Creek and

27

Pleasanton. The District is comprised of 36 schools serving more than 32,000 students in

28

Transitional Kindergarten through Grade 12. The SAN RAMON VALLEY UNIFIED
PETITION FOR WRIT OF MANDAMUS
2

10

I SCHOOL DISTRICT purposely conducts substantial educational business activities in the State
2

of California, and was the primary entity owning, operating and controlling California High

3

School and employing Respondents MEGAN KEEFER and KEITH ROGENSKI, and was

4

responsible for monitoring and controlling their activities and behavior.

5
6

5.

Petitioner uses the pseudonyms of "John Doe" and "Jane Roe" in the Petition to due to

federal and state regulations governing student records and student discipline and to preserve

7 privacy in amatter of sensitive and highly personal nature, which outweighs the public's interest
8 in knowing the parties' identity. Use of the pseudonyms does not prejudice Respondents
9 because the identities of Petitioner and Jane Roe are known to Respondents. ( See, Family
10

Educational Rights and Privacy Act (FERPA) (20 U.S.C. § 1232g; 34 CFR Part 99); Starbucks

11

Corp. v. Superior Court (
2008) 68 Cal.App.4th 1436 ["The judicial use of ` Doe plaintiffs' to

12

protect legitimate privacy rights has gained wide currency, particularly given the rapidity and

13

ubiquity of disclosures over the World Wide Web"]; see also Doe v. City ofLos Angeles (
2007)

14

42 Cal.4th 531; Johnson v. Superior Court (
2008) 80 Cal.App.4th 1050; Roe v. Wade (
1973)

15

410 U.S. 113; Doe v. Bolton (1973) 410 U.S. 179; Poe v. Ullman (1961) 367 U.S. 497; In Does 1

16

thru XXIII v. Advanced Textile Corp. (
9th Cir. 2000) 214 F.3d 1058; see, Cal. Rules of Court,

17

rule 2.550.)

18
19

JURISDICTION AND VENUE
6.

The Supreme Court, courts of appeal, superior courts, and their judges have original

20

jurisdiction in proceedings for extraordinary relief in the nature of mandamus directed to any

21

inferior tribunal, corporation, board, or person. (Cal. Const., art. VI, § 10; see Code Civ. Proc. §

22

1084 ["mandamus" synonymous with "mandate"]; Code Civ. Proc. § 1085.)

23

7.

Petitioner, an aggrieved high school student, seeks to exhaust judicial remedies through

24

this petition for writ of mandate following Respondents' decision to impose aTitle IX

25

Emergency Removal, which is now final.

26

8.

The doctrine of exhaustion of judicial remedies precludes an action that challenges the

27

result of aquasi-judicial proceeding unless the plaintiff first challenges the decision though a

28

petition for writ of mandamus. (
Johnson v. City ofLoma Linda (
2000) 24 Cal.4th 61, 70.)
PETITION FOR WRIT OF MANDAMUS
3

11

1

9.

Administrative mandamus is available for review of "any final administrative order or

2

decision made as the result of aproceeding in which by law ahearing is required to be given,

3

evidence required to be taken, and discretion in the determination of facts is vested in the

4

inferior tribunal, corporation, board, or officer ..." (Code Civ. Proc. § 1094.5, subd. (a).)

5
6
7
8

10.

to perform alegally required duty. (Code Civ. Proc., § 1085.)
11.

The Superior Court for the County of Contra Costa, the county where the Respondents

are situated, is the proper court for the hearing of this action. (Code Civ. Proc. § 395.)

9

THE REGULATORY AND LEGAL FRAMEWORK

10
11

Ordinary mandate is atraditional remedy by which acourt compels an inferior tribunal

I.
12.

INTRODUCTION.

This is one of numerous cases that have arisen amidst the national controversy

12

stemming from the U.S. Department of Education's Office for Civil Rights ("OCR")'

13

threatening to withhold federal dollars in order to impose its guidance on schools as to how to

14

investigate and adjudicate allegations of sexual misconduct in order to stem apurported tide of

15

sexual violence in American schools. OCR's efforts affect the rights of some 50 million

16

students who attend elementary, middle, and high schools across the United States, as well as

17

the distribution of $ 57.34 million in Federal funds to support K-12 public education. 3 OCR's

18

threatened withholding of funds put tremendous pressure upon schools to aggressively prosecute

19

males accused of sexual misconduct and severely discipline male students alleged to have

20

engaged in sexual misconduct regardless of their innocence. 4

21
22

13.

As discussed below, OCR's efforts to enforce Title IX compliance applies to all public

and private educational institutions that receive federal funds, including the District.

23
24
25
26
27
28

1 The Office for Civil Rights (OCR) is a
sub-agency of the U.S. Department of Education and
enforces several Federal civil rights laws, including Title IX.
2 See, David G. Savage and Timothy M. Phelps, How aLittle-known Education 6,lice Has Forced
Far-reaching Changes to Campus Sex Assault Investigations, (
August 17, 2015) Los Angeles Times.
3 Source: https://educationdata.org/public-education-spending-statistics
4 A 2015 study examined why a
high "percentage of sexual assault allegations are false" and the
rationale behind many of these false allegations as being "retribution for areal or perceived wrong,
rejection or betrayal." Reggie D. Yager, What's Missing From Sexual Assault Prevention and Response,
(April 22, 2015), pgs. 46-62 http: ssrn.com/abstract=2697788).
PETITION FOR WRIT OF MANDAMUS
4

12

1

A. Title IX.

2

14.

The issue of sexual assaults in schools is, at the federal level, primarily addressed by an

3

act of Congress known as Title IX of the Education Amendments of 1972, 20 U.S.C. §§ 1681-

4

1688. From Title IX's enactment in 1972 until 1997, the Department of Education never

5

asserted jurisdiction over student-on-student rape or sexual assault. In 1997, however, the

6

Department issued regulations that required schools to have policies and procedures in place to

7

deal with such conduct. 5

8

15.

Title IX requires every school that receives federal funds to establish policies and

9 procedures to address sexual assault, including asystem to investigate and adjudicate charges of
10

sexual assault by one student against another. A school violates astudent's rights under Title IX

11

regarding student-on- student sexual violence if: ( 1) the alleged conduct is sufficiently serious to

12

limit or deny astudent's ability to participate in or benefit from the school's educational

13

programs; 6 and (2) the school, upon notice, fails to take prompt and effective steps reasonably

14

calculated to end the sexual violence, eliminate the hostile environment, prevent its recurrence,

15

and, as appropriate, remedy its effects. The fundamental principle of such asystem is that it be

16

"prompt and equitable. "7

17

16.

On May 6, 2020, Education Secretary Betsy DeVos unveiled long-awaited federal

18

regulations that bolster the rights of the accused students and give schools more flexibility in

19

how they handle Title IX cases.' The new regulations come after years of wide-ranging

20

research, input from sexual assault survivors, advocates, falsely accused students, school

21

administrators, Title IX coordinators, and over 124,000 public comments.

22
23

17.

In addition to Title IX and other relevant federal law, astate may have laws that govern

campus sexual assault disciplinary proceedings, as California does.

24
25
26
27
28

5 See

generally Stephen Henrick, AHostile Environmentfor Student DE
fendants: Title IX and Sexual
Assault on College Campuses, 40 N .Ky. L.Rev. 49, 56-59 (2013).
6 OCR requires that the conduct be evaluated from the perspective of areasonable person in the
alleged victim's position, considering all the circumstances.
34 C.F.R. § 106.8 (
b).
8 https://www.ed.gov/news/press-releases/secretary-devos-takes-historic-action-strengthen-title-ixprotections-all-students
PETITION FOR WRIT OF MANDAMUS
5

13

I

B. California Law Regarding Student Discipline.

2

18.

California's procedural and substantive standards for student disciplinary proceedings

3 begin with Code Civ. Proc. § 1094.5 subdivisions (b):
4

The inquiry in such a case shall extend to the questions whether the
respondent has proceeded without, or in excess of, jurisdiction; whether there
was afair trial; and whether there was any prejudicial abuse of discretion.
Abuse of discretion is established if the respondent has not proceeded in the
manner required by law, the order or decision is not supported by the
findings, or the findings are not supported by the evidence.

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

C. Internal and External Pressure on School
19.

decided on the merits ... and not according to the application of unfair generalizations or
stereotypes because of social or other pressures to reach acertain result." (
Doe v. Brandeis
Univ. (
D.Mass. 2016) 177 F.Supp.3d 561, 608.) This recognition of the effect of outside
pressures on campus administrators is crucial in order to understand why the regulatory
environment often plays arole in campus sexual assault proceedings where the accused student
is invariably male.
20.

controlled the public debate. Again, there are financial considerations here. If aschool is
perceived as being on the wrong side of the "campus rape culture" issue—such as at Stanford,
Occidental, and the University of Virginia—applications can be impacted, alumni and donor
giving can slow, reputations can experience harm, and the school suffers. The bottom line is
that in this highly politically charged environment, schools believe that the safer course of action
is to accept all complaints and find accused students guilty when charged with sexual assault.
11.

26

28

There is non-governmental pressure as well. Victims' advocacy groups have made far

more noise than groups advocating for the rights of the accused and have, to date, largely

25

27

One federal court recently held that "[a]ccused students are entitled to have their cases

FACTUAL AND PROCEDURAL BACKGROUND

A. The District's Title IX Policies.
21.

The District's Title IX policies are set forth in the District's 2020-2021 Family

Handbook ("Handbook"), and the District's Title IX Sexual Harassment Complaint Procedures
PETITION FOR WRIT OF MANDAMUS
6

14

1 ("Procedures") (collectively, the "Policies").
2

22.

The District is arecipient of federal funds and is bound by Title IX and its regulations.

3

23.

The District's authority to enforce its Policies is delegated by the District to Respondent

4

Keith Rogenski in his official capacity as Assistant Superintendent of Human Resources, and to

5 Respondent Megan Keefer in her official capacity as Title IX Coordinator Designee at
6

California High School.

7

24.

The Policies apply to the District's employees and students.

8

25.

The Policies promise students the right to "fair and equitable treatment" and to "not be

9
10
11
12

discriminated against based on your sex." (Handbook p. 75.)
26.

The Policies promise students "the right to be provided with an equitable opportunity to

participate in all academic extracurricular activities, including athletics." (Handbook p. 75.)
27.

13

The Policies provide,
Emergency Removal

14
A student may not be disciplined for alleged Title IX Sexual Harassment
until the formal complaint process is completed and a determination of
responsibility has been made. However, on an emergency basis, the district
may remove a student from the district's education program or activity,
provided that the district conducts an individualized safety and risk analysis,
determines that removal is justified due to an immediate threat to the physical
health or safety of any student or other individual arising from the
allegations, and provides the student with notice and an opportunity to
challenge the decision immediately following the removal. This authority to
remove astudent does not modify astudent's rights under the Individuals
with Disabilities Education Act or Section 504 of the Rehabilitation Act of
1973. (34 CFR 106.44.) (Procedures, p. 4.)

15
16
17
18
19
20
21
22
23
24
25
26
27
28

28.

The Federal Regulations cited in the Policies make clear that Emergency Removal is

appropriate only in situations concerning "genuine emergencies involving the physical health or
safety of one or more individuals." (85 Fed. Reg. 30225.)
B. Reported Alleged Conduct
29.

Petitioner John Doe dated classmate Jane Roe from approximately March 17, 2021,

until April 13, 2021.
PETITION FOR WRIT OF MANDAMUS
7

15

1
2
3
4
5
6
7
8

30.

On Tuesday, April 13, 2021, Petitioner informed Jane Roe via text messages that he did

not love her and was breaking up with her.
31.

Jane Roe did not want to break up, and asked to talk, but Petitioner reiterated that he

was "done with this relationship."
32.

At 7:37 p.m. on April 13, 2021, Jane Roe sent text messages to Petitioner pleading, "No

[John] please, Ican change" and "Iknow how to."
33.

At 7:37 p.m. on April 13, 2021, Jane Roe sent aseries of text message to Petitioner

saying, "Please don't do this. Ilove uaka love ualot. And Ineed u. [John] please talk to me

9 what did Ieven do."
10
11
12
13

34.

At 7:40 p.m., Petitioner responded, "we've been talking about this, please don't beg me

it's not changing my mind, I'm done with this relationship. Ihave to go."
35.

At 7:41 p.m., Jane Roe responded "No [John] please. Ihave been therefor u. And I

need uin my fucking life. And Ilike uhella."

14

36.

At 7:42 p.m., Petitioner wrote "you don't need me in your life to live."

15

37.

At 7:42 p.m., Jane Roe responded, "Ido, ahave been there for me. And you always

16

loves (sic) me. Loved. Cared about me. And never gave up on me."

17

38.

At 7:58 p.m., Petitioner texted Jane Roe, "we are done".

18

39.

The only time after April 13, 2021, that Petitioner had any physical contact with Jane

19

Roe was two days later, on April 15, 2021, when he offered her his hand to help her get up from

20

sitting on the floor. Petitioner never had any nonconsensual physical contact with Jane Roe.

21
22
23

40.

On Thursday, April 22, 2021, Petitioner was removed from classroom instruction at

California High School.
41.

Respondent Megan Keefer called Petitioner into her office and verbally informed him

24

generally that Jane Roe had alleged that during asupport period after their Theater class on

25

April 15, 2021, Petitioner had sexually assaulted her. Petitioner denied that allegation.

26
27
28

42.

Respondent Megan Keefer then left the room and returned moments later with a

"Notice of Title IX Emergency Removal of Student" dated April 22, 2021, which reads,
Dear [Petitioner],
PETITION FOR WRIT OF MANDAMUS
8

16

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

On April 22, 2021, the San Ramon Valley Unified School District
("District") received allegations of Title IX Sexual Harassment against you.
In response to the initial allegations, the District has undertaken an
individualized safety and risk analysis and has detetiuined that you pose an
immediate threat to the physical health or safety of a student or other
individual arising from the allegations of Title IX Sexual Harassment. The
specific reasons for the decision are: substantial evidence leading to
allegations of sexual assault(s) to students while on campus.
Accordingly, the District has determined that you should be removed from
the District's education program or activity on an emergency basis under
Title IX of the Education Amendments of 1972 and its implementing
regulations.
The Title IX Coordinator will notify the Board of Education of its
determination that you are eligible for aTitle IX emergency removal and
should not be allowed to participate in the the (sic) District's education
programs or activities until after the investigation into the allegations of
Title IX Sexual Harassment concludes.
No person is permitted to intimidate, threaten, coerce, or discriminate against
any individual for the purpose of interfering with any right or privilege
secured by Title IX, or because the individual has made areport or complaint,
testified, assisted, or participated or refused to participate in any manner in
the Title IX procedures. If any individual is harassed or intimidated because
of filing acomplaint or participating in any aspect of the District's Title IX
Sexual Harassment Complaint Procedures, that individual may file a
complaint alleging such treatment using the District's Board Policy. See
attached copies and links:
http ://www. gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 105
0532/
http ://www. gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 105
0533/
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/105
0895/
You can challenge this emergency removal decision under Title IX by
contacting Megan Keefer.
PETITION FOR WRIT OF MANDAMUS
9

17

Sincerely,

1
2

Title IX Coordinator Designee

3
4

43.

Petitioner was required to leave school immediately and was told not to return.

5

44.

Petitioner was not provided any information about how he was supposed to complete

6 his schoolwork until Monday, April 26, 2021. Petitioner was told that he would need to
7 personally contact his teachers to get assignments and instructions.
8

45.

Petitioner was not provided any results or analysis from any individualized safety and

9 risk analysis.
10

46.

Pursuant to the Federal Regulations, aTitle IX Emergency Removal may only be

11

implemented in cases of "genuine emergencies involving the physical health or safety of one or

12

more individuals."

13

47.

Respondents did not conclude that there was agenuine emergency involving the

14

physical health of safety of anyone to justify aTitle IX Emergency Removal of Petitioner from

15

the District's education programs or activities.

16
17
18
19
20

48. " Substantial evidence" does not support a "genuine emergency" involving physical
health or safety.
49.

Under the District's Procedures, there must be an identified "immediate threat to the

physical health or safety of any student or other individual arising from the allegations."
50.

Respondents did not identify any "immediate threat" to anyone's physical health or

21

safety which would justify aTitle IX Emergency Removal of Petitioner from the District's

22

education programs or activities.

23

51.

On April 26, 2021, aFoilual Complaint was filed by Jane Roe against Petitioner under

24

the District's Title IX Sexual Harassment Complaint Procedures. The Formal Complaint

25

alleges:

26
27
28

In theatre, 4115, during 5' period, [Petitioner] was involved.
[Petitioner] started making out with me when Isaid no, He started going to
my neck and started giving me hickeys when Ikept saying no He started
touching my boobs and kept playing with them when Ikept saying no He
PETITION FOR WRIT OF MANDAMUS
10

18

then went down in my pants started rubbing and fingering me when Igrabbed
his hands to pull them out and Isaid no, he asked why, Isaid because we are
in school plus Iam not feeling the best He then kept doing it the he grabbed
my hand and put my hand in his pants and Ikept pulling my hand out and
saying no

I
2
3
4
5
6
7

52.

Petitioner continues to deny the false and salacious allegations levelled by Jane Roe

after Petitioner broke up with her and she pleaded with him to take her back, but he declined.
53.

There is no evidence to support that Petitioner and Jane Roe resumed adating or

8 intimate relationship after they broke up in the early morning on April 13, 2021.
9
10
11
12
13
14
15
16
17

54.

Petitioner and Jane Roe never had any intimate contact on school grounds, other than

kissing while they were dating.
55.

Respondent imposed the Title IX Emergency Removal before receiving aformal

complaint from Jane Roe.
56.

Respondent imposed the Title IX Emergency Removal before collecting any evidence

that might support Jane Roe's allegations.
57.

Respondent's actions in imposing aTitle IX Emergency Removal are arbitrary and

capricious, and an unlawful abuse of discretion.
58.

On May 7, 2021, Respondent Megan Keefer issued a "CORRECTED Notice of Title IX

18

Emergency Removal of Student." The only change to the document is the purported

19

justification for the Title IX Emergency Removal. Respondent Megan Keefer characterized the

20

initial explanation in the April 22, 2021 "Notice of Title IX Emergency Removal of Student" as

21

a "typographical error." The "corrected" version explains, "The specific reasons for the

22

decision are: substantial allegations of sexual assault(s) to students while on campus."

23
24
25

59.

The phrase, "substantial allegations of sexual assault(s) to students while on campus" is

nonsensical and devoid of any actual meaning.
60.

The "CORRECTED Notice of Title IX Emergency Removal of Student" still articulates

26

no "genuine emergency" involving anyone's physical health or safety that would justify aTitle

27

IX Emergency Removal of Petitioner from the District's education programs or activities.

28

61.

Even after correcting the Title IX Emergency Removal order, Respondents still cannot
PETITION FOR WRIT OF MANDAMUS
11

19

I identify any "immediate threat" to anyone's physical health or safety to justify the Title IX
2
3
4
5

Emergency Removal of Petitioner from the District's education programs or activities.
62.

On May 17, 2021, Petitioner's advisor requested ameeting to challenge the Title IX

Emergency Removal.
63.

On May 19, 2021, Petitioner was permitted to make astatement and present

6 information to challenge the determination of "substantial allegations of sexual assault(s) to
7
8
9
10
11
12
13
14
15
16

students while on campus."
64.

anyone, and submitted asigned declaration under penalty of perjury attesting that Jane Roe's
allegations are "completely false."
65.

On May 21, 2021, Respondent Megan Keefer issued an "Outcome of Challenge to Title

IX Emergency Removal of Student," upholding her own Title IX Emergency Removal decision.
66.

By challenging the Title IX Emergency Removal decision, Petitioner has exhausted his

administrative remedies.
67.

Petitioner has no further avenue of administrative appeal to challenge Respondents'

decision regarding the Title IX Emergency Removal.

17
18

Petitioner again denied the allegations, asserted that he does not pose adanger to

III.
68.

RESPONDENTS' ACTIONS AND DECISION ARE INVALID

On information and belief, Respondents' final administrative order or decision is

19

invalid under Code Civ. Proc. § 1094.5 because Respondents proceeded without, or in excess of,

20

jurisdiction; failed to conduct afair trial; and committed aprejudicial abuse of discretion.

21

Respondents have failed to proceed in the manner required by law.

22

69.

Alternatively, on information and belief, Respondents' final administrative order or

23

decision is invalid under Code Civ. Proc. § 1085 because Respondents has aclear, present, and

24

ministerial duty to follow Title IX and the District's Policies and not subject students to Title IX

25

Emergency Removal short of an immediate threat to the physical health or safety of astudent or

26

other individual, and Petitioner has clear, present and beneficial rights to his education, his

27

reputation, Due Process, and equitable treatment under Title IX and the District's Policies.

28

Respondents' actions are arbitrary, capricious, and lacking in evidentiary support.
PETITION FOR WRIT OF MANDAMUS
12

20

I

A. Doctrine of Judicial Non-Intervention Does Not Apply.

2

70.

3

The doctrine of judicial nonintervention into the academic affairs of schools does not

apply in instances of non-academic affairs, such as the District's Title IX proceeding. (See

4 Banks v. Dominican College (1995) 35 Cal.App.4th 1545; Paulsen v. Golden Gate University
5

(1979) 25 Cal.3d 803.)

6

B. Respondent's Administrative Action Affects Vested Fundamental Rights.

7

71.

The District's administrative process affects Petitioner's vested fundamental right to

8 public education, and his vested fundamental right under Title IX to equal access to education
9 programs and activities.
10

72.

Respondents' actions and decision deprive Petitioner of fundamental vested rights;

11

therefore, the reviewing court must exercise its independent judgment to independently weigh

12

the evidence pursuant to Code Civ. Proc., § 1094.5, subd. (c).

13

73.

Petitioner has no plain, speedy, and adequate remedy in the ordinary course of law,

14

other than the relief sought in this petition. "The writ must be issued in all cases where there is

15

not aplain, speedy, and adequate remedy, in the ordinary course of law. It must be issued upon

16

the verified petition of the party beneficially interested." (Code Civ. Proc. § 1086.)

17

74.

Petitioner has requested the administrative record of Respondents administrative action

18

and decision and reserves the right to amend this Petition when Respondents produce the

19

complete administrative record.

20

75.

Petitioner brings this action not only for his own interest, but to protect the rights of

21

other individuals and members of the public who have been subjected to wrongful and unfair

22

disciplinary proceedings by the District and other institutions of higher learning.

23

76.

Petitioner is obligated to pay an attorney for legal services to prosecute this action.

24

Petitioner may be entitled to recover attorney's fees as provided in Code Civ. Proc., § 1021.5, or

25

alternatively Govt. Code, § 800, if Petitioner prevails in the within action.

26
27
28
PETITION FOR WRIT OF MANDAMUS
13

21

1
2
3
4

PRAYER FOR RELIEF
WHEREFORE, Petitioner prays the court for judgment as follows:
1. That the court issue aperemptory writ in the first instance commanding Respondents to
set aside their decision to proceed with disciplinary charges in violation of their jurisdiction and

5 lawful authority;
6

2. For an alternative writ of mandate directing Respondents to set aside their decision to

7 proceed with disciplinary charges in violation of their jurisdiction and lawful authority, or to
8
9
10

show cause why aperemptory writ of mandate to the same effect should not be issued;
3. For reasonable attorney's fees and litigation expenses as permitted by statute, in addition
to any other relief granted or costs awarded;

11

4. For all costs of suit incurred in this proceeding; and

12

5. For such other and further relief as the court deems proper.

13

HATHAWAY PARKER

14
15
16
17

DATED: July 29, 2021

By:
ark M. Hathaw
Attorney for Petitioner

18
19
20
21
22
23
24
25
26
27
28
PETITION FOR WRIT OF MANDAMUS
14

22

1
2

VERIFICATION
Iam the attorney for Petitioner in this action. Such party is absent from the county where

3 this action is pending. Imake this verification for and on behalf of that party for the reason
4 pursuant to California Code Civ. Proc., § 446. Ihave read the foregoing petition and know the
5

contents thereof. The same is true of my own knowledge, except as to those matters which are

6 therein alleged on information and belief, and as to those matters, Ibelieve it to be true.
7

Ideclare under penalty of perjury under the laws of the State of California that the

8 foregoing is true and correct. Signed on the date below at Los Angeles, California.
9
10
11

Date: July 29, 2021

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
PETITION FOR WRIT OF MANDAMUS
15

23

EXHIBIT 2

24

1
2
3
4
5
6
7

MARK M. HATHAWAY
(CA 151332; DC 437335; NY 2431682)
JENNA E. PARKER (CA 303560)
HATHAWAY PARKER INC.
445 S. Figueroa Street, 31st Floor
Los Angeles, California 90071
Telephone: (213) 529-9000
Facsimile: (213) 529-0783
E-Mail: mark@hathawayparker.com
E-Mail: jenna@hathawayparker.com

8

DAN ROTH (CA 270569)
LAW OFFICE OF DAN ROTH

9

803 Hearst Avenue
Berkeley, CA 94710

10

Telephone: (510) 849-1389
Facsimile: (510) 295-2680

11

E-mail: dan@drothlaw.com

12

Attorneys for Petitioner John Doe

13
SUPERIOR COURT OF THE STATE OF CALIFORNIA

14

FOR CONTRA COSTA COUNTY

15
16
17

JOHN DOE, an individual, minor through his )
parent and next friend JANE DOE,
)

[Hon. Barry Baskin, Dept. 7]
Petitioner,

18

))

V.

19
20
21
22
23
24
25

Case No.: NC21-1450

MEGAN KEEFER, an individual, in her )
official capacity as Principal, California High )
School and Title IX Coordinator Designee, )
California High School; KEITH ROGENSKI, )
an individual, in his official capacity as )
Assistant Superintendent of Human )
Resources; SAN RAMON VALLEY
UNIFIED SCHOOL DISTRICT, aCalifornia
corporation; and DOES 1through 20,
inclusive

EX PARTE APPLICATION FOR ORDER
TO DISQUALIFY FAGEN, FRIEDMAN
& FULFROST, LLP ("F3LAW") AS
ATTORNEYS FOR RESPONDENTS
[Proposed Order lodged herewith]
Date:
Time:
Dept.

August 5, 2021
11:00 a.m.
7

Respondents.

26
27
28

TO THE COURT AND ALL PARTIES AND THEIR ATTORNEYS:
PLEASE TAKE NOTICE that Petitioner hereby submits his Ex Parte Application for an Order
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
1

25

1

To Disqualify Fagen, Friedman & Fulfrost, LLP ("F3Law") As Attorneys For Respondents on August 5,

2

2021 at 11:00 a.m. in Dept. 7before Hon. Barry Baskin

3

There is urgency because Petitioner is seeking to stay the operation of Respondents'

4

administrative decision to exclude Petitioner from campus and the attorneys from F3Law who

5

conducted the Title IX adjudicative process as investigator,judge, and appellate judge now seek to

6

represent Respondents in this Writ of Mandate action.

7

Petitioner's application is based on the Petition for Writ of Mandate herein; this application; the

8

supporting memorandum of points and authorities; the declaration of Mark M. Hathaway and exhibits

9

thereto, the pleadings, files, and records in this action; and any such argument as may be received by this

10

Court at the hearing on the application.

11

HATHAWAY PARKER

12
13
14
15

Dated: August 4, 2021

B
RK M. HATH I ••• AY
JENNA E. PARKER
Attorneys for Petitioner

16
17
18
19
20
21
22
23
24
25
26
27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
2

26

TABLE OF CONTENTS

1
2

MEMORANDUM OF POINTS AND AUTHORITIES

3

I.

5

THE FAGEN, FRIEDMAN & FULFROST, LLP FIRM AND ITS ATTORNEYS

4

(COLLECTIVELY "F3LAW") MUST BE DISQUALIFIED TO AVOID PREJUDICE TO
PETITIONER AND TO ENSURE CONFIDENCE IN THE JUDICIAL SYSTEM,

5

PARTICULARLY WHERE, AS HERE, NO PREJUDICE TO RESPONDENTS WILL BE
WORKED BY THE PROPOSED DISQUALIFICATION

5

6
7
8

A.
B.

Lawyer as Witness

7

Court Has Inherent Authority Under Code Civ. Proc., § 128 To Disqualify Counsel
When Appropriate

10

No Prejudice To Respondents

11

9
C.
10
11
12
13

II. EX PARTE APPLICATION FOR STAY IS PROPERLY BEFORE THE COURT.

12

III. CONCLUSION

12

DECLARATION OF MARK M. HATHAWAY

13

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
3

27

TABLE OF AUTHORITIES

1

Page(s)

2
California Cases

3
4
5
6

Doe v. Yim (
2020)
55 Cal. App. 5th 573

10

M'Guinness v. Johnson (
2015)
243 Cal. App. 4th 602

11

7
California Statutes

8
9
10
11

Code Civ. Proc.
§128, subd.(a)(5)
§1085

10
5

§1094.5

5
Other Authorities

12
13

Cal. Rules of Ct., Rule 3.1200 et seq.

12

14

Cal. Rules of Ct., Rule 3.1202

12

15

Cal. Rules of Ct., Rule 3.1203

12

16

Cal. Rules of Ct., Rule 3.1204

12

17

Rules of Professional Conduct Rule 3.7

7

18
19
20
21
22
23
24
25
26
27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
4

28

1

MEMORANDUM OF POINTS AND AUTHORITIES

2

Petitioner, an aggrieved high school student in the San Ramon Valley Unified School District,

3

petitions for writ of mandate under Code Civ. Proc., § 1094.5, or in the alternative under Code Civ.

4

Proc., § 1085, directed to Respondents in order to redress their improper Title IX administrative decision

5

and order to exclude him from campus though an administrative process lacking in Due Process. The

6

attorneys seeking to represent Respondents in this writ matter were the same attorneys who served

7

during the Title IX adjudicative process as investigator, judge, and appellate judge. Accordingly, these

8

attorneys and their firm must be disqualified, thereby protecting the integrity of the judicial review.

9
10

I.

THE FAGEN, FRIEDMAN & FULFROST, LLP FIRM AND ITS ATTORNEYS

11

(COLLECTIVELY "F3LAW") MUST BE DISQUALIFIED TO AVOID PREJUDICE

12

TO PETITIONER AND TO ENSURE CONFIDENCE IN THE JUDICIAL SYSTEM,

13

PARTICULARLY WHERE, AS HERE, NO PREJUDICE TO RESPONDENTS

14

WILL BE WORKED BY THE PROPOSED DISQUALIFICATION.

15
16

Respondent SRVUSD is an agency currently undertaking an administrative action against

17

Petitioner's minor son. Three F3Law attorneys are tasked with investigating, decision making, and

18

appellate authority at the agency level. Their firm therefore cannot serve as counsel in the judicial

19

review of their own colleagues' work.

20

The June 3, 2021, "Amended Notice of Allegations of Title IX Sexual Harassment by a

21

Complainant," signed by Ken Nelson, Title IX Coordinator for defendant San Ramon Valley Unified

22

School District (SRVUSD) demonstrates that the F3Law is prohibited from representing the District in

23

this litigation. Specifically, the letter establishes that F3Law attorneys serve as the investigator, judge,

24

and appellate body vis avis defendant SRVUSD's unfair and unbiased administrative process:

25
26
27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
5

29

1
2
3
4

During the investigation, the burden of gathering evidence sufficient to
reach adetermination regarding responsibility rests on the District and not
on the parties. The following individuals will serve as the Title IX team for
[complainant Jane Roe's] Formal Complaint:
Ken Nelson, Director of Student
Services

•Title IX Coordinator:

5

San Ramon Valley Unified School
District

6

Knelson@srvusd.net
(925) 552-5052

7
8

•Investigator:

Alejandra Leon, Attorney
Fagen, Friedman & Fulfrost, LLP

9
10

•Decisionmaker:

Katy McCully Merrill, Attorney,
Fagen, Friedman & Fulfrost, LLP

11
12

•Appellate Decisionmaker:

Vanessa Lee, Attorney
Fagen, Friedman & Fulfrost, LLP

13
(June 3, 2021, Amended Notice of Allegations at p. 2, attached here to as Exhibit 1.)
14
15

This is not acircumstance where alaw firm represents and advises an agency at the

16

administrative level and then later in Superior Court; F3Law is acting as the agency. F3Law attorneys

17

would appear to owe aduty of loyalty and confidentiality to its client, San Ramon Valley Unified

18

School District (SRVUSD), and should be working on behalf of the SRVUSD to minimize risk,

19

litigation exposure, and cost and to assist SRVUSD to comply with its duty to provide afair and

20

impartial Title IX adjudicative process, not to conduct the process themselves. There can be no

21

attorney- client communication privilege or work-product protection for F3Law's acting as the Title IX

22

investigator, as the Title IX Decisionmaker, and also as the Title IX Appellate Decisionmaker and

23

F3Law's duties owed to SRVUSD appear to conflict with the students' interest and right to afair,

24

thorough, and impartial Title IX administrative process, which prejudices the complainant student and

25

the Respondents in this writ action, as well as Petitioner.

26

Well-established California law prohibits continuing representation by F3Law.

27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
6

30

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

A. LAWYER AS WITNESS
First, Rule 3.7 of the Rules of Professional Conduct and the comments thereto provide:
Rule 3.7 Lawyer as Witness
(a) A lawyer shall not act as an advocate in atrial in which the lawyer is likely
to be awitness unless:
(1) the lawyer's testimony relates to an uncontested issue or matter;
(2) the lawyer's testimony relates to the nature and value of legal services
rendered in the case; or
(3) the lawyer has obtained informed written consent* from the client. If
the lawyer represents the People or agovernmental entity, the consent shall be
obtained from the head of the office or adesignee of the head of the office by
which the lawyer is employed.
(b) A lawyer may act as advocate in atrial in which another lawyer in the
lawyer's firm* is likely to be called as awitness unless precluded from doing so
by rule 1.7 or rule 1.9.
Comment
[1] This rule applies to atrial before ajury, judge, administrative law judge or
arbitrator. This rule does not apply to other adversarial proceedings. This rule also
does not apply in non-adversarial proceedings, as where alawyer testifies on
behalf of aclient in ahearing before alegislative body.
[2] A lawyer's obligation to obtain informed written consent* may be satisfied
when the lawyer makes the required disclosure, and the client gives informed
consent* on the record in court before alicensed court reporter or court recorder
who prepares atranscript or recording of the disclosure and consent. See
definition of "written" in rule 1.0.1(n).
[3] Notwithstanding aclient's informed written consent,* courts retain
discretion to take action, up to and including disqualification of alawyer who
seeks to both testify and serve as an advocate, to protect the trier of fact from
being misled or the opposing party from being prejudiced. (See, e.g., Lyle v.
Superior Court (
1981) 122 Cal.App.3d 470.)
(Rule 3.7, bold added.)
Here, the participation of F3Law attorneys as investigator, decisionmaker, and appellate

24

decisionmaker during the purported administrative process at the District level unquestionably

25

prejudices petitioner and would also cause any reasonable observer to so conclude. F3Law will learn

26

confidential information in their representation of SRVUSD, and must act in the interests and for the

27

benefit of SRVUSD, and not impartially, which is adverse to Petitioner and to the rights and interests of

28

the complainant student as well. This fact alone justifies disqualification.
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
7

31

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Indeed, this very issue was discussed at length just last year by the Court of Appeal:
"The ` advocate-witness rule,' which prohibits an attorney from acting both
as an advocate and awitness in the same proceeding, has long been atenet
of ethics in the American legal system, and traces its roots back to Roman
Law." (
Kennedy v. Eldridge (
2011) 201 Cal.AppAth 1197, 1208
(Kennedy).) California's current version of the advocate-witness rule
provides, "A lawyer shall not act as an advocate in atrial in which the
lawyer is likely to be awitness unless: [¶] ( 1) the lawyer's testimony relates
to an uncontested issue or matter; [¶] (2) the lawyer's testimony relates to
the nature and value of legal services rendered in the case; or [¶] (3) the
lawyer has obtained informed written consent from the client." (Rules Prof.
Conduct, rule 3.7(a), fn. omitted.) A comment to the rule clarifies that the
informed-consent exception is not absolute: "Notwithstanding a client's
informed written consent, courts retain discretion to take action, [* 582] up
to and including disqualification of alawyer who seeks to both testify and
serve as an advocate, to protect the trier of fact from being misled or the
opposing party from being prejudiced." (
Id., com. 3, asterisk omitted, citing
Lyle v. SiAperior Court (
1981) 122 Cal.App.3d 470 (
Lyle).) In other words,
acourt retains discretion to disqualify alikely advocate-witness as counsel,
notwithstanding client consent, where there is "aconvincing demonstration
of detriment to the opponent or injury to the integrity of the judicial
process." (
Lyle, siApra, at p. 482.)
Neither California's advocate-witness rule nor its official comments specify
how an advocate-witness's dual role might mislead the trier of fact or
prejudice the opposing party. However, this topic is addressed in an official
comment to the rule's national counterpart, rule 3.7 of the ABA Model Rules
of Professional Conduct, addressing why the opposing party or the tribunal
may have "proper objection" to the dual role: "A witness is required to
testify on the basis of personal knowledge, while an advocate is expected to
explain and comment on evidence given by others. It may not be clear
whether astatement by an advocate-witness should be taken as proof or as
an analysis of the proof." (ABA Model Rules Prof. Conduct, rule 3.7, com.
2.) 3California courts have agreed that one purpose of the advocate-witness
rule is to prevent fact finder confusion regarding whether an advocatewitness's statement is to be considered proof or argument. (See, e.g., People
v. Donaldson (
2001) 93 Cal.AppAth 916, 928-929 (
Donaldson) [
quoting
from foregoing comment]; People ex rel. Younger v. SiAperior Court (
1978)
86 Cal.App.3d 180, 197 (
Younger) ["the jury may have difficulty keeping
properly segregated the arguments of the attorney acting as advocate and
his testimony as awitness"].) They have identified another, related purpose
of avoiding the risk of "the jurors' tying [counsel's] persuasiveness as an
advocate to his credibility as awitness ...." (
Younger, supra, at p. 196; see
also Donaldson, siApra, at p. 928 ["` The very fact of alawyer taking on both
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
8

32

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

roles will affect the way in which ajury evaluates the lawyer's testimony,
the lawyer's advocacy, and the fairness of the proceedings themselves"'];
Tuft et al., Cal. Practice Guide: Professional Responsibility (The Rutter
Group 2019) ¶ 8:378, p. 8-93 [detriment to opposing party or judicial
integrity "may be claimed where the attorney's testimony is on the key issue
in the case on which there is conflicting testimony, and the attorney then
proposes to argue to the jury why his or her testimony is more credible than
the conflicting evidence" ].)
The advocate-witness rule does not expressly address pretrial
representation. (Rules Prof. Conduct, rule 3.7(a) [absent specified
exception, "A lawyer shall not act as an advocate in atrial in which the
lawyer is likely to be awitness" (italics added)]; see also ABA Model Rules
of Professional Conduct, rule 3.7(a) [absent specified exception, "A lawyer
shall not act as advocate at atrial in which the lawyer is likely to be a
necessary witness" (italics added)]. Nevertheless, to effectuate the rule's
purpose of avoiding fact finder confusion, we interpret the rule's use of the
term "trial" to encompass apretrial evidentiary hearing at which counsel is
likely to testify. (See Younger, siApra, 86 Cal.App.3d at pp. 192-193
[concluding, in dicta, that prosecutor violated California's then-current
version of advocate-witness rule, notwithstanding rule's limitation to "trial,"
by both testifying and arguing about photographic identification procedures
during pretrial hearing; "the word `trial' is broad enough to include apretrial
hearing at which the testimony of witnesses is taken and acontested fact
issue is litigated"].) Further, though the parties cite no California authority
on point, and we have found none, "most courts recognize that an attorney
who intends to testify at trial may not participate in ` any pretrial activities
which carry the risk of revealing the attorney's dual role to the jury.'
[Citation.] In particular, a testifying attorney should not take or defend
depositions." (
Waite, Schneider, Bayless & Chesley Co., L.P.A. v. Davis
(S.D. Ohio 2015) 253 F.Supp.3d 997, 1018-1019; see also, e.g., LaFond
Family Trust v. Allstate Property and Casualty Ins. Co. (
D.Colo., Aug. 8,
2019, No. 19-cv-00767-KLM) 2019 U.S.Dist. Lexis 133523, pp. * 13—* 18
[granting motion to disqualify counsel from taking or defending depositions
"in furtherance of Rule 3.7's purpose," and rejecting asserted need for
"separate factual inquiry" into likelihood of revelation at trial of dual role];
Lowe v. Experian (
D. Kan. 2004) 328 F.Supp.2d 1122, 1127 (Lowe)
[applying advocate-witness rule to disqualify counsel from participating in
evidentiary hearings and in taking or defending depositions; "Depositions
are routinely used at trial for impeachment purposes and to present
testimony in lieu of live testimony when the witness is unavailable.
Testimony from an oral deposition could not be easily read into evidence
without revealing [counsel's] identity as the attorney taking or defending the
deposition. Videotaped depositions present an even greater concern" (fn.
omitted)] .

28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
9

33

1
2
3
4
5
6
7
8
9
10

In exercising its discretion to disqualify counsel under the advocate-witness
rule, acourt must consider: (1) ""`whether counsel's testimony is, in fact,
genuinely needed""'; (2) "the possibility [opposing] counsel is using the
motion to disqualify for purely tactical reasons"; and (3) "the combined
effects of the strong interest parties have in representation by counsel of
their choice, and in avoiding the duplicate expense and time-consuming
effort involved in replacing counsel already familiar with the case." (
Smith,
Smith & Kring v. SiAperior Court (
1997) 60 Cal.AppAth 573, 580-581
(Smith).) "[T]rial judges must indicate on the record they have considered
the appropriate factors and make specific findings of fact when weighing
the conflicting interests involved in recusal motions." (Id. at p. 582.) The
court's exercise of discretion must be affirmed on appeal if there is any fairly
debatable justification for it under the law. (See McDermott Will & Emery
LLP v. SiAperior Court (
2017) 10 Cal.App.Sth 1083, 1124 [217 Cal. Rptr.
3d 47] (
McDermott).)
(Doe v. Yim (
2020) 55 Cal. App. 5th 573, 581-84.)

11
12
13
14
15
16
17

Accordingly, F3Law must be disqualified to effectuate the objectives of the advocate-witness
rule and related considerations.
B. Court Has Inherent Authority Under Code Civ. Proc., § 128 To Disqualify Counsel
When Appropriate
Second, Code of Civil Procedure, § 128, subd. (a)(5) gives this Court inherent authority to
disqualify counsel when appropriate:

18
19

(a) Every court shall have the power to do all of the following:

20

22

(5) To control in furtherance of justice, the conduct of its ministerial
officers, and of all other persons in any manner connected with ajudicial
proceeding before it, in every matter pertaining thereto.

23

(Code Civ. Proc. § 128.)

21

24

It is well-established that:

25
26
27
28

A trial court is empowered to disqualify counsel through its inherent power
"[t]o control in furtherance of justice, the conduct of its ministerial officers,
and of all other persons in any manner connected with ajudicial proceeding
before it, in every matter pertaining thereto." (Code Civ. Proc., § 128, subd.
(a)(5); see In re Complex Asbestos Litigation (
1991) 232 Cal.App.3d 572,
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
10

34

1
2
3
4
5
6
7
8
9
10

586.) A motion to disqualify counsel may implicate several important
interests, including "aclient's right to chosen counsel, an attorney's interest
in representing a client, the financial burden on a client to replace
disqualified counsel, and the possibility that tactical abuse underlies the
disqualification motion. [Citations.]" (
People ex rel. Dept. cf Corporations
v. SpeeDee Oil Change Systems, Inc. (
1999) 20 CalAth 1135, 1144-1145
(SpeeDee Oil).) At its core, amotion to disqualify "involve[s] aconflict
between the clients' right to counsel of their choice and the need to maintain
ethical standards of professional responsibility. [Citation.] The paramount
concern must be to preserve public trust in the scrupulous
administration of justice and the integrity of the bar. The important
right to counsel of one's choice must yield to ethical considerations
[**670] that affect the fundamental principles of our judicial process.
[Citations.]" (
Id. at pp. 1145-1146; see also Comden v. SiAperior Court
(1978) 20 Cal.3d 906, 915 [ 145 Cal. Rptr. 9, 576 P.2d 971] (
Cowden).
(M'Guinness v. Johnson (
2015) 243 Cal. App. 4th 602, 613 bold added.)

11
12
13
14
15

It bears note that disqualification is not disfavored:
[W]e conclude that while disqualification is adrastic measure and motions
to disqualify are sometimes brought by litigants for improper tactical
reasons, disqualification is not "generally disfavored."
(M'Guinness v. Johnson, supra, 243 Cal. App. 4th at 627.)

16
17

Here, to permit lawyers who serve as the investigator and tribunal to serve in any capacity as

18

attorneys during court review thereof would call into question the integrity of the entire administrative

19

and judicial process while casting the legal profession in an exceptionally ill light. This is particularly

20

so in this type of proceeding, which, as set forth in great detail in petitioner's petition, is at the forefront

21

of the evolving manner in which society in general and the educational system in particular address the

22

competing interests of the accused and the victim in school sexual misconduct matters.

23
24

C. NO PREJUDICE TO RESPONDENTS.
Third, SRVUSD will suffer no prejudice from the disqualification of F3Law given SRUSD has

25

already applied for (and likely will receive) appointed defense counsel from its insurance carrier(s).

26

(See, Hathaway Declaration at ¶ 2.) Accordingly, there is no reason why, at aminimum, this Court

27

should not stay the administrative decision below and stay this litigation to ascertain whether insurance-

28

appointed defense counsel will take the reins in this matter, rendering the disqualification inquiry moot.
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
11

35

1

II.

2

EX PARTE APPLICATION FOR STAY IS PROPERLY BEFORE THE COURT.
Ex parte applications are governed generally by Cal. Rules of Ct., Rule 3.1200 et seq. An ex

3

parte application must be in writing and must include the following: ( 1) An application containing the

4

case caption and stating the relief requested; (2) adeclaration in support of the application; (3) a

5

declaration, competent and abased on personal knowledge, regarding the notice provided to other parties

6

pursuant to Cal. Rules of Ct., Rule 3.1204; (4) amemorandum; and (5) aproposed order. Here,

7

Petitioner has filed the required ex parte application documents. Under Cal. Rules of Ct., Rule 3.1202,

8

the ex parte application must state the name, address, and telephone number of any attorney known to

9

the applicant to be an attorney for any party. The names, addresses and telephone numbers are below:

10

Jacqueline M. Litra
Fagen Friedman & Fulfrost LLP

David Mishook
Fagen Friedman & Fulfrost LLP

6300 Wilshire Blvd Ste 1700
Los Angeles, CA 90048-5219

70 Washington Street, Suite 205
Oakland, California 94607

13

Phone: (323) 330-6300
Fax: (323) 330-6311

Phone: 510.550.8200
Fax: 510.550.8211

14

Email: jlitra@f3law.com
ATTORNEYS FOR RESPONDENTS

Email: dmishook@f3law.com
ATTORNEYS FOR RESPONDENTS

11
12

15
16
17
18
19
20
21

Pursuant to Cal. Rules of Ct., Rule 3.1203, the party seeking an ex parte order must notify all
parties no later than 10:00 a.m. the court day before the ex parte appearance, absent ashowing of
exceptional circumstances that justify ashorter time for notice. All parties were notified, as shown in
the Declaration of Mark Hathaway, ¶ 1.
III.

CONCLUSION
Based on the foregoing, Petitioner respectfully requests that this Court issue an order to

disqualify Fagen, Friedman & Fulfrost, LLP ("F3Law") as attorneys for Respondents in this matter.

22
HATHAWAY PARKER

23
24
DATED: August 4, 2021
25
26

B
ark M. Hathaw
Jenna E. Parker
Attorney for Petitioner

27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
12

36

1
2

DECLARATION OF MARK M. HATHAWAY
I, Mark M. Hathaway, declare:

3

Iam an attorney admitted to practice in all courts in the State of California, the State of Illinois,

4

the State of New York, and the District of Columbia and am aCertified Specialist in Taxation Law by

5

the California State Bar Board of Legal Specialization. Iam responsible for representation of Petitioner

6

in this matter. Ihave personal and first-hand knowledge of the facts set forth in this Declaration, unless

7

otherwise stated, and, if called as awitness, Icould and would testify competently to those facts.

8
9

1.

On Wednesday August 4, 2021, before 10:00 a.m. Ihave been in contact via telephone and email

with counsel for Respondents and gave notice that Petitioner is proceeding with his ex parte application

10

for stay on Thursday, August 5, 2021 at 11:00 a.m. in Dept. 7. Counsel for Respondents replied and

11

stated that Respondents will appear at the hearing and oppose the stay application.

12

2.

On Tuesday, August 3, 2021, Ispoke with Jacqueline M. Litra, Fagen Friedman & Fulfrost LLP,

13

about my concerns with the F3Law attorneys conducting the entire administrative process against

14

Petitioner and then also acting as advocates for their own administrative actions in this writ of mandate

15

matter.

16

counsel.

17

3.

Ms. Litra advised me that Respondents had tendered the litigation and were seeking insurance

Attached hereto as Exhibit 1is atrue and correct redacted copy of the Amended Notice of

18

Allegations of Title IX Sexual Harassment by aComplainant, which reflects on page 2that the entire

19

Title IX investigation and adjudication process is conducted by attorneys with F3Law, who are serving

20

as the investigator, judge, and appellate body to review their own decision.

21
22

Ideclare under the penalty of perjury in the State of California that the foregoing is true and correct.
Signed in Los Angeles, California.

23
24
25

Date: August 4, 2021
ar M. Hathaway

26
27
28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
13

37

Exhibit 1

38

San Ramon Unified School District
June 3, 2021
Via Electronic Mail Simultaneously to Both Parties
Re:

Amended Notice of Allegations of Title IX Sexual Harassment by a
Complainant

Dear Complainant and Respondent:
On April 26, 2021, aFormal Complaint was filed by Name Redatced ("Complainant")
against _
Petiilc er (" Respondent") under the San Ramon Vallye Unified School District's
("District") Title IX Sexual Harassment Complaint Procedures.' The Formal Complaint alleges:
• On April 15, 2021, Respondent sexually assaulted and sexually harassed Complainant
during fifth period theater class by kissing her on her mouth and neck without her consent,
fondling her breasts without her consent, fondling and penetrating her vulva and vagina
without her consent, and forcing her to touch his penis under his clothing by forcing her
hand into his pants without her consent.
On June 2, 2021, Complainant notified the investigator that the alleged conduct occurred on April
13, 2021. Accordingly, the allegation is amended as follows:
• On April 13, 2021, Respondent sexually assaulted and sexually harassed Complainant
during fifth period theater class by kissing her on her mouth and neck without her consent,
fondling her breasts without her consent, fondling and penetrating her vulva and vagina
without her consent, and forcing her to touch his penis under his clothing by forcing her
hand into his pants without her consent.
If, during the course of the investigation, the District determines additional allegations
regarding Complainant or Respondent need to be investigated, the Title IX Coordinator will notify
the parties of the additional allegations.
Educational institutions subject to Title IX of the Education Amendments of 1972 and its
implementing regulations must respond without deliberate indifference and using the Title IX
Sexual Harassment Grievance Process in the District's Title IX Sexual Harassment Complaint
Procedures to address allegations of " Title IX Sexual Harassment," as that term is defined in the
Title IX regulations and the District's Title IX Sexual Harassment Complaint Procedures. This
Any allegations not rising to the level of Title IX Sexual Harassment, as defined in 34 CFR 106.30, will be
simultaneously investigated to determine whether any violations of other District Board Policies ("BP") or
Administrative Regulations ("AR") have occurred, including, but not limited to, BP/ AR 5145.7, Sexual Harassment,
and BP/ AR 5131.2, Bullying.
i

Amended Notice of Allegations (6/3/2021)
Exhibit 1. Page 1

39

1

includes investigating formal complaints containing allegations of Title IX Sexual Harassment
under the District's Title IX Sexual Harassment Complaint Procedures.
The District has determined that the alleged conduct, if true, would constitute Title IX
Sexual Harassment and, therefore, is within the scope of the District's Title IX Sexual Harassment
Complaint Procedures. As such, the District will investigate the Formal Complaint under its Title
IX Sexual Harassment Complaint Procedures. A copy of which is enclosed with this letter.
The investigation of the Formal Complaint in no way implies that the District has made a
decision on the merits of the allegations in the Formal Complaint. Respondents are presumed to
be not responsible for Title IX Sexual Harassment until the conclusion of the Title IX Sexual
Harassment Complaint Procedures. Only after the District has investigated the Formal Complaint
in accordance with its Title IX Sexual Harassment Complaint Procedures, including reviewing any
applicable evidence, will it make adetermination regarding responsibility.
During the investigation, the District will serve as aneutral fact finder, collecting relevant
evidence. During the investigation, the burden of gathering evidence sufficient to reach a
determination regarding responsibility rests on the District and not on the parties. The following
individuals will serve as the Title IX team for this Formal Complaint:
• Title IX Coordinator:

Ken Nelson, Director of Student Services
San Ramon Valley Unified School District
KNelson@a,srvusd.net
(925) 552-5052

• Investigator:

Alejandra Leon, Attorney
Fagen, Friedman & Fulfrost, LLP

• Decisionmaker:

Katy McCully Merrill, Attorney,
Fagen, Friedman & Fulfrost, LLP

• Appellate Decisionmaker:

Vanessa Lee, Attorney
Fagen, Friedman & Fulfrost, LLP

If you have any concerns regarding conflict of interest or bias regarding any of these individuals,
please notify the Title IX Coordinator immediately.
The District's Title IX Sexual Harassment Complaint Procedures contain afull summary
of your rights and responsibilities during the District's processing of the Formal Complaint. These
include, but are not limited to, the right of the parties to review any evidence obtained as part of
the investigation that is directly related to the allegations raised in the Formal Complaint, including
evidence upon which the District does not intend to rely in reaching adetermination regarding
responsibility and inculpatory or exculpatory evidence whether obtained from aparty or other
source so that you can meaningfully respond to the evidence prior to conclusion of the
investigation.

Amended Notice of Allegations (6/3/2021)
Exhibit 1. Page 2

40

You may have an advisor of your choice, who may be, but is not required to be, an attorney,
and who may accompany you to any related meeting or proceeding and who may act as your
support person during investigation interview(s), review evidence collected, and assist with
examination questions, subject to restrictions applicable to both parties that will be explained to
you during this process.
The District prohibits knowingly making false statements or knowingly submitting false
information during the Title IX Sexual Harassment Complaint Procedures. No person is permitted
to intimidate, threaten, coerce, or discriminate against any individual for the purpose of interfering
with any right or privilege secured by Title IX, or because the individual has made areport or
complaint, testified, assisted, or participated or refused to participate in any manner in an
investigation, proceeding, or hearing under the District's Title IX policies or procedures. If any
individual is harassed or intimidated because of filing acomplaint or participating in any aspect of
the District's Title IX Sexual Harassment Complaint Procedures, that individual may file a
complaint alleging such treatment using The District's Board Policy and Administrative
Regulation 1312.3, Uniform Complaint Procedure.
This Formal Complaint is eligible for the District's Title IX informal resolution process at
any time prior to adetermination being reached in this matter. In informal resolution, the District
appoints atrained employee or contractor to facilitate the resolution of the Formal Complaint by
providing an opportunity for the parties involved to voluntarily resolve the complaint allegations.
Additional information regarding the informal resolution process is available upon request.
Thank you for your cooperation. If you have any questions about the process, please do not
hesitate to contact me.
Sincerely,

Ken Nelson
Title IX Coordinator

Enclosures
Title IX Sexual Harassment Complaint Procedures
BP / AR 1312.3, Uniform Complaint Procedure

Amended Notice of Allegations (6/3/2021)
Exhibit 1. Page 3

41

3

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21

PROOF OF SERVICE
STATE 0FCALIFORNIA
jsS.

COUNTY OF LOS ANGELES
lam employed in the County of Los Angeles, State of California, lam over the age of 18 and not apasty io the within action;
mybusiness address is 445 South Figueroa Sheet, 311 1F1ooi, Los Angeles, CA 90071.
On Augus14,2021,1seived the foregoing documenidescilbed EX PARTE APPLICATION FOR ORDER TO DISQUALIFY
FAGEN,FRIEDMAN & FULFROST,LLP AS ATTORNEYS FOR RESPONDENTS on all inieiesied pasties listed below by
tiansm ruing io all interested pasties atrue copy thereof as follows;
Jacqueline M L11fa
Fagan Filedm an & FuIfiosi LLP
6300 Wilsh ie Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone, ( 323) 330-6300
Fax, ( 323 ) 330-6311
Em ail; jl1iia5o, f3law.com
ATT0RNEYSFOR RESPONDENTS

David Mishook
Fagan Filedm an & FuIfiosi LLP
70 Washington Sheet, Suite 205
0akland,Califoin!a 94607
Phone;510,550,8200
Fax;510.550.8211
Em ail; dm ishook5o, f3Iaw,com
ATT0RNEYSFOR RESPONDENTS

❑ BV FACSIM ILE TRANSMISSION from FAX num b
ei ( 213 ) 529-0783 io the fax num bei seifoith above. The facsim ile
machine Ius
edcoin plied with Rule 2003 • 3jandno eiioiwas iepoited by the in achine, Puisuantto Rule 2005•1j, 1caused the
in achine io print atiansm ission fecofd of the tiansm ission, acopy of which is attached io this declaration,
❑ BV MAIL by placing atrue copy theieofenclosed in asealed envelope addressed as seifoith above, lam readily
fain iliac with the firm's practice of collection and processing coiiespondence for in ailing. Undei that practice ii would be
deposited with U. S,posialseivice on thaisam eday with postage thereon fully prepaid aiLos Angeles, Califoin!a in the
oidinaiy course of business. Iam a are that on in otion of pasty served, service is piesum e invalid if postal cancellation date
of postage in eiei date is in ore than one ( 1) day after date of deposit for in ailing in affidavit,
❑ BV PERSONAL SERVICE by delivering acopy of the docum eni•s) by hand io the addressee of Icaused such envelope
10 be delivefed by in essengef of pfocess seivef,
❑ BV EXPRESS SERVICE by depositing in abox of other facility iegulaily in ainiained by the express service cashes of
delivering io an authorized couilei of dilvei authorized by the express service cashes io receive docum ants, in an envelope of
package designated by the express service caiileiw0 delivery fees paid oipiovided foi,addiessed io the person on whom ii
is 10 be seived,

22
23
24
25

❑x BV ELECTRONIC TRANSM ISS10N by transmitting aPDFversion of the docum eni•s) by electronic mailio the paiiy•s)
identified on the service list using the e- mall addiess•es) indicated.
❑x Ideclaie undeipenalty ofpeijuiy undeithe laws of the State ofCallfoinla that the above is true and coffect,
❑ Ideclaie undeipenalty ofpeijuiy undeithe laws of the United States of Am erica that the above is true and coiiect.

26
27

Executed on August 4, 2021 in Los Angeles, Califoinia
Adrian aRec
ende
z

28
EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
14

42

EXHIBIT 3

43

[Exempt From Filing Fee
Government Code §6103]

1 FAGEN FRIEDMAN & FULFROST, LLP
David R. Mishook, SBN 273555
2 dmishook@f3law.com
Jacqueline Litra, SBN 311504
3 j
litra@f31aw. com
70 Washington Street, Suite 205
4 Oakland, California 94607
Phone: 510-550-8200
5 Fax: 510-550-8211
6 Attorneys for SAN RAMON VALLEY UNIFIED
SCHOOL DISTRICT, MEGAN KEEFER,
7 KEITH ROGENSKI
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

COUNTY OF CONTRA COSTA, MARTINEZ

10
11

JOHN DOE, et al.,

12

Petitioner,

13
14

CASE NO. NC21-1450
OPPOSITION TO EX PARTE TO
DISQUALIFY RESPONDENTS'
COUNSEL

vs.
MEGAN KEEFER, et al.,

15

Date:
Time:
Dept.:

Respondents.

August 5, 2021
11:00 a.m.
7

16

The Hon. Hon. Barry Baskin, Dept. 7

17

Trial Date:

None Set

18
19

Respondents Megan Keefer and Keith Rogenski (named here in their official capacities as

20

officials of the San Ramon Valley Unified School District) and the San Ramon Unified Valley

21

Unified School District ("District") hereby provide this opposition to Petitioner John Doe's ex

22

parte application to disqualify the law firm of Fagen Friedman & Fulfrost, LLP, from representing

23

Respondents in this action.

24

I.

25

INTRODUCTION AND BACKGROUND
Petitioner seeks an emergency order from this Court that disqualifies the entire law firm of

26

Fagen Friedman & Fulfrost LLP ("F3") from representing Respondentsa California public

27

agency and its officials—in this Petition for Writ of Administrative Mandate or, alternative,

28

Traditional Writ of Mandate. In his Petition, Petitioner challenges his emergency removal from his

OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

44

1 educational program pursuant to 34 C.F.R., section 106.44(c), pending the outcome of District
2 Title IX investigation into allegations that Petitioner engaged in asexual assault while on a
3 District high school campus.
4

Petitioner argues that three attorneys employed by F3, Alejandra Leon, Esq., Katy

5 McCully Merrill, Esq., and Vanessa Lee, Esq., are acting as Investigator, Decisionmaker and
6 Appellate Decisionmaker for the District in the Title IX administrative action and that this creates
7 aconflict of interest. Petitioner cites to California Rules of Professional Conduct ("CRPC") 3.7
8 governing situations in which an attorney may act as awitness—to support his argument that this
9 Court must use its inherent power to disqualify an entire law firm from representation of
10

Respondents.

11

Petitioner's argument includes both factual and legal misstatements and errors which

12

wholly undermine his motion. First, contrary to the implication otherwise included in the ex parte,

13

the Title IX matter involving Petitioner is still in the investigative stage. (Declaration of Jacqueline

14

Litra, ¶ 2.) It is untrue, therefore, that F3 attorneys have acted as investigator, decisionmaker and

15

appellate decisionmaker already. Second, the very language of rule 3.7 only suggests limitations

16

on attorneys who will act as witnesses from being advocates and specifically allows lawyers in the

17

lawyer/witnesses firm to represent the client. Third, Petitioner has not provided any argument on

18

how attorney involvement in the as-to-yet unfinished Title IX process has any bearing on the very

19

narrow question of the emergency removal Petitioner challenges in this writ petition.

20

II.

21

ARGUMENT
Petitioner alleges in his ex parte that three attorneys of F3 have been tasked with

22

investigating, deciding and sitting over an appeal of an (ongoing) administrative action under Title

23

IX at the agency level. Petitioner implies, but provides no evidence or legal argument, that the

24

District's election to employ professional legal counsel in the Title IX process is somehow

25

improper. Petitioner implies that the Title IX process is somehow "unfair and unbiased [
sic.]"

26

because of F3's role "acting as the agency." According to Petitioner, F3 should be "minimiz[ing]

27

risk, litigation exposure, and cost" to the District and, somehow, fails to do that through its roles.

28

The above rhetorical arguments, whether or not true, are not connected at all to the instant
2
OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

45

1 litigation or the instant defense of the District. Logically, were it not three attorney-employees of
2 F3 acting as investigator, decisionmaker, and appellate decisionmaker for the District, it would be
3 three District employees with (presumably) the same duty of loyalty. In fact, following
4 Petitioner's logic, the involvement of attorneys with the duty to minimize risk, litigation exposure,
5 and cost would increase Petitioner's due process in the ongoing Title IX investigation. Yet,
6 Petitioner implies the opposite without evidence.
7

The above considerations are, however, immaterial to the ex parte and only obfuscate the

8 core issue. The question for this Court is whether there are legal grounds to take the extraordinary
9 step of removing the District's chosen counsel in defending Respondents against the allegation
10

that Petitioner's emergency removal was improper. Indeed, after notifying the District through its

11

counsel at F3 of Petitioner's intent to seek ex parte applications, Petitioner also seeks to deprive

12

the District of adefense through F3.

13

The only citation provided by Petitioner is to CPRC 3.7 which, on aplain reading, is

14

inapposite. CPRC 3.7 applies to situations in which the counsel for aparty advocating in court will

15

also serve as awitness. That section provides, "A lawyer may act as advocate in atrial in which

16

another lawyer in the lawyer's firm is likely to be called as awitness unless precluded from doing

17

so by rule 1.7 or rule 1.9." Here, there is no allegation the undersigned is likely to be called as a

18

witness, nor is there an allegation that Petitioner is aformer client of F3 so as to fall under the

19

prescriptions of CPRC 1.7 or 1.9. As such, rule 3.7 simply does not apply.

20

Further, Petitioner provides no argument or evidence that any member of F3 would be

21

called as awitness in this action. The Petition for Writ of Mandate challenges the emergency

22

removal decision of respondent Keefer, who is the Principal and Title IX Coordinator Designee of

23

the District at California High School. The Petition does not mention any attorney from F3 as a

24

decisionmaker in the decision at hand. Even if the ongoing Title IX investigation was relevant to

25

the Petition or this ex parte, Petitioner does not allege that Ms. Leon, Ms. McCully Merrill or Ms.

26

Lee—let alone Ms. Litra or the undersigned—would be called as witnesses in this proceeding.

27
28

Ultimately, Petitioner confuses and conflates two separate issues—one before this court
and one not. Petitioner challenges here the decision of aDistrict employee acting under the Title
3
OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

46

1 IX regulations to institute an emergency removal during the pendency of aTitle IX investigation.
2 That decision was not made by F3 attorneys and F3 attorneys are not anticipated fact witnesses.
3 Separately, the District continues to conduct aTitle IX administrative action which is still in the
4 investigative stage. That action has not resulted in any final decision subject to aPetition for Writ
5 of Mandate and is not before this Court.
6

If the Title IX administrative action results in afinal adverse decision against Petitioner

7 which Petitioner seeks to challenge in this Court, then Petitioner may cite to Rule 3.7. 1 This is not
8 that case and the undersigned is not nor would be awitness. For these reasons, Petitioner's ex
9 parte must be denied.
10
11

III.

CONCLUSION
Respondents ask that the ex parte be denied and that Respondents be allowed the legal

12

representation of their choice to continue in these proceedings.

13

DATED: August 4, 2021

FAGEN FRIEDMAN & FULFROST, LLP

14
15

By:
David R. •• oo
Attorneys for SAN RAMON VALLEY UNIFIED

16
17

SCHOOL DISTRICT, MEGAN KEEFER, KEITH
ROGENSKI

18
272-180/6157334.1

19
20
21
22
23
24
25
26
27
28

1 Neither the District nor F3 would concede that there is anything untoward in F3's representation
in Court.

4
OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

47

[Exempt From Filing Fee
Government Code § 6103]

1 FAGEN FRIEDMAN & FULFROST, LLP
David R. Mishook, SBN 273555
2 dmishook@f3law.com
Jacqueline Litra, SBN 311504
3 j
litra@f31aw. com
70 Washington Street, Suite 205
4 Oakland, California 94607
Phone: 510-550-8200
5 Fax: 510-550-8211
6 Attorneys for SAN RAMON VALLEY UNIFIED
SCHOOL DISTRICT, MEGAN KEEFER,
7 KEITH ROGENSKI
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

COUNTY OF CONTRA COSTA, MARTINEZ

10
a

_
N
00

J
J

Ln
N
•
0
N

L

CD
•
n

0

Li 00 0-)

•X
E•

11

JOHN DOE, et al.,

12
13
14

CASE NO. NC21-1450

Petitioner,

DECLARATION OF JACQUELINE
LITRA IN SUPPORT OF OPPOSITION
TO EX PARTE TO DISQUALIFY
COUNSEL

vs.
MEGAN KEEFER, et al.,

Date:
Time:
Dept.:

o U CO

E

(D M

CD
Ln

U 0M L?
0
c CD

U

15

Respondents.

August 5, 2021
11:00 a.m.
7

16
The Hon. Hon. Barry Baskin, Dept. 7
17
Trial Date:

None Set

18
19
20
21

I, Jacqueline Litra, declare as follows:

22

1.

Iam an attorney duly admitted to practice before this Court. Iam apartner with

23

Fagen Friedman & Fulfrost, LLP, attorneys of record for SAN RAMON VALLEY UNIFIED

24

SCHOOL DISTRICT, MEGAN KEEFER, and KEITH ROGENSKI. If called as awitness, I

25

could and would competently testify to all facts within my personal knowledge except where

26

stated upon information and belief

27
28

2.

My office advises San Ramon Valley Unified School District ("District") in Title

IX matters and Iam familiar with the administrative action involving John Doe (whose name is

OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

48

1 known to me). The Title IX administrative action is ongoing and is still at the investigative stage.
2 Ms. McCully will be involved in this matter only after the investigative report is issued and Ms.
3 Lee would be involved only if there is an appeal of the decision by either party. Petitioner is
4 afforded numerous due process rights both during the investigative phase and through the decision
5 and appellate phase.
6

3.

The emergency removal decision made by the District was pursuant to 34 C.F.R. §

7 106.44(c). That decision was made by aDistrict employee as alleged by Petitioner, and not an
8 attorney at F3.
9
10
a

_
00

J

C

•

•X
E•

00O'

CD

GG2G'G•2

13
Jacq elfin

14

0?

15

0

16

(D N
CD
Ln
LE • Min

U

Executed on this 4th day of August, 2021, at Lansing, Michigan.

12

o U CO

-0

c

foregoing is true and correct.

N

Ln
CD
N CD
Ln
•Nr,Ln
L
o 0
Li

11

Ideclare under penalty of perjury under the laws of the State of California that the

W

z-GL.2C•.

itra

272-180/6157341.1

17
18
19
20
21
22
23
24
25
26
27
28
2
OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

49

1

PROOF OF SERVICE

2 STATE OF CALIFORNIA, COUNTY OF ALAMEDA
3

At the time of service, Iwas over 18 years of age and not aparty to this action. Iam
employed in the County of Alameda, State of California. My business address is 70 Washington
4 Street, Suite 205, Oakland, CA 94607.
5

On August 5, 2021, Iserved true copies of the following document(s) described as
OPPOSITION TO EX PARTE TO DISQUALIFY RESPONDENTS' COUNSEL AND
6 DECLARATION OF JACQUELINE LITRA IN SUPPORT OF OPPOSITION TO EX
PARTE TO DISQUALIFY COUNSEL on the interested parties in this action as follows:
7
MARK M. HATHAWAY
8 (CA 151332; DC 437335; NY 2431682)
JENNA E. PARKER (CA 303560)
9 HATHAWAY PARKER INC.
445 S. Figueroa Street, 31st Floor
10
Los Angeles, California 90071
Telephone: (213) 529-9000
11
Facsimile: (213) 529-0783
12 E-Mail: mark@hathawayparker.com
E-Mail: jenna(a,hathawayparker.com
13
14
15
16
17
18

BY E-MAIL OR ELECTRONIC TRANSMISSION: Icaused acopy of the
document(s) to be sent from e-mail address adodds@f3law.com to the persons at the e-mail
addresses listed in the Service List. Idid not receive, within areasonable time after the
transmission, any electronic message or other indication that the transmission was unsuccessful.
Ideclare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct.
Executed on August 5, 2021, at Oakland, California.

19
20
Alena Dodds

21
22
23
24
25
26
27
28

5
OPPOSITION TO EX PARTE TO DISQUALIFY PETITIONERS' COUNSEL

50

EXHIBIT 4

51

1
2
3
4
5
6
7

MARK M. HATHAWAY
(CA 151332; DC 437335; NY 2431682)
JENNA E. PARKER (CA 303560)
HATHAWAY PARKER INC.
445 S. Figueroa Street, 31 st Floor
Los Angeles, California 90071
Telephone: (213) 529-9000
Facsimile: (213) 529-0783
E-Mail: mark@hathawayparker.com
E-Mail: jenna@hathawayparker.com

11

DAN ROTH (CA 270569)
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
Telephone: (510) 849-1389
Facsimile: (
510) 295-2680
E-mail: dan@drothlaw.com

12

Attorneys for Petitioner John Doe

8
9
10

13

18

20
21
22
23
24
25

K WEVMCIf RKORTHECOURT
SUF"UOR COURT OF CALIF oRNIA
COON rY OF CONTRA COSTA
Ry

JOHN DOE, an individual, minor through his )
parent and next friend JANE DOE, )
Petitioner,
V.

19

31

FOR CONTRA COSTA COUNTY

15

17

AUG 05 2021

SUPERIOR COURT OF THE STATE OF CALIFORNIA

14

16

0L E

)

)

MEGAN KEEFER, an individual, in her )
official capacity as Principal, California High )
School and Title IX Coordinator Designee, )
California High School; KEITH ROGENSKI, )
an individual, in his official capacity as )
Assistant Superintendent of Human )
Resources; SAN RAMON VALLEY )
UNIFIED SCHOOL DISTRICT, aCalifornia )
corporation; and DOES 1through 20,
inclusive

Case No.: NC21-1450
[Hon. Barry Baskin, Dept. 7]
REPLY TO OPPOSITION TO EX PARTE
APPLICATION FOR ORDER TO
DISQUALIFY FAGEN, FRIEDMAN &
FULFROST, LLP ("F3LAW ') AS
ATTORNEYS FOR RESPONDENTS
Date:
Time:
Dept.

August 5, 2021
11:00 a.m.
7

Respondents.

26
27
28

TO THE COURT AND ALL PARTIES AND THEIR ATTORNEYS:
PLEASE TAKE NOTICE that Petitioner hereby submits his reply in support of his Ex Parte
REPLY TO OPPOSITION TO EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
1

52

1

Application for an Order To Disqualify Fagen, Friedman & Fulfrost, LLP ("F3Law") As Attorneys For

2

Respondents on August 5, 2021 at 11:00 a.m. in Dept. 7before Hon. Barry Baskin

3
HATHAWAY PARKER

4
5
6
7

Dated: August 5, 2021

B
RK M. HATH I ••• AY
JENNA E. PARKER
Attorneys for Petitioner

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
REPLY TO OPPOSITION TO EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
2

53

1
2
3
4

REPLY MEMORANDUM OF POINTS AND AUTHORITIES
L

F3LAW'S OPPOSITION SHOWS WHY DISQUALIFICATION IS APPROPRIATE
Respondents' opposition to petitioner's ex parte application compounds the untenable position in

which the F3Law firm finds itself.

5

First, Respondents argue:

6

[C]ontrary to the implication otherwise included in the ex parte, the Title IX matter

7

involving Petitioner is still in the investigative stage. (Declaration of Jacqueline Litra, ¶

8

2.) It is untrue, therefore, that F3 attorneys have acted as investigator, decisionmaker and

9

appellate decisionmaker already.

10

(Opposition at 2:12-15.)

11

Even fthis is factually accurate, it is misleading given the mandatory procedures Respondents

12

have advised Petitioner he will be subject to:

13

During the investigation, the District will serve as aneutral fact finder, collecting relevant

14

evidence. During the investigation, the burden of gathering evidence sufficient of reach a

15

determination regarding responsibility rests on the District and not on the parties. The

16

following individuals will serve as the Title IX team for this Formal Complaint.

17

(See, Amended Notice of Allegations dated June 3, 2021 at p. 2, bold added.)

18

Accordingly, unless the Amended notice was intended to be misleading, the identfication cf the

19

three F3Law attorney/investigator,judges,justices is mandatory absent some type c
fgood cause or

20

impossibility. Accordingly, the contention that the F3Law attorneys have not acted in these mandatory

21

capacities "yet" is specious, further warranting disqualification.

22

Second, Respondents argue:

23

Logically, were it not three attorney-employees of F3 acting as investigator,

24

decisionmaker, and appellate decisionmaker for the District, it would be three District

25

employees with (presumably) the same duty of loyalty. In fact, following Petitioner's

26

logic, the involvement of attorneys with the duty to minimize risk, litigation exposure,

27

and cost would increase Petitioner's due process in the ongoing Title IX investigation.

28

Yet, Petitioner implies the opposite without evidence.
REPLY TO OPPOSITION TO EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
3

54

1

(Opposition at 3:1-6.)

2

This sounds nice with its rhetorical implication that attorney involvement "increases" due

3

process, but, in reality misses the mark entirely. If "district employees" (or, for that matter, retained

4

investigators, or attorneys who would not be providing litigation representation) were conducting the

5

administrative proceeding, they would not be subject to the Rules of Professional conduct or voluminous

6

caselaw and other authorities that prohibit attorneys from being witness-advocates. Accordingly, this

7

argument rings hollow as well and fails to alter the fact that F3Law must be disqualified to protect the

8

integrity of the system and to avoid setting aprecedent that permits attorneys to improperly participate

9

in roles they should not.

10

Third, Respondents fail to address the fact that this matter has been tendered to an insurance

11

carrier that will likely appoint defense counsel that is entirely independent from the administrative

12

process, thereby preserving the integrity of the system and, for that matter, render the disqualification

13

issue moot.

14

II.

15

CONCLUSION
Based on the foregoing, and the parties other filings in connection with this application, as well

16

as such argument as the Court may hear, Petitioner respectfully requests that this Court issue an order to

17

disqualify Fagen, Friedman & Fulfrost, LLP ("F3Law") as attorneys for Respondents in this matter.

18

HATHAWAY PARKER

19
20
21
22

DATED: August 5, 2021

By.
ark M. Hathaw
Jenna E. Parker
Attorney for Petitioner

23
24
25
26
27
28
REPLY TO OPPOSITION TO EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
4

55

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

PROOF OF SERVICE
STATE 0FCALIFORNIA
jsS.

COUNTY OF LOS ANGELES
lam employed in the County of Los Angeles, State of California, lam over the age of 18 and not apasty io the within action;
mybusiness address is 445 South Figueroa Sheet, 311 1F1ooi, Los Angeles, CA 90071.
On Augusi5,2021,1seived the foregoing documenidescilbed REPLY TO OPPOSITION TO EX PARTE APPLICATION FOR
ORDER TO DISQUALIFY FAGEN,FRIEDMAN & FULFROST,LLP AS ATTORNEYS FOR RESPONDENTS on allinieiesied
pasties listed below by tiansm ruing io all interested pasties atrue copy thereof as follows;
Jacqueline M L11fa
Fagan Filedm an & Fulffosi LLP
6300 Wilsh ie Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone, ( 323) 330-6300
Fax, ( 323 ) 330-6311
Em ail; jl1iia5o, f3law.com
ATT0RNEYSFOR RESPONDENTS

David Mishook
Fagan Filedm an & FuIfiosi LLP
70 Washington Sheet, Suite 205
0akland,Califoin!a 94607
Phone;510,550,8200
Fax;510.550.8211
Em ail; dm ishook5o, f3Iaw,com
ATT0RNEYSFOR RESPONDENTS

❑ BV FACSIM ILE TRANSMISSION from FAX num b
ei ( 213 ) 529-0783 io the fax num bei seifoith above. The facsim ile
machine Ius
edcoin plied with Rule 2003 • 3jandno eiioiwas iepoited by the in achine, Puisuantto Rule 2005•1j, 1caused the
in achine io print atiansm ission fecofd of the tiansm ission, acopy of which is attached io this declaration,
❑ BV MAIL by placing atrue copy theieofenclosed in asealed envelope addressed as seifoith above, lam readily
fain iliac with the firm's practice of collection and processing coiiespondence for in ailing. Undei that practice ii would be
deposited with U. S,posialseivice on thaisam eday with postage thereon fully prepaid aiLos Angeles, Califoin!a in the
oidinaiy course of business. Iam aware that on in otion of pasty served, service is piesum e invalid if postal cancellation date
of postage in eiei date is in ore than one ( 1) day after date of deposit for in ailing in affidavit,
❑ BV PERSONAL SERVICE by delivering acopy of the docum eni•s) by hand io the addressee of Icaused such envelope
10 be delivefed by in essengef of pfocess seivef,
❑ BV EXPRESS SERVICE by depositing in abox of other facility iegulaily in ainiained by the express service cashes of
delivering io an authorized couilei of dilvei authorized by the express service cashes io receive docum ants, in an envelope of
package designated by the express service caiiieiw0 delivery fees paid oipiovided foi,addiessed io the person on whom ii
is 10 be seived,

❑x BV ELECTRONIC TRANSM ISS10N by transmitting aPDFversion of the docum eni•sjby electronic in ailio the paiiy•s)
identified on the service list using the e- mall addiess•es) indicated.
❑x Ideclaie undeipenalty ofpeijuiy undeithe laws of the State ofCallfoinla that the above is true and coffect,
❑ Ideclaie undeipenalty ofpeijuiy undeithe laws of the United States of Am erica that the above is true and coiiect.

25
26

Executed on August 5, 2021 in Los Angeles, California
Adrian aRec
ende
z

27
28
REPLY TO OPPOSITION TO EX PARTE APPLICATION FOR ORDER TO DISQUALIFY LAW FIRM
OF FAGEN, FRIEDMAN & FULFROST, LLP
5

56

EXHIBIT 5

57

1
2
3
4
5
6
7
8
9
10

MARK M. HATHAWAY
(CA 151332; DC 437335; NY 2431682)
JENNA E. PARKER (CA 303560)
HATHAWAY PARKER INC.
445 S. Figueroa Street, 31st Floor
Los Angeles, California 90071
Telephone: (213) 529-9000
Facsimile: (213) 529-0783
E-Mail: mark@hathawayparker.com
E-Mail: jenna@hathawayparker.com
DAN ROTH (CA 270569)
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
Telephone: (510) 849-1389
Facsimile: (510) 295-2680
E-mail: dan@drothlaw.com
Attorneys for Petitioner John Doe

11
12

SUPERIOR COURT OF THE STATE OF CALIFORNIA

13

FOR CONTRA COSTA COUNTY

14
15

JOHN DOE, an individual, minor through his )
parent and next friend JANE DOE,
)

[Hon. Barry Baskin, Dept. 7]
Petitioner,

16
17

V.

18

MEGAN KEEFER, an individual, in her
official capacity as Principal, California High )
School and Title IX Coordinator Designee,
California High School; KEITH ROGENSKI,
an individual, in his official capacity as )
Assistant Superintendent of Human )
Resources; SAN RAMON VALLEY )
UNIFIED SCHOOL DISTRICT, aCalifornia )
corporation; and DOES 1through 20,
inclusive

19
20
21
22
23

Case No.: NC21-1450

AMENDED EX PARTE APPLICATION
FOR STAY OF ADMINISTRATIVE
DECISION PENDING COURT REVIEW OF
WRIT PETITION; DECLARATION;
EXHIBITS
[Proposed Order lodged concurrently]
Date:
Time:
Dept:

August 5, 2021
11:00 a.m.
7

Respondents.

24
25
26
27
28

TO THE COURT AND ALL PARTIES AND THEIR ATTORNEYS:
PLEASE TAKE NOTICE that Petitioner hereby submits his Ex Parte Application For Stay Of
Administrative Disciplinary Action Pending Court Review Of Writ Petition, set for hearing on August 5,
2021 at 11:00 a.m. in Dept. 7before Hon. Barry Baskin.
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
1

58

1

There is urgencv because Respondents issued aTitle IX Emergency Removal of Petitioner

2

from California High School pending aTitle IX investigation that has been on2oin2 for 105 days

3

since April 22, 2021, Respondents notified Petitioner on July 12, 2021 that the Emergency

4

Removal would continue for the new school year, and in-person classes for the Fall 2021 semester

5

are scheduled to start on August 10, 2021'.

6
7

Petitioner is asking for astay of the administrative disciplinary action (or aTRO and OSC re
Preliminary Injunction) until the Court can consider Petitioner's writ petition on the merits.

8

A stay causes Respondents no prejudice while preventing further irrevocable harm to Petitioner.

9

Petitioner's motion is based on the Petition for Writ of Mandate; this application; the supporting

10

memorandum of points and authorities; the declaration of Petitioner; the declaration of Mark M.

11

Hathaway and exhibits thereto, the pleadings, files, and records in this action; and any such argument as

12

may be received by this Court at the hearing on the application.

13
HATHAWAY PARKER

14
15
16

Dated: August 5, 2021

By.
ARK M. HATHNVAY
JENNA E. PARKER

17

Attorneys for Petitioner

18
19
20
21
22
23
24
25
26
27
28
1

https://www.srvusd.net/district/calendar
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
2

59

TABLE OF CONTENTS

I
2
3

I.

INTRODUCTION

7

II. FACTUAL SUMMARY

7

4

A.

PETITIONER BREAKS UP WITH JANE ROE

5

B.

RESPONDENTS IMPROPERLY IMPOSE TITLE IX EMERGENCY REMOVAL .. 8

6

C.

PETITIONER IS INFORMED OF JANE ROE'S FALSE ALLEGATIONS

10

D.

RESPONDENTS ISSUE A ` CORRECTED' BUT STILL IMPROPER NOTICE
OF TITLE IX EMERGENCY REMOVAL

10

7
8
9

E.

11

PETITIONER UNSUCCESSFULLY CHALLENGES THE TITLE IX
EMERGENCY REMOVAL ORDER

10

7

III. REGULATORY AND LEGAL BACKGROUND

11
11

12

A.

TITLE IX

11

13

B.

CALIFORNIA LAW REGARDING STUDENT DISCIPLINE

12

14

C.

DOCTRINE OF JUDICIAL NON-INTERVENTION DOES NOT APPLY.

13

15
16

IV. LEGAL STANDARD FOR STAY UNDER CODE CIV. PROC., § 1094.5(G)
A.

17
18

B.

19

13

STAY SHOULD ISSUE UNLESS RESPONDENTS CAN SATISFY THE
COURT THAT A STAY IS AGAINST PUBLIC INTEREST

13

RESPONDENT'S ADMINISTRATIVE ACTION AFFECTS VESTED
FUNDAMENTAL RIGHTS

15

20

V. ARGUMENT

16

21

A.

RESPONDENTS' ACTIONS AND DECISION ARE INVALID

16

22

1.

A Stay Is Not Against the Public Interest

16

23

2.

Balancing the Potential for Harm and Likelihood c
fPrevailing, aStay Is
ALprcpriate

16

24
25

B.

PROOF OF SERVICE OF APPLICATION FOR STAY

18

26

C.

NO BOND REQUIRED FOR STAY.

18

27

D.

EX PARTE APPLICATION FOR STAY IS PROPERLY BEFORE THE COURT 18

28

V1. CONCLUSION

19

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
3

60

1
2

DECLARATION OF MARK M. HATHAWAY

20

EXHIBITS

22

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
4

61

TABLE OF AUTHORITIES

1

Page(s)

2
Federal Cases

3
4
5

Goss v. Lopez (
1975)
419 U.S. 565
California Cases

6
7
8
9
10
11
12
13
14
15
16
17

Association cf Orange County Deputy Sher,.,fs

County of Orange (
2013)
14

Banks v. Dominican College (1995)
35 Cal.App.4th 1545

13

Berman v. Regents cf University cf Calfornia (
2014)
229 Cal.App.4th 1265

12,14

Board cfMedical Quality Assurance v. SiAperior Court (1980)
114 Cal.App.3d 272

13

Boermeester v. Carry
(Sep. 16, 2020, No. S263180),

Cal.5th

14

Calffornia State Univ., Hayward v. National Collegiate Athletic Ass'n (1975)
47 Cal.App3d 533

16

Canyon Crest Conservancy v. County c
fLos Angeles (
2020)
46 Cal.App.5th 398

19

Collins v. Thurmond (
2019)

21

v.

217 Cal.App.4th 29

18

20

12,17

13

41 Cal.App.5th 879

15

Doe v. Allee (
2019)
30 Cal.App.5th 1036 (
Allee)

14

22
23
24
25
26
27
28

Doe v. Regents cf University cf Calfornia (
2018)
28 Cal.App.5th 44

12

Doe v. University cf Southern Calfornia (
2016)
246 Cal.App.4th 221

12,14

Doe v. University cf Southern Calfornia (
2018)
28 Cal.App.5th 26

14

Doe v. University cf Southern Calfornia (
2018)
29 Cal.App.5th 1212

14

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
5

62

1
2
3
4
5
6
7

Knight v. S. Orange Cmty. Coll. Dist. (
202 1)
60 Cal.App.5th 854
O'Connell v. SiAperior Court (
2006)
141 Cal.AppAth 1452

15

Paulsen v. Golden Gate University (
1979)
25 Cal.3d 803

13

Venice Canals Resident Home Owners Assn. v. SiAperior Court (
1977)
72 Cal.App.3d 675

18

Federal Statutes

8
9

13,17

20 U.S.C.
§§ 1681-1688

11

10
11

Title IX
California Statutes

12
13
14
15
16

passim

Code Civ. Proc.
§1021.5

15

§1085
§1086

7,16
15

§1094.5
§1094.5 (a)-(c)
§1094.5 subd.(g)

passim
12
7

17
18

Govt. Code
§800

19
20

15
Other Authorities

(34 C.F.R. § 106.)

12

(85 Fed. Reg. 30225.)

17

Fourteenth Amendment

12

24

Cal. Rules of Ct., Rule 3.1200 et seq.

18

25

Cal. Rules of Ct., Rule 3.1202

18

26

Cal. Rules of Ct., Rule 3.1203

18

Cal. Rules of Ct., Rule 3.1204

18

21
22
23

27
28

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
6

63

1
2

MEMORANDUM OF POINTS AND AUTHORITIES
I.

INTRODUCTION

3

Petitioner, through his Guardian ad litem, is a15-year-old first-year student at California High

4

School. In April 2021, Petitioner broke up with his short-term girlfriend, Jane Roe, who pleaded with

5

him not to break up with her. A few days later, Petitioner was verbally informed by Respondent Megan

6

Keefer that Jane Roe was accusing Petitioner of sexually assaulting her after they broke up. The

7

allegations are completely fabricated, and Petitioner has had no contact with Jane Roe since they broke

8

up, except for one time when he offered her his hand to help her get up from sitting on the floor. Based

9

solely on Jane Roe's allegations, Respondent Megan Keefer imposed aTitle IX Emergency Removal on

10

Petitioner, and he has not been allowed to return to in-person education programs or activities since.

11

One hundred and five days later, aTitle IX investigation is supposedly still ongoing, though Petitioner

12

has received few updates and been provided with limited evidence gathered by Respondents. (
Exhibit 6,

13

attached hereto.)

14

In-person classes at California High School are scheduled to begin in just afew days on August 10,

15

2021. There is no emergency, and Petitioner does not now present, and has not ever presented an

16

immediate threat to the physical health or safety of any student or other individual. On July 12, 2021,

17

however, Respondents notified Petitioner that the Emergency Removal decision would continue for the

18

new school year. (
Exhibit 7.)

19

Petitioner petitions for writ of mandate under Code Civ. Proc., § 1094.5, or in the alternative under

20

Code Civ. Proc., § 1085, directed to Respondents in order to redress their improper Title IX Emergency

21

Removal order, which is now final. By this stay motion, Petitioner seeks astay to avoid the irreparable

22

harm caused by the lengthy separation from his academics and damage to his reputation. A stay is not

23

against the public interest. (Code Civ. Proc., § 1094.5 subd. (g).) There is clear evidence of irreparable

24

harm if the stay is denied, and colorable claim for writ relief and some likelihood that Petitioner will

25

prevail on the merits

26

II.

27

FACTUAL SUMMARY 2
A. PETITIONER BREAKS UP WITH JANE ROE

28
2

The factual summary is taken from Petitioner's verified Petition for Writ of Mandate at pages 6-12.
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
7

64

1

Petitioner John Doe dated classmate Jane Roe from approximately March 17, 2021, until April 13,

2

2021. After school on Tuesday, April 13, 2021, Petitioner informed Jane Roe via text messages that he

3

did not love her and was breaking up with her. Jane Roe did not want to break up, and asked to talk, but

4

Petitioner reiterated that he was "done with this relationship." (
Exhibit 6, p. 26.)

5

At 7:37 p.m. on April 13, 2021, Jane Roe sent text messages to Petitioner pleading, "No [John]

6

please, Ican change" and "Iknow how to." Jane Roe sent aseries of text message to Petitioner saying,

7

"Please don't do this. Ilove aaka love ualot. And Ineed u. [John] please talk to me what did Ieven

8

do." (
Exhibit 6, p. 26-27.)

9
10
11
12
13

At 7:40 p.m., Petitioner responded, "we've been talking about this, please don't beg me it's not
changing my mind, I'm done with this relationship. Ihave to go." (
Exhibit 6, p. 27.)
At 7:41 p.m., Jane Roe responded "No [John] please. Ihave been there for u. And Ineed ain my
fucking life. And Ilike ahella." (
Exhibit 6, p. 27.)
At 7:42 p.m., Petitioner wrote "you don't need me in your life to live." Jane Roe responded, "Ido, u

14

have been there for me. And you always loves (sic) me. Loved. Cared about me. And never gave up on

15

me." (
Exhibit 6, p. 28.)

16

At 7:58 p.m., Petitioner texted Jane Roe, "we are done". (
Exhibit 6, p. 28.)

17

The only time after April 13, 2021, that Petitioner had any physical contact with Jane Roe was two

18

days later, on April 15, 2021, when he offered her his hand to help her get up from sitting on the floor.

19

Petitioner never had any nonconsensual physical contact with Jane Roe. (
Exhibit 6, p. 28.)

20

B. RESPONDENTS IMPROPERLY IMPOSE TITLE IX EMERGENCY REMOVAL

21

On Thursday, April 22, 2021, Petitioner was removed from classroom instruction at California High

22

School. Respondent Megan Keefer called Petitioner into her office and verbally informed him generally

23

that Jane Roe had alleged that during asupport period after their Theater class on April 15, 2021,

24

Petitioner had sexually assaulted her. (
Exhibit 6, p. 28.) Petitioner denied that allegation. (
Id.)

25

Respondent Megan Keefer then left the room and returned moments later with a "Notice of Title IX

26

Emergency Removal of Student" dated April 22, 2021, which reads,

27

Dear [Petitioner],

28
On April 22, 2021, the San Ramon Valley Unified School District ("District")
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
8

65

1
2
3
4

received allegations of Title IX Sexual Harassment against you.
In response to the initial allegations, the District has undertaken an individualized
safety and risk analysis and has determined that you pose an immediate threat to
the physical health or safety of a student or other individual arising from the
allegations of Title IX Sexual Harassment. The specific reasons for the decision
are: substantial evidence leading to allegations of sexual assault(s) to students while
on campus.

5
6
7
8
9
10
11
12
13
14
15
16

Accordingly, the District has determined that you should be removed from the
District's education program or activity on an emergency basis under Title IX of
the Education Amendments of 1972 and its implementing regulations.
The Title IX Coordinator will notify the Board of Education of its determination
that you are eligible for aTitle IX emergency removal and should not be allowed
to participate in the the (sic) District's education programs or activities until after
the investigation into the allegations of Title IX Sexual Harassment concludes.
No person is permitted to intimidate, threaten, coerce, or discriminate against any
individual for the purpose of interfering with any right or privilege secured by Title
IX, or because the individual has made areport or complaint, testified, assisted, or
participated or refused to participate in any manner in the Title IX procedures. If
any individual is harassed or intimidated because of filing a complaint or
participating in any aspect of the District's Title IX Sexual Harassment Complaint
Procedures, that individual may file acomplaint alleging such treatment using the
District's Board Policy. See attached copies and links:
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/1050532/

17
18

http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/1050533/

19

http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/1050895/

20

You can challenge this emergency removal decision under Title IX by contacting
Megan Keefer.

21
22

Sincerely,

23

Title IX Coordinator Designee
(Exhibit 8.)

24
25

Petitioner was required to leave school immediately and was told not to return. (
Id.) Petitioner was

26

not provided any information about how he was supposed to complete his schoolwork until Monday,

27

April 26, 2021. Petitioner was told that he would need to personally contact his teachers to get

28

assignments and instructions. Petitioner was not provided any results or analysis from any

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
9

66

1

individualized safety and risk analysis.

2
3
4
5
6
7
8
9
10
11

C. PETITIONER IS INFORMED OF JANE ROE'S FALSE ALLEGATIONS
On April 26, 2021, after Respondents imposed the Title IX Emergency Removal on Petitioner, a
Formal Complaint was filed by Jane Roe against Petitioner under the District's Title IX Sexual
Harassment Complaint Procedures. The Formal Complaint, which Petitioner was first provided on July
13, 2021, alleges:
On April 15, 2021, Respondent sexually assaulted and sexually harassed
Complainant during fifth period theater class by kissing her on her mouth and neck
without her consent, fondling her breasts without her consent, fondling and
penetrating her vulva and vagina without her consent, and forcing her to touch his
penis under his clothing by forcing her hand into his pants without her consent.
(Exhibit 1.)

12
13
14
15
16
17
18
19
20
21
22

Petitioner continues to deny the false and salacious allegations levelled by Jane Roe after Petitioner
broke up with her and she pleaded with him to take her back, but he declined. There is no evidence to
support that Petitioner and Jane Roe resumed adating or intimate relationship after they broke up after
school on April 13, 2021. Petitioner and Jane Roe never had any intimate contact on school grounds,
other than kissing while they were dating. (
Exhibit 6, p. 30.)
D. RESPONDENTS ISSUE A ` CORRECTED' BUT STILL IMPROPER NOTICE OF
TITLE IX EMERGENCY REMOVAL
On May 7, 2021, Respondent Megan Keefer issued a "CORRECTED Notice of Title IX Emergency
Removal of Student." (
Exhibit 3.) The only change to the document is the purported justification for
the Title IX Emergency Removal. Respondent Megan Keefer characterized the initial explanation in the

23

April 22, 2021 "Notice of Title IX Emergency Removal of Student" as a "typographical error." The

24

"corrected" version explains, "The specific reasons for the decision are: substantial allegations of sexual

25
26
27
28

assault(s) to students while on campus." (
Id.) The phrase, "substantial allegations of sexual assault(s) to
students while on campus" appears to be nonsensical and devoid of any actual meaning. The
"CORRECTED Notice of Title IX Emergency Removal of Student" still articulates no "genuine
emergency" involving anyone's physical health or safety that would justify aTitle IX Emergency
Removal of Petitioner from the District's education programs or activities.
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
10

67

1

E. PETITIONER UNSUCCESSFULLY CHALLENGES THE TITLE IX

2

EMERGENCY REMOVAL ORDER

3
4

On May 17, 2021, Petitioner's advisor requested ameeting to challenge the Title IX Emergency
Removal. (
Exhibit 4, p. 1.)

5

On May 19, 2021, Petitioner was permitted to make astatement and present information to challenge

6

the determination of "substantial allegations of sexual assault(s) to students while on campus." (
Id.)

7

Petitioner again denied the allegations, asserted that he does not pose adanger to anyone, and submitted

8

asigned declaration under penalty of perjury attesting that Jane Roe's allegations are "completely false."

9

(Id.; see also Exhibit 6, pp. 26-30.)

10

On May 21, 2021, Respondent Megan Keefer issued an "Outcome of Challenge to Title IX

11

Emergency Removal of Student," upholding her own Title IX Emergency Removal decision. (
Exhibit

12

4.) By challenging the Title IX Emergency Removal decision, Petitioner has exhausted his

13

administrative remedies. Petitioner has no further avenue of administrative appeal to challenge

14

Respondents' decision regarding the Title IX Emergency Removal.

15

Of note, on June 2, 2021, Jane Roe changed her allegations and claimed that the alleged conduct had

16

occurred on April 13, 2021, the day she and Petitioner broke up. (
Exhibit 1, p. 1.)

17

III.

REGULATORY AND LEGAL BACKGROUND

18
19

A. TITLE IX
At the federal level the issue of sexual misconduct on in schools is primarily addressed by Title IX

20

of the Education Amendments of 1972, 20 U.S.C. §§ 1681-1688. The Education Amendments of 1972

21

prohibit discrimination based on sex under any educational program activity receiving federal financial

22

assistance. Specifically, the legislation known as Title IX of the Education Amendments of 1972

23

provides:

24

No person in the United States shall, on the basis of sex, be excluded from

25

participation in, be denied the benefits of, or be subjected to discrimination
under any education program or activity receiving Federal financial

26

assistance.... (20 U.S.C. § 1681(a).)

27
28

On August 14, 2020, the Department of Education amended the regulations implementing Title IX
("Regulations") to specify how recipients of Federal financial assistance covered by Title IX must
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
11

68

1

respond to allegations of sexual harassment and misconduct consistent with Title IX's prohibition

2

against sex discrimination. (34 C.F.R. § 106.)

3

The Regulations require every school that receives federal funds to adopt and publish grievance

4

procedures that provide for the prompt and equitable resolution of student and employee complaints

5

alleging sexual harassment, which encompasses sexual assault, dating violence, domestic violence, and

6

stalking. "A recipient [of federal funding] with actual knowledge of sexual harassment in an education

7

program or activity of the recipient against aperson in the United States, must respond promptly in a

8

manner that is not deliberately indifferent." The fundamental principle of such asystem is that it be

9

"prompt and equitable."

10

B. CALIFORNIA LAW REGARDING STUDENT DISCIPLINE

11

"The Fourteenth Amendment forbids the State to deprive any person of life, liberty, or property

12
13

without due process of law." (
Goss v. Lopez (
1975) 419 U.S. 565, 572.)
California law does not require any specific form of disciplinary hearing; however, aschool is bound

14

by its own policies and procedures (
Berman v. Regents cf University cf Calfornia (
2014) 229

15

Cal.App.4th 1265, 1271-72) and the disciplinary hearing must comply with the fair hearing requirements

16

of Code Civ. Proc., § 1094.5. (
Doe v. University cf Southern Calfornia (
2016) 246 Cal.App.4th 221,

17

245-246.) Code Civ. Proc., § 1094.5 requires that ( 1) there be " afair trial," which "means that there

18

must have been ` afair administrative hearing"'; (2) the proceeding be conducted "in the manner

19

required by law"; (3) the decision be "supported by the findings"; and (4) the findings be "supported by

20

the weight of the evidence," or where an administrative action does not affect vested fundamental rights,

21

the findings must be "supported by substantial evidence in the light of the whole record.

22

Proc., § 1094.5 (a)-(c).) The California Court of Appeal recently described the process due to students

23

before auniversity may impose severe discipline:

24
25
26
27
28

,3

(
Code Civ.

The most recent consensus appears to be that a student facing suspension or
expulsion for nonconsensual sexual activity has the right to notice of the charges.
(See, e.g., Doe v. University cf Southern Calfornia, siApra, 246 Cal.App.4th at p.
241.) The school must follow its own policies and procedures. (See, e.g., Doe v.
Regents cf University cf Calfornia (
2016) 5Cal.App.5th 1055, 1078.) The accused

3 The Court may refrain from evaluating the sufficiency of evidence if there are errors in the
administrative process. (
Doe v. Regents cfUniversity (- fCal, fornia (
2018) 28 Cal.App.5th 44, 61.)

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
12

69

student must have access to the evidence. (See Doe v. Regents cf University (f
Calfornia (
2018) 28 Cal.App.5th 44, 57.) There must be an in-person hearing,

1

including testimony from the parties and witnesses. (See, e.g., Doe v. Westmont
College (
2019) 34 Cal.App.5th 622, 637.) In addition, because most cases turn on

2
3

credibility (he-said, she-said), the adjudicator or adjudicators must be able to see
the parties' testimony and the testimony of important witnesses so their demeanor

4

may be observed, and the accused student must have an opportunity for crossexamination. (See Doe v. Allee (
2019) 30 Cal.App.5th 1036, (
Allee); Doe v.
Occidental College (
2019) 40 Cal.App.5th 208, 224; Doe v. University (f Southern

5
6

Calfornia, siApra, 29 Cal.App.5th at p. 1237.) He must also have "` a full
opportunity to present his defenses.' [Citation.]" (
Doe v. Regents cf University (f

7

Calffornia, siApra, 5Cal.App.5th at p. 1104; see also Doe v. Claremont McKenna

8

College, siApra, 25 Cal.App.5th at p. 1070.)

9

Knight v. S. Orange Cmty. Coll. Dist. (
2021) 60 Cal.App.5th 854, 866.

10
11

C. DOCTRINE OF JUDICIAL NON-INTERVENTION DOES NOT APPLY.

12

The doctrine of judicial nonintervention into the academic affairs of schools does not apply in

13

instances of non-academic affairs, such as this Title IX/student conduct proceeding at California High

14

School. (See Banks v. Dominican College (1995) 35 Cal.AppAth 1545; Paulsen v. Golden Gate

15

University (1979) 25 Cal.3d 803.)

16

IV.

17
18

LEGAL STANDARD FOR STAY UNDER CODE CIV. PROC., § 1094.5(G)
A. STAY SHOULD ISSUE UNLESS RESPONDENTS CAN SATISFY THE
COURT THAT A STAY IS AGAINST PUBLIC INTEREST

19

California's statutory framework provides that in awrit of mandate matter acourt "may stay the

20

operation of the administrative order or decision pending the judgment of the court" unless the court

21

finds that astay would be contrary to the public interest. (Code Civ. Proc., § 1094.5 (g).)

22

(g) requires only that before the issuance of astay order "the court [be] satisfied that it is [not] against

23

the public interest.

24

grant the stay. (
Canyon Crest Conservancy v. County cf Los Angeles (
2020) 46 Cal.App.5th 398, 407.)

25

If the Legislature had intended to require the trial court to make further findings to issue astay, the

,4

Subdivision

The statute does not require the court to make any additional findings in order to

26
27
28

4 Code Civ. Proc., § 1094.5 provides two standards for astay; Code Civ. Proc., § 1094.5, subd. (h),
which is applicable to applications for stay orders of state agencies regulating the medical profession,

and Code Civ. Proc., § 1094.5, subd. (g), which is generally applicable for stay orders of other state
agencies. (
Board (- fMedical Quality Assurance v. SiAperior Court (
1980) 114 Cal.App.3d 272, 276.)
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
13

70

1

Legislature would have included such language in Code Civ. Proc., § 1094.5, subd. (g).

2

Petitioners have no further burden for the stay, not required by the plain language of the statute, such

3

as meeting the burden for issuance of apreliminary injunction or being required to establish that the stay

4

is in the public interest as opposed to the Respondent having to satisfy the court that the stay is against

5

the public interest. (Code Civ. Proc., § 1094.5, subd. (g).)

6

Without astay, Petitioner will suffer the lasting and irreparable consequences of the Title IX

7

Emergency Removal order, including the lengthy separation from his high school educational programs

8

and activities and the ongoing damage to his reputation, even if he ultimately prevails in the

9

administrative proceeding. On the other hand, if the evidence warrants asanction, up to and including a

10

suspension or expulsion, Respondents can impose asanction at the proper time. (See, Doe v. University

11

cf Southern Calfornia (
2018) 28 Cal.App.5th 26, 31-32; see also Doe v. University cf Southern

12

Calfornia (
2016) 246 Cal.AppAth 221, 237 (stay was denied in 2014 and student served entire

13

suspension sanction before USC's administrative order was set aside in April 2016); Doe v. Allee

14

(2019) 30 Cal.App.5th 1036 (USC's administrative decision ordered set aside after 43 months, 23 days);

15

Doe v. University cf Southern Calfornia (
2018) 29 Cal.App.5th 1212 (USC's administrative decision

16

ordered set aside after 48 months, 29 days); Doe v. University (fSouthern Calffornia (
2018) 28

17

Cal.App.5th 26 (USC's administrative decision upheld after 32 months 12 days); Doe v. Carry (USQ

18

(Jan. 8, 2019, No. 13282164) (USC's administrative decision set aside after 44 months, 1day): Doe v.

19

Carry (USQ (
Feb. 14, 2020, No. 13284183) (USC's administrative decision set aside after 52 months, 28

20

days); See, Boermeester v. Carry (
Sep. 16, 2020, No. 5263180),

21

granted September 16, 2020 (Writ supersedeas granted in part by Court of Appeal); Berman v. Regents

22

cf University cf Calfornia (
2014) 229 Cal.AppAth 1265, 1271 (stay of disciplined granted pending

23

resolution of the appeal.))

Cal.5 th

, petition for review

24

The Court's ruling on aparty's application or motion for stay rests in the discretion of the Court.

25

(Code Civ. Proc., § 1094.5(g).) This is not apreliminary injunction so at this initial stage of the writ

26

proceeding, Petitioner does not need to show that he is likely to prevail on the merits at trial but should

27

have "acolorable claim for writ relief' i.e. there is some possibility that he will ultimately prevail.

28

(Association cf Orange County Deputy Sher,,
)
fs

v.

County cf Orange (
2013) 217 Cal.AppAth 29, 49.) In

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
14

71

1

this case, no evidence has been produced to support the need for Petitioner's Emergency Removal from

2

high school. There is no evidence that he poses an immediate threat to the physical health or safety of

3

any student or other individual. Petitioner has least acolorable claim for writ relief, if not astrong

4

likelihood of success on the merits.

5
6

B. RESPONDENT'S ADMINISTRATIVE ACTION AFFECTS VESTED
FUNDAMENTAL RIGHTS.

7

Respondents' administrative process affects Petitioner's right to his public education. "California

8

has enshrined the right to education within its own Constitution. Accordingly, "established California

9

case law holds that there is afundamental right of equal access to public education, warranting strict

10

scrutiny of legislative and executive action that is alleged to infringe on that right." (
O'Connell v.

11

SiAperior Court (
2006) 141 Cal.App.4th 1452, 1465.)" (
Collins v. Thurmond (
2019) 41 Cal.App.5th

12

879, 896.)

13

Respondents' actions and decision deprive Petitioner of his fundamental vested right to public

14

education; therefore, the reviewing court must exercise its independent judgment to independently

15

weigh the evidence pursuant to Code Civ. Proc., § 1094.5, subd. (c).

16

Petitioner has no plain, speedy, and adequate remedy in the ordinary course of law, other than the

17

relief sought in this petition. "The writ must be issued in all cases where there is not aplain, speedy, and

18

adequate remedy, in the ordinary course of law. It must be issued upon the verified petition of the party

19

beneficially interested." (Code Civ. Proc., § 1086.)

20

Respondents' issuance of aTitle IX Emergency Removal order without any evidence that Petitioner

21

poses an immediate threat to the physical health or safety of any student or other individual is arbitrary

22

and capricious.

23

Petitioner brings this action not only for his own interest, but to protect the rights of other individuals

24

and members of the public who have been subjected to wrongful and unfair disciplinary proceedings at

25

their public high school in California.

26

Petitioner is obligated to pay an attorney for legal services to prosecute this action. Petitioner may be

27

entitled to recover attorney's fees as provided in Code Civ. Proc., § 1021.5, or alternatively Govt. Code,

28

§800, if Petitioner prevails in the within action.
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
15

72

1
2

V.

ARGUMENT
A. RESPONDENTS' ACTIONS AND DECISION ARE INVALID

3

Respondents' actions and decision are invalid under Code Civ. Proc., § 1094.5. and alternatively,

4

Code Civ. Proc., § 1085, as Respondents have presented no evidence of agenuine emergency involving

5

the physical health or safety of any individuals. Jane Roe's uncorroborated, self-serving allegations are

6

not sufficient to support Respondents' indefinite removal of Petitioner from in-person education

7

programs and activities.

8

1.

9

A Stay Is Not Against the Pubic Interest

While it may be true that aschool has an interest in ensuring that its campus is asafe place for

10

students and employees, the evidence does not support that astay would interfere with that interest.

11

Respondents have presented no evidence of agenuine emergency involving the physical health or safety

12

of any individuals. Jane Roe's uncorroborated, self-serving allegations are not sufficient to support

13

Respondents' indefinite removal of Petitioner, a15-year-old student, from in-person education programs

14

and activities. If unsupported allegations could justify astudent's removal from high school, then any

15

student could have their enemies and ex-partners removed from school simply by reporting afalse Title

16

IX allegation. Respondents did not conclude in their Title IX Emergency Removal orders that there was

17

agenuine emergency situation involving the physical health of safety of anyone to justify aTitle IX

18

Emergency Removal of Petitioner from the District's in-person education programs and activities. (See

19

Exhibit 3, Exhibit 8.) Respondents concluded only, "substantial allegations of sexual assault(s) to

20

students while on campus," whatever that means. (
Exhibit 3.) In the past 105 days, Respondents have

21

presented no evidence demonstrating any "emergency" justifying Petitioner's continued removal from

22

his public education. Respondents cannot meet their burden to show that astay is against the public

23

interest.

24
25
26

2.

Balancing the Potential for Harm and Like)ihood ofPrevaiJing, aStay Is
Appr6printe

The inquiry for the court at this stage is whether the harm that Petitioner will suffer during the

27

pendency of the case if the motion is not granted exceeds any harm to the respondent, or to third parties,

28

during the period in question if the preliminary injunction is imposed. (
California State Univ., Hayward
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
16

73

1

v. National Collegiate Athletic Assn (1975) 47 Cal.App3d 533, 544.) The harm to Petitioner caused by

2

the improper disciplinary action is the needless separation from his peers, teachers, and academic

3

programs and activities, and harm to his reputation. (See Goss v. Lopez (
1975) 419 U.S. 565, 589.)

4

There is no harm to Respondents, or to third parties, to stay the proceedings until the writ petition

5

can be decided on the merits. If Respondents had evidence of atrue emergency situation or an

6

identifiable and immediate threat to the physical health or safety of any student arising from the

7

allegations, it would have produced such evidence by now, 105 days after the investigation commenced.

8

Petitioner is likely to prevail on the merits of his action. Pursuant to the Federal Regulations, aTitle

9

IX Emergency Removal may only be implemented in cases of "genuine emergencies involving the

10

physical health or safety of one or more individuals." (85 Fed. Reg. 30225.) In its Title IX Emergency

11

Removal order, Respondents did not conclude that there was agenuine emergency involving the

12

physical health of safety of anyone to justify removing Petitioner from the District's education programs

13

or activities. (See Exhibit 3, Exhibit 8.) There is no evidence of a "genuine emergency" involving

14

physical health or safety. Under the District's Procedures, there must be an identified "immediate threat

15

to the physical health or safety of any student or other individual arising from the allegations." (
Exhibit

16

2, p. 4.) Respondents did not identify any "immediate threat" to anyone's physical health or safety

17

which would justify aTitle IX Emergency Removal of Petitioner from the District's in-person education

18

programs or activities

19

Even after correcting the Title IX Emergency Removal order, Respondents still cannot identify any

20

"immediate threat" to anyone's physical health or safety to justify the Title IX Emergency Removal of

21

Petitioner from the District's education programs or activities. (
Exhibit 3.) There is no evidence to

22

support that Petitioner and Jane Roe resumed adating or intimate relationship after they broke up in the

23

early morning on April 13, 2021. Petitioner and Jane Roe never had any intimate contact on school

24

grounds, other than kissing while they were dating. (
Exhibit 6, p. 30.)

25

In continuing to place unnecessary restrictions on Petitioner, Respondents have deprived Petitioner

26

the right to due process, including the right to respond to evidence; the right to ahearing; and the right to

27

cross-examine Jane Roe and witnesses before aneutral adjudicator. (
Knight v. S. Orange Cm/y. Coll.

28

Dist. (
2021) 60 Cal.App.5th 854, 866.)

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
17

74

1
2
3
4
5

B. PROOF OF SERVICE OF APPLICATION FOR STAY
As required by Code Civ. Proc., § 1094.5, Petitioner's application for the stay is accompanied by
proof of service of acopy of the application on Respondents.
C. NO BOND REQUIRED FOR STAY.
The statute empowering the court to stay the operation of administrative decisions pending judgment

6

in mandate proceedings does not require the petitioner to file abond or undertaking as acondition of

7

obtaining astay order. (Venice Canals Resident Home Owners Assn. v. SlAperior Court (1977) 72

8

Cal.App.3d 675, 679, see Code Civ. Proc., § 1094.5 subd. (g) [stay of administrative decision].)

9

D. EX PARTE APPLICATION FOR STAY IS PROPERLY BEFORE THE

10
11

COURT.
Ex parte applications are governed generally by Cal. Rules of Ct., Rule 3.1200 et seq. An ex parte

12

application must be in writing and must include the following: ( 1) An application containing the case

13

caption and stating the relief requested; (2) adeclaration in support of the application; (3) adeclaration,

14

competent and abased on personal knowledge, regarding the notice provided to other parties pursuant to

15

Cal. Rules of Ct., Rule 3.1204; (4) amemorandum; and (5) aproposed order. Here, Petitioner has filed

16

the required ex parte application documents. Under Cal. Rules of Ct., Rule 3.1202, the ex parte

17

application must state the name, address, and telephone number of any attorney known to the applicant

18

to be an attorney for any party. The names, addresses and telephone numbers are below:

19

Jacqueline M. Litra
Fagen Friedman & Fulfrost LLP

David Mishook
Fagen Friedman & Fulfrost LLP

6300 Wilshire Blvd Ste 1700
Los Angeles, CA 90048-5219

70 Washington Street, Suite 205
Oakland, California 94607

22

Phone: (323) 330-6300
Fax: (323) 330-6311

Phone: 510.550.8200
Fax: 510.550.8211

23

Email: jlitra@f3law.com
ATTORNEYS FOR RESPONDENTS

Email: dmishook@f3law.com
ATTORNEYS FOR RESPONDENTS

20
21

24
25
26
27
28

Pursuant to Cal. Rules of Ct., Rule 3.1203, the party seeking an ex parte order must notify all parties
no later than 10:00 a.m. the court day before the ex parte appearance, absent ashowing of exceptional
circumstances that justify ashorter time for notice. All parties were notified, as shown in the
Declaration of Mark Hathaway, ¶ 1.
AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
18

75

1
2
3

VI.

CONCLUSION
Based on the foregoing, Petitioner respectfully requests that this Court issue astay of the Title IX

Emergency Removal order.

4

HATHAWAY PARKER

5
6
7
8

DATED: August 5, 2021

By:
RK M. HATH ,

it

AY

JENNA E. PARKER
Attorney for Petitioner

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
19

76

DECLARATION OF MARK M. HATHAWAY

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

I, Mark M. Hathaway, declare:
Iam an attorney admitted to practice in all courts in the State of California, the State of Illinois, the
State of New York, and the District of Columbia and am aCertified Specialist in Taxation Law by the
California State Bar Board of Legal Specialization. Iam responsible for representation of Petitioner in
this matter. Ihave personal and first-hand knowledge of the facts set forth in this Declaration, unless
otherwise stated, and, if called as awitness, Icould and would testify competently to those facts.
1.

On Wednesday August 4, 2021, before 10:00 a.m. Ihave been in contact via telephone and email

with counsel for Respondents and gave notice that Petitioner is proceeding with his ex parte application
for stay on Thursday, August 5, 2021 at 11:00 a.m. in Dept. 7. Counsel for Respondents replied and
stated that Respondents will appear at the hearing and oppose the stay application.
2.

Attached hereto as Exhibit 1is atrue and correct redacted copy of the Amended Notice of

Allegations of Title IX Sexual Harassment by aComplainant. Redactions have been made to protect the
true names of Jane Roe and Petitioner.
3.

Attached hereto as Exhibit 2is atrue and correct copy of the Title IX Sexual Harassment

Procedures of the San Ramon Unified School District.
4.

Attached hereto as Exhibit 3is atrue and correct redacted copy of the Corrected Copy of Title

IX Emergency Removal. Redactions have been made to protect the true name of Petitioner.
5.

Attached hereto as Exhibit 4is atrue and correct redacted copy of Outcome of Challenge to Title

IX Emergency Removal of Student Redactions have been made to protect the true name of Petitioner.
6.

Attached hereto as Exhibit 5is atrue and correct copy of the redacted Notice of Access to

Directly Related Evidence. Redactions have been made to protect the true names of Jane Roe and
Petitioner.
7.

Attached hereto as Exhibit 6is atrue and correct redacted copy of the Updated Evidence Packet

dated July 15, 2021. Redactions have been made to protect the true names of Jane Roe and Petitioner.
8.

Attached hereto as Exhibit 7is atrue and correct redacted copy of an email message from

Jacqueline M. Litra, dated July 12, 2021 regarding the status of the Emergency Removal and its
continuation. Redactions have been made to protect the true name of Petitioner.

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
20

77

1

9.

Attached hereto as Exhibit 8is atrue and correct redacted copy of the initial Notice of Title IX

2

Emergency Removal of Student, dated April 22, 2021. Redactions have been made to protect the true

3

name of Petitioner.

4
5
6

Ideclare under the penalty of perjury in the State of California that the foregoing is true and correct.
Signed in Los Angeles, California.
Date: August 5, 2021

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
21

78

1

EXHIBITS

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
22

79

Exhibit 1

80

San Ramon Unified School District
June 3, 2021
Via Electronic Mail Simultaneously to Both Parties
Re:

Amended Notice of Allegations of Title IX Sexual Harassment by a
Complainant

Dear Complainant and Respondent:
On April 26, 2021, aFormal Complaint was filed by Name Redatced ("Complainant")
against _
Petiilc er (" Respondent") under the San Ramon Valley Unified School District's
("District") Title IX Sexual Harassment Complaint Procedures.' The Formal Complaint alleges:
• On April 15, 2021, Respondent sexually assaulted and sexually harassed Complainant
during fifth period theater class by kissing her on her mouth and neck without her consent,
fondling her breasts without her consent, fondling and penetrating her vulva and vagina
without her consent, and forcing her to touch his penis under his clothing by forcing her
hand into his pants without her consent.
On June 2, 2021, Complainant notified the investigator that the alleged conduct occurred on April
13, 2021. Accordingly, the allegation is amended as follows:
• On April 13, 2021, Respondent sexually assaulted and sexually harassed Complainant
during fifth period theater class by kissing her on her mouth and neck without her consent,
fondling her breasts without her consent, fondling and penetrating her vulva and vagina
without her consent, and forcing her to touch his penis under his clothing by forcing her
hand into his pants without her consent.
If, during the course of the investigation, the District determines additional allegations
regarding Complainant or Respondent need to be investigated, the Title IX Coordinator will notify
the parties of the additional allegations.
Educational institutions subject to Title IX of the Education Amendments of 1972 and its
implementing regulations must respond without deliberate indifference and using the Title IX
Sexual Harassment Grievance Process in the District's Title IX Sexual Harassment Complaint
Procedures to address allegations of " Title IX Sexual Harassment," as that term is defined in the
Title IX regulations and the District's Title IX Sexual Harassment Complaint Procedures. This
Any allegations not rising to the level of Title IX Sexual Harassment, as defined in 34 CFR 106.30, will be
simultaneously investigated to determine whether any violations of other District Board Policies ("BP") or
Administrative Regulations ("AR") have occurred, including, but not limited to, BP/ AR 5145.7, Sexual Harassment,
and BP/ AR 5131.2, Bullying.
i

Amended Notice of Allegations (6/3/2021)
Exhibit 1. Page 1

81

1

includes investigating formal complaints containing allegations of Title IX Sexual Harassment
under the District's Title IX Sexual Harassment Complaint Procedures.
The District has determined that the alleged conduct, if true, would constitute Title IX
Sexual Harassment and, therefore, is within the scope of the District's Title IX Sexual Harassment
Complaint Procedures. As such, the District will investigate the Formal Complaint under its Title
IX Sexual Harassment Complaint Procedures. A copy of which is enclosed with this letter.
The investigation of the Formal Complaint in no way implies that the District has made a
decision on the merits of the allegations in the Formal Complaint. Respondents are presumed to
be not responsible for Title IX Sexual Harassment until the conclusion of the Title IX Sexual
Harassment Complaint Procedures. Only after the District has investigated the Formal Complaint
in accordance with its Title IX Sexual Harassment Complaint Procedures, including reviewing any
applicable evidence, will it make adetermination regarding responsibility.
During the investigation, the District will serve as aneutral fact finder, collecting relevant
evidence. During the investigation, the burden of gathering evidence sufficient to reach a
determination regarding responsibility rests on the District and not on the parties. The following
individuals will serve as the Title IX team for this Formal Complaint:
• Title IX Coordinator:

Ken Nelson, Director of Student Services
San Ramon Valley Unified School District
KNelson@a,srvusd.net
(925) 552-5052

• Investigator:

Alejandra Leon, Attorney
Fagen, Friedman & Fulfrost, LLP

• Decisionmaker:

Katy McCully Merrill, Attorney,
Fagen, Friedman & Fulfrost, LLP

• Appellate Decisionmaker:

Vanessa Lee, Attorney
Fagen, Friedman & Fulfrost, LLP

If you have any concerns regarding conflict of interest or bias regarding any of these individuals,
please notify the Title IX Coordinator immediately.
The District's Title IX Sexual Harassment Complaint Procedures contain afull summary
of your rights and responsibilities during the District's processing of the Formal Complaint. These
include, but are not limited to, the right of the parties to review any evidence obtained as part of
the investigation that is directly related to the allegations raised in the Formal Complaint, including
evidence upon which the District does not intend to rely in reaching adetermination regarding
responsibility and inculpatory or exculpatory evidence whether obtained from aparty or other
source so that you can meaningfully respond to the evidence prior to conclusion of the
investigation.

Amended Notice of Allegations (6/3/2021)
Exhibit 1. Page 2

82

You may have an advisor of your choice, who may be, but is not required to be, an attorney,
and who may accompany you to any related meeting or proceeding and who may act as your
support person during investigation interview(s), review evidence collected, and assist with
examination questions, subject to restrictions applicable to both parties that will be explained to
you during this process.
The District prohibits knowingly making false statements or knowingly submitting false
information during the Title IX Sexual Harassment Complaint Procedures. No person is permitted
to intimidate, threaten, coerce, or discriminate against any individual for the purpose of interfering
with any right or privilege secured by Title IX, or because the individual has made areport or
complaint, testified, assisted, or participated or refused to participate in any manner in an
investigation, proceeding, or hearing under the District's Title IX policies or procedures. If any
individual is harassed or intimidated because of filing acomplaint or participating in any aspect of
the District's Title IX Sexual Harassment Complaint Procedures, that individual may file a
complaint alleging such treatment using The District's Board Policy and Administrative
Regulation 1312.3, Uniform Complaint Procedure.
This Formal Complaint is eligible for the District's Title IX informal resolution process at
any time prior to adetermination being reached in this matter. In informal resolution, the District
appoints atrained employee or contractor to facilitate the resolution of the Formal Complaint by
providing an opportunity for the parties involved to voluntarily resolve the complaint allegations.
Additional information regarding the informal resolution process is available upon request.
Thank you for your cooperation. If you have any questions about the process, please do not
hesitate to contact me.
Sincerely,

Ken Nelson
Title IX Coordinator

Enclosures
Title IX Sexual Harassment Complaint Procedures
BP / AR 1312.3, Uniform Complaint Procedure

Amended Notice of Allegations (6/3/2021)
Exhibit 1. Page 3

83

3

Exhibit 2

84

San Ramon Unified School District
Title IX Sexual Harassment Complaint Procedures
AR 4119.12/4219.12/4319.12
Personnel
AR 5145.71
Students
The district does not discriminate on the basis of sex in any of its programs or activities, and it
complies with Title IX of the Education Amendments of 1972 (Title IX) and its implementing
regulations (34 C.F.R. Part 106). The district is committed to maintaining an educational and
workplace environment free from sexual harassment.
Title IX Sexual Harassment Prohibited
Sexual Harassment as defined in Title IX (Title IX Sexual Harassment) is prohibited in district
education programs or activities. Title IX Sexual Harassment is conduct on the basis of sex in
an education program or activity that satisfies one or more of the following: (34 CFR 106.30,
106.44)
1.

2.

A district employee conditioning the provision of a district aid, benefit, or
service on aperson's participation in unwelcome sexual conduct
Unwelcome conduct determined by a reasonable person to be so severe,
pervasive, and objectively offensive that it effectively denies aperson equal
access to the district's education program or activity

3.

Sexual assault as defined in 20 U.S.C. § 1092(f)(6)(A)(v)
For the purpose of this AR, the district defines "consent" as defined in
California Penal Code Section 261.6 Consent: permission for something to
happen or agreement to do something.

4.

Dating violence as defined in 34 U.S.C. § 12291(a)(10)

5.

Domestic violence as defined in 34 U.S.C. § 12291(a)(8)
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 1

85

6.

Stalking as defined in 34 U.S.C. § 12291(a)(30).

(cf. 4119.11/4219.11/4319.11 - Sexual Harassment)
(cf. 5145.7 - Sexual Harassment)
Term Definitions (
34 C.F.R. § 106.30)
The following Title IX definitions apply to the following terms used in this Administrative
Regulation:
Complainant - an individual who is alleged to be the victim of conduct that could constitute
Title IX Sexual Harassment.
Education program or activity - locations, events, or circumstances where the district has
substantial control over both respondent(s) and the context in which alleged Title IX Sexual
Harassment occurred.
Formal Complaint - a document filed by a complainant (or a complainant's parent or
guardian) or signed by the Title IX Coordinator alleging Title IX Sexual Harassment against a
respondent(s) and requesting that the District investigate the allegation.
Respondent - an individual who has been reported to be the perpetrator of the conduct that
could constitute Title IX Sexual Harassment.
Supportive measures - non- disciplinary, non-punitive individualized services offered as
appropriate, as reasonably available, and without fee or charge to complainant(s) or
respondent(s) before or after the filing of a formal complaint or where no formal complaint
has been filed.
Title IX Sexual Harassment Complaints
The complaint procedures set forth in this Administrative Regulation will be used to address
any report of Title IX Sexual Harassment in adistrict education program or activity to the
extent required by Title IX.
Should the Title IX Regulations be modified or repealed, the district will implement only the
aspects of these procedures required by law. If permitted by law, the district will address
reports of sexual harassment, including Title IX Sexual Harassment, in accordance with AR
4030, Nondiscrimination in Employment, or AR 1312.3, Uniform Complaint Procedure, as
applicable.
Non-Title IX Sexual Harassment Complaints

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 2

86

Reports of sexual harassment not covered by the definition of Title IX Sexual Harassment will
be addressed in accordance with AR 4030, Nondiscrimination in Employment, or AR 1312.3,
Uniform Complaint Procedure, as applicable. The determination of whether the allegations
meet the definition of Title IX Sexual Harassment under Title IX will be made by the district's
Title IX Coordinator.
(cf. 4030 - Nondiscrimination in Employment)
(cf. 1312.3 - Uniform Complaint Procedure)
Reporting Title IX Sexual Harassment
Anyone who believes they have experienced, witnessed or received areport of Title IX Sexual
Harassment is strongly encouraged to report the incident to the district's Title IX Coordinator,
district administrator, or any district employee with whom the person is comfortable.
District employees receiving a report of or witnessing Title IX Sexual Harassment are
required to report it to the Title IX Coordinator. An employee who fails to promptly report or
forward a report of Title IX Sexual Harassment to the Title IX Coordinator may be
disciplined, up to and including dismissal.
Title IX Coordinator
Ken Nelson
699 Old Orchard Drive, Danville, CA 94526
(925) 552-5250
knelson@srusd.net
Processing Reports of Title IX Sexual Harassment
Upon receiving such areport, the Title IX Coordinator will promptly contact the complainant
to discuss the availability of supportive measures, inform the complainant of the right to file a
formal complaint and explain the process for filing aformal complaint. (34 CFR 106.44)
Supportive Measures
Upon receipt of a report of Title IX Sexual Harassment, the Title IX Coordinator will
promptly contact the complainant to discuss the availability of supportive measures and will
consider the complainant's wishes with respect to the supportive measures implemented.
Supportive measures must be offered as appropriate, as reasonably available, and without
charge to the complainant or the respondent before or after the filing of aformal complaint or
where no formal complaint has been filed.
Such measures must be non- disciplinary,
non-punitive, and designed to restore or preserve equal access to the district's education
program and activity without unreasonably burdening the other party, including measures
designed to protect the safety of all parties or the district's educational environment or to deter
sexual harassment. Supportive measures may include, but are not limited to, counseling,
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 3

87

extensions of deadlines or other course-related adjustments, modifications of work or class
schedules, campus escorts, mutual restrictions on contact between parties, changes in work
locations, leaves of absence, increased security and monitoring of certain areas of the campus,
and other similar measures to complainants and respondents. (34 CFR 106.30, 106.44)
The district will maintain as confidential any supportive measures provided to the
complainant or respondent, to the extent that maintaining such confidentiality would not
impair the district's ability to provide the supportive measures. (34 CFR 106.30)
Administrative Leave
If adistrict employee is the respondent, the employee may be placed on administrative leave
during the pendency of the formal complaint process. (34 CFR 106.44)
Emergency Removal
A student may not be disciplined for alleged Title IX Sexual Harassment until the formal
complaint process is completed and a determination of responsibility has been made.
However, on an emergency basis, the district may remove a student from the district's
education program or activity, provided that the district conducts an individualized safety and
risk analysis, determines that removal is justified due to an immediate threat to the physical
health or safety of any student or other individual arising from the allegations, and provides
the student with notice and an opportunity to challenge the decision immediately following
the removal. This authority to remove astudent does not modify astudent's rights under the
Individuals with Disabilities Education Act or Section 504 of the Rehabilitation Act of 1973.
(34 CFR 106.44)
Formal Complaint
A formal complaint, with the complainant's physical or digital signature, may be filed with
the Title IX Coordinator in person, by mail, by email. (34 CFR 106.30)
Even if the alleged victim chooses not to file aformal complaint, the Title IX Coordinator
may sign aformal complaint in situations when asafety threat exists and in other situations as
permitted under Title IX, including as part of the district's obligation to not be deliberately
indifferent to known allegations of Title IX Sexual Harassment. In such cases, the Title IX
Coordinator is not aparty to the formal complaint. The Title IX Coordinator will provide
notices to the complainant as required by Title IX.
The district may consolidate formal complaints of Title IX Sexual Harassment against more
than one respondent, or by more than one complainant, or by one party against another, where
the allegations of Title IX Sexual Harassment arise out of the same facts or circumstances.
Formal Complaint Process
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 4

88

The district treats complainants and respondents engaging in the formal complaint process
equitably.
Respondents are presumed not responsible for the alleged conduct until a
determination regarding responsibility is made at the conclusion of this formal complaint
process. (34 CFR 106.45(b)(1)(iv)) The district complies with this formal complaint process
before imposing disciplinary sanctions or other actions that are not supportive measures
against arespondent. (34 CFR 106.45(b)(1)(i))
Anyone designated by the district as a Title IX Coordinator, investigator, decisionmaker,
appeal decision maker, or informal resolution facilitator will not have aconflict of interest or
bias for or against complainants or respondents generally or an individual complainant or
respondent and will receive training in accordance with 34 CFR 106.45. (34 CFR
106.45(b)(1)(iii))
Written Notice of Allegations
Upon receipt of aformal complaint, the Title IX Coordinator must provide the known parties
with written notice of allegations including the following: (34 CFR 106.45(b)(2))
1.

Notice of this formal complaint process, including any informal resolution
process

2.

The allegations potentially constituting Title IX Sexual Harassment with
sufficient details known at the time, including the identities of parties involved
in the incident, if known, the conduct allegedly constituting Title IX Sexual
Harassment, and the date and location of the alleged incident, if known. Such
notice shall be provided with sufficient time for the parties to prepare a
response before any initial interview.
If, during the course of the investigation, new Title IX Sexual Harassment
allegations arise about the complainant or respondent that are not included in
this initial notice of allegations, the Title IX Coordinator must provide notice of
the additional allegations to the parties.

3.

A statement that the respondent is presumed not responsible for the alleged
conduct and that a determination regarding responsibility is made at the
conclusion of the complaint process

4.

Notice that the parties may have an advisor of their choice who may be, but is
not required to be, an attorney.

5.

Notice that the parties and their advisors, if any, will have an opportunity to
inspect and review evidence

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 5

89

6.

Advise the parties that the district's code of conduct prohibits knowingly
making false statements or knowingly submitting false information during the
formal complaint process

7.

When possible, the name of the investigator, informal resolution facilitator,
decision maker and appeal decision maker, and inform the parties that, if at any
time aparty has concerns regarding aconflict of interest or bias regarding any
of these persons, the party should immediately notify the Title IX Coordinator.

Dismissal of Formal Complaint
The Title IX Coordinator must dismiss aformal complaint if the alleged conduct: ( 1) would
not constitute Title IX Sexual Harassment as defined in 34 CFR 106.30 even if proved, (2) did
not occur in the district's education program or activity, or (3) did not occur against aperson
in the United States. Such conduct may still be addressed pursuant to other district Board
policies and administrative regulations including, but not limited to, AR 4030 Nondiscrimination in Employment, or BP/AR 1312.3, Uniform Complaint Procedure, as
applicable.
At any time during the investigation, the Title IX Coordinator may dismiss aformal complaint
of Title IX Sexual Harassment if. ( 1) the complainant notifies the district in writing that the
complainant would like to withdraw the formal complaint or any allegations in the formal
complaint, (2) the respondent is no longer enrolled or employed by the district, or (3)
sufficient circumstances prevent the district from gathering evidence sufficient to reach a
determination with regard to the formal complaint. (34 CFR 106.45)
Upon dismissal, the Title IX Coordinator will promptly send written notice of the dismissal
and the reasons for the dismissal simultaneously to the parties and inform them of their right
to appeal the dismissal of aformal complaint or any allegation in the formal complaint in
accordance with the appeal procedures described in the "Appeals" section below. (34 CFR
106.45)
Informal Resolution
After a formal complaint of Title IX Sexual Harassment is filed, but at any time before a
determination regarding responsibility is reached, the district may facilitate an informal
resolution process, such as mediation, that does not involve a full investigation and
adjudication. The district shall not require aparty to participate in the informal resolution
process or to waive the right to an investigation and adjudication of aformal complaint. (34
CFR 106.45)
Prior to facilitating an informal resolution process, the district must: (34 CFR 106.45(b)(9))
1.

Provide the parties with written notice disclosing:
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 6

90

2.

a.

the allegations;

b.

the requirements of the informal resolution process including the
circumstances under which the parties are precluded from resuming the
formal complaint process arising from the same allegations;

C.

the right of either party to withdraw from the informal resolution
process and resume the formal complaint process at any time prior to
agreeing to aresolution; and

d.

that the district's informal resolution process is confidential and any
consequences resulting from participating in the informal resolution
process, including the records of the informal resolution process that
will be maintained or could be shared.

Obtain the parties' voluntary, written consent to the informal resolution process

Informal resolution is not available to resolve allegations of Title IX Sexual Harassment by a
student against an employee.
Investigation Procedures
The burden of proof and the burden of gathering evidence sufficient to reach adetermination
of responsibility rest on the district and not the parties.
Unless a party provides voluntary, written consent, the district cannot access, consider,
disclose, or otherwise use a party's records maintained by a physician, psychiatrist,
psychologist, or other recognized professional or paraprofessional acting in their professional
capacity, which are made and maintained in connection with the provision of treatment to the
party. (34 CFR 106.45(b)(5)(i))
During the investigation process, the district's designated investigator will: (34 CFR 106.45)
1.

Provide an equal opportunity for the parties to present witnesses, including fact
and expert witnesses, and other inculpatory and exculpatory evidence

2.

Not restrict the ability of either party to discuss the allegations under
investigation or to gather and present relevant evidence

3.

Provide the parties with the same opportunities to have others present during
any grievance proceeding, including the opportunity to be accompanied to any
related meeting or proceeding by the advisor of their choice, who may be, but
is not required to be, an attorney
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 7

91

4.

Not limit the choice or presence of an advisor for either the complainant or
respondent in any meeting or grievance proceeding. All party advisors are
limited to providing support and may not be direct participants. This conduct
expectation applies equally to complainants and respondents.

5.

Provide, to aparty whose participation is invited or expected, written notice of
the date, time, location, participants, and purpose of all investigative interviews
or other meetings, with sufficient time for the party to prepare to participate

6.

Prior to the completion of the investigative report, provide the parties, and their
advisors, if any, an equal opportunity to inspect and review any evidence
directly related to the allegations in the formal complaint including evidence
the district does not intend to rely in reaching adetermination, and provide the
parties at least 10 days to submit a written response for the investigator to
consider prior to the completion of the investigative report

7.

Objectively evaluate all relevant evidence, including both inculpatory and
exculpatory evidence, and determine credibility in amanner that is not based
on aperson's status as acomplainant, respondent, or witness

8.

Create an investigative report that fairly summarizes relevant evidence and, at
least 10 days prior to the determination of responsibility, send to the parties and
their advisors, if any, the investigative report in an electronic format or ahard
copy, for their review and written response

The district's investigator must not require, rely upon, or otherwise use questions or evidence
that constitute, or seek disclosure of, information protected under legally recognized privilege
unless the person holding the privilege has waived the privilege. (34 CFR 106.45(b)(1)(x))
If the complaint is against an employee, rights conferred under an applicable collective
bargaining agreement shall be applied to the extent they do not conflict with Title IX.
Written Determination
The Title IX Coordinator shall designate adecisionmaker to determine responsibility for the
alleged conduct, who shall not be the Title IX Coordinator, investigator or appeal
decisionmaker on the formal complaint. (34 CFR 106.45(b)(7))
After the investigative report has been sent to the parties, but before reaching adetermination
of responsibility, the decisionmaker will afford each party the opportunity to submit written,
relevant questions that aparty wants asked of any party or witness, provide each party with
the answers, and allow for additional, limited follow-up questions from each party.

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 8

92

The decisionmaker will notify the parties and witnesses of the following applicable timelines
for the submission of questions and responses:
1.

The parties have 7calendar days to submit their questions to the decisionmaker
after receiving notice of the opportunity to submit questions from the
decisionmaker.

2.

After receipt of the questions, the parties and witnesses will have 7calendar
days to submit their responses to the questions to decisionmaker.

3.

When providing the questions and responses to both parties, the decisionmaker
must explain to the party proposing the questions any decision to exclude a
question as not relevant. Upon receipt of the responses to the questions, the
parties will have 5calendar days to submit limited follow-up questions.

Questions and evidence about the complainant's sexual predisposition or prior sexual behavior
are not relevant, unless such questions and evidence are offered to prove that someone other
than the respondent committed the conduct alleged by the complainant or if the questions and
evidence concern specific incidents of the complainant's prior sexual behavior with respect to
the respondent and are offered to prove consent. (34 CFR 106.45(b)(6)(ii)) The district's
decisionmaker must not require, rely upon, allow, or otherwise use questions or evidence that
constitute, or seek disclosure of, information protected under legally recognized privilege
unless the person holding the privilege has waived the privilege. (34 CFR 106.45(b)(1)(x))
The written determination shall be issued within 90 calendar days of the receipt of the formal
complaint.
However, the time for completing the formal complaint process will be
temporarily delayed during school recess periods exceeding three days. The timeline may be
extended for good cause with written notice to the complainant and respondent of the
extension and the reasons for the action. Good cause may include, but is not limited to,
absence of a party, witness, or party advisor; concurrent law enforcement activity;
participation in the informal resolution process; or need for language assistance or disability
accommodation. (34 CFR 106.45(b)(1)(v))
The decisionmaker shall issue, and simultaneously provide to both parties, a written
determination as to whether the respondent is responsible for the alleged conduct. (34 CFR
106.45(b)(7))In making this determination, the decisionmaker shall use the "preponderance of
the evidence" standard for all formal complaints of Title IX Sexual Harassment. (34 CFR
106.45(b)(1)(vii))
The decisionmaker will objectively evaluate all relevant evidence,
including both inculpatory and exculpatory evidence, and determine credibility in amanner
that is not based on aperson's status as a complainant, respondent, or witness. (34 CFR
106.45(b)(1)(ii))
The written determination will include the following: (34 CFR 106.45(b)(7))

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 9

93

I.

Identification of the allegations potentially constituting Title IX Sexual
Harassment as defined in 34 CFR 106.30;

2.

A description of the procedural steps taken from receipt of the formal
complaint through the written determination, including any notifications to the
parties, interviews with parties and witnesses, site visits, and methods used to
gather other evidence;

3.

Findings of fact supporting the determination;

4.

Conclusions regarding the application of the district's code of conduct or
policies to the facts;

5.

A statement of, and rationale for, the result as to each allegation, including a
determination regarding responsibility, any disciplinary sanctions the district
imposes on the respondent, and whether remedies designed to restore or
preserve equal access to the district's educational program or activity will be
provided by the district to the complainant

6.

The district's procedures and permissible bases for the complainant and
respondent to appeal

Unless a party provides voluntary, written consent, the district cannot access, consider,
disclose, or otherwise use a party's records maintained by a physician, psychiatrist,
psychologist, or other recognized professional or paraprofessional acting in their professional
capacity, which are made and maintained in connection with the provision of treatment to the
party. (34 CFR 106.45(b)(5)(i))
Appeals
Either party may appeal the district's decision or dismissal of a formal complaint or any
allegation in the formal complaint, if. ( 1) the party believes that a procedural irregularity
affected the outcome, (2) new evidence is available that could affect the outcome, or (3) a
conflict of interest or bias by the Title IX Coordinator, investigator(s), or decisionmaker(s)
affected the outcome. An appeal must be filed in writing with the Title IX Coordinator within
10 calendar days of receiving the written determination or dismissal, stating the grounds for
the appeal and including any relevant documentation in support of the appeal. Appeals
submitted after this deadline are not timely and shall not be considered.
If an appeal is timely filed, the district shall: (34 CFR 106.45(8))
1.

Notify the other party in writing when an appeal is filed and implement appeal
procedures equally for both parties

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 10

94

2.

Ensure that the appeal decisionmaker is trained in accordance with 34 CFR
106.45 and is not the decisionmaker(s) who reached the determination
regarding responsibility or dismissal, the investigator(s), or the Title IX
Coordinator

3.

Give both parties 10 calendar days to submit awritten statement in support of
or challenging the outcome

4.

Issue a written decision describing the result of the appeal (e.g., affirms,
reverses, remands, or amends the written determination regarding
responsibility) and the rationale for the result within 20 calendar days from the
deadline for the parties to submit their written statement in support of or
challenging the outcome

5.

Provide the written decision simultaneously to both parties within 5business
days of issuing the decision

Either party has the right to file acomplaint with the U.S. Department of Education's Office
for Civil Rights within 180 days of the date of the most recently alleged misconduct.
The complainant shall be advised of any civil law remedies, including, but not limited to,
injunctions, restraining orders, or other remedies or orders that may be available under state or
federal antidiscrimination laws, if applicable.
Remedies
When adetermination of responsibility for Title IX Sexual Harassment has been made against
the respondent, the district shall provide remedies to the complainant. Remedies must be
designed to restore or preserve equal access to the district's education program or activity.
Such remedies may include the same individualized services described above in the section
"Supportive Measures," but need not be non- disciplinary or non-punitive and need not avoid
burdening the respondent. (34 CFR 106.45) The Title IX Coordinator is responsible for
effective implementation of any remedies. (34 CFR 106.45(b)(7)(iv))
Sanctions/Disciplinary Actions/Corrective Actions
The district shall not impose any disciplinary sanctions or other actions against arespondent,
other than supportive measures as described above in the section " Supportive Measures," until
the formal complaint process has been completed and adetermination of responsibility has
been made. (34 CFR 106.44)
For students in grades 4-12, discipline for sexual harassment may include suspension and/or
expulsion. After the completion of the formal complaint process, if it is determined that a
student at any grade level has committed sexual assault or sexual battery at school or at a
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 11

95

school activity off school grounds, the principal or Superintendent shall immediately suspend
the student and shall recommend expulsion. (Education Code 48900.2, 48915)
(c£ 5144 - Discipline)
(c£ 5144.1 - Suspension and Expulsion/Due Process)
Other actions that may be taken with astudent who is determined to be responsible for sexual
harassment include, but are not limited to:
1.

Transfer from aclass or school as permitted by law

2.

Parent/guardian conference

3.

Education of the student regarding the impact of the conduct on others

4.

Positive behavior support

5.

Referral of the student to astudent success team
(c£ 6164.5 - Student Success Teams)

6.

Denial of participation in extracurricular or co- curricular activities or other
privileges as permitted by law

(c£ 6145 - Extracurricular and Cocurricular Activities)
When an employee is found to have committed sexual harassment or retaliation, the district
shall take appropriate disciplinary action, up to and including dismissal, in accordance with
applicable law and collective bargaining agreement.
(c£
(c£
(c£
(c£

4117.7/4317.7 - Employment Status Report)
4118 - Dismissal/Suspension/Disciplinary Action)
4119.11/4219.11/4319.11 - Sexual Harassment)
4218 - Dismissal/Suspension/Disciplinary Action)

Recordkeeping
The Title IX Coordinator shall maintain records of the following for aperiod of seven years:
(34 CFR 106.45(b)(10))
1.

All reported allegations and Title IX Sexual Harassment investigations, any
determinations of responsibility, any disciplinary sanctions imposed on
respondent, and any remedies provided to the complainant designed to restore
equal access to the District's education program or activity
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 12

96

2.

Any appeal and the result

3.

Any informal resolution and the results.

4.

Any actions, including any supportive measures, taken in response to areport
or formal complaint of Title IX Sexual Harassment. In each instance, the
district must document the basis for its conclusion that its response was not
deliberately indifferent and the measures taken that were designed to restore or
preserve equal access to the education program or activity. If no supportive
measures were provided to the complainant, the district must document the
reasons that such a response was not unreasonable in light of the known
circumstances. The documentation of certain bases or measures does not limit
the district from providing additional explanations or detailing additional
measures in the future.

5.

All materials used to train the Title IX Coordinator, investigator(s),
decisionmaker(s), and informal resolution facilitators. The district shall make
such training materials publicly available on its website.

(cf. 1113 - District and School Web Sites)
(cf. 3580 - District Records)

Legal Reference:
EDUCATION CODE
200-262.4 Prohibition of discrimination on the basis of sex
48900 Grounds for suspension or expulsion
48900.2 Additional grounds for suspension or expulsion; sexual harassment
48985 Notices, report, statements and records in primary language
CIVIL CODE
51.9 Liability for sexual harassment; business, service and professional relationships
1714.1 Liability of parents/guardians for willful misconduct of minor
GOVERNMENT CODE
12950.1 Sexual harassment training
CODE OF REGULATIONS, TITLE 5
4600-4670 Uniform complaint procedures
4900-4965 Nondiscrimination in elementary and secondary education programs
UNITED STATES CODE, TITLE 20
1092 Definition of sexual assault
1221 Application of laws
1232g Family Educational Rights and Privacy Act
1681-1688 Title IX of the Education Amendments of 1972
The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 13

97

UNITED STATES CODE, TITLE 34
12291 Definition of dating violence, domestic violence, and stalking
UNITED STATES CODE, TITLE 42
1983 Civil action for deprivation of rights
2000d-2000d-7 Title VI, Civil Rights Act of 1964
2000e-2000e-17 Title VII, Civil Rights Act of 1964 as amended
CODE OF FEDERAL REGULATIONS, TITLE 34
99.1-99.67 Family Educational Rights and Privacy
106.1-106.82 Nondiscrimination on the basis of sex in education programs
COURT DECISIONS
Donovan v. Poway Unified School District, (2008) 167 Cal.App.4th 567
Flores v. Morgan Hill Unified School District, (2003, 9th Cir.) 324 F.3d 1130
Reese v. Jefferson School District, (2000, 9th Cir.) 208 F.3d 736
Davis v. Monroe County Board of Education, ( 1999) 526 U.S. 629
Gebser v. Lago Vista Independent School District, ( 1998) 524 U.S. 274
Oona by Kate S. v. McCaffrey, ( 1998, 9th Cir.) 143 F.3d 473
Doe v. Petaluma City School District, ( 1995, 9th Cir.) 54 F.3d 1447
Management Resources:
CSBA PUBLICATIONS
Providing aSafe, Nondiscriminatory School Environment for Transgender and
Gender-Nonconforming Students, Policy Brief, February 2014
Safe Schools: Strategies for Governing Boards to Ensure Student Success, 2011
FEDERAL REGISTER
Nondiscrimination on the Basis of Sex in Education Programs or Activities Receiving Federal
Financial Assistance, May 19, 2020, Vol. 85, No. 97, pages 30026-30579
U.S. DEPARTMENT OF EDUCATION, OFFICE FOR CIVIL RIGHTS PUBLICATIONS
Q&A on Campus Sexual Misconduct, September 2017
Examples of Policies and Emerging Practices for Supporting Transgender Students, May 2016
Dear Colleague Letter: Title IX Coordinators, April 2015
Sexual Harassment: It's Not Academic, September 2008
Revised Sexual Harassment Guidance: Harassment of Students by School Employees, Other
Students, or Third Parties, January 2001
WEB SITES
CSBA: http://www.esba.org
California Depaitiuent of Education: http://www.ede.ca.gov
U.S.
Depaitiuent
of
Education,
http://www.ed.gov/about/offices/list/ocr

Office

for

Civil

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 14

98

Rights:

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 2. Page 15

99

Exhibit 3

100

California High School
9870 Broadmoor Drive • San Ramon, CA 94583 • 925-803-3200

Megan. Keefer
Prirre#paf
Tucker rarrar
Assistant Prindpaf
Catie Hawkins
Assistant Princjpa•

Original Notice Issued: Ap ril22, 2021
Corrected Notice Issued: May 7, 2021
Petitioner
Petitioner Parent
Petitioner Parent

Kathleen Martlns
Asslsrarrt FK??r1pa0
Jeffrey Osborn
Assistant Prrndpar

Re:

CORRECTED Notice of Title IX Emergency Removal of Student

Candace Malano
Office Marrgger

Dear Petitioner
On April 22,

2021,

the San Ramon Valley Unified School District (" District") received

allegations of Title IX Sexual Harassment against you.
In response to the initial allegations, the District has undertaken an individualized safety and
risk analysis and has determined that you pose an immediate threat to the physical health or
safety of a student or other individual arising from the allegations of Title IX Sexual
Harassment. The specific reasons for the decision are: substantial allegations of sexual
assault(s) to students while on campus.
Accordingly, the District has determined that you should be removed from the District's
education program or activity on an emergency basis under Title IX of the Education
Amendments of 1972 and its implementing regulations.
The Title IX Coordinator will notify the Board of Education of its determination that you are
eligible for aTitle IX emergency removal and should not be allowed to participate in the the
District's education programs or activities until after the investigation into the allegations of
Title IX Sexual Harassment concludes.
No person is permitted to intimidate, threaten, coerce, or discriminate against any individual
for the purpose of interfering with any right or privilege secured by Title IX, or because the
individual has made areport or complaint, testified, assisted, or participated or refused to
participate in any manner in the Title IX procedures. If any individual is harassed or
intimidated because of filing acomplaint or participating in any aspect of the District's Title

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 3. Page 1

101

California High School
9870 Broadmoor Drive •San Ramon, CA 94583 • 925- 803-3200

IX Sexual Harassment Complaint Procedures, that individual may file a complaint alleging
such treatment using the District's Board Policy. See attached copies and links:
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050532/
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050533/
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050895/

You can challenge this emergency removal decision under Title IX by contacting Megan
Keefer.
Sincerely,

Title IX Coordinator Designee
Enclosures
http://www. gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050532/
http://www. gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050533/
http://www. gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050895/

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 3. Page 2

102

Exhibit 4

103

California High School
9870 Broadmoor Drive • San Ramon, CA 94583 •925 -803 -3200

May

21, 2021

Petifioner
Petitioner Parent
Petitioner Parent

Re:

Outcome of Challenge to Title IX Emergency Removal of Student

Dear Petitioner
On April

22,

2021,

the San Ramon Valley Unified School District (" District") received

allegations of Title IX Sexual Harassment against you.
In response to the initial allegations, the District undertook an individualized safety and risk
analysis and determined that you pose an immediate threat to the physical health or safety of
astudent or other individual arising from the allegations of Title IX Sexual Harassment. The
specific reason for the determination was: substantial allegations of sexual assault(s) to
students while on campus.
As aresult, the District determined that you should be removed from the District's education
program or activity on an emergency basis under Title IX of the Education Amendments of
1972

and its implementing regulations.

On May

1'7, 2021,

your advisor, on your behalf, requested ameeting to challenge the Title IX

Emergency Removal.

On May 19,

2021,

you were provided the opportunity to make a

statement and present any information to challenge the determination that you pose an
immediate threat to the physical health or safety of astudent or other individual arising from
the allegations of sexual assault, Title IX Sexual Harassment. You stated that the allegations
against you were false and that you do not pose adanger to anyone.
At the time of the individualized safety and risk analysis, you asserted that the Complainant
was fabricating the allegations against you because you broke up with her.

The District

considered the allegations of sexual assault, Title IX Sexual Harassment, and your response
to those allegations in making the initial assessment and determination. No new information
was provided on May 19,

2021,

to contradict the District's initial determination that you pose

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 4. Page 1

104

California High School
9870 Broadmoor Drive •San Ramon, CA 94583 • 925- 803-3200

an immediate threat to the physical health or safety of astudent(s) or other individual(s)
arising from the allegations of sexual assault, Title IX Sexual Harassment.
Accordingly, the determination that you pose an immediate threat to the physical health or
safety of astudent(s) or other individual(s) arising from the allegations of sexual assault, Title
IX Sexual Harassment, is upheld.

You will not be allowed to participate in the District's

in-person education programs or activities until after adetermination is made regarding the
Title IX Sexual Harassment Formal Complaint.
Your emergency removal is purely a safety measure.

It is not a factual determination

regarding your responsibility for the allegations of sexual assault, Title IX Sexual
Harassment, and is not disciplinary.

You are deemed not responsible for the conduct set

forth in the Notice of Allegations until adetermination is made at the conclusion of the Title
IX Sexual Harassment Complaint Procedures.
No person is permitted to intimidate, threaten, coerce, or discriminate against any individual
for the purpose of interfering with any right or privilege secured by Title IX, or because the
individual has made areport or complaint, testified, assisted, or participated or refused to
participate in any manner in the Title IX procedures. If any individual is harassed or
intimidated because of filing acomplaint or participating in any aspect of the District's Title
IX Sexual Harassment Complaint Procedures, that individual may file acomplaint alleging
such treatment using the District's Board Policy. See attached copies and links:
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050532/
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050533/
http://www.gamutonline.net/district/sanramonvalleyusd/DisplayPolicy/ 1050895/

Sincerely,
Megan Keefer
Title IX Coordinator Designee

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 4. Page 2

105

Exhibit 5

106

SAN RAMON VALLEY UNIFIED SCHOOL DISTRICT
699 Old Orchard Drive, Danville, California 94526
(925) 552-5052 • FAX (925) 837-2605

July 13, 2021
Via Electronic Mail Simultaneously to Both Parties and Advisors
Jane Roe@tudents.srvusd.net

dan@drothlaw.com

Petitioner
Petitioner Parent

Petitioner Parent

Re: Notice of Access to Directly Related Evidence
Dear Complainant and Respondent:
On April 28, 2021, the San Ramon Valley Unified School District ("District") notified you
that it was opening an investigation under its Title IX Sexual Harassment Complaint Procedures
into _allegations raised in aFormal Complaint filed by Jane Roe (" Complainant") against
Petitioner (" Respondent") alleging:
•

On April 15 1, 2021, Respondent sexually assaulted and sexually harassed
Complainant during fifth period theater class by kissing her on her mouth and neck
without her consent, fondling her breasts without her consent, fondling and
penetrating her vulva and vagina without her consent, and forcing her to touch his
penis under his clothing by forcing her hand into his pants without her consent.

All directly related evidence obtained as part of the investigation is enclosed for you and
your advisor to review. The enclosed evidence is all evidence directly related to the allegations of
potential Title IX Sexual Harassment raised in the April 26, 2021 Formal Complaint. The evidence
may include evidence that the District does not intend to rely upon in reaching adetermination
and/or inculpatory or exculpatory evidence. A copy of the evidence is enclosed.
You have the right to respond to the directly related evidence prior to the conclusion of the
investigation. If you wish to respond to the evidence, please submit awritten response by July 23,
2021 at 5:00 pm to me at aleon@f3law.com. Iwill consider your written response prior to
completion of the Investigative Report.

iOn June 3, 2021, the District re-issued the Notice of Allegation to update the date of the alleged conduct from
April 15, 2021 to April 13, 2021.

Exhibit 5, Page 1

107

The parties and their advisors are required to keep the enclosed evidence confidential. The
parties and their advisors may not share any information or records obtained through this process
with any third party or the public or use any information or records for any purpose other than this
process.
Should you have any questions regarding the contents of this letter, please contact me at
aleon@f3law.com or 510-550-8237 at your earliest convenience.
Sincerely,

•A'
M. Alejandra Leon
Title IX Investigator

Exhibit 5, Page 2

108

Exhibit 6

109

TITLE IX SEXUAL HARASSMENT FORMAL COMPLAINT
Please note that this information is intended to give you an overview of certain rights and
options tinder the Title IX grievance process. For full policy definitions and San Ramon Valley
Unified School District ("District') procedures, see Title IX Sexual llarassment Complaint
Procedure.
This form should be completed by any Title IX Complainant who seeks to have the District
process acomplaint of "Title IX Sexual Harassment," as defined in the District's Title IX Sexual
Harassment Complaint Procedure. This form may be filed with the Title IX Coordinator in
person, by mail or by email at:
Title IX Coordinator(s):
Ken Nelson
699 Old Orchard Drive. Danvil le, CA 94526
knelson,a., rvtisd.nct
(925)552-5052

Please contact the Title IX Coordinator if you have any questions regarding the process for filing
or investigating Formal Complaints of Title IX Sexual Harassment.

°mUae

Roe

Telephone -

Email Address:

Jane Roe
Respondent(s) Namc(s):

M

srv►, D. >
7

Respondent(s) Relationship(s) to the
Complainant:

Petitioner

1. Whit is

our role In the District?

Student
0 Employee
0 Other.

San Ramon Valley USD Apt 2021 Title IX Complain1000001

Exhibit 6, Page 1

110

2. Is/are the Respondent(s) enrolled or employed by the District and, if so, what is/are
the

ndent(s) role(
s) with the District (
check all that apply)?
Vdcnt(s)
❑ Employee(s)
❑ Other:
❑ Not enrolled or employed by the District

3.

Where did the alleged conduct occur?

ra mper' !,h 01

6n

4. Check the boxes) below that best describe(s) the alleged incident (Note: may
include online misconduct)

❑

Sexual harassment that is severe, pervasive, and objectively offensive that it
effectively denied you equal access to the school's education program or activity
(hostile environment sexual harassment)

❑ Stalking
Lk&xual Assault
❑ Domestic Violence

❑

Dating Violence

❑ An employee of the District conditioned an aid, service, or benefit on your
participation in unwelcome sexual conduct (quid pro quo sexual harassment)
❑ Other:

5.

D• te(s) of Incident(
s) (or time fr me during ivhich behavior persisted):
•lS •yrihJc
•• rn
/a rm

••n

6. Describe the alleged incident(s) Nvith as much detail as possible including the place it
occurred,date, time, and individuals involved (
additional pages may be attached as
needed):
Petitioner

If) ih(atCL, '/ It),

Irnfrl•-r 1

1110,5

1"

San Ramon Valley USD April 2021 Title IX Complaint000002

Exhibit 6, Page 2

111

Petitioner

L•- SfiU
&V% n

t• G

•5fnv,'t

•r))" ..
1'1•C Ic C••

A-O UG ki n

Yh•

1•• I

Gt1

ry
) bc,OO

•CGk (
,
IyG

sca t 1►'?

S'f-A "-Yr

I

1•• •-•

o3 urk-A 1•W
•
•layy lY.
lq
ro
116 1W

G• Ill, fiht;m tohu) I ••. •
zz (n

wwv,

6j1')-cn Iq
,rain ora

no he a5 Cd

I• Kd

1a. Y
,
'`l

F'IvS

It'l

CAv-)6

h1 S

Retaliation

14,k
f
)D

n OT

1or IG` -

1
d

_ ' ' 1•

1
!
Y)

` 1CC

t ••

11

z , GL,

b
A
fih G VG1S-- f
fc jyry) kF

1
.?1,t1 1tV,•, l/V1•

•: ••; ) -

t

Cl_

1

to)

(t-

/

ti

Neither the District nor any other person may intimidate, threaten, coerce, or discriminate against
any individual for the purpose of interfering with any right or privilege secured by Title IX or the
District's Title IX policies or procedures, or because an individual has made a report or
complaint, testified, assisted, or participated or refused to participate in any manner in an Title
IX investigation, proceeding, or hearing. Intimidation, threats, coercion, or discrimination,
including charges against an individual for code of conduct violations that do not involve sex
discrimination or Title IX Sexual Harassment, but arise out of the same facts or circumstances as
areport or complaint of sex discrimination, or areport or Formal Complaint of Title IX Sexual
Harassment, for the purpose of interfering with any right or privilege secured by Title IX or the
District's Title IX policies or procedures, constitutes retaliation. Complaints alleging retaliation
may be filed according to the'District's Board Policy and Administrative Regulation 1312.3,
Uniform Complaint Procedure.

By signing this document, 1assert that the information listed above is true to the best of my
knowledge and that Iam requesting the District to investigate this Formal Complaint of Title IX
Sexual Harassment.

Na,T,e.

11Jane

Roe

h

Signature :
rJane

Roe *1im

0

Date:

San Ramon Valley USD April 2021 Title IX Complaint000003

Exhibit 6, Page 3

112

/O

_
•

t

113
Exhibit 6, Page 4

San Ramon Valley USD April 2021 Title IX Complaint000004

114
Exhibit 6, Page 5

San Ramon Valley USD April 2021 Title IX Complaint000005

115
Exhibit 6, Page 6

San Ramon Valley USD April 2021 Title IX Complaint000006

116
Exhibit 6, Page 7

San Ramon Valley USD April 2021 Title IX Complaint000007

5

ti

2

Redaiccd
V

C
V•l

Y

San Raman Valley USD April 2021 Title IX Comp!aint000008

Exhibit 6, Page 8

117

DocuSign Envelope ID: C3DC332D-AOBF-4447-BETE-8CE166EEE4B5

CONFIDENTIAL: INVESTIGATION MATERIAL
STUDENT RECORD ( FERPA)
CALIFORNIA HIGH SCHOOL

l
2
3

Jnae-Roe

4

)
Complainant, )
vs.

)

5
6

Petitioner

)
Respondent.

DECLARATION OF
Petitioner
Jule 6, 2021

)

7
8

I, Petitioner

, attest to the following under penalty of perjury under the laws of the

9 United States and the State of California, and would testify to cacti lid ev ry fact below under
10
11

oath in acourt of law:
1.

12
13
14

2.

1am 15 years old.

3.

Idated aclassmate named Jane Roe

San R mon, California, where Ijust finished

from approximately March 17.2021, until

April 13, 2021.
4.

17

On April 13, 2021, Jane

and Iw re in Student Support after Fifth Period, which lasts

from 2:35 to 3:05. We were in Room FA 106, where we had Drama the previous period.

18
19

in

my first year.

15
16

Iam astudent at California High School

Jane3 came ov rto me and tsome point started to kiss me. Ikissed her back.
5.

On April 13, 2021, at 3:54 p.m., Itold !
073 in atext message that Idid not love her:

20
21
22
23
24
25
26
27
28

1

San Raman Valley USD Apol 2021 Title IX Comp!aint000009

Exhibit 6, Page 9

118

DocuSign Envelope ID: C3DC332D-AOBF-4447-BETE-8CE166EEE4B5

CONFIDENTIAL: INVESTIGATION MATERIAL
STUDENT RECORD ( FERPA)

l
2

a. Jane

did not want to break up, and asked to talk.

3

b. At 7:36 p.m., Itexted Jane "thank you for your feelings and attempt to change
but Iam done with this relationship."

4
c.

5

At 7:37 p.m., Jane

Itexted me

"No

please, Ican change. Iknow how to."

6
136 M.t

7

.I 925-".7670

please, I
can change

8

No 6-iti

9

.1 925-x•7670

7:37 PM

I
know how to

7:37 Mt

10
d.

11

At 7:38 p.m., j
w
—
iej texted me " Please don't do th s Ilove uaka love ualot.
And Ineed u. Petitions; please talk to me what did I ven do "

12
.i82}3)4-7670

13

Please don't do this

14

.,4213"9 U 70

7:38 W

Ilovo u oka lice u a lot

7.38 MA

15
16

1

And Ineed u

7:38 PIA

.I W.5" 7610

17

p•

4

please talk to me what did Ieven do

7:39 {MA

I

18
19
20

e.

At 7:40 p.m., Ire ponded, "Nve've been talking about this, please don't beg me
it's n tchanging my mind, I'm done with this relationship. 1have to go."

21
22

730 pM

23

M.

have to go
I

24

7

PM

25
26
27
28

2

San Raman Valley USD Apol 2021

Exhibit 6, Page 10

119

Title

IX Comp!aint000010

DowSgn Envebpe ID: C3DC332D-AOBF-4447-B87E-8CE166EEE4B5

CONFIDENTIAL: INVESTIGATION IiATERIAL
STUDENT RECORD (FERYA)
f.

1

At 7:41 p.m., Jute I responded 'No ;

; please. Ihave been there for u. And I

need ain my fucking life. And Ilike ti hella."

2
3

1W5 no Wo

No Petifioneic

4
5

7.41

FM

7+f

vM

.I9iTt11 -/O; O

Ihave been there for u

6
.- 923 WO 7W0

And I
need uin my Wdrp life

7

741 FM

., W5.X
sqr':-a

8

And Ihke u nella

7AI M

9
10

g. At 7:42 p.m., Iwrote "you don't need me in you life t live."

11

h.

12

At 7:42 p.m., Jane

responded, "Ido, it have been th re frme. And you always

loves (sic) me. Loved. Cared about me. And nev rgave up on me."

13
hk

14

Jiou don't need me in ytxx6feto M

7::2 DM

.I 2,1 . - 7670

15

Ido, u txm been thorn for mo

)J2 M.1

16
.t9:5-339-7870

17

And uat ays loves me

18

7A2 PM

.. •n-ar-7a7a

Loved

7:42 Vhf

19
♦, 9?iila.7&M

20

Cared about nee f

7>12 Vhf

. • 92Y.1•• /D/O

21

And never gave up on me

?-t7 MI

22
23

i At 7:58 p.m., I %%7ote "we are done."

24
7.53 PM

25
26

6. The only time after April 13, 2021, that Ihad any physical contact with Ja—n
—
ej at all was

27

on April 15, when Ioffered her my hand to help her get up from sitting on the floor.

28

7.

Inever had any nonconsensual physical contact with !a
—n
—
ej ever.

3

San Ramat Valley USD Apnl 2021 Title IX Comp!aint00001 I

Exhibit 6, Page 11

120

DocuSign Envelope ID: C3DC332D-AOBF-4447-B87E-8CE166EEE4B5

CONFIDEN'T'IAL: INVESTIGATION MATERIAL
STUDENT RECORD ( FERPA)
I
2
3

8.

On Thursday, April 22, 2021, Iwas removed from classroom instruction at California
High School.
a.

Principal Megan Keefer called me into her office and said that cane

was alleging

4

that during asupport period after our Theater class on April 13, Isexually

5

assaulted her.

6

b.

Iexplained that that was not true.

7

c.

Ms. Keefer did not provide written notice of the allegations against me.

8

d.

Ms. Keefer then left the room and returned with the attached let er, which she
gave to me.

9

i.

10

Ms. Keeler said that a "threshold" had be nreached under Title IX that
warranted my emergency removal from scho I.

11
ii.

12

Ms. Keefer said there were "diff rences" in the accounts of what

13

happened, but declined to provide any de ails about those differences or

14

why they would result in my remov Ifrom school.
iii. The letter says that the sc ool had "undertaken an individualized safety

15
16

and risk analysis nd has determined that you pose an immediate threat to

17

the physical h alth and safety of astudent or other individual arising from

18

the allegations of Title 1X harassment. The specific reasons for the

19

decision ac: substantial evidence leading to allegations of sexual

20

assault(s) to students while on campus."
v. Tile letter says that the school will notify the Board of Education of its

21
22

determination that Iam "eligible for aTitle IX removal and should not be

23

allowed to participate in the District's education programs or activities

24

until after the investigation into the allegations of Title IX Sexual

25

Harassment concludes."

26

e.

Iwas required to leave the school immediately and told not to return.

27

f.

Iwas not given any information regarding my schoolwork on Friday, April 23,

28

Saturday, April 24, Sunday, April 25.

4

San Ramon Valley USD April 2021 Title IX Comp'aint000012

Exhibit 6, Page 12

121

DocuSign Envelope ID: C3DC332D-AOBF-4447-BETE-8CE166EEE4B5

CONFIDENTIAL: INVESTIGATION MATERIAL
STUDENT RECORD ( FERPA)

l

g.

On Monday, April 26, 2021, my mother contacted the school at 10:00 a.m.

2

Assistant Principal Tucker Farrar called my mother at 2:50 p.m. and told her that I

3

needed to follow up with my teachers to get assignments and instructions.
h.

4

everything was okay.

5
i.

6

My lacrosse coach was not informed that Ihad been removed, and Ihad to email
him to let hiln know Icould not be at practice.

7
8

My Spanish teacher called n1y mother on Monday, April 26, asking Inc; if

9.

On April 28, 2021, Ireceived aletter from the school containing7ane's] allegation:

12

On April 15. 2021, Respondent sexually assaulted and sexually h ' assed
Complainant during fifth period theater class by kissing her on her mouth
and neck without her consent, fondling her br asts without her consent,
fondling and penetrating her vulva and vagina w thout her consent, and
forcing her to touch his penis under his clothing yfor ing her hand into his
pants without her consent.

13

10. On June 3, 2021, 1received aletter from the shoot amending Jane's] allegation

14

against me by changing the date of the allegation to April 13 — meaning that she

15

was alleging that Iassaulted he between 2:35 and 3:05, then Ibroke up with her at

16

3:54 p.m., and she begged to get back together with me starting at 7:37 p.m., as our

17

text messages show.

9
10
11

18

11. Jane's] allegation is comp] tely false.

19

12. Ibroke up with Jane

20
21

stand
13,Jane

on April 13, 2021, and — with the exception of helping her

pone on April 15 — never had physical contact with her again.
and 1nev rhad any intimate contact on school grounds beyond kissing.

22

Sworn tend rpen lty of perjury under the laws of the United States and the State of California,

23

this date:

rpetitioner

/7/2o21

24

Petitioner

25
26
27
28

5

San Raman Valley USD April 2021 Title IX Comp!aint000013

Exhibit 6, Page 13

122

4:17

1=4

Babe
Tue, Apr 13, 3:54 PM

to be one hundred percent honest
with you Idon't feel like I'm in love
like you but Idon't love you I'm so
So we rstill dating

Come on babe
I
won't put anything on

anym • re

Babe
Can wet Ik o - eon one

hood
4-6d
Babe

U hope so what umean babe
.M(

123

0

4:17

.e

11 :
11

F
MW-

MM
don't change for me, that isn't what
Ior you need in this relationship, it's
not going to work because you
aren't the one for me and changes
won't fix anything
thank you for your feelings and
attempt to change but I . m ; ors
with this relationship
N9 Petitionet 9 lease, Ican chan
Iknow how to
A

Redacted

an tell utha
I
kno ', you c.

but don't because if
dme be yourself
cuz that's not healthy

,
can

for me or you
r. -Mr-W

Ipromise Petitione
I
won't call Redacted

Or anyone

/Message

p!aint000015

Exhibit 6, Page 15

124

4:18

.1 - (q0

Jane

ucalling someone doesn't have
anything to do with this
Please don't do this
Ilove uaka like ualot
And Ineed u
Petitione please talk to me what did
even do
we've been talki gabo' tthis,
please don't b ;q- rn- 'Fs not
changin mwvni ld - I'm done with
this --; a .'ori kip
I
have to go
Petitionei

No

sie-se

Ilaves een Nhere for u
►e1 need uin my fucking life
An•rl like uhella
no you don't stop saying that
elmwNo Idon't what
+ou don_t need mejn_your_lifeto live,
Message

pzint000016

Exhibit 6, Page 16

125

4:18

^0

Jane

No Idon't what
you don't need me in your life to live
Ido, uhave been there for me
And ualways loves me
Loved
Cared about me
And never gave up on me

No Petitione
Petitione

0

Ra so peace

we are done.
ohe
ampcall)
Thu, Apr 15,12:45 PM

d
7

Calif ,We
'
High School

Message

p!aint000017

Exhibit 6, Page 17

126

20-21
California High School

Student Schedule For Petitioner
Grade: 09
Term(s): T3 T4 Courses enrolled: 7

9870 Broadrnoor Or, San Ramon CA 94583
Page 1of 1

Term T3 (01104/21- 03/12/21)

Torm T4 ( 03/14/21.06103121)

00

NDHSRN-1 ( Mon S1, Mon S2, W/F S2)
Health
Liberatore, Emily Coleen HYBRID
Rm: B-37

NDHSRN-1 ( Mon S1, Mon S2, W/F S2)
Health
Liberatore, Emily Coleen HYBRID
Rm: B-37

01

FLS2"-12 ( Mon S1, Mon S2, T/R S2)
Spanish 11
Rovo -,Adalerto A (VC)
Rm: WL-5

FLS2"-12 ( Mon S1. Mon S2, T/R S2)
Spanish II
Row', Adalerto A (VC)
Rm: WL-5

02

SCBLESR'-22 ( Mon S1, Mon S2, W/F S2)
Biology: Tho Living Earth
Martin, Jaoob C HYBRID
Rm: S-3

SCBLESR'-22 (Mon S1, Mon S2, WF S2)
Biology: Tho Living Earth
Martin, Jaoob C HYBRID
Rm: S-3

03

MAAISR'-31 ( Mon S1, Mon S2, T/R S2)
Algebra 1
Panganthon, Myrallel HYBRID
Rm: 208

MAA1 SR'-31 Mon S1, Mon S2, T/R S2)
Algebra 1
Pangand on, Myra el HYBR D
Rm: 208

04

ENE9SR'-41 ( Mon S1, Mon S2, W/F S2)
English 9
Shea. Nicholas HYBRID
Rm: 311

EN
W-41 ( on S1 Mon S2, W/F S2)
English 9 ,
Shea. Nicho as HYBRID
m: 311

05

FATA1'-51 ( Mon S1, Mon S2. T/R S2)
Theatre Arts 1
Woods, Laura (VC)
Rm: FA106

FAT 1'-5 ( Mon S1, Mon S2, T/R S2)
Theatre Arts 1
W ods, Laura (VC)
Rm: FA106

06

PE9SR'N-61 ( Mon S1, Mon S2, W/F S2)
PE 9
Matthews, Lenard HYBRID
Rm: GYM

PE9SR'N-61 (Mon S1, Mon S2, W/F S2)
PE 9
Matthews, Lenard HYBRID
Rm: GYM

Counselor: Sawyer, Jonathan

San Ramon Valley LSD April 2021 Title IX Comp'aint000018

Exhibit 6, Page 18

127

20-21
California High School

Student Schedule For lane Ro
—e
Grade: 09
Term(s): T3 T4 Courses enrolled: 7

9870 Broadrnoor Or, San Ramon CA 94583
Page 1of 1

Term T3 (01104/21- 03/12/21)

Torm T4 ( 03/14/21.06103121)

00

NDFL'N•101 ( Mon Si, Mon S2, W/F S2)
Freshman Leadership
Cheng, Hannah (VC)
Rm: 111

NDFL'N-101 (Mon S1, Mon S2, W/F S2)
Freshman Leadership
Cheng. Hannah (VC)
Rm: 111

01

SCBLESR'-11 ( Mon S1, Mon S2, T/R S2)
Biology: The Living Earth
Christensen. Sarah HYBRID
Rm: S-1

SCBLESR'-11 ( Mon S1, Mon S2, T/R S2)
Biology: The Living Earth
Christensen, Sarah HYBRID
Rm: S-1

02

NDHSRN-21 ( Mon S1, Mon S2, W/F S2)
Health
Liberatore, Emily Coleen HYBRID
Rm: 8-37

NDHSRN-21 (Mon S1, Mon S2, W/F S2)
Hodth
Liberatore. Emily Coleen HYBR D
Rm: B-37

03

MAAISR'-31 ( Mon S1, Mon S2, T/R S2)
Algebra 1
Panganthon, Myrabel HYBRID
Rm: 208

MAA1 SR'-31 Mon S1, Mon S2, T/R S2)
Algebra 1
Pangand on, Myra el HYBR D
Rm: 208

04

ENE9SR'-41 ( Mon S1, Mon S2, W/F S2)
English 9
Shea. Nicholas HYBRID
Rm: 311

EN
R'-41 ( on S1 Mon S2, W/F S2)
English 9 ,
Shea. Nicho as HYBRID
m: 311

05

FATA1'-51 ( Mon S1, Mon S2, T/R S2)
Theatre Arts 1
Woods, Laura (VC)
Rm: FA106

FAT 1'-5 ( Mon S1, Mon S2, T/R S2)
Theatre Arts 1
W ods, Laura (VC)
Rm: FA106

06

PE9SR'N-61 ( pion S1, Mon S2, W/F S2)
PE 9
Matthews, Lenard HYBRID
Rm: GYM

PE9SR'N-61 (Mon S1, Mon S2, W/F S2)
PE 9
Matthews, Lenard HYBRID
Rm: GYM

Counselor: Goldenberg, Rachelle

San Ramon Valley USD April 2021 Title IX Comp'aint000019

Exhibit 6, Page 19

128

129

Period 2

Period 3
Passing

30

5

30

5

30

5

30

30

5

30

5

30

8:50 - 9:20

9:20 - 9:25

9:25- 9:55

9:55.10:00

10:00 - 10:30

10:30 - 10:35

10:35 - 11:05

1105-11:35

11:35- 11:40

11:40- 12:10

12:10-12:15

12:15- 12:45

Asynchronous Work Completes
Teacher Professional Developm nt &
Department Collaboration

Period 6

Passing

Period S

Passing

Lunch

Period 4

Passing

Period 1

Passing

"Minimum Days will follow the Monday Remo aSch du e

12:45 - 2:45

Passing

5

8:45- 8:50

Period A

30

8:1S- SAS

Period Schedule

Minutes

Time

igh School In-Person
onday Remote + T • Block

40

10

7S

10

35

75

15

75

10

75

IMinutes

.L

Passing

Period 6

Passing

Lunch

Period 4

assi ng

Pe od 2

Passi g

eriod

Wednesday

AllIMerson
Stvdenbon
campus

Passing

Period 5

Passing

Lunch

Period 3

Passing

Period 1

Passing

w'.l"Ct=

Teacher
Coll boration

Thur day

All In-Per n
Studen o
campus

San Ramon Valley USD April 2021 Title IX Complaint000020

Student
Support

Passing

Period 6

Passing

Lunch

Period 4

Passing

Period 2

Passing

Period A

Friday

All la-Person
Studentson
campus

1

Student Student Student
Support
Support
Support

Passing

Period 5

Passing

L nch

Period 3

Passl g

Period

Passing

(Asynchronous
wort caroietia+)

Teacher
Collaboration

Tuesday

Exhibit 6, Page 20

4
35

2:25

235 - : 15

2:25 -

1:10

1:00-1:10

12:25 - 1:00

11:10 - 12:25

10:55- 11:10

9:40 - 10:55

9:30 - 9:40

8:15 - 9:30

Time

AN In-Person
Students on
campus

Tuesday-Friday (all in-person students

From: Lacy Canton ( EC) <Icantonl@srvusd.net>
Date: Wed, Apr 21, 2021 at 3:29 PM
Subject: Student incident
To: Megan Keefer <JVI Keefer(@srvusd. net>

San Ramon Valley USD April 2021 Title IX Complaint000021

Exhibit 6, Page 21

130

Hi Megan,
Astudent approached me stating that she was concerned about her friend who has reported to her
that she was sexually assaulted on campus by another student.
Ithen pulled the friend, victim lna

from her 4th period English class to check- in with her/

provide support.
Victim: Jane Roe

shared with me that N-tifion—erM sexually assaulted her last Wednesday

during theater class. Jan and

were laying on the floor together cuddling du ° ng lass when

t±tstarted kissing her and gave her akicky on her neck. 1
m
i
el told him she w suncomfortable
and asked him to stop, then attempted to put his hands down her pants mul iple times, she
continued to tell him to stop and say no, pulling away, pulling her pants tig

e ,

ovin awayfrcm

him, etc. M 6—
_ continued to advance and would not listen to her, and put his ands down her pants
and attempted to penetrate her. She continued to ask him to stop nd tell him sh was
uncomfortable, his behavior continued until the bell rang, he stopped and got up and left. Tane
stated there were multiple witnesses to his behavior as they wer in acass oom with other
students. Ja__nej also stated that there were multiple inst nces with-i their 3week relationship that
Pe-fifio
—ne
—rM would touch her and kiss her in the clas room/ in public spaces where she would tell
him " no" or that she was uncomfortable, in which he wo Id ign r her requests and make
comments such as "you like this" " Ithought you

an

until she became agitated and would yell at him to

dto c ddle, you said you liked it" and persist
top" or would runaway.

After confiding In afriend, Jan learnin ed that sh 'Redacted

had also been sexually

assaulted by the alleged perpetra or, Petitioner' when they dated previously.
After the assault Jane confided

her mother who instructed her to block him on all social media

accounts and end their elationship Jane stated that she received numerous "provocative"
messages from

nclu ing pctures of his genitals.

This information was eported to admin and to SRO officer Hamilton.
Lacy Canton
Social Worker, Wellness Center Coordinator
Pronouns She/ Her
Email: LCanton(disrvusd.net
F: 925-820-5277
Be sure to visit the NEW Virtual Wellness Center forCal High!

.Cal Hiah Virtual Wellness Center
Visit the NEW Virtual Wellness Center for San Ramon Valley High
"When you replace Y' with " We" illness becomes wellness." - Shannon Alder

San Ramon Valley USD Apol 2021 Title IX Comp!aint000022

Exhibit 6, Page 22

131

If you •or someone youu_know are in crisis and need immediate help, please call
Contra Costa Crisis Center at 211 or 800-833-2900 or text HOPE to 20121..`0

`.

N:11,

Statement of Confidentiality: The contents of this e-mail message and any
attachments are intended solely for the addressee. The information may also be
confidential and/or legally privileged. This transmission is sent for the sole purpose of
delivery to the intended recipient. If you have received this transmission in error, any
use, reproduction, or dissemination of this transmission is strictly prohibited. If you are
not the intended recipient, please immediately notify the sender by reply e-mail and
delete this message and its attachments,'if any.
E-mail is covered by the Electron ic'Communications Privacy Act, 18 USC SS 25102521 and is legally privileged.

San Raman Valley USD April 2021 Title IX Comp!aint000023

Exhibit 6, Page 23

132

REOPENING TOGETHER
Return to In-Person
Information and Resources

Return to In- Person Information

and Resources

Student Board Member
Reopening Dashboard
COVID-19 Case Dashboard
SDC Return to In-person
I
yarning
Online Learning I
lelp, Login,
and Resources

At aspecial meeting on March 26, 2021, the SRVUSD Board of Education met to discuss and take action on
areturn to full-time, in-person instruction for hybrid students only. The Board voted unanimously to return
hybrid students to full-day, in-person instruction four days per week, beginning March 29, 2021 for

Student Password Support

secondary and Tuesday, March 30, 2021 for elementary.

Student Ernall Access
Instructions

For both elementary and secondary (grades 1-12) the cohorts that were previ usly in astaggered "A/B"

Socwl Services Resources

schedule will now come together to receive four full days of in-person inst uc on on their campuses.

How We Got Here

Students in special education programs will maintain their current schedule and ser ices through the end

ThoughtEx(hange FAQ

of this school year. Secondary mild Special Day Classes will now attend to rdays per week, rather than

Access to COVID Testing,

two.
The resources on this page provide information relevant to b th the in-pers

COVID
SAFETY
PLAN
(CSP)

Select any link below to view more information.

State of California,
if
Safe Schoo•For.All ub

The SRVUSD CSP consists of
the 3documents found
below. Click on any

PERSON)

Preschool/TK/K Remote (PDF)

contents.
To manually ma ipulate slides i.e. forward,
r verse

pa se, please select the 2nd version

that isADA compliant:

2020-21
View the Family
Guide to Reopening

School

Guidance
Checklist

COVID-19
Prevention

1-5 Remote (PDF)
TK-5 In Person (PDF)
Middle School Remote (PDF)

•Bo- - Presentation IMoving Forward
ether Part II 1/26/21 (PDF)

Middle School In Person (PDF)

or

High School Remote (PDF)

Board Presentation IMoving Forward
Together 1/12/21 (PDF)
Board Presentation IReopening Together:

A Plan for Retuming to In-person

Instruction w/dickable links

COVID-19

BELL SCHEDULES ( EFFECTIVE
UPON OPENING TO IN-

PRESENTATIONS

document to view Its

GUIDE to
REOPENING

and fully remote learning models.

High School In Person (PDF)
Adult Transidons Remote (PDF)
AdultTransiuons Hybrid (PDF)

Board Presentation IReopening Together:
APlan for Returning to In-person
Instruction w/captions (ADA Compliant)

County Preschool.pdf(PDF)

VIDEOS

FORMS
Sample Classroom IElementary
SRVUSD Notice and Acknowledgment for
Return to On-Campus Learning (PDF)

Program

Exhibit 6, Page 24

133

Sample Classroom ISecondary

BARGAINING

11/6/2020 Board Workshop and Town Hall

RESOURCES

UNIT CONTRACTS
AND MOUS

SRVEA Contract &
MDUs
CSEA I
IContract &
MOUs
CSEA III Contract &
MOus
SEIU Contract & MOUs

Declaration FAQ (PDF)
Asynchronous Overview: At-Home Leaming
for Secondary Students (PDF)
ThoughtExchange Results
Post-COVI0 Decision Tree

I
Should IReturn

to School? (PDF)
Daily Self Assessment

I
Home Health

Screening (PDF)
Declaration Results by School Site (PDF)

San Rynon Vafty USU IAA N!1 1Na L[ Comp Mt = 25

Exhibit 6, Page 25

134

CONFIDENTIAL: 1NVFSTICATION MATERIAL
STUDENT R
ECORD (FERPA)
CALIFORNIA HIGH SCII00L

1
2
3

'Jane Roe
Complainant,

4

DECLARATION 0r

vs.

5

I

Petitioner
May 4, 2021

G fetiiioner

Respondent.

7

S
9
10
11
12
13
14
15
16

17
18

1, Petitioner

, attest to the following under penalty of peerjury undd

the laws of the

Unitcd Stag and the Statc of Califomia, and would testify to ea& andtcry tbc!ow under
r

oath in accurt of law:

1. 1am afirst-year student at California High School an•Satrton, California.
2.

lam 15 years old.
frmo

3. 1dated uclassmate n:urle:dJnae

approximately March 17, 2021, until

April 13, 2021.
4. On April 13, 2021, 1told Kayla ina'textmessage that 1did not love her and was breaking
,-

up with her.
a. Ja—n
—
e] did not Rant tctireak up, and askcd to talk.

19

b. •
A+t;•6 a.m.,°I . tcx tcdJane " thank you for your feelings andattempt to change

20

b ,l
100
atn done
with this relationship."

21

1*.00*
At 737 a.m.,lane

tcxted me"No Peiitiooa please, Ican change. 1ktaow how to."

22
Nti

23
24
25

26

tUm* You for yot,r tee>i M acrd araW to change but I
am done with this rebtionsFtip

7_ARJ

•1 Z`t•314 767]

No •'°°

please, Ican ohango

7a7ou

IkrKyw how to

?7V ru

27
28

I
San Ramos Valley USD April 2021 Title IX Complaint00CO2

Exhibit 6, Page 26

135

CONFIDEh"17AL: INVEsfIGATION MATERIAL
STUDENT RECORD (FF,RPA)
1

d. At 7:38 a.m., Ya—n
—
el tcxted me "Please don't do this. Ilove uaka love ualot.
And Ineed u.

2
3
4
5
6
7
8
9
10

Petition

please talk to me what did 1even do."

.1W5 3" ! YO

Mom" don't do this

T.0 Du

.1 W5-N" 7Go

IWe uoka lice ualot
.I M

Tat+ fif

3»-;40c

And Ineed u

14.0

Fu

.l K'7 'W" laic

please ta't to me what did Ievert do

l;A Cu

►
r. •
e. At 7:40 a.m., Iresponded, "we've been talking about this, please don't beg me it's
not changing my mind, I'm done with this rclati ahip4have
et
to go."

11

,#ON

12

Mf

13
14
15
16

f.

17

—dwh-+k
® ••
Petitioner
At 7:41 a.m., Jane
responded_.No_
, please. Ihave been there for u. And I

need uin my uf ling life. And Ilike ahella."

18
19

.I tcra» ro-o

No Nddd
6--d

7,11 M,

20
.1 W-XV lk'0 "Qbff

21
22

1M,vbeem there for dOF

T41

Ot

r:,

''•

And 1need uIn my fucking life

741 rtt

Arid 1like uheflo

7.41 W

23
24
25
26
27
28

2
San Ramon Valley USD Apri 2021 Title IX Complaint00002

Exhibit 6, Page 27

136

CONFIDENTIAL: INVESTIGATION MATE RIAL
STUDENT RECORD (lFRPA)
At 7:42 a.m., Iwrote "you don't need me in your life to li%-c."

1

9.

2

h. At 7:42 a.m., Ya—nej responded, "Ido, it have been there for me. And you always
loves (sic) me. Loved. Cared about me. And never gave up on me."

3
4

V.

you don'
t
need me In your tfe.to Are

5
6

rJ7

vr.1

.1 C+.V0. rile

I
do, uhove been there for me

71" cu

7
.+t:aW7so

8
9
10
11

And uahways loves me

7I7 r1.t

.• 2?3-U) 1640

Loved
.t V.

7 43 wA

X1`9 7670

Cared about me

777 rAl

.1 Y'raal Wo

12

And never gave up on me

13
14

i.

At 7:58 a.m., Iwrote " we are done:;

15

LI.
vm are darts.

16
17
18

5. The only time after April
3l , 021, that Ihad any physical contact with J

at all was

on April 15, when Iofferde•her my hand to help her get up from sitting on the floor.

19

6. Inever had any nonconsensual physical contact with Ya—n
—
ej ever.

20

7. On Thuf:so
d
'e
ny"April 22:2021, Iwas removed from classroom instruction at California

21
22

Iiigh Scho
p
WaIrMegan Keefer called me into her office and said that7ane
akritici'

was alleging

23

that during asupport period after our Theater class on April 13,1 sexually

24

assaulted her.

25

b.

1explained that that was not true.

26

c.

Ms. Keefer did not provide written notice of th-. allegations against me.

27

d.

Ms. Kccfcr then left the room and rctumcd with the attached letter, which she

28

T'E P14

gave to me.

3
San Ramon Valley USD Apra 2021 Title IX Complaint0o002

Exhibit 6, Page 28

137

CONFIDEINTIAL: INVESTIGATION i\1ATERIAL
STUDENT RECORD ( FERPA)
1

L GMs. Keefer said that a " threshold" had been reached under Title IX that
warranted my emergency rcmoval from school.

2

3

ii. ,GIs. Keefer said there were "differences" in the accounts of what

4

happened, but declined to provide any details about those differences or

5

why they would result in my removal from school.

G

iii.

The letter says that the school had "undertaken an individualized safety

7

and risk analysis and has determined that you pose an immdc
v

atc threat to

8

the physical health and safety of astudent or other indiviudal arising from

9

the allegations of Title IX harassment. The specific reasons for the

10

decision are: substantial evidence leading teaitcgAions of s
ual
cx
1W

11

assault(s) to students while on campus."
iv.

12

The le tt er says that the school will no

the Board of Education of its

13

determination that 1am "cligib
il cc• for
ra
a`fitl IX removal and should not be

14

allowed to participate in the District's education programs or activities

15

until after the

16

Harassment concludes."

inve•stiSatioon

ino' the allegations of Title IX Sexual

17

Aor
e. 1was required tovctte school immediately and told not to return.

18

f.

Satufday, Aiprl 24, Sunday, April 25.

19
20

Iwas not given an Shformation regarding my schoolwork on Friday, April 23,

g. •
QnNloniay, A

26, 2021, my mother contacted the school at 10:00 a.m.

21

Assistant Principal Tucker Farrar called my mother at 2:50 p.m. and told her that I

22

needed to follow up with my teachers to get assignments and instructions.

23

h.

24
25
26
27
28

My Spanish teacher called my mother on Monday, April 26, asking me if
everything was okay.

i.

My lacrosse coach was not informed that Ihad been removed, and Ihad to email
him to let him know Icould not be at practice.

8. On April 28, 2021, 1received aletter from the school containing7ane's-I allegation:
On April 15, 2021, llcspondent sexually assaulted and sexually harassed
Complainant during fifth period theater class by kissing her on her mouth

4
San Ramon Valley USD April 2021 Title IX Complaint00002

Exhibit 6, Page 29

138

CONFIDENTIAL: INVESTIGATION NIA'TEIUAL
STUDENT RECORD (CERPA)
and neck without her consent, fondling her breasts without her consent,
fondling and penetrating her vulva and vagina without her consent, and
forcing her to touch his penis under his clothing by forcing her hand into his
pants without her consent.

1
2
3
9.

5

10. 1broke up with Jane

6
7

Jane's'

allegation is completely false.

4

on April 13, 2021, and — with the exception of helping her

stand up once on April 15 — never had physical contact with her again.
11. Jal7el and Inever had any intimate contact on school grounds beyond kissing.
v

8 Sworn under penalty of perjury under the laws of the United States and the State of California,

Petitioner' '

9 this 4th day of May, 2020:

r'

•o
Petitioner

10
11
12
13

0

14
is
16

•Q

17
18
19
20
21
22
23

4

24
25
26
27
28

5
San Ramon Valley USD Apra 2021 Title IX Complaint0o003

Exhibit 6, Page 30

139

Exhibit 7

140

Forwarded message
From: Jacqueline M. Litra <jlitra@f3law.com>
Date: Mon, Jul 12, 2021 at 6:42 PM
Subject: RE: Status of Emergency Removal
To: Dan Roth <dan@drothlaw.com>
Cc: Megan Keefer <mkeeferPsrvusd.net>, dkravitz(@srvusd.net <dkravitzC@ srvusd. net>,

Dear Mr. Roth:

The District and its Title IX team members are doing what they can to move the process forward in an
efficient manner. However, accommodating Respondent's requests during the process has resulted in
significant delays.

On May 3, 2021, the investigator initially sent Respondent aNotice of Interview scheduling his interview
for May 5, 2021. In response to your requests, Respondent's interview was postponed until June 18,
2021. On June 18, 2021, you requested an opportunity to correct your error in Respondent's declaration
by changing the times listed in Respondent's declaration from am to pill. You did not submit that revised
declaration until July 7.2021. Having now received the Respondent's amended declaration from you, the
investigator will be issuing the directly related evidence to the parties soon.

The emergency removal of Respondent remains in effect. There are procedural timelines applicable to
this process that cannot he modified by the District. We will continue to complete the process
efficiently. However, the timeline nt this stage is dependent on the timing of the parties' submissions.
Considering the timing applicable to the party and witness submissions for the remainder of the process, it
is possible the process will not be concluded before August 10, 2021.

Please let me know if you have any other questions.

Sincerely,

Jacqueline Litra

Exhibit 7, Page 1

141

Exhibit 8

142

California High School
9870 Broadmoor Drive • San Ramon, CA 94583 • 925-803-3200

April 22, 2021
Nepn Keller
Prindpal
Todwr Farrar
Antstant Prindpal
Cade Hawkins
Atsiswnt Prindpal

Petitioner
Petitioner Parent
Petitioner Parent'

Kathleen Kartlas
Assbtartt Prindpal
ieltrey Osborn
Arslrtcnl Prindpal
Candace Motano
O#W Manager

Re:

Notice of Title IX Emergency Removal of Student

Dear Petitioner
On April

:

22, 2021,

the San Ramon Valley Unified School District ("District') received

allegations of Title IX Sexual Harassment against you.
In response to the initial allegations, the District has undertaken an individualized safety and
risk analysis and has determined that you pose an immediate threat to the physical health or
safety of a student or other individual arising from the allegations of Title IX Sexual
Harassment. The specific reasons for the decision are: substantial evidence leading to
allegations of sexual assault(s) to students while on campus.
Accordingly, the District has determined that you should be removed from the District's
education program or activity on an emergency basis under -Title IX of the Education
Amendments of 1972 and its implementing regulations.
The Title IX Coordinator will notify the Board of Education of its determination that you are
eligible for aTitle IX emergency removal and should not be allowed to participate in the the
District's education programs or activities until after the investigation into the allegations of
Title IX Sexual Harassment concludes.
No person is permitted to intimidate, threaten, coerce, or discriminate against any individual
for the purpose of interfering with any right or privilege secured by Title IX, or because the
individual has made areport or complaint, testified, assisted, or participated or refused to
participate in any manner in the Title IX procedures. If any individual is harassed or
intimidated because of filing acomplaint or participating in any aspect of the District's Title
IX Sexual Harassment Complaint Procedures, that individual may file acomplaint alleging
such treatment using the District's Board Policy. See attached copies and links:

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 8, Page 1

143

California High School
9870 Broadmoor Drive • San Ramon, CA 94583 • 925-803-3200

http://%v%vNv.garnutonlinc.net/district/sanrainonvalli vlod /QycpiayPoligy/1050532/
Itttp://w"nv.6a mutonlinc.tictldistrict/s,inrtmonv.illcvtisd/DisplgPolicy/10505331
http•/hvwwgamutonl inc nct/district/sanramonvallevusd/DispIayPolicv/1050895/
You can challenge this emergency removal decision under Tale IX by contacting Megan
Keefer.
Since
eI

oordin:, or Designee

Enclosures
)itip://Nv%v%v,gnmutonline.net/district/snnramonvillcvucd/DiTlayPolkv/10505321

bttpJhvww.c1mutoniine.net/district/sanramonville,vtisd/DisplayPolicy/I 0505331
http://w%vm,,gamtitonline.net/district/s,inritnonvallevusd/DisDlavPolicv/1050$95/

The San Ramon Valley Unified School District Empowers Students
to Reach Their Educational Potential

Exhibit 8, Page 2

144

PROOF OF SERVICE

1
2
3
4
5
6

STATE 0FCALIFORNIA
jsS.

COUNTY OF LOS ANGELES
lam employed in the County of Los Angeles, State of California, lam over the age of 18 and not apasty to the within action;
mybusiness address is 445 South Figueroa Sheet, 311 1Flooi, Los Angeles, CA 90071
On August5,2021,lseived the foregoing documentdescilbed AMENDED EX PARTE APPLICATION FOR STAY OF
ADMINISTRATIVE DECISION PENDING COURT REVIEW OF WRIT PETITION; DECLARATION; EXHIBITS on all
interested pasties listed below by tiansm ruing to all interested pasties atrue copy thereof as follows;

7

Jacqueline M Lltfa
Fagan Friedman & FuIfiosiLLP
6300 Wilsh ie Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone, ( 323) 330-6300
Fax, ( 323 ) 330-6311
Em ail; jlitia5o, Qlaw.com
ATT0RNEYSFOR RESPONDENTS

8
9
10
11

David Mishook
Fagan Filedm an & FuIfiosi LLP
70 Washington Sheet, Suite 205
0akland,Califoin!a 94607
Phone;510,550,8200
Fax;510.550.8211
Em ail; dm ishook5o, QIaw,com
ATT0RNEYSFOR RESPONDENTS

12
13

❑

14

machine Ius
edcomplied with Rule 2003•3jand no eiioiwas iepoited by the in achine, Puisuantto Rule 2005•!j, I
c
aus
edthe
in achine to print atiansmission fecofd of the tiansm ission, acopy of which is attached to this declaration,

15
16
17
18
19

❑

BYFACSIMILETRANSMISS10Nfiom FAX numbei•213j529-0783 tothefaxnumbeisetfoithabove. The facsimile

BV MAIL by placing atrue copy theieofenclosed in asealed envelope addressed as setfoith above, Iam readily

fain iliac with the firm's practice of collection and processing coiiespondence for in ailing, Undeithat practice it would be
deposited with U. S,postaIseivice on thatsam eday with postage thereon fully prepaid at Los Angeles,Califoin!a in the
oidinaiy course of business. Iam a are that on in otion of pasty served, service is piesum e invalid if postal cancellation date
of postage in etei date is in ore than one ( 1) day after date of deposit for in ailing in affidavit,
❑

BV PERSONAL SERVICE by delivering acopy of the docum ent•s) by hand to the addressee of Icause such envelope

to be delivered by process sewer,

20

❑ BV EXPRESS SERVICE by depositing in abox of other facility iegulaily in aintained by the express service cashes of
delivering to an authorized couilei of dilvei authorized by the express service cashes to receive docum ants, in an envelope of
package designated by the express service cashes with delivery fees paid of provided for, addressed to the person on whom it

21

is to be seived,

22

❑X

BV ELECTRONIC TRANSMISSION by tiansm itting aPDFversion of the docum ent•s) by electronic in all to the paiiy•s)

identified on the service list using the e- mall addiess•es) indicated.

23
24

❑X Ideclaie undeipenalty ofpeijuiy undeithe laws of the State ofCalifoinia thatthe above is true and coiiect,

25

❑ Ideclaie undeipenalty ofpeijuiy undeithe laws of the United States of Am erica that the above is true and coiiect,

26

Executed on August 5, 2021 in Los Angeles, California
Adiian'a Rec
endez

27
28

AMENDED EX PARTE APPLICATION FOR STAY OF ADMINISTRATIVE DECISION
23

145

EXHIBIT 6

146

1
2
3
4
5
6
7
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

FOR CONTRA COSTA COUNTY

10
11

JOHN DOE, an individual, minor through his
parent and next friend JANE DOE,

Case No.: NC21-1450
[Hon. Barry Baskin, Dept. 7]

12

Petitioner,

13

V.

14

MEGAN KEEFER, et al.

15

Respondents.

16

[Proposed] ORDER GRANTING EX PARTE
APPLICATION FOR STAY OF
ADMINISTRATIVE DISCIPLINARY
ACTION IN EXCESS OF JURISDICITON
PENDING COURT REVIEW OF WRIT
PETITION
Date:
Time:
Dept:

17

August 5, 2021
11:00 a.m.
7

18
19

Having considered the papers submitted in support of and in opposition to Petitioner's ex parte

20

application for stay of administrative action pending court review of the Petition, and the argument and

21

testimony in support of and in opposition to the stay, and finding good cause therefore;

22
23

IT IS HEREBY ORDERED that the operation of the underlying administrative decision or order is
stayed pending further order of the court.

24
25
26

Dated:
Hon. Barry Baskin
JUDGE OF THE SUPERIOR COURT

27
28
[Proposed] ORDER GRANTING STAY OF ADMINISTRATIVE ACTION
1

147

PROOF OF SERVICE

1
2
3

STATE 0FCALIFORNIA
jsS.

COUNTY OF LOS ANGELES

lam employed in the County of Los Angeles, State of California, lam over the age of 18 and not apasty to the within action;
4 mybusiness address is 445 South Figueroa Sheet, 311 1F1ooi, Los Angeles, CA 90071
5 On Augus14,2021,1seived the foregoing documentdescilbed [ PioposedjORDER GRANTING STAY OF ADMINISTRATIVE
ACTION PENDING COURT REVIEW OF PETITION on allinteiested pasties listed below by tiansm ruing to allinteiested
6 pasties atrue copy thereof as follows;
7

Jacqueline M Lltfa
Fagan Filedm an & Fulffost LLP
6300 Wilsh ie Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone, ( 323) 330-6300
Fax, ( 323 ) 330-6311
Ein ail; jlitia 5o, f31a w . c
oin
ATT0RNEYSFOR RESPONDENTS

8
9
10
11

David Mishook
Fagan Filedm an & FuIfiosi LLP
70 Washington Sheet, Suite 205
0akland,Califoin!a 94607
Phone;510,550,8200
Fax; 510.550.8211
Em ail; dm ishook5o, Qlaw,com
ATT0RNEYSFOR RESPONDENTS

12
13
14
15

❑ BYFACSIMILE TRANSMISSION fiom FAX numbei•213j529-0783 to the faxnumbeisetfoithabove. The facsimile
machine Ius
edcomplied with Rule 2003•3jand no eiioi was iepoited by the in achine, Puisuantto Rule 2005•!j, I
c
aus
edthe
in achine to print atiansm ission fecofd of the tiansm ission, acopy of which is attached to this declaration,
❑

BV MAIL by placing atrue copy theieofenclosed in asealed envelope addressed as setfoith above, lam readily

17

fain iliac with the firm's practice of collection and processing c
oi
i
esp
ondenc
efor in ailing. Undeithat practice it would be
deposited with U. S,postaIseivice on thatsam eday with postage thereon fully prepaid at Los Angeles,Califoin!a in the
oidinaiy course of business. Iam a are that on in otion of pasty served, service is piesum e invalid if postal cancellation date
of postage in etei date is in ore than one ( 1) day after date of deposit for in ailing in affidavit,

18

❑

16

19
20
21
22

BV PERSONAL SERVICE by delivering acopy of the docum ent•s) by hand to the addressee of Icause such envelope

to be delivered by process sewer,
❑ BV EXPRESS SERVICE by depositing in abox of other facility iegulaily in aintained by the express service cashes of
delivering to an authorized couilei of dilvei authorized by the express service causer to receive docum ants, in an envelope of
package designated by the express service cashes with delivery fees paid of provided for, addressed to the person on whom it
is to be seived,

❑X

BV ELECTRONIC TRANSMISSION by tiansm itting aPDFversion of the docum ent•s) by electronic in all to the paity•s)

identified on the service list using the e- mail addiess•es) indicated.

23
24

❑X Ideclaie undeipenalty ofpeijuiy undeithe laws of the State ofCallfoinla that the above is true and coiiect,

25

❑ 1declaie undeipenalty ofpeijuiy undeithe laws of the United States ofAmeiica that the above is true and coiiect.

26

Executed on August 4, 2021 in Los Angeles, Califoinia
Adi'iana Rec
endez

27
28

[Proposed] ORDER GRANTING STAY OF ADMINISTRATIVE ACTION
2

148

EXHIBIT 7

149

[Exempt From Filing Fee
Government Code § 6103]

1 FAGEN FRIEDMAN & FULFROST, LLP
David R. Mishook, SBN 273555
2 dmishook@f3law.com
Jacqueline M. Litra, SBN 311504
3 j
litra@f31aw. com
70 Washington Street, Suite 205
4 Oakland, California 94607
Phone: 510-550-8200
5 Fax: 510-550-8211
6 Attorneys for SAN RAMON VALLEY UNIFIED
SCHOOL DISTRICT, MEGAN KEEFER,
7 KEITH ROGENSKI
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

COUNTY OF CONTRA COSTA, MARTINEZ

10
11

a

J
J

Ln

o0
N

•

•
(D

12

CASE NO. NC21-1450

Petitioner,

OPPOSITION TO EX PARTE REQUEST
TO STAY EMERGENCY REMOVAL;
APPENDIX

^ O

•.••o
- •••
Mx
c

JOHN DOE, et al.,

E

CD

o U

N
O

•
E

00

o

LL. 3:••
0 0
c CD

13
14
15

vs.
MEGAN KEEFER, et al.,

Filed Concurrently With: Declaration cf
Jacqueline Litra; Declaration c
fDave Kravitz

Respondents.
Date:
Time:
Dept.:

16

August 9, 2021
1:30 p.m.
7

17
The Hon. Barry Baskin, Dept. 7
18
Trial Date:

None Set

19
20
21
22
23
24
25
26
27
28

OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

150

1

TABLE OF CONTENTS

2
3
4
5
6
7
8
9
10
11

a
J
J

Ln
N •
O N
L 0

N
00
0
Ln
CD `?
<D 0

INTRODUCTION

1

II.

ARGUMENT

3

A. The Emergency Removal Is Not aFinal Decision of the District and, so, Is Not Reviewable
Under Section 1094.5
3
B. Petitioner Misrepresents the Regulatory Requirements for Emergency Removal
Determinations.

13

•QE•
c

14

D.

A Stay Is Not Warranted.

11

III.

CONCLUSION

14

IV.

APPENDIX

16

00

15

M x

o a O
N

N

N

c

Ln
o
Ln

LL. 3 0 0

•o

Li

5

C. Ms. Keefer Followed the Regulations to Arrive at an Appropriate Individualized Analysis,
Which is Supported by the Evidence.
8

12

(01•

LL

I.

16
17
18
19
20
21
22
23
24
25
26
27
28
ii
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

151

TABLE OF AUTHORITIES

1
2

Page(s)

3
4

CASES

5 Association cf Orange County Deputy Sher,,)fs v. County cf Orange,
(2013) 217 Cal.App.4th 29

11

6

Calffornia State University, Hayward v. National Collegiate Athletic Assn.,
(1975) 47 Cal.App.3d 533
7
8 Doe v. Occidental College,
(2019) 37 Cal.App.5th 1003
9
10
11
N

Ln
0

00
0

•Ln

N
N O L?
CD O

(01•
M

C

0
N
00

N

O

0

13

9

Doe v. Regents cf University cf Calfornia,
(2016) 5Cal.App.5th 1055

9

Doe v. University cf Southern Calfornia,
(2018) 28 Cal.App.5th 26 [stating stay was granted

11

Kumar v. National Medical Enterprises, Inc.,
(1990) 218 Cal.App.3d 1050

3

Thomas v. Ca/Portland Company,
(9th Cir. 2021) 993 F.3d 1204

9

x

•E•
o U

12

11

14
15
16

Venice Canals Resident Home Owners Assn. v. SiAperior Court,
(1977) 72 Cal.App.3d 675

17

STATUTES

18

20 U.S.C. § 1092

4

19

34 U.S.C. § 12291

4

20

Code Civ. Proc., § 1094.5

21

Ed. Code § 48900

22

REGULATIONS

23

34 C.F.R. § 106.30 (a)

4

24

34 C.F.R. § 106.3 (a)

5

25

34 C.F.R. § 106.44

26

34 C.F.R. § 106.45

27

85 Fed. Reg. 30183, et seq.

L'

0 0

12

3, 5, 9, 11
3,4

passim
4, 5, 6
5, 6, 7, 8

28
iii
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

152

1

Pursuant to the Court's request at hearing on August 5, 2021, Respondents Megan Keefer

2 and Keith Rogenski (named here in their official capacities as officials of the San Ramon Valley
3 Unified School District) and the San Ramon Unified Valley Unified School District ("District")
4 hereby provide this written opposition to Petitioner John Doe's ex parte application to stay
5 enforcement of an April 22, 2021 emergency removal of Petitioner from the physical educational
6 environment pursuant to 34 C.F.R., section 106.44, subd. (c).
7 I.

INTRODUCTION

8

Petitioner seeks an ex parte order that this Court stay the enforcement of an emergency

9 removal of Petitioner from the physical educational environment pending the outcome of aTitle IX

a
J
J

C\1
00

0
oN••
.••o
U_ X
x
Ln

c

E

CU

o U

CD

o

c

CD

investigation stemming from allegations Petitioner sexually assaulted a young woman on the

11

campus of the District's California High School on or about April 13, 2021. Petitioner's request for

12

an ex parte order is in the context of Petitioner's Petition for Writ of Administrative Mandate

13

otherwise challenging the District's emergency removal as arbitrary and capricious. The Writ

14

Petition, itself, has been filed while the District's Title IX procedures—including an investigation,

15

decision and possible appeal—are still ongoing.

N
O

00

Li

10

•n
0 0

16

Numerous factors compel this Court to deny Petitioner's request for astay. First, case law

17

does not allow the use of section 1084.5 procedures to take interlocutory appeals of decisions made

18

by an agency prior to a final determination. Here, the emergency removal is one of several

19

supportive measures that the federal regulations authorize pending the outcome of a Title IX

20

investigation—akin (though not similar in every way) to an interim removal pending a final

21

disciplinary decision. Such interim or preliminary orders are not appealable as they do not constitute

22

the final determination of the agency and attempts to appeal are subject to dismissal for failure to

23

exhaust. Further, Petitioner could have immediately claimed a violation of the implementing

24

regulations in a complaint to the Department of Education's ("DOE") Office for Civil Rights

25

("OCR"), resulting in areview of the District's decision, but elected not to.

26

Second, Petitioner grossly misstates the requirements in the regulations for making an

27

emergency removal determination. The applicable federal regulations, which came into effect only

28

12 months ago, provide for emergency removal of astudent if, after an individualized safety and

OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

153

1 risk analysis, the recipient agency determines that the respondent poses an immediate threat to the
2 physical health and safety of one or more persons "arising from the allegations of sexual
3 harassment." Contrary to their moving papers, the commentary to the regulations makes clear that
4 DOE purposefully did not define "individualized safety and risk analysis," "immediate threat," or
5 "arising from allegations of sexual harassment"— substantively or procedurally— in order to give
6 the greatest possible flexibility to decisionmakers. Not only does the use of the phrase "genuine
7 emergency" in the commentary not provide asubstantive requirement for determinations, but the
8 commentary to the regulations imply that allegations of sexual assault or rape are straightforward
9 grounds for emergency removal.
10

Third, Petitioner is incorrect that the emergency removal determination process requires that

11

the District have provided him afactual showing of an immediate threat. Here, even the records

6

12

attached to Petitioner's declaration make clear that Petitioner is accused of a sexual assault on

0-1•
Mx
E•
o.
CD

13

campus in which he groped and manually penetrated the complainant despite her asking him to stop,

14

and that there were accusations that Petitioner had engaged in similar conduct with another student

00
1E •
•o
Ln
•Ln

15

at some point in the past. Weighed against these serious accusations, Petitioner denied engaging in

0 0

16

non-consensual sexual contact with the complainant and alleged the complainant fabricated the

17

allegations as a "jilted lover." If this Court has jurisdiction to review the District's decision, it must

18

do so on asubstantial evidence standard. However, contrary to Petitioner's entreaties that this Court

19

simply reweight the evidence, the simple summary above establishes that a reasonable

20

decisionmaker clearly could (and did) conclude that Petitioner posed an immediate threat to the

21

physical health and safety of one or more persons "arising from the allegations of sexual

22

harassment."

N

00

Ln

0

Ln
N
N O
CD O

U

0

O
N

23

Finally, a discretionary stay is simply not warranted in this situation. Petitioner readily

24

admits he was first subject to an emergency removal in April 2021, he appealed that decision

25

unsuccessfully in May 2021, and he was informed in July 2021 that the emergency removal would

26

remain in effect at the beginning of the 2021-2022 school year pending completion of the Title IX

27

process. Petitioner did not seek redress in this Court (or with OCR) at any time during this 100 plus-

28

day period, but waited until August 5, 2021, to seek an emergency stay. If the purpose of astay is
2
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

154

1 to preserve the status quo pending ajudicial challenge, the status quo accepted for over three months
2 by Petitioner is his emergency removal. Petitioner has, and will continue to be, provided equal
3 access to an educational program, albeit not physically on campus. Further, the Title IX process will
4 soon move to the decision phase—which provides robust due process. All of this must be concluded
5 before the District could impose disciplinary measures under Education Code § 48900 et seq.
6 Petitioner seeks here to disrupt this robust process with ajudicial declaration that his denials alone
7 suffice to preclude an emergency removal.
8

This is not what the regulations envisioned and it should be rejected by this Court.

9 II.

ARGUMENT

10
11
Ln

0

A.

The Emergency Removal Is Not aFinal Decision of the District and, so, Is Not
Reviewable Under Section 1094.5

N

00

6

12

Section 1094.5 of the Code of Civil Procedure authorizes this Court to issue awrit "for the

0-1•
Mx
E•
o.
CD

13

purposes of inquiring into the validity of any final administrative order or decision" made as aresult

14

of aproceeding in which by law ahearing is required to be given, evidence is required to be taken,

15

and discretion in the determination of facts is vested in an inferior tribunal[.]" (Code Civ. Proc., §

16

1094.5.) Finality implies exhaustion of administrative remedies; a "party must go through the entire

17

proceeding" to "afinal decision on the merits of the entire controversy" before resorting to the courts

18

for relief. (
Kumar v. National Medical Enterprises, Inc. (
1990) 218 Cal.App.3d 1050, 1055.)

Ln
N
N O
CD O

C

UD
N

•00
1E •
Ln
•o
•L?
0 0
0

19

This includes decisions that provide for interim deprivation of rights pending a final

20

decision. For example, in Kumar, siApra, aphysician sought to challenge continued restrictions on

21

his hospital privileges following apartial remand order by the Superior Court on a1094.5 petition.

22

(Id. at p. 1055.) The Court of Appeal dismissed the physicians appeal of the Superior Court decision

23

on the basis that the restrictions on his hospital privileges had been made at an intermediate level,

24

and that the remand set the process back to aplace prior to final review by the hospital's governing

25

body. (
Ibid.) Because his appeal from the trial court dealt only with an intermediate order restricting

26

his privileges pending final administrative exhaustion, the Court of Appeal held that it had no

27

authority under section 1094.5 to entertain further review. In other words, section 1094.5 does not

28

permit review of an interim order—even if that interim order deprives the petitioner of aproperty
3
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

155

1 right.
2

The same logic applies to the instant case. Section 106.44 of Title 34 of the Code of Federal

3 Regulations sets forth requirements for arecipients response to sexual harassment.' In this case, the
4 District determined that it would implement an emergency removal of Petitioner. (
See 34 C.F.R. §
5 106.44 (c).) Importantly, Petitioner's emergency removal was decided pending aformal complaint
6 being addressed through the Title IX grievance process set forth in the regulations. (
See 34 C.F.R.
7 § 106.44 (b).) The grievance process includes robust requirements for due process, including the
8 opportunity to present evidence and respond to the investigative report, submit written cross
9 examination questions, and appeal afinal decision. (
See 34 C.F.R. § 106.45.)

a

J
J

Ln

o0
N

•

c
CU

00 E

C

o U

CD

00

o

c

CD

Much like an interim deprivation of hospital privileges pending review, an emergency

11

removal determination in this context is atemporary measure pending afinal administrative decision

12

which will, here, either find the Petitioner responsible or not responsible for the conduct alleged. As

13

will be outlined further, below, a temporary emergency removal like Petitioner's, made due to

14

considerations for physical health and safety arising from the allegations of sexual assault, will end

15

if Petitioner is found to be not responsible for the alleged conduct (as is the presumption at this

16

stage, see 34 C.F.R. § 106.45(b)(1)(4)). If Petitioner is found responsible, the District would then

17

move to disciplinary proceedings under the Education Code that provide its own standards,

18

procedures, and due process for disciplinary removal from the educational environment. (
See Ed.

19

Code, § 48900 et seq. )2 An interim determination—even one that deprives astudent temporarily of

^ O

•.••o
U_
X

Li

10

•n
0 0

20
21
22
23
24
25
26
27
28

1 " Sexual Harassment," as defined by the 2020 Federal Regulations for Title IX, includes
in
addition to unwelcome "quid pro quo" sexual contact and severe, pervasive and objectively

offensive conduct— "sexual assault" as defined in 20 U.S.C. § 1092(f)(6)(A)(v), "dating violence"
as defined in 34 U.S.C. § 12291(a)(10), "domestic violence" as defined in 34 U.S.C. § 12291(a)(8),
and (6) "stalking" as defined in 34 U.S.C. § 12291(a)(30). (34 C.F.R. § 106.30 (a).)
2 Petitioner's

numerous citations on pages 12 and 13 of his ex parte motion purporting to set forth

due process under Title IX are wholly misplaced here. First, all the cited cases arose from Title IX
hearings conducted at the post-secondary level. While Petitioner may be correct that "California law
does not require any specific form of disciplinary hearing" in the post-secondary context, that is not
true for elementary and secondary schools which are bound by the "specific form of disciplinary
hearing" set forth in Education Code section 48900 et seq., including section 48911 (suspensions)
and 48918 et seq. (
expulsion hearing procedures). Second, the cases cited by Petitioner all arose
4
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

156

1 access to the physical educational environment—made prior to afinal decision made in accordance
2 to law is not appealable under section 1094.5. Rather, Petitioner must exhaust administrative
3 remedies and reach afinal determination on the merits in order to challenge Title IX determinations
4 in this Court.
5

This is not to say that Petitioner has no recourse. Even interim decisions may be redressed

6 through acomplaint with OCR, acting on behalf of DOE. (34 C.F.R. § 106.3 (a).) In promulgating
7 the regulations that first authorized emergency removals, DOE made clear that OCR may assess
8 whether a recipient acted with deliberate indifference when making an individualized risk
9 assessment under section 106.44(c). (85 Fed. Reg. 30235 (May 6, 2020).) 3 Through the complaint
10

process, OCR is authorized to review a recipient's process in making an emergency removal

11

determination, although OCR (like this Court) is not authorized to simply reweigh the evidence.

0

12

(]bid.)

0-1•
X

13

E

14

a
J
J

N
00

Ln

N •
Ln
O N
L 0 CD
<D 0

CU

c

B.

Petitioner Misrepresents the Regulatory Requirements for Emergency
Removal Determinations.

o U N
O
00

E

o

Li

c

CD

n
0 0

15

Reading Petitioner's ex parte, this Court would be excused for believing that in order to

16

impose an emergency removal, aTitle IX officer is required by the regulations to issue adetailed

17

written factual finding establishing that a "genuine emergency" exists because arespondent poses

18

an immediate threat to the physical health and safety of an individual on campus. For Petitioner, a

19

respondent's denial of the underlying conduct, and denial that he or she presents an ongoing risk, is

20

sufficient to overcome any other consideration taken by aTitle IX officer. Anything else, according

21

to Petitioner, would result in nefarious use of the emergency removal process by a student's

22

"enemies" who know that allegations of sexual misconduct will result in injury to arespondent.

23

This is not what the regulations or commentary to the regulations state or permit. Under

24

section 106.44(c), arecipient is authorized to make an individualized safety and risk analysis to

25
26
27
28

before August 2020, when 34 C.F.R., section 106.45 came into effect and DOE standardized
procedures for Title IX grievance proceedings.
The relevant sections of the Federal Regulations including DOE's commentary on 34 C.F.R.,
section 106.44(c) is attached hereto as an Appendix for the Court's benefit.
3

5
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

157

1 determine if an "immediate threat to the physical health or safety of any student or other individual
2 arising from the allegations of sexual harassment" justifies removal of the respondent. The
3 regulations do not prescribe what constitutes an "individualized safety and risk analysis," do not
4 define "immediate threat," do not require any written factual findings, and do not use the term
5 "genuine emergency." DOE specifically declined to prescribe any specific procedure for the
6 analysis, stating that recipients "may, but need not, utilize some or all the procedures prescribed in
7 §106.45, such as providing for collection and presentation of evidence." (85 Fed. Reg. 30235.) All
8 that is required for due process is that the recipient provide the respondent notice and an opportunity
9 to challenge the decision "immediately following the removal." (34 C.F.R. § 106.44(c).) DOE

a

J
J

Ln

o0
N

•

c
CU

00 E

C

o U

CD

00

o

c

CD

specifically declined to set forth any process for emergency removals in part because DOE viewed

11

the Title IX grievance procedure (i.e., the investigatory, decision and appeal procedure) as providing

12

sufficient post-deprivation due process. (85 Fed. Reg. 30183 ["[ T]he grievance process in § 106.45

13

provides robust due process protections for both parties[.]"].)

^ O

•.••o
U_
X

Li

10

•n
0 0

14

The lack of more robust definitions in the regulations is not an accident, but by design. In

15

the commentary, DOE states that it explicitly declined "to require recipients to follow more

16

prescriptive requirement to undertake an emergency removal (such as requiring that the assessment

17

be based on objective evidence, current medical knowledge, or performed by alicensed evaluator)"

18

so as to "leave as much flexibility as possible for recipients to address any immediate threat to the

19

physical health or safety of any student or other individual." (85 Fed. Reg. 30225.) In this light,

20

Petitioner's purported evidentiary objections to the District's emergency removal are misplaced.

21

The District was not required to follow any specific process in the emergency removal so long as it

22

made an individualized safety and risk analysis. The emergency removal determinations by Ms.

23

Keefer provided to Petitioner following her meetings with Petitioner and complainant, and again

24

after Petitioner had the opportunity to challenge, are facially "individualized." In other words, Ms.

25

Keefer made her determination based on factors specific to the complaint (e.g., individualized), not

26

categorically or automatically.

27

DOE also purposefully declined to provide any limitations on the grounds for emergency

28

removal beyond "physical health and safety" and "arising from the allegations of sexual
6
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

158

1 harassment." Contrary to Petitioner's insistence that the regulations require more, DOE implies that
2 an individualized risk assessment can be based solely on the allegations made in acomplaint. (
See
3 85 Fed. Reg. 30225 ["A threat posed by arespondent is not necessarily measured solely by the
4 allegations made by the complainant." (Emphasis added)].) The inclusion of the phrase " arising
5 from the allegations of sexual harassment" was, according to DOE, meant to broaden the reach of
6 emergency removals by "clarifying that the threats justifying aremoval could consist cf facts and
7 circumstances ` arising from' the sexual harassment allegations." (
Ibid., emphasis added.) In fact,
8 this language was explained to be included in opposition to asuggestion that emergency removals
9 be limited "only to instances where a complainant has alleged sexual assault or rape[.]" (
Ibid.,
10
11

a

J
J

Ln

o0
N

•

E
o U

CD

Li
c

CD

12

recipient can impose an emergency removal in situations where the allegations of sexual harassment

13

are limited to non-physical conduct (the more common definition of "sexual harassment"). When

14

DOE uses the term "genuine emergency" in the commentary, DOE does not do so to augment or

15

provide standards for an "individualized safety and risk analysis." Rather, DOE contrasts the phrase

16

"genuine emergencies" with examples of situations—such as abelief that arespondent may interfere

17

with aTitle IX investigation or destroy evidence— in which DOE believes emergency removal does

18

not apply. (85 Fed. Reg. 30225.) Taken together with DOE's commentary acknowledging that the

19

nature of acomplaint could alone trigger an emergency removal based on an individualized safety

20

and risk analysis, the use of the phrase "genuine emergency" elsewhere in the comments is not

21

meant to provide any substantive guidance—let alone imply that there must be a finding of an

22

emergent threat. In fact, DOE explicitly states in its comments that beyond the plain language of the

23

regulation, "We decline to add further bases that could justify an emergency removal under §

24

106.44(c)." (
Ibid.)

N
O

00

(D L

Most importantly, the commentary in the regulations primarily seeks to clarify when a

^ O

•.••o
U_
X
cu
c

emphasis added.)

n

n
0 0

25

Finally, in referencing sexual assault, DOE suggests that a recipient must consider

26

emergency removal as a non-deliberately indifferent supportive measure. In responding to

27

comments raising concerns about trauma asexual assault may cause, and the effect that may have

28

on acomplainant's equal access to education, DOE explains:
7
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

159

1

A recipient may need to undertake an emergency removal in order to
fulfill its duty not to be deliberately indifferent under § 106.44(a) and
protect the safety of the recipient's community, and § 106.44(c)
permits recipients to remove respondents in emergency situations that
arise out of allegations of conduct that could constitute sexual
harassment as defined in § 106.30.

2
3
4

5 (85 Fed. Reg. 30224.) DOE later explains that arecipient is obligated to provide acomplainant with
6 anon-deliberately indifferent response to asexual assault report, of which, "Emergency removals
7 under § 106.44(c) remain an option[.]" (85 Fed. Reg. 30226.) Taken together, these comments
8 strongly suggest that DOE believes an allegation of sexual assault is more likely to justify an
9 emergency removal than allegations of hostile environment sexual harassment.
10
11

a

J
J

Ln

o0
N

•

c
C

E
o U

CD

00

o

Li
c

U

CD

Ms. Keefer Followed the Regulations to Arrive at an Appropriate
Individualized Analvsis, Which is Supported by the Evidence.

12

With clarity as to what the applicable regulations do, and do not, require, should this Court

13

determine that Petitioner may bring the 1094.5 action, this Court can now turn to properly review

14

the factual and procedural basis for Ms. Keefer's decision. As set forth, above, DOE purposefully

15

declined to set forth in the regulations any clear definitions of what constitutes an "individualized

16

safety and risk analysis" or provide more prescriptive language regarding situations in which a

17

recipient might determine there is an immediate threat to physical health or safety. All this was to

18

provide recipients, like the District, flexibility in applying the emergency removal provision in a

19

manner that meets recipient's overall Title IX obligations.

^ O

•.••o
U_
X
CU

C.

•n
0 0

20

In this case, it is undisputed that on April 22, 2021, Petitioner was called to the office of Ms.

21

Keefer and told of allegations against him by complainant that Petitioner sexually assaulted

22

complainant on April 13 in aclassroom. Petitioner alleges that he explained to Ms. Keefer that it

23

was not true. Petitioner alleges Ms. Keefer explained to Petitioner that there were differences in the

24

accounts that she had been provided and that the information received led Ms. Keefer to institute an

25

emergency removal.

26

Petitioner was provided notice of the emergency removal that same day. (Hathaway

27

Declaration, Exh. 8.) On April 28, 2021, Petitioner admits he was provided with specifics of the

28

complainant's allegations, namely:
8
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

160

1

On April 15, 2021 [
sic.], Respondent assaulted and sexually harassed
Complainant during fifth period theater class by kissing her on her
mouth and neck without her consent, fondling her breasts without her
consent, fondling and penetrating her vulva and vagina without her
consent, and forcing her to touch his penis under his clothing by
forcing her hands into his pants without her consent.

2
3
4

5 (Id., Exh. 6, p. 13.) On May 7, 2021, Ms. Keefer issued an amended notice of emergency removal
6 correcting atypographical error. (
Id., Exh. 3.) Petitioner's attorney waited until May 17, 2021, to
7 proceed with ameeting to challenge the emergency removal. (
Id., Exh. 4, p. 1.) On May 19, 2021,
8 Petitioner again denied the allegations and asserted that he does not pose athreat to anyone. (
Id.,
9 Exh. 4, p. 1.)

a

J
J

Ln

o0
N

•

c
CU

00 E

C

o U

CD

00

o

c

CD

All of this information was taken into account by Ms. Keefer when Ms. Keefer provided

11

Petitioner with aletter outlining the outcome of his challenge to the emergency removal on May 21.

12

Ms. Keefer states that she considered "the allegations of sexual assault, Title IX Sexual Harassment,

13

and [Petitioner's] response to those allegations in making the initial assessment and determination."

14

As Petitioner had not provided any new facts, Ms. Keefer explained that it was her determination

15

that Petitioner poses an immediate threat to the physical health or safety of a student or other

16

individuals "arising form the allegations of sexual assault." (
Id., Exh. 4, pp. 1-2.)

^ O

•.••o
UX

Li

10

•n
0 0

17

The above must be evaluated by this Court, in apetition for writ of administrative mandate,

18

under asubstantial evidence standard. (Code Civ. Proc., § 1094.5, (c).) The substantial evidence

19

standard is "very deferential." (
Doe v. Occidental College (
2019) 37 Cal.App.5th 1003, 1019, reh'g

20

denied (July 24, 201S), review denied (Oct. 9, 201S).) This Court does not substitute its own

21

judgement, but asks if "no reasonable person could reach the conclusion reached by the

22

administrative agency, based on the record before it[.]" (
Ibid.., quoting, Doe v. Regents cf University

23

cf Calfornia (
2016) 5 Cal.App.5th 1055, 1073.) " Substantial evidence means [] more than amere

24

scintilla[] but less than a preponderance;[] it is an extremely deferential standard." (
Thomas v.

25

Ca/Portland Company (
9th Cir. 2021) 993 F.3d 1204, 1208, quotation and citation omitted.)

26

Despite no requirement for making written findings, this Court can nevertheless review the

27

evidence before Ms. Keefer to understand the basis of her decision. Ms. Keefer was provided with

28

adetailed allegation of asexual assault that took place in aclassroom during the school day. Ms.
9
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

161

1 Keefer was also provided with ageneral denial and claim that the complainant was fabricating a
2 story due to abreakup. In weighing these facts, Ms. Keefer was allowed to consider the nature of
3 the allegationa sexual assault which took place in the middle of the day in aclassroom—along
4 with other information available at the timeto conclude that "safety and risk," analyzed on an
5 individual basis, established an "immediate threat" to the physical health and safety of astudent or
6 others, all "arising from" the allegation of sexual harassment (e.g. sexual assault).
7

Ms. Keefer was not required by the regulations to detail her decision or analysis. However,

8 it can be safely presumed that, despite Petitioner's denials, Ms. Keefer responded to the potential
9 that Petitioner had exhibited apropensity to engage in sexually inappropriate conduct on campus

a

J
J

Ln

o0
N

•

E
o U

CD

LLc

CD

11

was not required to decide whether the allegation of sexual assault was or was not true. 4 That

12

determination is part of the (ongoing) Title IX grievance procedure. Rather, Ms. Keefer was tasked

13

with making an individualized determination based on the available information—which she did.

14

Here, Petitioner presents the Court with the same information before Ms. Keefer and asks

15

this Court simply to reweigh the evidence in his favor. To do so would substitute this Court's

16

judgment for that of Ms. Keefer, but here without the ability to speak directly with the complainant

17

or Petitioner. Petitioner maligns the complainant (and theoretical " enemies and ex-partners"

18

nefariously conspiring to coopt the Title IX processes to their own gain) in an attempt to focus this

19

Court solely on Petitioner's own denials. However, this Court knows that Petitioner's denials must

20

be (and were) weighed against the facts of the complaint and other information known to Ms. Keefer.

21

In doing so, this Court cannot say that no reasonable person could have come to the same conclusion

N
O

00

(D L

which poses arisk to the physical health and safety of others. As an interim measure, Ms. Keefer

^ O

•.••o
UX
cu
c

10

n

n
0 0

22
23

4 In

fact, Ms. Keefer was prohibited from determining the truth of the allegations, as complainants
formal complaint must be handled through the detailed processes of section 106.45. As outlined in

24

Section B, DOE specifically declined to require any procedure for the "individualized safety and
risk analysis" preceding emergency removals in part because DOE viewed the Title IX grievance

25

process as the appropriate venue in which to adjudicate whether the sexual harassment allegations
have any basis. By design, therefore, Ms. Keefer could only weigh complainant's allegation,

26
27
28

Petitioner's denial, and any other information directly known to Ms. Keefer at the time to make her
emergency removal determination. This type of deprivation early in a process based on initial
information, such as removal of work privileges such as in Kumar, slApra, or bail determinations in
criminal court, are common in judicial or quasi-judicial proceedings.
10
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

162

1 as Ms. Keefer and, as such, this Court must uphold the emergency removal.
2

D.

3

Even were this Court to determine that Petitioner could challenge his emergency removal

A Stay Is Not Warranted.

4 through a1094.5 petition, astay of the emergency removal is nonetheless unwarranted. Subsection
5 (g) of section 1094.5 permits, but does not require, this Court to issue astay of the operation of an
6 administrative order pending afinal order of this Court so long as the stay is not against the public
7 interest. Petitioner does not provide this Court with astandard for its consideration of astay, but
8 does cite to cases in which courts have considered temporary and preliminary injunction standards
9 in initial requests to stop an agency action in other contexts. (
See Association cf Orange County

a

J
J

Ln

o0
N

•

c
CU

00 E

C

o U

CD

00

o

c

CD

Deputy Sher,. )fs v. County cf Orange (
2013) 217 Cal.AppAth 29, 49 [reviewing preliminary

11

injunction issued in 1085 writ petition]; Calffornia State University, Hayward v. National Collegiate

12

Athletic Assn. (
1975) 47 Cal.App.3d 533, 544 [discussing standard for issuance of preliminary

13

injunction in complaint for injunctive relief]. See, also, Doe v. University cf Southern Calfornia

14

(2018) 28 Cal.App.5th 26, 31-32 [stating stay was granted by trial court in procedural history of

15

case without legal analysis].)

^ O

•.••o
UX

Li

10

•n
0 0

16

With regard to Association cf Orange County Deputy Sher,,)fs, siApra, Petitioner cites the

17

case for the proposition that he need not plead injunction standards in requesting astay, but merely

18

must show that he as a "colorable claim for writ relief[] i.e. there is some possibility that he will

19

likely prevail." (
Ex Parte at p. 14.) Association contains no such holding, however. Rather

20

Association reviewed the denial of awrit which included an underlying denial of apreliminary

21

injunction by the trial court. (
Association cf Orange County Deputy Sher,)fs, siApra, 217 Cal.AppAth

22

29, 49-50.) After holding that the trial court had properly denied the writ, the Court of Appeal

23

quickly disposed of the appeal of the denial of apreliminary inunction. In so doing, the Court of

24

Appeal cited case law that stated atrial court may not grant apreliminary injunction, regardless of

25

the balance of interim harm, "unless there is some possibility that the plaintiff would ultimately

26

prevail on the merits of the claim." (
Ibid. citation omitted.) The Court of Appeal never mentioned,

27

let alone provided standards for, astay.

28

In general, the granting of astay of afinal order pending appeal (as with an administrative
11
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

163

1 mandamus proceeding) is to preserve the status quo pending review. (
See, e.g., Venice Canals
2 Resident Home Owners Assn. v. SiAperior Court (
1977) 72 Cal.App.3d 675, 682.) Here, two factors
3 warrant strongly against the grant of a stay. First, as outlined above, Petitioner's arguments are
4 contrary to the plain text of the emergency removal regulation and ignore significant commentary
5 to the regulations that support the District's action, and so astay pending review of the emergency
6 removal determination would not maintain astatus quo. Rather, astay would return Petitioner to the
7 educational environment only for the likelihood Petitioner to return to an emergency removal after
8 the conclusion of this writ proceeding.
9

a

J
J
o

•

Ln
0
C\1 ^

o U

CD

Li
c

CD

and been subject to the emergency removal since April 22, 2021. Even assuming Petitioner had to

11

"exhaust" administrative remedies simply through requesting reconsideration, that reconsideration

12

concluded on May 21, 2021, at which time Petitioner was notified in writing that the emergency

13

removal would remain in effect for the duration of the Title IX process. (Hathaway Declaration,

14

Exh. 4, p. 2 ["You will not be allowed to participate in the District's in-person education programs

15

or activities until after adetermination is made regarding the Title IX Sexual Harassment Formal

16

Complaint."].) Further, on July 12, 2021, the District again confirmed, through counsel, that the

17

emergency removal would remain in effect for the start of the 2021-2022 school year. (
Id., Exh. 7.)

18

However, rather than seek astay through awrit petition at any of those times, Petitioner waited until

19

July 30, 2021 to file his action in this Court and until August 5, 2021 to request his stay via ex parte

20

application. Petitioner does not explain this delay or why an emergency only exists now that the

21

2021-2022 school year is starting— especially now that the Title IX action is expected to move into

22

its next phases.

N
O

00

(D L

10

O

•.••o
U_
X
cu 00 E
c

Second, the status quo at this time is Petitioner's emergency removal. Petitioner has known

n

n
0 0

23

If this Court were to "balance the equities" of Petitioner's stay request, it cannot say that the

24

equities weigh in favor of Petitioner being reinstated to the physical school environment. Following

25

Petitioner's emergency removal, the District notified Petitioner of the availability of supportive

26

measures and invited Petitioner to engage in conversations regarding supportive measures available

27

to support him during the Title IX process and removal. (Declaration of Jacqueline Litra ("Litra

28

Declaration"), Exh. A, p. l; Exh. B; Exh. C, pp. 2-3. See also, Hathaway Declaration, Exh. 1-2.)
12
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

164

1 However, Petitioner never responded regarding supportive measures.
2

After receiving no response from Petitioner or his counsel regarding the District's attempts

3 to implement supportive measures for Petitioner, on May 10, 2021, counsel for the District set up a
4 call with Petitioner's counsel to explain that supportive measures such as in-home instruction or
5 remote learning were available to Petitioner to facilitate his education during the emergency
6 removal. (Litra Declaration at ¶ 6; Id., Exh. D, p. 8) Once Petitioner elected remote instruction as a
7 supportive measure on May 11, 2021, the District executed the necessary changes to Petitioner's
8 schedule and he started remote instruction the following day, May 12. (Id., Exh. D, pp. 3-8.) During
9 the removal, the District has implemented supportive measures as needed to minimize disruption to
10

_
Fn
Ln
^ •
o .••o
••••
X
1\1

Petitioner's education during the emergency removal. (
Id., Exh. D, pp. 1-2.)

11

The 2020-2021 school year ended on June 3, 2021. (Declaration of Dave Kravitz, Title IX

12

Coordinator at ¶ 3.) The District has ameeting scheduled with Petitioner on Friday, August 6, 2021

13

at 1:00 pm, to review supportive measures for Petitioner for the 2021-2022 school year. (Declaration

14

of Kravitz at ¶ 4.) The District will offer Petitioner the option to enroll in the District's "Virtual

15

Academy" or the District's traditional independent study program, "Ventura School." (
Id. at ¶ 4.)

16

Both programs provide a UC-aligned (e.g. "A-G") curriculum and all courses are taught by

17

credentialed District teachers. (
Id. at ¶ 5.) Virtual Academy offers classes five days per week

18

following adaily bell schedule, akin to atraditional high school. (]bid.) This program, instituted due

19

to the COVID-19 Pandemic, offers the same academic opportunities to students, albeit in an online

20

environment. (]bid.) Venture School offers atraditional independent study program outside of the

21

traditional school setting as aflexible, alternative method of study, equal in quality and quantity to

22

what students receive in traditional in-person school. (]bid.) All courses are taught by credentialed

23

District teachers who meet with each student at least once aweek. (]bid.) The District has aschool

24

counselor and social worker available to provide support and guidance in the areas of academic and

25

social/emotional support. (]bid.) The District is offering these supportive measures to Petitioner to

26

maintain the status quo under the emergency removal and with Petitioner's equal access to education

27

during the Title IX investigation in mind.

N

c 00 E
CU

o U

CD
N
O

00

a•N•o
Li

c

CD

n
0 0

28

In contrast, if Petitioner were to be returned to in-person instruction, significant additional
13
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

165

1 supportive measure would need to be implemented to ensure equal access to the educational
2 environment for the complainant. Due to the reported trauma of the incident, complainant's parent
3 has requested advanced notice and opportunity to request atransfer for complainant if Petitioner
4 would be returning to in-person instruction at the same school as complainant. (Declaration of Dave
5 Kravitz at ¶ 6.) Staying the emergency removal would, therefore, not result in aneutral outcome.
6 Rather, it will require, through supportive measures at the request of complainant, her transfer to a
7 new school environment so as to avoid contact with Petitioner.
8

5

Given the above, Petitioner will not be prejudiced in continuing in virtual instruction during

9 the pendency of the Title IX investigation pursuant to the emergency removal. In contrast, the public
10

policy considerations in this case of staying the emergency removal determination and returning

11

Petitioner to in-person instruction warrant in favor of the District. The measured individualized

0

12

analysis of the circumstances by Ms. Keefer, the school-site principal, led to the conclusion that

0-1•
X

13

Petitioner poses an immediate threat to the physical health and safety to astudent or individual in

14

the physical school environment. Title IX, as well as California law, requires school officials to

15

maintain asafe environment in order to ensure equal access to education for all students. In fact, the

16

Title IX regulations specifically allow for the emergency removal of a student in the precise

17

circumstances here. That determination should not be disturbed.

18

III.

a
J
J

N

00

Ln

N •
Ln
O N
L 0 CD
<D 0

U_
c

E

cu

o U

CD
N
O

00

(D L
Li

c

CD

n
n
0 6

19
20

CONCLUSION
For the foregoing reasons, the Districts requests that this Court deny Petitioner's request for

astay of enforcement of the emergency removal determination.

21
22
23
24
25
26
27
28

5 The

District, as set forth in Section C, does not believe that it is sufficient in this circumstance and

under the regulations to simply separate Petitioner and respondent physically. Because the conduct
that Petitioner is accused of includes a sexual assault on a District campus, the grounds for
emergency removal— an immediate threat to the physical health and safety of any student or other
individual— remains.
14
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

166

1 DATED: August 6, 2021

FAGEN FRIEDMAN & FULFROST, LLP

2
3

By:
David R. •• oo
Attorneys for SAN RAMON VALLEY UNIFIED

4
5

SCHOOL DISTRICT, MEGAN KEEFER, KEITH
ROGENSKI

6
272-180/6158066.2

7
8
9
10
11

a

J
J

•

Lq
0
O N
o
S- • o

12

- •••

13

E CD

14

m x

c

o U N
O
c

00

N N • o

15

Ln

LL. 3: 0 0
•0

Li

16
17
18
19
20
21
22
23
24
25
26
27
28
15
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

167

168

IIVAOWEIU ADNIO2 INEI AV.IS 01.IS3fliblU EI IUVd X3 O.I. NOI.IISOddO

00

N

N

—1

01

N

N

t
o

N

A

N

W

N

N

N
O

N
\p

*•
00

*•
—1

*•
ON

*•
to

*•
A

*•
W

*•
N

*•
*•

*•

70 Washington Street, Suite 205
Oakland, California 94607
Main 510-550-8200 • Fax 510-550-8211

Fagen Friedman & Fulfrost, LLP

O

*•
\c

00

—1

C\

to

I:iEdI0to rrlrVA

A

W

N

30180

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

resolution of student and employee
complaints, alleging any action that
would be prohibited by Part 106 of Title
34 of the Code of Federal Regulations,
and also agrievance process that
complies with § 106.45 for formal
complaints of sexual harassment as
defined in § 106.30. Section 106.8(c)
thus clarifies that arecipient does not
need to apply or use the grievance
process in § 106.45 for complaints
alleging sex discrimination that does not
constitute sexual harassment.
Changes: None.
Supportive Measures
Overall Support and Opposition
Comments: Many commenters
supported the definition of " supportive
measures" in § 106.30 because the
provision states that supportive
measures may be offered to
complainants and respondents;
commenters asserted that supportive
measures should be offered on an equal
basis to all parties, except to the extent
public safety concerns would require
different treatment, stressing that
respondents deal with their own strife
as aresult of going through the Title IX
process. These commenters viewed the
§ 106.30 definition of supportive
measures as appropriately requiring
measures that do not disproportionately
punish, discipline, or unreasonably
burden either party. Many commenters
appreciated that the § 106.30 definition
of supportive measures included alist
illustrating the range of services that
could be offered to both parties, and
several of these commenters specifically
expressed strong support for mutual nocontact orders as opposed to one-way
no-contact orders.
Many commenters opposed the
§ 106.30 definition of supportive
measures because, while neither party
should be presumed to be at fault before
an investigation had been completed
commenters argued that this provision
will cause an overall decrease in the
availability of support services and
accommodations to victims.
Commenters argued that the
requirement that supportive measures
be " non- disciplinary, non-punitive,"
"designed [but not required] to restore
access," and not unreasonably
burdensome to the non-requesting party,
significantly limits the universe of
supportive measures schools could offer
to victims by prohibiting any measure
reasonably construed as negative
towards arespondent. These
commenters believed the supportive
measures definition was too respondentfocused and effectively prioritized the
education of respondents over

complainants. Several commenters
identified the clause " designed to
effectively restore or preserve" and
questioned how OCR would review and
determine whether asupportive
measure met this requirement. One
commenter asserted that supportive
measures designed to restore " access,"
as opposed to equal access, contradicted
the proposed definition of " sexual
harassment" in § 106.30 as well as the
Supreme Court's holding in Davis
because restoring some access is an
incomplete remedy for adenial of equal
access.
Several commenters requested
clarification that colleges and
universities have flexibility and
discretion to approve or disapprove
requested supportive measures,
including one-way no- contact orders,
according to the unique considerations
of each situation. Another commenter
argued that § 106.30 should be modified
to expressly state that schedule and
housing adjustments, or removing a
respondent from playing on asports
team, do not constitute an unreasonable
burden on the respondent when those
measures do not separate the
respondent from academic pursuits.
Commenters argued that § 106.30
should clarify what kind of burdens will
be considered " unreasonable."
Commenters urged the Department to
modify the definition of supportive
measures to require that all such
measures be proportional to the alleged
harm and the least burdensome
measures that will protect safety,
preserve equal educational access, and
deter sexual harassment.
Many commenters suggested that the
final regulations should require schools
to implement aprocess through which
the parties can seek and administrators
can consider appropriate supportive
measures, and at least one commenter
suggested that ahearing similar to a
preliminary injunction hearing under
Federal Rule of Civil Procedure 65
should be used, particularly in cases
where one party seeks the other party's
removal from certain facilities,
programs, or activities. At least one
commenter asked the Department to
specify that any interim measures must
be lifted if the respondent is found not
responsible.
Many commenters requested
clarification as to what types of
supportive measures are allowable in
the elementary and secondary school
context or requested that the
Department expand the supportive
measures safe harbor and definition to
apply in the elementary and secondary
school context. Other commenters
asserted that there may be agreater need

169

for supportive measures in cases
involving international students,
women in career preparatory classes
such as construction, manufacturing,
and wielding, and lower-income
students, for whom dropping out of
school could have more drastic and
long-lasting consequences.
Many commenters requested that the
Department reconsider or clarify the
requirement in § 106.30 that the Title IX
Coordinator is responsible for effective
implementation of supportive measures,
arguing that Title IX Coordinators
cannot fulfill all the duties assigned to
them under the proposed rules
(especially if arecipient has only
designated one individual as aTitle IX
Coordinator) and asserting that the
responsibility to implement supportive
measures could be easily delegated to
other offices on campus.
Discussion: The Department
appreciates commenters' support for the
§ 106.30 definition of supportive
measures, and we acknowledge
commenters' arguments that the
language employed in the proposed
definition of the term " supportive
measures" is too respondent-focused or
lessens the availability of measures to
assist victims. The Department disagrees
that this provision prioritizes the needs
of one party over the other. For
example, the § 106.30 definition states
that the individualized services can be
offered " to the complainant or
respondent"
free of charge, that the
services shall not " unreasonably"
burden either party, and may include
services to protect the safety " of all
parties" as well as the recipient's
educational environment, or to deter
sexual harassment. The Department
disagrees that the requirements for
supportive measures to be nondisciplinary, non-punitive, and not
unreasonably burdensome to the other
party indicate apreference for
respondents over complainants or
prioritize the education of respondents
over that of complainants. These
requirements protect complainants and
respondents from the other party's
request for supportive measures that
would unreasonably interfere with
either party's educational pursuits. The
800

800 W e emphasize that a " complainant" is any
individual who has been alleged to be the victim
of conduct that could constitute sexual harassment,
and a " respondent" is any individual who has been
reported to be the perpetrator of conduct that could
constitute sexual harassment, so aperson may be
acomplainant or arespondent regardless of
whether aformal complaint has been filed or a
grievance process is pending (and irrespective of
who reported the alleged sexual harassment—the
alleged victim themselves, or athird party). See
§106.30 defining " complainant" and defining
"respondent."

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
plain language of the § 106.30 definition
does not state that asupportive measure
provided to one party cannot impose
any burden on the other party; rather,
this provision specifies that the
supportive measures cannot impose an
unreasonable burden on the other party.
Thus, the § 106.30 definition of
supportive measures permits awide
range of individualized services
intended to meet any of the purposes
stated in that provision (restoring or
preserving equal access to education,
protecting safety, deterring sexual
harassment).
We do not believe that it would be
appropriate to specify, list, or describe
which measures do or might constitute
"unreasonable" burdens because that
would detract from recipients'
flexibility to make those determinations
by taking into the account the specific
facts and circumstances and unique
needs of the parties in individual
situations. 801 For similar reasons, we
decline to require that supportive
measures be " proportional to the harm
alleged" and constitute the " least
burdensome measures" possible,
because we believe that the § 106.30
definition appropriately allows
recipients to select and implement
supportive measures that meet one or
more of the stated purposes ( e.g.,
restoring or preserving equal access;
protecting safety; deterring sexual
harassment) within the stated
parameters ( e.g., without being
disciplinary or punitive, without
unreasonably burdening the other
party). The " alleged harm" in a
situation alleging conduct constituting
sexual harassment as defined in
§106.30 is serious harm and the
definition of supportive measures
already accounts for the seriousness of
alleged sexual harassment while
effectively ensuring that supportive
measures are not unfair to arespondent;
even if asupportive measure
implemented by arecipient arguably
was not the " least burdensome
The recipient must document the facts or
circumstances that render certain supportive
measures appropriate or inappropriate. Under
§106.45(b)(10)(ii), arecipient must create and
maintain for aperiod of seven years records of any
actions, including any supportive measures, taken
in response to areport or formal complaint of
sexual harassment and must document the basis for
its conclusion that its response was not deliberately
indifferent. Specifically, that provision states that if
arecipient does not provide acomplainant with
supportive measures, then the recipient must
document the reasons why such aresponse was not
clearly unreasonable in light of the known
circumstances. Thus, if arecipient determines that
aparticular supportive measure was not
appropriate even though requested by a
complainant, the recipient must document why the
recipient's response to the complainant was not
deliberately indifferent.
801

measure" possible, in order to qualify as
asupportive measure under § 106.30 the
measure cannot punish, discipline, or
unreasonably burden the respondent.
To the extent that commenters are
advocating for wider latitude for
recipients to impose interim
suspensions or expulsions of
respondents, the Department believes
that without afair, reliable process the
recipient cannot know whether it has
interim-expelled aperson who is
actually responsible or not. Where a
respondent poses an immediate threat to
the physical health or safety of the
complainant (or anyone else),
§106.44(c) allows emergency removals
of respondents prior to the conclusion
of agrievance process ( or even where no
grievance process is pending), thus
protecting the safety of arecipient's
community where an immediate threat
exist. The Department believes that the
§106.30 definition of " supportive
measures" in combination with other
provisions in the final regulations
results in effective options for a
recipient to support and protect the
safety of acomplainant while ensuring
that respondents are not prematurely
punished. 80 z
In response to commenters' concerns
that omission of the word " equal"
before " access" in the § 106.30
definition of supportive measures
creates confusion about whether the
purpose of supportive measures is
intended to remediate the same denial
of " equal access" referenced in the
§106.30 definition of sexual
harassment, we have added the word
"equal" before " access" in the
definition of supportive measures, and
into § 106.45(b)(1)(i) where similar
language is used to refer to remedies.
The Department appreciates the
opportunity to clarify that whether or
not arecipient has implemented a
supportive measure " designed to
effectively restore or preserve" equal
access is afact- specific inquiry that
depends on the particular circumstances
surrounding asexual harassment
incident. Section 106.44(a) requires a
recipient to offer supportive measures to
every complainant irrespective of
whether aformal complaint is filed, and
if arecipient does not provide a
complainant with supportive measures,
then the recipient must document the
reasons why such aresponse was not
clearly unreasonable in light of the
802 Section 106.44(c) (governing the emergency
removal of arespondent who poses an immediate
threat to any person's physical health or safety);
§106.44(d) (permitting the placement of nonstudent employees on administrative leave during
apending grievance process).

170

30181

known circumstances under
§106.45(b)(10)(ii). 803
In order to ensure that the definition
of supportive measures in § 106.30 is
read broadly we have also revised the
wording of this provision to more
clearly state that supportive measures
must be designed to restore or preserve
equal access to education without
unreasonably burdening the other party,
which may include measures designed
to protect the safety of parties or the
educational environment, or deter
sexual harassment. The Department did
not wish for the prior language to be
understood restrictively to foreclose, for
example, asupportive measure in the
form of an extension of an exam
deadline which helped preserve a
complainant's equal access to education
and did not unreasonably burden the
respondent but could not necessarily be
considered designed to protect safety or
deter sexual harassment.
The Department was persuaded by the
many commenters who requested that
the Department expand provisions that
incentivize and encourage supportive
measures. As previously noted, we have
revised § 106.44(a) to require recipients
to offer supportive measures to
complainants. As explained in the
"Proposed § 106.44(b)(3) Supportive
Measures Safe Harbor in Absence of a
Formal Complaint [removed in final
regulations]" subsection of the
"Recipient's Response in Specific
Circumstances" subsection of the
"Section 106.44 Recipient's Response to
Sexual Harassment, Generally" section
of this preamble, we have eliminated
the proposed safe harbor regarding
supportive measures altogether and,
thus, we do not extend this safe harbor
to elementary and secondary schools.
As all recipients (including elementary
and secondary school recipients) are
now required to offer complainants
supportive measures as part of their
non- deliberately indifference response
under § 106.44(a), the proposed safe
harbor regarding supportive measures is
unnecessary. The Department agrees
that the need to offer supportive
measures in the absence of, or during
the pendency of, an investigation is
equally as important in elementary and
secondary schools as in postsecondary
institutions. The final regulations revise
the § 106.30 definition of supportive
measures to use the word "recipient"
instead of " institution" to clarify that
this definition applies to all recipients,
not only to postsecondary institutions.
803 See discussion in the " Section 106.44(a)
Deliberate Indifference Standard" subsection of the
"Section 106.44 Recipient's Response to Sexual
Harassment, Generally" section of this preamble.

30182

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

To preserve discretion for recipients,
the Department declines to impose
additional suggested changes that would
further restrict or prescribe the
supportive measures arecipient may or
must offer, including requiring
supportive measures that " do" restore
or preserve equal access rather than
supportive measures " designed" to
restore or preserve equal access.
Requiring supportive measures to be
"designed" for that purpose rather than
insisting that such measures actually
accomplish that purpose protects
recipients against unfair imposition of
liability where, despite arecipient's
implementation of measures intended to
help aparty retain equal access to
education, underlying trauma from a
sexual harassment incident still results
in aparty's inability to participate in an
education program or activity. To the
extent that commenters desire for the
final regulations to specify that certain
populations (such as international
students) may have agreater need for
supportive measures, the Department
declines to revise this provision in that
regard because the determination of
appropriate supportive measures in a
given situation must be based on the
facts and circumstances of that
situation. Supportive measures must be
offered to every complainant as apart of
arecipient's response obligations under
§106.44(a).
The Department declines to include
an explicit statement that schedule and
housing adjustments, or removals from
sports teams or extracurricular
activities, do not unreasonably burden
the respondent as long as the
respondent is not separated from the
respondent's academic pursuits,
because determinations about whether
an action " unreasonably burdens" a
party are fact-specific. The
unreasonableness of aburden on aparty
must take into account the nature of the
educational programs, activities,
opportunities, and benefits in which the
party is participating, not solely those
educational programs that are
"academic" in nature. On the other
hand, the Department appreciates the
opportunity to clarify that, contrary to
some commenters' concerns, schedule
and housing adjustments do not
necessarily constitute an
"unreasonable" burden on a
respondent, and thus the § 106.30
definition of supportive measures
continues to require that recipients
consider each set of unique
circumstances to determine what
individualized services will meet the
purposes, and conditions, set forth in
the definition of supportive

measures. 804 Removal from sports teams
(and similar exclusions from schoolrelated activities) also require afactspecific analysis, but whether the
burden is " unreasonable" does not
depend on whether the respondent still
has access to academic programs;
whether asupportive measure meets the
§106.30 definition also includes
analyzing whether arespondent's access
to the array of educational opportunities
and benefits offered by the recipient is
unreasonably burdened. Changing a
class schedule, for example, may more
often be deemed an acceptable,
reasonable burden than restricting a
respondent from participating on a
sports team, holding astudent
government position, participating in an
extracurricular activity, and so forth.
The final regulations require a
recipient to refrain from imposing
disciplinary sanctions or other actions
that are not supportive measures,
against arespondent, without following
the § 106.45 grievance process, and also
require the recipient's grievance process
to describe the range, or list, the
disciplinary sanctions that arecipient
might impose following adetermination
of responsibility, and describe the range
of supportive measures available to
complainants and respondents. 805 The
possible disciplinary sanctions
described or listed by the recipient in its
own grievance process therefore
constitute actions that the recipient
itself considers " disciplinary" and thus
would not constitute " supportive
measures" as defined in § 106.30. If a
recipient has listed ineligibility to play
on asports team or hold astudent
government position, for example, as a
possible disciplinary sanction that may
be imposed following adetermination of
responsibility, then the recipient may
not take that action against arespondent
without first following the § 106.45
grievance process. If, on the other hand,
the recipient's grievance process does
not describe or list aspecific action as
apossible disciplinary sanction that the
recipient may impose following a
determination of responsibility, then
whether such an action ( for example,
ineligibility to play on asports team or
The 2001 Guidance at 16 takes asimilar
approach to the final regulations' approach to
supportive measures, by stating that it " may be
appropriate for aschool to take interim measures
during the investigation of acomplaint" and for
instance, "the school may decide to place the
students immediately in separate classes or in
different housing arrangements on acampus,
pending the results of the school's investigation" or
where the alleged harasser is ateacher " allowing
the student to transfer to adifferent class may be
appropriate."
805 Section 106.44(a); § 106.45(b)(1)(i);
§106.45(b)(1)(vi); § 106.45(b)(1)(ix).
804

171

hold astudent government position)
may be taken as asupportive measure
for acomplainant is determined by
whether that the action is not
disciplinary or punitive and does not
unreasonably burden the respondent.
Certain actions, such as suspension or
expulsion from enrollment, or
termination from employment, are
inherently disciplinary, punitive, and/or
unreasonably burdensome and so will
not constitute a " supportive measure"
whether or not the recipient has
described or listed the action in its
grievance process pursuant to
§106.45(b)(1)(vi).
The Department reiterates that a
recipient may remove arespondent from
all or part of arecipient's education
program or activity in an emergency
situation pursuant to § 106.44(c) (with
or without agrievance process pending)
and may place anon-student employee
respondent on administrative leave
during agrievance process, pursuant to
§106.44(d). 806 Further, arecipient is
obligated to conclude agrievance
process within areasonably prompt
time frame, thus limiting the duration of
time for which supportive measures are
serving to maintain astatus quo
balancing the rights of both parties to
equal educational access in an interim
period while agrievance process is
pending.
With respect to supportive measures
in the elementary and secondary school
context, many common actions by
school personnel designed to quickly
intervene and correct behavior are not
punitive or disciplinary and thus would
not violate the § 106.30 definition of
supportive measures or the provision in
§106.44(a) that prevents arecipient
from taking disciplinary actions or other
measures that are "not supportive
measures" against arespondent without
first following agrievance process that
complies with § 106.45. For example,
educational conversations, sending
students to the principal's office, or
changing student seating or class
assignments do not inherently
constitute punitive or disciplinary
actions and the final regulations
therefore do not preclude teachers or
school officials from taking such actions
to maintain order, protect student
safety, and counsel students about
inappropriate behavior. By contrast, as
discussed above, expulsions and
suspensions would constitute
disciplinary sanctions (and/or constitute
punitive or unreasonably burdensome
806 For further discussion see the " Additional
Rules Governing Recipients' Responses to Sexual
Harassment" subsection of the " Section 106.44
Recipient's Response to Sexual Harassment,
Generally" section of this preamble.

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
actions) that could not be imposed
without following agrievance process
that complies with § 106.45. The
Department emphasizes that these final
regulations apply to conduct that
constitutes sexual harassment as
defined in § 106.30, and not to every
instance of student misbehavior.
These final regulations do not
expressly require arecipient to continue
providing supportive measures upon a
finding of non-responsibility, and the
Department declines to require
recipients to lift, remove, or cease
supportive measures for complainants
or respondents upon afinding of nonresponsibility. Recipients retain
discretion as to whether to continue
supportive measures after a
determination of non-responsibility. A
determination of non-responsibility
does not necessarily mean that the
complainant's allegations were false or
unfounded but rather could mean that
there was not sufficient evidence to find
the respondent responsible. A recipient
may choose to continue providing
supportive measures to acomplainant
or arespondent after adetermination of
non-responsibility. This is not unfair to
either party because by definition,
"supportive measures" do not punish or
unreasonably burden the other party,
whether the other party is the
complainant or respondent. There may
be circumstances where the parties want
supportive measures to remain in place
or be altered rather than removed
following adetermination of nonresponsibility, and the final regulations
leave recipients flexibility to implement
or continue supportive measures for one
or both parties in such asituation.
The Department also declines to add
an additional requirement that schools
implement aprocess by which
supportive measures are requested by
the parties and granted by recipients,
because we wish to leave recipients
flexibility to develop processes
consistent with each recipient's
administrative structure rather than
dictate to every recipient how to process
requests for supportive measures.
Although we do not dictate aparticular
process, these final regulations specify
in § 106.44(a) that the Title IX
Coordinator must promptly contact the
complainant to discuss the availability
of supportive measures as defined in
§106.30, consider the complainant's
wishes with respect to supportive
measures, inform the complainant of the
availability of supportive measures with
or without the filing of aformal
complaint, and explain to the
complainant the process for filing a
formal complaint. Complainants will
know about the possible supportive

measures available to them
and will
have the opportunity to express what
they would like in the form of
supportive measures, and the Title IX
Coordinator will take into account the
complainant's wishes in determining
which supportive measures to offer. The
final regulations do prescribe that a
recipient's Title IX Coordinator must
remain responsible for coordinating the
effective implementation of supportive
measures, so that the burden of
arranging and enforcing the supportive
measures in agiven circumstance
remains on the recipient, not on any
party. We acknowledge commenters'
concerns that these final regulations
place many responsibilities on aTitle IX
Coordinator, and arecipient has
discretion to designate more than one
employee as aTitle IX Coordinator if
needed in order to fulfill the recipient's
Title IX obligations.
With respect for aprocess to remove
arespondent from arecipient's
education program or activity, these
final regulations provide an emergency
removal process in § 106.44(c) if there is
an immediate threat to the physical
health or safety of any students or other
individuals arising from the allegations
of sexual harassment. A recipient must
provide arespondent with notice and an
opportunity to challenge the emergency
removal decision immediately following
the removal. Additionally, the grievance
process in § 106.45 provides robust due
process protections for both parties, and
before imposition of any disciplinary
sanctions or other actions that are not
supportive measures as defined in
§106.30, against arespondent, a
recipient must follow agrievance
process that complies with § 106.45.
We acknowledge commenters'
concerns regarding the provision in the
§106.30 definition supportive measures
that the Title IX Coordinator must
coordinate the effective implementation
of supportive measures. However, we
believe it is important that students
know they can work with the Title IX
Coordinator to select and implement
supportive measures rather than leave
the burden on students to work with
various other school administrators or
offices. The Department recognizes that
many supportive measures involve
implementation through various offices
807

808

807 Section 106.45(b)(1)(ix) requires the
recipient's grievance process to describe the range
of supportive measures available to complainants
and respondents. Additionally, the Title IX
Coordinator must contact an individual
complainant to discuss the availability of
supportive measures, under § 106.44(a).
See discussion in the " Section 106.8(a)
Designation of Coordinator" subsection of the
"Clarifying Amendments to Existing Regulations"
section of this preamble.
808

172

30183

or departments within aschool. When
supportive measures are part of a
school's Title IX obligations, the Title IX
Coordinator must serve as the point of
contact for the affected students to
ensure that the supportive measures are
effectively implemented so that the
burden of navigating paperwork or other
administrative requirements within the
recipient's own system does not fall on
the student receiving the supportive
measures. The Department recognizes
that beyond coordinating and serving as
the student's point of contact, the Title
IX Coordinator will often rely on other
campus offices to actually provide the
supportive measures sought, and the
Department encourages recipients to
consider the variety of ways in which
the recipient can best serve the affected
student(s) through coordination with
other offices while ensuring that the
burden of effectively implementing
supportive measures remains on the
Title IX Coordinator and not on
students.
Changes: We have revised the
definition for supportive measures in
§106.30 to refer to "recipients" instead
of " institutions" which clarifies that the
definition of supportive measures is
applicable in the context of elementary
and secondary schools as well as in the
context of postsecondary institutions.
We have added " equal" before " access"
in the description of supportive
measures designed to restore or preserve
equal access to the recipient's education
program or activity. We have revised the
second sentence of this provision to
clarify that supportive measures must be
designed to restore or preserve equal
access and must not unreasonably
burden the other party, which may
include measures also designed to
protect safety or the recipient's
educational environment, or deter
sexual harassment.
No-Contact Orders
Comments: Several commenters
focused on the list of possible
supportive measures included in the
definition of supportive measures in
§106.30 and viewed the express
inclusion of mutual no-contact orders as
ageneral prohibition on one-way nocontact orders, and asked the
Department to clarify whether one-way
no-contact orders were prohibited.
Other commenters assumed one-way
no-contact orders were prohibited, and
expressed concern that by disallowing
one-way no-contact orders, the onus
would be placed on the victim to take
extreme measures to provide for their
own accommodations and prevent
victims from getting the support they
needed, or would discourage victims

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
Additional Rules Governing Recipients'
Responses to Sexual Harassment
Section 106.44(c) Emergency Removal
Overall Support and Opposition to
Emergency Removals
Comments: Some commenters
believed that § 106.44(c) provides due
process protections for respondents
while protecting campus safety. Some
commenters supported this provision
because it allows educational
institutions to respond to situations of
immediate danger, while protecting
respondents from unfair or unnecessary
removals. At least one commenter
appreciated the latitude granted to
educational institutions under
§106.44(c) to determine how to address
safety emergencies arising from
allegations of sexual harassment. Some
commenters asserted that this provision
appropriately reflects many schools'
existing behavior risk assessment
procedures. Several commenters
supported §106.44(c) and recounted
personal stories of how arespondent
was removed from classes, or from
school, and the negative impact the
removal had on that student's
professional, academic, or
extracurricular life because the removal
seemed to presume the " guilt" of the
respondent without allegations ever
being proved.
Some commenters wanted to omit the
emergency removal provision entirely,
arguing that if administrators at the
postsecondary level have the power to
preemptively suspend or expel a
student, on the pretext of an emergency,
then every sexual misconduct situation
could be deemed an emergency and
respondents would never receive the
due process protections of the § 106.45
grievance process. One commenter
suggested that instead of permitting
removals, all allegations of sexual
harassment should simply go through a
more rapid investigation so that the
respondent may remain in school and
victims are protected, while any falsely
accused respondent is quickly
exonerated. Some commenters
requested that this removal power be
limited because of the negative
consequences of involuntary removal;
one commenter suggested the provision
be modified so that the removal must be
"narrowly tailored" and " no more
extensive than is strictly necessary" to
mitigate the health or safety risk. One
commenter asserted that this provision
should also require that interim
emergency removals be based on
objective evidence and on current
medical knowledge where appropriate,
made by alicensed, qualified evaluator.

Some commenters asserted that
emergency removals should not be used
just because sexual harassment or
assault has been alleged, and that
§106.44(c) should more clearly define
what counts as an emergency. Some
commenters argued that emergency
removals should be allowed if the
sexual harassment allegation involves
rape, but no emergency removal should
be allowed if the sexual harassment
allegation involves offensive speech.
Commenters argued that §106.44(c) is
unclear as to what constitutes an
immediate threat to health or safety.
Several commenters argued that
emergency removals should be
restricted to instances where there is
"an immediate threat to safety" (not
health), while other commenters argued
this provision must be limited to
"physical" threats to health or safety.
Commenters argued that a " threat to
health or safety" is too nebulous a
concept to justify immediate removal
from campus. According to one
commenter, even speaking on campus
in favor of the NPRM could be
construed by schools or student activists
as athreat to the emotional or mental
"health or safety" of survivors, even
though discussion of public policy is
core political speech protected by the
First Amendment.
One commenter stated that the use of
the plural " students and employees" in
§106.44(c) may preclude an institution
from taking emergency action when the
immediate threat is to asingle student
or employee. Commenters argued that
postsecondary institutions need the
flexibility to address immediate threats
to the safety of one student or employee
in the same manner as threats to
multiple students or employees. Some
commenters asserted that § 106.44(c)
would unreasonably limit a
postsecondary institution's ability to
protect persons and property, or to
protect against potential disruption of
the educational environment, and
argued that an institution should have
the discretion to invoke an emergency
removal under circumstances beyond
those listed in § 106.44(c). Commenters
argued that § 106.44(c) is too limiting
because it does not allow recipients to
pursue an emergency removal where the
respondent poses athreat of illegal
conduct that is not about ahealth or
safety emergency; commenters
contended this will subject the
complainant or others to ongoing illegal
conduct just because it does not
constitute athreat to health or safety.
Commenters argued that in addition to
ahealth or safety threat, this provision
should consider the need to restore or
preserve equal access to education as

173

30223

justification for emergency removals.
One commenter asserted that a
legitimate reason to institute an
emergency removal of arespondent is a
threat that the respondent may obstruct
the collection of relevant information
regarding the sexual harassment
allegations at issue.
One commenter cited New York
Education Law Article 129—B as an
example of adetailed framework under
which campus officials may conduct an
individualized threat assessment, order
an interim suspension, and provide due
process; commenters asserted that
courts hold that the due process
required for an interim suspension does
not need to consist of afull hearing. 95 5
Another commenter argued that this
provision would constitute an
unprecedented Federal preemption of
Oregon's existing State and local
student discipline rules, which establish
the due process requirements for
emergency removals from school.
Commenters argued that § 106.44(c)
would create ahigher level of due
process for emergency removals in
situations that involve alleged sexual
harassment than for any other
behavioral violation, and that the
proposed rules are unclear whether this
heightened procedural requirement is
triggered only when acomplainant
alleges sexual harassment as defined in
§106.30, or is also triggered in any case
where acomplainant alleges sexual
harassment that meets aState law
definition or school code of conduct
that may define sexual harassment more
broadly than conduct meeting the
§106.30 definition.
Some commenters suggested that
§106.44(c) be modified to require
periodic review of any emergency
removal decision, to promote
transparency and eliminate the
possibility of leaving arespondent on
interim suspension indefinitely.
Commenters argued that immediate
removal is very traumatic, and
respondents who have been removed
have asignificant potential to react by
harming themselves or others thus
recipients should reduce these risks by
ensuring asafe exit plan with adequate
support for the respondent in place.
Commenters asserted that the goal
should be to preserve educational
opportunities for all parties involved to
the extent possible, so § 106.44(c)
should require recipients to provide
alternative academic accommodations
for respondents who are removed. Some
955

Commenters cited:

Haidak v.

Univ.

of Mass.

at

Amherst, 299 F. Supp. 3d 242, 265-66 (D. Mass.
2018), aff'd in part, vacated in part, remanded by
Haidak v. Univ. of Mass. Amherst, 933 F.3d 56 ( 1st
Cir. 2019).

30224

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

commenters suggested that this
provision should address arespondent's
access to arecipient's program or
activity, post-removal. Because
emergency removal is not premised on
afinding of responsibility and occurs ex
parte, commenters argued that the
recipient should be required to provide
arespondent with alternative access to
the respondent's academic classes
during the period of removal and that
failure to do so would be sex
discrimination against the respondent.
Some commenters argued that as to a
respondent who is removed on an
emergency basis and later found to be
not responsible, the final regulations
should require the recipient to mitigate
the damage caused by the removal, for
example, by allowing the respondent to
retake classes or exams missed during
the removal. One commenter suggested
that arecipient should secure the
personal property of the removed
person ( such as the respondent's
vehicle) and be responsible for any loss
or damage occurring to personal
property during aremoval.
Other commenters asserted that an
individualized risk assessment should
be required after every report of sexual
assault. Commenters argued that
because insurance statistics show ahigh
degree of recidivism among college
rapists, and because Title IX is also
supposed to deter discrimination based
on sex, schools should be required to
consider the safety of other students on
their campus if they know there is a
possible sexual assailant in their midst.
One commenter suggested that
licensing board procedures provide the
best model for campus procedures
because they offer the closest parallel to
the types of behavior evaluated and
issues at stake for respondents such as
reputation, future livelihood, and future
opportunities; the commenter asserted
that court precedents hold that both
public and private recipients must
follow principles of fundamental due
process and fundamental fairness in
disciplinary processes, 956 and
professional licensing board procedures
adequately protect due process. One
commenter applauded the Department
for proposing to provide greater due
process protections than what current
procedures typically provide; however,
this commenter asserted that Native
American students attending
institutions funded by the Bureau of
Indian Affairs receive strong due
process protections, including greater
due process with respect to emergency
Commenter cited: Boehm v. Univ. of Pa. Sch.
of VeterinaryMed., 573 A.2d 575,578 (Pa. Super.
Ct. 1990).
956

removals than what § 106.44(c)
provides, and the commenter contended
that the stronger due process protections
should be extended to non-Native
American institutions. 957 According to
this commenter, unlike Native
American students attending schools
funded by the Bureau of Indian Affairs,
non-Native American students are at
risk for permanent removal from
campus with potentially devastating
consequences.
One commenter asserted that
§106.44(c) should explicitly require the
recipient to comply with the Clery Act,
notify appropriate authorities, and
provide any necessary safety
interventions. Another commenter
stated that recipients should be required
to publicly report the annual number of
emergency removals the recipient
conducts under § 106.44(c).
Some commenters asserted that
recipients need to do more than simply
remove arespondent from its education
program or activity. Commenters argued
that trauma from sexual assault may
cause acomplainant to withdraw from
an education program or activity,
including due to fear of seeing the
respondent, suggested that more
resources should be made available to
complainants, and asserted that the final
regulations should specify best practices
addressing how arecipient should
respond to immediate threats.
Discussion: We appreciate
commenters' support for the emergency
removal provision in § 106.44(c).
Revised in ways explained below,
§106.44(c) provides that in situations
where arespondent poses an immediate
threat to the physical health and safety
of any individual before an investigation
into sexual harassment allegations
concludes (or where no grievance
process is pending), arecipient may
remove the respondent from the
recipient's education programs or
activities. A recipient may need to
undertake an emergency removal in
order to fulfill its duty not to be
deliberately indifferent under
§106.44(a) and protect the safety of the
recipient's community, and § 106.44(c)
permits recipients to remove
respondents in emergency situations
that arise out of allegations of conduct
that could constitute sexual harassment
as defined in § 106.30. Emergency
removal may be undertaken in addition
to implementing supportive measures
designed to restore or preserve a
complainant's equal access to
education. 958 While we recognize that
957

Commenters cited: 25 CFR 42.1-42.10.

958 Section 106.44(a) requires arecipient to offer
supportive measures to every complainant,

174

emergency removal may have serious
consequences for arespondent, we
decline to remove this provision
because where agenuine emergency
exists, recipients need the authority to
remove arespondent while providing
notice and opportunity for the
respondent to challenge that decision.
The Department does not believe that
rushing all allegations of sexual
harassment or sexual assault through
expedited grievance procedures
adequately promotes afair grievance
process, and forbidding an emergency
removal until conclusion of agrievance
process (no matter how expedited such
aprocess reasonably could be) might
impair arecipient's ability to quickly
respond to an emergency situation. The
§106.45 grievance process is designed
to provide both parties with aprompt,
fair investigation and adjudication
likely to reach an accurate
determination regarding the
responsibility of the respondent for
perpetrating sexual harassment.
Emergency removal under § 106.44(c) is
not asubstitute for reaching a
determination as to arespondent's
responsibility for the sexual harassment
allegations; rather, emergency removal
is for the purpose of addressing
imminent threats posed to any person's
physical health or safety, which might
arise out of the sexual harassment
allegations. Upon reaching a
determination that arespondent is
responsible for sexual harassment, the
final regulations do not restrict a
recipient's discretion to impose a
disciplinary sanction against the
respondent, including suspension,
expulsion, or other removal from the
recipient's education program or
activity. Section 106.44(c) allows
recipients to address emergency
situations, whether or not agrievance
process is underway, provided that the
recipient first undertakes an
individualized safety and risk analysis
and provides the respondent notice and
opportunity to challenge the removal
decision. We do not believe it is
necessary to restrict arecipient's
emergency removal authority to removal
decisions that are " narrowly tailored" to
address the risk because § 106.44(c)
adequately requires that the threat
"justifies" the removal. If the high
threshold for removal under § 106.44(c)
exists (
i.e., an individualized safety and
risk analysis determines the respondent
poses an immediate threat to any
person's physical health or safety), then
including by having the Title IX Coordinator engage
with the complainant in an interactive process that
takes into account the complainant's wishes
regarding available supportive measures.

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
we believe the recipient should have
discretion to determine the appropriate
scope and conditions of removal of the
respondent from the recipient's
education program or activity.
Similarly, we decline to require
recipients to follow more prescriptive
requirements to undertake an
emergency removal (such as requiring
that the assessment be based on
objective evidence, current medical
knowledge, or performed by alicensed
evaluator). While such detailed
requirements might apply to a
recipient's risk assessments under other
laws, for the purposes of these final
regulations under Title IX, the
Department desires to leave as much
flexibility as possible for recipients to
address any immediate threat to the
physical health or safety of any student
or other individual. Nothing in these
final regulations precludes arecipient
from adopting apolicy or practice of
relying on objective evidence, current
medical knowledge, or alicensed
evaluator when considering emergency
removals under § 106.44(c).
We agree that emergency removal is
not appropriate in every situation where
sexual harassment has been alleged, but
only in situations where an
individualized safety and risk analysis
determines that an immediate threat to
the physical health or safety of any
student or other individual justifies the
removal, where the threat arises out of
allegations of sexual harassment as
defined in § 106.30. Because all the
conduct that could constitute sexual
harassment as defined in § 106.30 is
serious conduct that jeopardizes a
complainant's equal access to
education, we decline to limit
emergency removals only to instances
where acomplainant has alleged sexual
assault or rape, or to prohibit emergency
removals where the sexual harassment
allegations involve verbal harassment. A
threat posed by arespondent is not
necessarily measured solely by the
allegations made by the complainant;
we have revised § 106.44(c) to add the
phrase " arising from the allegations of
sexual harassment" to clarify that the
threat justifying aremoval could consist
of facts and circumstances " arising
from" the sexual harassment allegations
(and " sexual harassment" is adefined
term, under § 106.30). For example, if a
respondent threatens physical violence
against the complainant in response to
the complainant's allegations that the
respondent verbally sexually harassed
the complainant, the immediate threat
to the complainant's physical safety
posed by the respondent may " arise
from" the sexual harassment allegations.

As afurther example, if arespondent
reacts to being accused of sexual
harassment by threatening physical selfharm, an immediate threat to the
respondent's physical safety may " arise
from" the allegations of sexual
harassment and could justify an
emergency removal. The " arising from"
revision also clarifies that recipients do
not need to rely on, or meet the
requirements of, § 106.44(c) to address
emergency situations that do not arise
from sexual harassment allegations
under Title IX (for example, where a
student has brought aweapon to school
unrelated to any sexual harassment
allegations).
We are persuaded by commenters that
§ 106.44(c) should be clarified. The final
regulations revise this provision to state
that the risk posed by the respondent
must be to the " physical" health or
safety, of " any student or other
individual," arising from the allegations
of sexual harassment. These revisions
help ensure that this provision applies
to genuine emergencies involving the
physical health or safety of one or more
individuals (including the respondent,
complainant, or any other individual)
and not only multiple students or
employees. We agree with commenters
who asserted that adding the word
"physical" before "health or safety" will
help ensure that the emergency removal
provision is not used inappropriately to
prematurely punish respondents by
relying on aperson's mental or
emotional " health or safety" to justify
an emergency removal, as the emotional
and mental well-being of complainants
may be addressed by recipients via
supportive measures as defined in
§ 106.30. The revision to § 106.44(c)
adding the word " physical" before
"health and safety" and changing
"students or employees" to " any
student or other individual" also
addresses commenters' concerns that
the proposed rules were not specific
enough about what kind of threat
justifies an emergency removal; the
latter revision clarifies that the threat
might be to the physical health or safety
of one or more persons, including the
complainant, the respondent
themselves, or any other individual. We
decline to remove " health" from the
"physical health or safety" phrase in
this provision because an emergency
situation could arise from athreat to the
physical health, or the physical safety,
of aperson, and because " health or
safety" is arelatively recognized term
used to describe emergency
circumstances.
959

E.g., 20 U.S.C. 1232g(b)(1)(I) ( allowing
disclosure, without prior written consent, of
959

175

30225

We decline to add further bases that
could justify an emergency removal
under § 106.44(c). We recognize the
importance of the need to restore or
preserve equal access to education, but
disagree that it should be ajustification
for emergency removal; supportive
measures are intended to address
restoration and preservation of equal
educational access, while § 106.44(c) is
intended to apply to genuine
emergencies that justify essentially
punishing arespondent (by separating
the respondent from educational
opportunities and benefits) arising out
of sexual harassment allegations
without having fairly, reliably
determined whether the respondent is
responsible for the alleged sexual
harassment. As explained above, we
have revised § 106.44(c) to apply only
where the immediate threat to a
person's physical health or safety arises
from the allegations of sexual
harassment; this clarifies that where a
respondent poses athreat of illegal
conduct (perhaps not constituting a
threat to physical health or safety) that
does not arise from the sexual
harassment allegations, this provision
does not apply. Nothing in these final
regulations precludes arecipient from
addressing arespondent's commission
of illegal conduct under the recipient's
own code of conduct, or pursuant to
other laws, where such illegal conduct
does not constitute sexual harassment as
defined in § 106.30 or is not " arising
from the sexual harassment allegations."
We disagree that arecipient's
assessment that arespondent poses a
threat of obstructing the sexual
harassment investigation, or destroying
relevant evidence, justifies an
emergency removal under this
provision, because this provision is
intended to ensure that recipients have
authority and discretion to address
health or safety emergencies arising out
of sexual harassment allegations, not to
address all forms of misconduct that a
respondent might commit during a
grievance process.
The Department appreciates
commenters' concerns that State or local
law may present other considerations or
impose other requirements before an
emergency removal can occur. To the
extent that other applicable laws
establish additional relevant standards
for emergency removals, recipients
personally identifiable information from astudent's
education records " subject to regulations of the
Secretary, in connection with an emergency,
appropriate persons if the knowledge of such
information is necessary to protect the health or
safety of the student or other persons"); 34 CFR
99.31(a)(10) and 34 CFR 99.36 (regulations
implementing FERPA).

30226

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

should also heed such standards. To the
greatest degree possible, State and local
law ought to be reconciled with the final
regulations, but to the extent there is a
direct conflict, the final regulations
prevail. 960 While commenters correctly
note that a " full hearing" is not a
constitutional due process requirement
in all interim suspension situations,
§106.44(c) does not impose a
requirement to hold a " full hearing" and
in fact, does not impose any predeprivation due process requirements;
the opportunity for arespondent to
challenge an emergency removal
decision need only occur postdeprivation. For reasons described in
the " Role of Due Process in the
Grievance Process" section of this
preamble, the Department has
determined that postsecondary
institutions must hold live hearings to
reach determinations regarding
responsibility for sexual harassment.
However, because § 106.44(c) is
intended to give recipients authority to
respond quickly to emergencies, and
does not substitute for adetermination
regarding the responsibility of the
respondent for the sexual harassment
allegations at issue, recipients need only
provide respondents the basic features
of due process (notice and opportunity),
and may do so after removal rather than
before aremoval occurs. An emergency
removal under § 106.44(c) does not
authorize arecipient to impose an
interim suspension or expulsion on a
respondent because the respondent has
been accused of sexual harassment.
Rather, this provision authorizes a
recipient to remove arespondent from
the recipient's education program or
activity (whether or not the recipient
labels such aremoval as an interim
suspension or expulsion, or uses any
different label to describe the removal)
when an individualized safety and risk
analysis determines that an imminent
threat to the physical health or safety of
any person, arising from sexual
harassment allegations, justifies
removal.
Section 106.44(c) expressly
acknowledges that recipients may be
obligated under applicable disability
laws to conduct emergency removals
differently with respect to individuals
with disabilities, and these final
regulations do not alter arecipient's
obligation to adhere to the IDEA,
Section 504, or the ADA. Due to a
recipient's obligations under applicable
960 See discussion under the " Section 106.6(h)
Preemptive Effect" subsection of the " Clarifying
Amendments to Existing Regulations" section of
this preamble; see also discussion under the
"Spending Clause" subsection of the
"Miscellaneous" section of this preamble.

State laws or disability laws, uniformity
with respect to how arecipient
addresses all cases involving immediate
threats to physical health and safety
may not be possible. However, the
Department believes that § 106.44(c)
appropriately balances the need for
schools to remove arespondent posing
an immediate threat to the physical
health or safety of any person, with the
need to ensure that such an ability is not
used inappropriately, for instance to
bypass the prohibition in § 106.44(a)
and § 106.45(b)(1)(i) against imposition
of disciplinary sanctions or other
actions that are not supportive measures
against arespondent without first
following the § 106.45 grievance
process. The Department does not
believe that alower threshold for an
emergency removal appropriately
balances these interests, even if this
means that emergency removals arising
from allegations of sexual harassment
must meet ahigher standard than when
athreat arises from conduct allegations
unrelated to Title IX sexual harassment.
In response to commenters' reasonable
concerns about the potential for
confusion, we have added the phrase
"arising from the allegations of sexual
harassment" (and " sexual harassment"
is adefined term under § 106.30) into
this provision to clarify that this
emergency removal provision only
governs situations that arise under Title
IX, and not under State or other laws
that might apply to other emergency
situations.
The Department does not see aneed
to add language stating that the
emergency removal must be periodically
reviewed. Emergency removal is not a
substitute for the § 106.45 grievance
process, and § 106.45(b)(1)(v) requires
reasonably prompt time frames for that
grievance process. We acknowledge that
arecipient could remove arespondent
under § 106.44(c) without aformal
complaint having triggered the § 106.45
grievance process; in such situations,
the requirements in § 106.44(c) giving
the respondent notice and opportunity
to be heard post-removal suffice to
protect arespondent from aremoval
without afair process for challenging
that outcome, and the Department does
not believe it is necessary to require
periodic review of the removal decision.
We decline to impose layers of
complexity onto the emergency removal
process, leaving procedures in
recipients' discretion; in many cases,
recipients will develop a " safe exit
plan" as part of implementing an
emergency removal, and accommodate
students who have been removed on an
emergency basis with alternative means

176

to continue academic coursework
during aremoval period or provide for
arespondent to re-take classes upon a
return from an emergency removal, or
secure personal property left on a
recipient's campus when arespondent
is removed. We disagree that a
recipient's failure to refusal to take any
of the foregoing steps necessarily
constitutes sex discrimination under
Title IX, although arecipient would
violate Title IX by, for example,
applying different policies to female
respondents than to male respondents
removed on an emergency basis.
Nothing in the final regulations prevents
students who have been removed from
asserting rights under State law or
contract against the recipient arising
from aremoval under this provision.
We decline to require an
individualized safety and risk analysis
upon every reported sexual assault,
because the § 106.45 grievance process
is designed to bring all relevant
evidence concerning sexual harassment
allegations to the decision-maker's
attention so that adetermination
regarding responsibility is reached fairly
and reliably. A recipient is obligated
under § 106.44(a) to provide a
complainant with anon- deliberately
indifferent response to asexual assault
report, which includes offering
supportive measures designed to protect
the complainant's safety, and if a
recipient does not provide a
complainant with supportive measures,
then the recipient must document the
reasons why such aresponse was not
clearly unreasonable in light of the
known circumstances pursuant to
§106.45(b)(10)(ii). Emergency removals
under § 106.44(c) remain an option for
recipients to respond to situations
where an individualized safety and risk
analysis determines that arespondent
poses an immediate threat to health or
safety.
The Department appreciates
commenters' assertions that § 106.44(c)
should provide more due process
protections, similar to those applied in
professional licensing board cases or
under Federal laws that apply to schools
funded by the Bureau of Indian Affairs;
however, we believe that § 106.44(c)
appropriately balances arecipient's
need to protect individuals from
emergency threats, with providing
adequate due process to the respondent
under such emergency circumstances.
Notice and an opportunity to be heard
constitute the fundamental features of
procedural due process, and the
Department does not wish to prescribe
specific procedures that arecipient
must apply in emergency situations.
Accordingly, the Department does not

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
wish to adopt the same due process
protections that commenters asserted
are applied in professional licensing
revocation proceedings, or that are
provided to Native American students
in schools funded by the Bureau of
Indian Affairs. The Department
acknowledges that schools receiving
funding from the Bureau of Indian
Affairs must provide even greater due
process protections than what these
final regulations require, but these
greater due process protections do not
conflict with these final regulations.
These final regulations govern avariety
of recipients, including elementary and
secondary schools and postsecondary
institutions, but also recipients that are
not educational institutions; for
example, some libraries and museums
are recipients of Federal financial
assistance operating education programs
or activities. These final regulations
provide the appropriate amount of due
process for awide variety of recipients
of Federal financial assistance with
respect to arecipient's response to
emergency situations.
As discussed in the " Clery Act"
subsection of the " Miscellaneous"
section of this preamble, postsecondary
institutions subject to these Title IX
regulations may also be subject to the
Clery Act. We decline to state in
§ 106.44(c) that recipients must also
comply with the Clery Act because we
do not wish to create confusion about
whether § 106.44(c) applies only to
postsecondary institutions (because the
Clery Act does not apply to elementary
and secondary schools). We decline to
require recipients to notify authorities,
provide safety interventions, or
annually report the number of
emergency removals conducted under
§ 106.44(c), because we do not wish to
prescribe requirements on recipients
beyond what we have determined is
necessary to fulfill the purpose of this
provision: Granting recipients authority
and discretion to appropriately respond
to emergency situations arising from
sexual harassment allegations. Nothing
in these final regulations precludes a
recipient from notifying authorities,
providing safety interventions, or
reporting the number of emergency
removals, to comply with other laws
requiring such steps or based on a
recipient's desire to take such steps. For
similar reasons, we decline to require
recipients to adopt "best practices" for
responding to threats. We note that
these final regulations require recipients
to offer supportive measures to every
complainant, and do not preclude a
recipient from providing resources to
complainants or respondents.

Changes: We have revised § 106.44(c)
so that arespondent removed on an
emergency basis must pose an
immediate threat to the " physical"
health or safety (adding the word
"physical") of " any student or other
individual" (replacing the phrase
"students or employees"). We have also
revised the proposed language to clarify
that the justification for emergency
removal must arise from allegations of
sexual harassment under Title IX.
Intersection With the IDEA, Section
and ADA

504,

Comments: Some commenters
applauded the " saving clause" in
§ 106.44(c) acknowledging that the
respondent may have rights under the
IDEA, Section 504, or the ADA. Several
commenters asserted that § 106.44(c)
would create uncertainty regarding the
interplay between Title IX and relevant
disabilities laws, which would further
exacerbate the uncertainty regarding
involuntary removal of students who
pose athreat to themselves. Other
commenters stated that the result of this
provision would likely be different
handling of Title IX cases for students
with disabilities versus students
without disabilities because of the
requirements of the IDEA, Section 504,
and the ADA. Some commenters
believed this provision (and the
proposed rules overall) appear to give
consideration to the rights and needs of
respondents with disabilities, without
similar consideration for the rights of
complainants or witnesses with
disabilities. Commenters asserted that
§ 106.44(c) is subject to problematic
interpretation because by expressly
referencing the IDEA, Section 504, and
the ADA this provision might wrongly
encourage schools to remove students
with disabilities because of implicit bias
against students with disabilities,
especially students with intellectual
disabilities.
One commenter suggested that
should track the definition of
"direct threat" used in the Equal
Employment Opportunity Commission's
(EEOC) regulations, upheld by the
Supreme Court, 96 1and as outlined in
ADA regulations 962 because this would
§ 106.44(c)

961 Commenters cited: Chevron U.S.A. Inc. v.
Echazabal, 536 U.S. 73 ( 2002).
962 Commenters cited: 28 CFR 35.139(b) (" In
determining whether an individual poses adirect
threat to the health or safety of others, apublic
entity must make an individualized assessment,
based on reasonable judgment that relies on current
medical knowledge or on the best available
objective evidence, to ascertain: the nature,
duration, and severity of the risk; the probability
that the potential injury will actually occur; and
whether reasonable modifications of policies,

177

30227

give recipients and respondents a
clearer standard and reduce the chances
that removal decisions will be based on
generalizations, ignorance, fear,
patronizing attitudes, or stereotypes
regarding individuals with disabilities.
Some commenters argued that this
provision conflicts with the IDEA,
Section 504, and the ADA, and that
removals are not as simple as
conducting amere risk assessment,
because the IDEA governs emergency
removal of students in elementary
school who are receiving special
education and related services. 963
Commenters asserted that under the
IDEA, aschool administrator cannot
make aunilateral risk assessment, and
placement decisions cannot be made by
an administrator alone; rather,
commenters argued, these decisions
must be made by ateam that includes
the parent and relevant members of the
IEP (Individualized Education Program)
Team and if the conduct in question
was amanifestation of adisability, the
recipient cannot make aunilateral threat
assessment and remove achild from
school, absent extreme circumstances.
These commenters further argued that
sometimes certain behaviors are the
result or manifestation of adisability,
despite being sexually offensive, e.g., a
student with Tourette's syndrome
blurting out sexually offensive language.
Commenters argued that under
disability laws schools cannot remove
those students from school without
complying with the IDEA, Section 504,
and the ADA. One commenter
recommended that § 106.44(c) require,
at aminimum, training for Title IX
administrators on the intersection
among Title IX and applicable disability
laws. In the college setting, the
commenter further recommended that
Title IX Coordinators not be permitted
to impose supportive measures that
involve removal without feedback from
administrators from the institution's
office of disability services, provided
that the student is registered with the
pertinent office. If astudent has an
Individualized Education Plan (IEP) in
secondary school, commenters
recommended that the administration
immediately call for ateam meeting to
determine the next steps.
Other commenters asserted that any
language under § 106.44(c) must make
clear that the free appropriate public
education (FAPE) to which students
practices, or procedures or the provision of
auxiliary aids or services will mitigate the risk. ").
963 Commenters cited: Glen by & through Glen v.
Charlotte-Mecklenburg Sch. Bd. of Educ., 903 F.
Supp. 918,935 (W.D.N.C. 1995) ("[W]here student
poses an immediate threat, [the school] may
temporarily suspend up to 10 school days.").

30228

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

with disabilities are entitled must
continue, even in circumstances when
emergency removal is deemed necessary
under Title IX. Given this, one
commenter recommended that the
language in § 106.44(c) clarify that this
provision does not supersede rights
under disability laws.
Some commenters, while expressing
overall support for § 106.44(c),
requested additional guidance on the
intersection of Title IX, the IDEA, and
the ADA, and how elementary and
secondary schools would implement
§ 106.44(c). The commenters asserted
that the final regulations should be
explicit that regardless of astudent's IEP
or "504 plan" under the IDEA or
Section 504, the student is not allowed
to engage in threatening or harmful
behavior and that this would be similar
to the response acampus might have to
any other serious violation, such as
bringing afirearm to class. Commenters
also argued that the final regulations
should clarify that separation of
elementary and secondary school
students with disabilities from
classroom settings should be rare and
only when done in compliance with the
IDEA. Commenters argued that
recipients must be made aware that a
student with adisability does not have
to be eligible for afree appropriate
public education (FAPE) in order for
§ 106.44(c) to apply, and that recipients
must not be misled into thinking there
are different standards for elementary
and secondary school and
postsecondary education environments
when it comes to equal access to
educational opportunities.
Other commenters argued that
§ 106.44(c) may violate compulsory
educational laws by removing
elementary-age students from school on
an emergency basis. When an
elementary school student is removed
under § 106.44(c), commenters
wondered whether the school is
supposed to have adesignated site for
housing or educating removed students
during the investigation.
Discussion: Section 106.44(c) states
that this provision does not modify any
rights under the IDEA, Section 504, or
the ADA. In the final regulations, we
removed reference to certain titles of the
ADA and refer instead to the
"Americans with Disabilities Act" so
that application of any portion of the
ADA requires arecipient to meet ADA
obligations while also complying with
these final regulations. We disagree that
this provision will create ambiguity or
otherwise supersede rights that students
have under these disability statutes.
Additionally, we do not believe that
expressly acknowledging recipients'

obligations under disability laws
incentivizes recipients to remove
respondents with disabilities; rather,
reference in this provision to those
disability laws will help protect
respondents from emergency removals
that do not also protect the respondents'
rights under applicable disability laws.
With respect to implicit bias against
students with disabilities, recipients
must be careful to ensure that all
emergency removal proceedings are
impartial, without bias or conflicts of
interest 964 and the final regulations do
not preclude arecipient from providing
training to employees, including Title
IX personnel, regarding arecipient's
obligations under both Title IX and
applicable disability laws. Any different
treatment between students without
disabilities and students with
disabilities with respect to emergency
removals, may occur due to arecipient's
need to comply with the IDEA, Section
504, the ADA, or other disability laws,
but would not be permissible due to
bias or stereotypes against individuals
with disabilities.
As explained in the " Directed
Question 5: Individuals with
Disabilities" subsection of the " Directed
Questions" section of this preamble,
recipients have an obligation to comply
with applicable disability laws with
respect to complainants as well as
respondents (and any other individual
involved in aTitle IX matter, such as a
witness), and the reference to disability
laws in § 106.44(c) does not obviate
recipients' responsibilities to comply
with disability laws with respect to
other applications of these final
regulations.
The Department appreciates
commenters' suggestion to mirror the
"direct threat" language utilized in ADA
regulations; however, we have instead
revised § 106.44(c) to refer to the
physical health or safety of " any student
or other individual" because this
language better aligns this provision
with the FERPA health and safety
emergency exception, and avoids the
confusion caused by the " direct threat"
language under ADA regulations
because those regulations refer to a
Section 106.45(b)(1)(iii) requires all Title IX
Coordinators (and investigators, decision-makers,
and persons who facilitate informal resolution
processes) to be free from conflicts of interest or
bias against complainants and respondents
generally or against an individual complainant or
respondent, and requires training for such
personnel that includes (among other things) how
to serve impartially. A " respondent" under § 106.30
means any individual who has been reported to be
the perpetrator of conduct that could constitute
sexual harassment; thus, aTitle IX Coordinator
interacting with arespondent undergoing an
emergency removal must serve impartially, without
conflict of interest or bias.
964

178

"direct threat to the health or safety of
others" 965 which does not clearly
encompass athreat to the respondent
themselves ( e.g., where arespondent
threatens self-harm). By revising
§ 106.44(c) to refer to athreat to the
physical health or safety " of any student
or other individual" this provision does
encompass arespondent's threat of selfharm (when the threat arises from the
allegations of sexual harassment), and is
aligned with the language used in
FERPA's health or safety exception. 966
We note that recipients still need to
comply with applicable disability laws,
including the ADA, in making
emergency removal decisions.
The Department appreciates
commenters' varied concerns that
complying with these final regulations,
and with disability laws, may pose
challenges for recipients, including
specific challenges for elementary and
secondary schools, and postsecondary
institutions, because of the intersection
among the IDEA, Section 504, the ADA,
and how to conduct an emergency
removal under these final regulations
under Title IX. The Department will
offer technical assistance to recipients
regarding compliance with laws under
the Department's enforcement authority.
However, the Department does not
believe that recipients' obligations
under multiple civil rights laws requires
changing the emergency removal
provision in § 106.44(c) because this is
an important provision to ensure that
recipients have flexibility to balance the
need to address emergency situations
with fair treatment of arespondent who
has not yet been proved responsible for
sexual harassment. The Department
does not believe that applicable
disability laws, or other State laws,
render arecipient unable to comply
with all relevant legal obligations. For
instance, with respect to compulsory
education laws, nothing in § 106.44(c)
relieves arecipient from complying
965 28 CFR 35.139(b) (" In determining whether an
individual poses odirect threat to the health or
safety of others, apublic entity must make an
individualized assessment, based on reasonable
judgment that relies on current medical knowledge
or on the best available objective evidence, to
ascertain: The nature, duration, and severity of the
risk; the probability that the potential injury will
actually occur; and whether reasonable
modifications of policies, practices, or procedures
or the provision of auxiliary aids or services will
mitigate the risk.") (emphasis added).
E.g., 20 U.S.C. 1232g(b)(1)(I) (allowing
disclosure, without prior written consent, of
personally identifiable information from astudent's
education records " subject to regulations of the
Secretary, in connection with an emergency,
appropriate persons if the knowledge of such
information is necessary to protect the health or
safety of the student or other persons"); see also
regulations implementing FERPA, 34 CFR
99.31(a)(10) and 99.36.
966

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
with State laws requiring that students
under acertain age receive governmentprovided education services. As a
further example, nothing in § 106.44(c)
prevents arecipient from involving a
student's IEP team before making an
emergency removal decision, and
§ 106.44(c) does not require arecipient
to remove arespondent where the
recipient has determined that the threat
posed by the respondent, arising from
the sexual harassment allegations, is a
manifestation of adisability such that
the recipient's discretion to remove the
respondent is constrained by IDEA
requirements.
Changes: We have replaced the phrase
"students or employees" with the
phrase " any student or other
individual" in § 106.44(c) and removed
specification of certain titles of the
ADA, instead referencing the whole of
the ADA.
Post-Removal Challenges
Comments: Some commenters
supported § 106.44(c) giving
respondents notice and opportunity to
challenge the removal immediately after
the removal, because during aremoval
arespondent might lose asignificant
amount of instructional time while
waiting for agrievance proceeding to
conclude, and being out of school can
harm the academic success and
emotional health of the removed
student. Other commenters asserted that
respondents should not be excluded
from arecipient's education program or
activity until conclusion of agrievance
process, and apost-removal challenge
after the fact is insufficient to assure due
process for respondents, especially
because § 106.44(c) does not specify
requirements for the time frame or
procedures used for achallenging the
removal decision.
Some commenters argued that the
ability of aremoved respondent to
challenge the removal would pose an
unnecessary increased risk to the safety
of the community, especially because
§ 106.44(c) already requires the
recipient to determine the removal was
justified by an individualized safety and
risk analysis. Commenters argued that a
school's emergency removal decision
should stand until athreat assessment
team has met and given a
recommendation to affirm or overrule
the decision.
Some commenters asserted that
§ 106.44(c) is ambiguous about the right
to apost-removal challenge and argued
that the failure to provide more clarity
is problematic because it is unclear if
the " immediate" challenge must occur
minutes, hours, one day, or several days
after the removal. Commenters argued

that aplain language interpretation of
"immediately" may require the
challenge to occur minutes after the
suspension, but this could jeopardize
the safety of the complainant and the
community, because the very point of
an interim suspension is to remove a
known risk from campus. Other
commenters argued that requiring an
"immediate" post-removal challenge
could undermine the respondent's due
process rights, because the respondent
might not be physically present on
campus when the interim suspension
(e.g., removal) is issued. Some
commenters argued that there should be
adelay between when the removal
occurred and when the opportunity to
challenge occurs, because students and
employees are often afraid of providing
information to college administrations
due to legitimate, reasonable fear for
their own safety. Commenters requested
that this provision be modified to give
the respondent achallenge opportunity
"as soon as reasonably practicable"
rather than " immediately." Commenters
asked whether providing achallenge
opportunity " immediately" must, or
could, be the same as the " prompt" time
frames required under § 106.45.
Discussion: The Department
appreciates commenters' support of the
post-removal challenge opportunity
provided in § 106.44(c). The Department
disagrees with commenters who
suggested that no challenge to removals
ought to be possible, and believes that
§ 106.44(c) appropriately balances the
interests involved in emergency
situations. We do not believe that
prescribing procedures for the postremoval challenge is necessary or
desirable, because this provision
ensures that respondents receive the
essential due process requirements of
notice and opportunity to be heard
while leaving recipients flexibility to
use procedures that arecipient deems
most appropriate. 967 These final
regulations aim to improve the
perception and reality of the fairness
and accuracy by which arecipient
resolves allegations of sexual
harassment, and therefore the § 106.45
grievance process prescribes a
consistent framework and specific
procedures for resolving formal
complaints of sexual harassment. By
contrast, § 106.44(c) is not designed to
resolve the underlying allegations of
sexual harassment against arespondent,
967 E.g., Goss v. Lopez, 419 U.S. 565, 582-83
(1975) (" Students whose presence poses a
continuing danger to persons or property or an
ongoing threat of disrupting the academic process
may be immediately removed from school. In such
cases, the necessary notice and rudimentary hearing
should follow as soon as practicable").

179

30229

but rather to ensure that recipients have
the authority and discretion to
appropriately handle emergency
situations that may arise from
allegations of sexual harassment. As
discussed above, the final regulations
revise the language in § 106.44(c) to add
the phrase " arising from the allegations
of sexual harassment," which clarifies
that the facts or circumstances that
justify aremoval might not be the same
as the sexual harassment allegations but
might " arise from" those allegations.
The Department disagrees that apostremoval challenge is unnecessary
because the individualized safety and
risk analysis already determined that
removal was justified; the purpose of a
true emergency removal is to authorize
arecipient to respond to immediate
threats even without providing the
respondent with pre-deprivation notice
and opportunity to be heard because
this permits arecipient to protect the
one or more persons whose physical
health or safety may be in jeopardy. The
respondent's first opportunity to
challenge the removal ( e.g., by
presenting the recipient with facts that
might contradict the existence of an
immediate threat to physical health or
safety) might be after the recipient
already reached its determination that
removal is justified, and due process
principles (whether constitutional due
process of law, or fundamental fairness)
require that the respondent be given
notice and opportunity to be heard. 968
Section 106.44(c) does not preclude a
recipient from convening athreat
assessment team to review the
recipient's emergency removal
determination, but § 106.44(c) still
requires the recipient to give the
respondent post-removal notice and
opportunity to challenge the removal
decision.
The Department expects the
emergency removal process to be used
in genuine emergency situations, but
when it is used, recipients must provide
an opportunity for aremoved individual
to challenge their removal immediately
after the removal. The term
"immediately" will be fact-specific, but
is generally understood in the context of
alegal process as occurring without
delay, as soon as possible, given the
circumstances. " Immediately" does not
require atime frame of " minutes"
because in the context of alegal
proceeding the term immediately is not
generally understood to mean an
absolute exclusion of any time interval.
Goss, 419 U.S. at 580 (" At the very minimum,
therefore, students facing suspension and the
consequent interference with aprotected property
interest must be given some kind of notice and
afforded some kind of hearing.").
968

30230

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

"Immediately" does not imply the same
time frame as the " reasonably prompt"
time frames that govern the grievance
process under § 106.45, because
"immediately" suggests amore
pressing, urgent time frame than
"reasonable promptness." This is
appropriate because § 106.44(c) does not
require arecipient to provide the
respondent with any pre- deprivation
notice or opportunity to be heard, so
requiring post-deprivation due process
protections " immediately" after the
deprivation ensures that arespondent's
interest in access to education is
appropriately balanced against the
recipient's interest in quickly
addressing an emergency situation
posed by arespondent's risk to the
physical health or safety of any student
or other individual. We decline to
require the post-removal notice and
challenge to be given " as soon as
reasonably practicable" instead of
"immediately" because that would
provide the respondent less adequate
post- deprivation due process
protections.
Changes: None.
No Stated Time Limitation for the
Emergency Removal
Comments: Some commenters viewed
the absence of atime limitation with
respect to how long an emergency
removal could be as asource of harm to
both respondents and complainants.
Commenters asserted that, given how
long the grievance process could take,
students and employees removed from
their education or employment until
conclusion of the grievance process
could experience considerable negative
consequences. Commenters argued that
the proposed rules should not
encourage emergency removal,
particularly not when other, less severe
measures could be taken to ensure
safety pending an investigation.
Commenters proposed limiting an
emergency removal to seven days,
during which time an institution would
determine in writing that an immediate
threat to health or safety exists,
warranting the emergency action, and if
no such determination is reached, the
respondent would be reinstated.
Discussion: The final regulations
require schools to offer supportive
measures to complainants and permit
recipients to offer supportive measures
to respondents. We decline to require
emergency removals in every situation
where aformal complaint triggers a
grievance process. The grievance
process is designed to conclude
promptly, and the issue of whether a
respondent needs to be removed on an
emergency basis should not arise in

most cases, since § 106.44(c) applies
only where emergency removal is
justified by an immediate threat to the
physical health or safety of any student
or other individual. Revised § 106.44(a),
and revised § 106.45(b)(1)(i), prohibit a
recipient from imposing against a
respondent disciplinary sanctions or
other actions that are not supportive
measures as defined in § 106.30,
without following the § 106.45
grievance process. Emergency removal
under § 106.44(c) constitutes an
exception to those prohibitions, and
should not be undertaken in every
situation where sexual harassment has
been alleged. Rather, emergency
removal is appropriate only when
necessary to address imminent threats
to aperson's physical health or safety
arising from the allegations of sexual
harassment.
The Department declines to put any
temporal limitation on the length of a
valid emergency removal, although
nothing in the final regulations
precludes arecipient from periodically
assessing whether an immediate threat
to physical health or safety is ongoing
or has dissipated.
Changes: None.
"Removal"
Comments: Commenters requested
clarification in the following regards:
Would removing arespondent from a
class, or changing the respondent's class
schedule, before agrievance process is
completed ( or where no formal
complaint has initiated agrievance
process), require arecipient to
undertake emergency removal
procedures? Under § 106.44(c) must a
recipient remove arespondent from the
entirety of recipient's education
program or activity, or may arecipient
choose to only remove the respondent to
the extent the individual poses an
emergency in aspecific setting, i.e., a
certain class, student organization,
living space, athletic team, etc.?
Commenters argued that the § 106.30
definition of supportive measures and
§106.44(c) regarding emergency
removal could lead to confusion among
recipients about what steps they can
take to protect acomplainant's safety
and access to education prior to
conclusion of agrievance process, or
where no formal complaint has initiated
agrievance process. One commenter
suggested modifying this provision to
expressly permit partial exclusion from
programs or activities by adding the
phrase " or any part thereof."
Commenters argued that § 106.44(c)
would make it too difficult to remove a
respondent before the completion of a
disciplinary proceeding absent an

180

extreme emergency. Commenters
suggested that the Department should
consider amore nuanced approach that
provides schools with arange of
options, short of emergency removal,
that are proportionate to the alleged
misconduct and meet the needs of the
victim. Commenters requested that
§106.44(c) be revised to allow an
appropriate administrator (such as a
dean of students), in consultation with
the Title IX Coordinator, discretion to
determine the appropriateness of an
emergency removal based on astandard
that is in the best interest of the
institution.
Some commenters argued that even
where an emergency threat exists,
§106.44(c) does not provide atime
frame in which the recipient must make
this emergency removal decision,
leaving survivors vulnerable to daily
contact with adangerous respondent.
Commenters asserted that recipients
should be able to remove arespondent
from adorm or shared classes before
conclusion of adisciplinary proceeding,
particularly when it is clear that the
survivor's education will be harmed
otherwise. Commenters asserted that 80
percent of rapes and sexual assaults are
committed by someone known to the
victim, 969 which means that it is highly
likely that the victim and perpetrator
share adormitory, aclass, or other
aspect of the school environment and
that § 106.44(c) (combined with the
§106.30 definition of " supportive
measures") leaves victims in continual
contact with their harasser, thereby
prioritizing the education of accused
harassers over the education of
survivors. Commenters argued that
survivors should not have to wait until
the end of agrievance process to be
protected from seeing aperpetrator in
class or on campus, and this provision
would pressure survivors to file formal
complaints when many survivors do not
want aformal process for valid personal
reasons, because aformal process would
be the only avenue for ensuring that a
"guilty" respondent will be suspended
or expelled. Commenters recommended
adding language to clarify that nothing
shall prevent elementary and secondary
schools from implementing an
"alternate assignment" during the
pendency of an investigation, provided
that the same is otherwise permitted by
law.
One commenter suggested combining
the emergency removal and supportive
Commenters cited: U.S. Dep't. of Justice,
Office of Justice Programs, Bureau of Justice
Statistics, Special Report: Rape and Sexual Assault
Victimization Among College-Age Females, 19952013 (
2014).
969

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
measures provisions into asingle
"interim measures" provision.
Discussion: The Department believes
the § 106.30 definition of supportive
measures, and § 106.44(c) governing
emergency removals, in the context of
the revised requirements in § 106.44(a)
and § 106.45(b)(1)(i) (requiring
recipients to offer supportive measures
to complainants while not imposing
against respondents disciplinary
sanctions or other actions that are not
"supportive measures") provide awide
range and variety of options for a
recipient to preserve equal educational
access, protect the safety of all parties,
deter sexual harassment, and respond to
emergency situations.
Under § 106.30, asupportive measure
must not be punitive or disciplinary, but
may burden arespondent as long as the
burden is not unreasonable. As
discussed in the " Supportive Measures"
subsection of the " Section 106.30
Definitions" section of this preamble,
whether acertain measure unreasonably
burdens arespondent requires afactspecific inquiry. Changing a
respondent's class schedule or changing
arespondent's housing or dining hall
assignment may be apermissible
supportive measure depending on the
circumstances. By contrast, removing a
respondent from the entirety of the
recipient's education programs and
activities, or removing arespondent
from one or more of the recipient's
education programs or activities (such
as removal from ateam, club, or
extracurricular activity), likely would
constitute an unreasonable burden on
the respondent or be deemed
disciplinary or punitive, and therefore
would not likely qualify as asupportive
measure. Until or unless the recipient
has followed the § 106.45 grievance
process (at which point the recipient
may impose any disciplinary sanction
or other punitive or adverse
consequence of the recipient's choice),
removals of the respondent from the
recipient's education program or
activity 970 need to meet the standards
As discussed in the " Section 106.44(a)
`education program or activity'" subsection of the
"Section 106.44 Recipient's Response to Sexual
Harassment, Generally" section of this preamble,
the Title IX statute and existing regulations provide
definitions of " program or activity" that apply to
interpretation of arecipient's " education program
or activity" in these final regulations, and we have
clarified in § 106.44(a) that for purposes of
responding to sexual harassment arecipient's
education program or activity includes
circumstances over which the recipient exercised
substantial control. 20 U.S.C. 1687; 34 CFR
106.2(h); 34 CFR 106.2(i) ( defining " recipient"); 34
CFR 106.31(a) (referring to " any academic,
extracurricular, research, occupational training, or
other education program or activity operated by a

for emergency removals under
§106.44(c). 971 Supportive measures
provide one avenue for recipients to
protect the safety of parties and
permissibly may affect and even burden
the respondent, so long as the burden is
not unreasonable. Supportive measures
may include, for example, mutual or
unilateral restrictions on contact
between parties or re-arranging class
schedules or classroom seating
assignments, so complainants need not
remain in constant or daily contact with
arespondent while an investigation is
pending, or even where no grievance
process is pending.
Whether an elementary and secondary
school recipient may implement an
"alternate assignment" during the
pendency of an investigation (or
without agrievance process pending), in
circumstances that do not justify an
emergency removal, when such action is
otherwise permitted by law, depends on
whether the alternate assignment
constitutes adisciplinary or punitive
action or unreasonably burdens the
respondent (in which case it would not
qualify as asupportive measure as
defined in § 106.30). 972 Whether an
action "unreasonably burdens" a
respondent is fact- specific, but should
be evaluated in light of the nature and
purpose of the benefits, opportunities,
programs and activities, of the recipient
in which the respondent is
participating, and the extent to which
an action taken as asupportive measure
would result in the respondent forgoing
benefits, opportunities, programs, or
activities in which the respondent has
been participating. An alternate
assignment may, of course, be
appropriate when an immediate threat
justifies an emergency removal of the
respondent because under the final
regulations, emergency removal may
justify total removal from the recipient's
education program or activity, so
offering the respondent alternate
assignment is included within the
potential scope of an emergency
removal. Under § 106.44(a), the
recipient must offer supportive
measures to the complainant, and if a

970

recipient which receives Federal financial
assistance").

971 Cf. §106.44(d) (anon- student employeerespondent may be placed on administrative leave
(with or without pay) while a § 106.45 grievance
process is pending, without needing to meet the
emergency removal standards in § 106.44(c)).
972 For discussion of alternate assignments when
the respondent is anon- student employee, see the
"Section 106.44(d) Administrative Leave"
subsection of the " Additional Rules Governing
Recipients' Responses to Sexual Harassment"
subsection of the " Section 106.44 Recipient's
Response to Sexual Harassment, Generally" section
of this preamble.

181

30231

particular action—such as alternate
assignment—does not, under specific
circumstances, meet the definition of a
supportive measure, then the recipient
must carefully consider other
individualized services, reasonably
available, designed to restore or
preserve the complainant's equal
educational access and/or protect safety
and deter sexual harassment, that the
recipient will offer to the complainant.
We do not believe that the final
regulations incentivize complainants to
file formal complaints when they
otherwise do not wish to do so just to
avoid contacting or communicating with
arespondent, because supportive
measures permit arange of actions that
are non-punitive, non-disciplinary, and
do not unreasonably burden a
respondent, such that arecipient often
may implement supportive measures
that do meet acomplainant's desire to
avoid contact with the respondent. For
example, if acomplainant and
respondent are both members of the
same athletic team, acarefully crafted
unilateral no-contact order could restrict
arespondent from communicating
directly with the complainant so that
even when the parties practice on the
same field together or attend the same
team functions together, the respondent
is not permitted to directly
communicate with the complainant.
Further, the recipient may counsel the
respondent about the recipient's antisexual harassment policy and antiretaliation policy, and instruct the team
coaches, trainers, and staff to monitor
the respondent, to help enforce the nocontact order and deter any sexual
harassment or retaliation by the
respondent against the complainant.
Further, nothing in the final regulations,
or in the definition of supportive
measures in § 106.30, precludes a
recipient from altering the nature of
supportive measures provided, if
circumstances change. For example, if
the Title IX Coordinator initially
implements asupportive measure
prohibiting the respondent from directly
communicating with the complainant,
but the parties later each independently
decide to take the same lab class, the
Title IX Coordinator may, at the
complainant's request, reevaluate the
circumstances and offer the
complainant additional supportive
measures, such as requiring the
professor teaching the lab class to
ensure that the complainant and
respondent are not "teamed up" or
assigned to sit near each other or
assigned as to be " partners," during or
as part of the lab class.
Commenters correctly observe that the
final regulations prohibit suspending or

30232

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

expelling arespondent without first
following the § 106.45 grievance
process, or unless an emergency
situation justices removal from the
recipient's education program or
activity (which removal may, or may
not, be labeled a " suspension" or
"expulsion" by the recipient). We do
not believe this constitutes unfairness to
survivors, or poses athreat to survivors'
equal educational access, because there
are many actions that meet the
definition of supportive measures that
may restore or preserve acomplainant's
equal access, protect acomplainant's
safety, and/or deter sexual harassment
without punishing or unreasonably
burdening arespondent. As discussed
in the " Section 106.45(b)(1)(iv)
Presumption of Non-Responsibility"
subsection of the " General
Requirements for § 106.45 Grievance
Process" subsection of the " Section
106.45 Recipient's Response to Formal
Complaints" section of this preamble,
refraining from treating people accused
of wrongdoing as responsible for the
wrongdoing prior to evidence proving
the person is responsible is a
fundamental tenet of American justice.
These final regulations appropriately
ensure that respondents are not unfairly,
prematurely treated as responsible
before being proved responsible, with
certain reasonable exceptions:
Emergency removals, administrative
leave for employees, and informal
resolution of aformal complaint that
resolves the allegations without afull
investigation and adjudication but may
result in consequences for arespondent
including suspension or expulsion. In
this way, the final regulations ensure
that every complainant is offered
supportive measures designed to
preserve their equal educational access
and protect their safety (even without
any proof of the merits of the
complainant's allegations) consistent
with due process protections and
fundamental fairness. As an example, a
complainant understandably may desire
as asupportive measure the ability to
avoid being in the same classroom with
arespondent, whether or not the
complainant wants to file aformal
complaint. A school may conclude that
transferring the respondent to adifferent
section of that class ( e.g., that meets on
adifferent day or different time than the
class section in which the complainant
and respondent are enrolled) is a
reasonably available supportive measure
that preserves the complainant's equal
access and protects the complainant's
safety or deters sexual harassment,
while not constituting an unreasonable
burden on the respondent (because the

respondent is still able to take that same
class and earn the same credits toward
graduation, for instance). If, on the other
hand, that class in which both parties
are enrolled does not have alternative
sections that meet at different times, and
precluding the respondent from
completing that class would delay the
respondent's progression toward
graduation, then the school may
determinate that requiring the
respondent to drop that class would
constitute an unreasonable burden on
the respondent and would not quality as
asupportive measure, although granting
the complainant an approved
withdrawal from that class with
permission to take the class in the
future, would of course constitute a
permissible supportive measure for the
recipient to offer the complainant.
Alternatively in such acircumstance
(where the complainant, like the
respondent, cannot withdraw from that
class and take it later without delaying
progress toward graduation), the school
may offer the complainant as a
supportive measure, for example, aoneway no contact order that prohibits the
respondent from communicating with
the complainant and assigns the
respondent to sit across the classroom
from the complainant. As such an
example shows, these final regulations
allow, and require, arecipient to
carefully consider the specific facts and
circumstances unique to each situation
to craft supportive measures to help a
complainant without prematurely
penalizing arespondent.
The Department does not believe it is
necessary or appropriate to require a
time frame for when arecipient must
undertake an emergency removal,
because the risk arising from the sexual
harassment allegations that may justify
aremoval may arise at any time; further,
§106.44(a) requires arecipient to
respond "promptly" to sexual
harassment, and if an emergency
removal is anecessary part of a
recipient's non- deliberately indifferent
response then such aresponse must be
prompt. We reiterate that emergency
removal is not about reaching factual
conclusions about whether the
respondent is responsible for the
underlying sexual harassment
allegations. Emergency removal is about
determining whether an immediate
threat arising out of the sexual
harassment allegations justifies removal
of the respondent.
We appreciate the opportunity to
clarify that, where the standards for
emergency removal are met under
§106.44(c), the recipient has discretion
whether to remove the respondent from
all the recipient's education programs

182

and activities, or to narrow the removal
to certain classes, teams, clubs,
organizations, or activities. We decline
to add the phrase " or any part thereof"
to this provision because a " part of" a
program may not be readily understood,
and we believe the authority to exclude
entirely includes the lesser authority to
exclude partially.
Section 106.44(a) and § 106.45(b)(1)(i)
forbid arecipient from imposing
disciplinary sanctions ( or other actions
that are not supportive measures) on a
respondent without first following a
grievance process that complies with
§106.45. We reiterate that a § 106.44(c)
emergency removal may be appropriate
whether or not agrievance process is
underway, and that the purpose of an
emergency removal is to protect the
physical health or safety of any student
or other individual to whom the
respondent poses an immediate threat,
arising from allegations of sexual
harassment, not to impose an interim
suspension or expulsion on a
respondent, or penalize arespondent by
suspending the respondent from, for
instance, playing on asports team or
holding astudent government position,
while agrievance process is pending.
The final regulations respect
complainants' autonomy and
understand that not every complainant
wishes to participate in agrievance
process, but acomplainant's choice not
to file aformal complaint or not to
participate in agrievance process does
not permit arecipient to bypass a
grievance process and suspend or expel
(or otherwise discipline, penalize, or
unreasonably burden) arespondent
accused of sexual harassment. An
emergency removal under § 106.44(c)
separates arespondent from educational
opportunities and benefits, and is
permissible only when the high
threshold of an immediate threat to a
person's physical health or safety
justifies the removal.
Because the purposes of, and
conditions for, " supportive measures"
as defined in § 106.30 differ from the
purposes of, and conditions for, an
emergency removal under § 106.44(c),
we decline to combine these provisions.
Both provisions, and the final
regulations as awhole, do not prioritize
the educational needs of arespondent
over acomplainant, or vice versa, but
aim to ensure that complainants receive
aprompt, supportive response from a
recipient, respondents are treated fairly,
and recipients retain latitude to address
emergency situations that may arise.
Changes: None.

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
"Individualized Safety and Risk
Analysis"
Comments: Many commenters argued
that the lack of guidance in §106.44(c)
on the requirements for conducting the
"individualized safety and risk
analysis" is confusing, and should be
better defined because it could lead to
inconsistent results from school to
school, county to county, and State to
State. Some commenters expressed
overall support for this provision, but
argued that the power of removal should
not be wielded without careful
consideration, and requested clarity
about who would undertake the risk
analysis (e.g., an internal or external
individual on behalf of arecipient).
Other commenters stated that
§106.44(c) should list factors to
consider in the required safety and risk
analysis including: whether violence
was alleged (which commenters
asserted is rare in cases involving
alleged incapacitation), how long the
complainant took to file acomplaint,
whether the complainant has reported
the allegations to the police, and
whether there are other, less restrictive
measures that could be taken.
Commenters argued that the risk
assessment requirement may prevent
the removal of respondents who are in
fact dangerous because context and
other nuances may not be accounted for
in the assessment. One commenter
stated that the § 106.44(c) safety and risk
analysis requirements are " good, but
sometimes not realistic" because threat
assessment teams do not meet daily, and
it is sometimes necessary to decide a
removal in amatter of hours. Other
commenters stated some recipients have
already incorporated this sort of threat
assessment into their decision matrix
because postsecondary institutions are
obligated to take reasonable steps to
address dangers or threats to their
students.

Some commenters were concerned
that institutions lack sufficient
resources to properly conduct the
required safety and risk analysis, that
institutions lack the proper tools to
conduct assessments calibrated to the
age and developmental issues of the
respondent, and that institutions lack
the training and knowledge to properly
implement such assessments.
Commenters asserted that this provision
would require institutions to train
employees to conduct an individualized
safety and risk analysis before removing
students on an emergency basis, but that
such assessments are rarely within the
capacity or expertise of asingle
employee, and thus may require a

committee or task force dedicated for
this purpose.
Discussion: Recipients are entitled to
use § 106.44(c) to remove arespondent
on an emergency basis, only where there
is an immediate threat to the physical
health or safety of any student or other
individual. The " individualized safety
or risk analysis" requirement ensures
that the recipient should not remove a
respondent from the recipient's
education program or activity pursuant
to §106.44(c) unless there is more than
ageneralized, hypothetical, or
speculative belief that the respondent
may pose arisk to someone's physical
health or safety. The Department
believes that the immediate threat to
physical health or safety threshold for
justifying aremoval sufficiently restricts
§106.44(c) to permitting only
emergency removals and believes that
further describing what might constitute
an emergency would undermine the
purpose of this provision, which is to
set ahigh threshold for emergency
removal yet ensure that the provision
will apply to the variety of
circumstances that could present such
an emergency. The Department also
believes that the final regulations
adequately protect respondents, since in
cases where the recipient removes a
respondent, the recipient must follow
appropriate procedures, including
bearing the burden of demonstrating
that the removal meets the threshold
specified by the final regulations, based
on afactual, individualized safety and
risk analysis. We understand
commenters' concerns that the
individualized, fact-based nature of an
emergency removal assessment may
lead to different results from school to
school or State to State, but different
results may be reasonable based on the
unique circumstances presented in
individual situations.
Because the safety and risk analysis
under § 106.44(c) must be
"individualized," the analysis cannot be
based on general assumptions about sex,
or research that purports to profile
characteristics of sex offense
perpetrators, or statistical data about the
frequency or infrequency of false or
unfounded sexual misconduct
allegations. The safety and risk analysis
must be individualized with respect to
the particular respondent and must
examine the circumstances " arising
from the allegations of sexual
harassment" giving rise to an immediate
threat to aperson's physical health or
safety. These circumstances may
include factors such as whether
violence was allegedly involved in the
conduct constituting sexual harassment,
but could also include circumstances

183

30233

that " arise from" the allegations yet do
not constitute the alleged conduct itself;
for example, arespondent could pose an
immediate threat of physical self-harm
in reaction to being accused of sexual
harassment. For arespondent to be
removed on an emergency basis, the
school must determine that an
immediate threat exists, and that the
threat justifies removal. Section
106.44(c) does not limit the factors that
arecipient may consider in reaching
that determination.
We appreciate commenters' concerns
that performing safety and risk analyses
may require arecipient to expend
resources or train employees, but
without an individualized safety and
risk analysis arecipient's decision to
remove arespondent might be arbitrary,
and would fail to apprise the
respondent of the basis for the
recipient's removal decision so that the
respondent has an opportunity to
challenge the decision. Procedural due
process of law and fundamental fairness
require that arespondent deprived of an
educational benefit be given notice and
opportunity to contest the
deprivation;
without knowing the
individualized reasons why arecipient
determined that the respondent posed a
threat to someone's physical health or
safety, the respondent cannot assess a
basis for challenging the recipient's
removal decision. Recipients may
choose to provide specialized training to
employees or convene interdisciplinary
threat assessment teams, or be required
to take such actions under other laws,
and § 106.44(c) leaves recipients
flexibility to decide how to conduct an
individualized safety and risk analysis,
as well as who will conduct the
analysis.
Changes: None.
973

"Provides the Respondent With Notice
and an Opportunity To Challenge the
Decision Immediately Following the
Removal"
Comments: One commenter stated
that during any emergency removal
hearing, schools should be required to
share all available evidence with the
respondent, permit that person an
opportunity to be heard, and allow the
respondent's advisor to cross-examine
any witnesses. According to the
commenter, if these full procedural
rights are not extended, this provision
would create aloophole that allows
emergency measures to effectively
replace afull grievance process.
Commenters also argued that a
recipient's emergency removal decisions
973 See the " Role of Due Process in the Grievance
Process" section of this preamble.

30234

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

would often be hastily made, and that
recipients would ignore requirements
that aremoved student be given the
opportunity to review or challenge the
decision made by the recipient.
Commenters argued that § 106.44(c)
should include express language
safeguarding students against abusive
practices during the challenge
procedure. One commenter suggested
adding the word " meaningful" so the
respondent would have " ameaningful
opportunity" to challenge the removal
decision, asserting that certain
institutions of higher education in
California have not consistently given
respondents meaningful opportunities
to " make their case." While supportive
of § 106.44(c), one commenter suggested
modifying this provision to require the
recipient to send the respondent written
notice of the specific facts that
supported the recipient's decision to
remove the student, so the respondent
can meaningfully challenge the removal
decision.
Some commenters asserted that if the
respondent has aright to challenge the
emergency removal, the recipient must
offer an equitable opportunity for the
complainant to contest an overturned
removal or participate in the
respondent's challenge process. Other
commenters asked whether § 106.44(c)
requires, or allows, arecipient to notify
the complainant that arespondent has
been removed under this provision, that
arespondent is challenging aremoval
decision, or that aremoval decision has
been overturned by the recipient after a
respondent's challenge.
Commenters argued that § 106.44(c)
would also effectively mandate that an
institution's employees must be trained
to conduct hearings or other undefined
post-removal procedures in the event
that arespondent exercises the right to
challenge the emergency removal.
Commenters argued that this burden
likely would require adedicated officer
or committee to carry out procedural
obligations that did not previously exist,
and these burdens were not
contemplated at the time of the
recipient's acceptance of the Federal
funding. Commenters argued that
§106.44(c) would provide rights to atwill employees that are otherwise
unavailable, restricting employment
actions that are normally within the
discretion of an employer.
Commenters requested clarification
about the procedures for challenging a
removal decision, such as: Whether a
respondent's opportunity challenge the
emergency removal means the recipient
must, or may, use processes under
§106.45 to meet its obligations,
including whether evidence must be

gathered, witnesses must be
interviewed, or alive hearing with
cross-examination must be held;
whether the recipient, or respondent,
will bear the burden of proof that the
removal decision was correct or
incorrect; whether the recipient must, or
may, involve the complainant in the
challenge procedure; whether the
recipient must, or may, use the
investigators and decision-makers that
have been trained pursuant to § 106.45
to conduct the post-removal challenge
procedure; and whether the
determinations about an emergency
removal must, or may, influence a
determination regarding responsibility
during agrievance process under
§106.45.
Discussion: The Department disagrees
that § 106.44(c) poses apossible
loophole through which recipients may
bypass giving respondents the due
process protections in the § 106.45
grievance process. The threshold for an
emergency removal under § 106.44(c) is
adequately high to prevent recipients
from using emergency removal as a
pretense for imposing interim
suspensions and expulsions. We do not
believe it is necessary to revise
§106.44(c) to prevent recipients from
imposing " abusive" procedures on
respondents; recipients will be held
accountable for reaching removal
decisions under the standards of
§106.44(c), giving recipients adequate
incentive to give respondents the
immediate notice and challenge
opportunity following aremoval
decision. We do not believe that
recipients will make emergency removal
decisions " hastily," and arespondent
who believes arecipient has violated
these final regulations may file a
complaint with OCR.
The Department does not want to
prescribe more than minimal
requirements on recipients for purposes
of responding to emergency situations.
We decline to require written notice to
the respondent because minimal due
process requires some kind of notice,
and compliance with anotice
requirement suffices for arecipient's
handling of an emergency situation. 974
We decline to add the modifier
"meaningful" before " opportunity"
because the basic due process
requirement of an opportunity to be
heard entails an opportunity that is
appropriate under the circumstances,
E.g., Goss, 419 U.S. at 578-79 (
holding that in
the public school context " the interpretation and
application of the Due Process Clause are intensely
practical matters" that require at aminimum notice
and " opportunity for hearing appropriate to the
nature of the case") (internal quotation marks and
citations omitted).
974

184

which ensures ameaningful
opportunity. 975 While arecipient has
discretion (subject to FERPA and other
laws restricting the nonconsensual
disclosure of personally identifiable
information from education records) to
notify the complainant of removal
decisions regarding arespondent, or
post-removal challenges by a
respondent, we do not require the
complainant to receive notice under
§106.44(c) because not every emergency
removal directly relates to the
complainant. As discussed above,
circumstances that justify removal must
be " arising from the allegations of
sexual harassment" yet may consist of a
threat to the physical health or safety of
aperson other than the complainant (for
example, where the respondent has
threatened self-harm). 976
The Department disagrees that
§106.44(c) requires arecipient to go
through excessively burdensome
procedures prior to removing a
respondent on an emergency basis. The
seriousness of the consequence of a
recipient's decision to removal of a
student or employee, without ahearing
beforehand, naturally requires the
school to meet ahigh threshold (
i.e., an
individualized safety and risk
assessment shows that the respondent
poses an immediate threat to aperson's
physical health or safety justifying
removal). At the same time, § 106.44(c)
leaves recipients wide latitude to select
the procedures for giving notice and
opportunity to challenge aremoval.
A recipient owes ageneral duty under
§106.44(a) to respond to sexual
harassment in amanner that is not
deliberately indifferent. Where
removing an individual on an
emergency basis is necessary to avoid
acting with deliberate indifference, a
recipient must meet the requirements in
§106.44(c). The Department disagrees
that § 106.44(c) imposes requirements
on recipients that violate the Spending
Clause, because recipients understand
that compliance with Title IX will
975

Id.

As discussed in the " Section 106.6(e) FERPA"
subsection of the " Clarifying Amendments to
Existing Regulations" section of this preamble, the
complainant has aright to know the nature of any
disciplinary sanctions imposed on arespondent
after the recipient has found the respondent to be
responsible for sexual harassment alleged by the
complainant, because the disciplinary sanctions are
directly related to the allegations made by the
complainant. By contrast, emergency removal of a
respondent does not involve arecipient's
determination that the respondent committed
sexual harassment as alleged by the complainant,
and information about the emergency removal is
not necessarily directly related to the complainant.
Thus, FERPA (or other privacy laws) may restrict
arecipient's discretion to disclose information
relating to the emergency removal.
976

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
require dedication of personnel, time,
and resources. 977 Because this provision
does not prescribe specific post-removal
challenge procedures, we do not believe
recipients face significant burdens in
training personnel to comply with new
or unknown requirements; this
provision ensures that the essential
features of due process of law, or
fundamental fairness, are provided to
the respondent (
i.e., notice and
opportunity to be heard), and we believe
that recipients are already familiar with
these basic requirements of due process
(for public institutions) or fair process
(for private institutions).
In response to commenters'
clarification requests, the post-removal
procedure may, but need not, utilize
some or all the procedures prescribed in
§106.45, such as providing for
collection and presentation of evidence.
Nothing in § 106.44(c) or the final
regulations precludes arecipient from
placing the burden of proof on the
respondent to show that the removal
decision was incorrect. Section
106.44(c) does not preclude arecipient
from using Title IX personnel trained
under § 106.45(b)(1)(iii) to make the
emergency removal decision or conduct
apost-removal challenge proceeding,
but if involvement with the emergency
removal process results in bias or
conflict of interest for or against the
complainant or respondent,
§106.45(b)(1)(iii) would preclude such
personnel from serving in those roles
during agrievance process. 978 Facts and
evidence relied on during an emergency
removal decision and post-removal
challenge procedure may be relevant in
a § 106.45 grievance process against the
respondent but would need to meet the
requirements in § 106.45; for example, a
witness who provided information to a
postsecondary institution recipient for
use in reaching an emergency removal
decision would need to appear and be
cross-examined at alive hearing under
§106.45(b)(6)(i) in order for the
witness's statement to be relied on by
the decision-maker.
Changes: None.
How OCR Will Enforce the Provision
Comments: Commenters requested
clarification about how OCR would
enforce § 106.44(c), including what
standard OCR would use in deciding
See discussion under the " Spending Clause"
subsection of the " Miscellaneous" section of this
preamble.
Section 106.45(b)(1)(iii) requires all Title IX
Coordinators, investigators, decision-makers, and
persons who facilitate an informal resolution to be
free from bias or conflicts of interest for or against
complainants or respondents generally, or for or
against any individual complainant or respondent.
971

978

whether aremoval was proper; whether
OCR would only find aviolation if the
recipient violates § 106.44(c) with
deliberate indifference; whether
violating this provision constitutes a
violation of Title IX; whether OCR
would defer to the determination
reached by the recipient even if OCR
would have reached adifferent
determination based on the independent
weighing of the evidence; whether a
harmless error standard would apply to
OCR's evaluation of aproper removal
decision and only require reversing the
recipient's removal decision if OCR
thinks the outcome was affected by a
recipient's violation of § 106.44(c); and
whether OCR, or the recipient, would
bear the burden of showing the
correctness or incorrectness of the
removal decision or the burden of
showing that any violation affected the
outcome or not.
Discussion: OCR will enforce this
provision fully and consistently with
other enforcement practices. OCR will
not apply aharmless error standard to
violations of Title IX, and will fulfill its
role to ensure compliance with Title IX
and these final regulations regardless of
whether arecipient's non-compliance is
the result of the recipient's deliberate
indifference or other level of
intentionality. Recipients whose
removal decisions fail to comply with
§10 6.44(c) may be found by OCR to be
in violation of these final regulations.
As discussed above, arecipient may
need to undertake an emergency
removal under § 106.44(c) in order to
meet its duty not to be deliberately
indifferent to sexual harassment.
However, OCR will not second guess the
decisions made under arecipient's
exercise of discretion so long as those
decisions comply with the terms of
§106.44(c). For example, OCR may
assess whether arecipient's failure to
undertake an individualized risk
assessment was deliberately indifferent
under § 106.44(a), but OCR will not
second guess arecipient's removal
decision based on whether OCR would
have weighed the evidence of risk
differently from how the recipient
weighed such evidence. While not every
regulatory requirement purports to
represent adefinition of sex
discrimination, Title IX regulations are
designed to make it more likely that a
recipient does not violate Title IX's nondiscrimination mandate, and the
Department will vigorously enforce
Title IX and these final regulations.
Changes: None.
Section 106.44(d) Administrative Leave
Comments: Some commenters
expressed support for § 106.44(d),

185

30235

asserting that this provision
appropriately recognizes that cases
involving employees as respondents,
especially faculty or administrative
staff, should have different frameworks
than cases involving students.
Some commenters asserted that it is
unclear what standard arecipient must
satisfy before it may place an employee
on administrative leave. Commenters
recommended giving discretion to an
elementary and secondary school
recipient to implement an alternate
assignment (such as administrative
reassignment to home) for staff during
the pendency of an investigation,
provided the same is otherwise
permitted by law.
Commenters wondered how the
Department defines " administrative
leave," whether § 106.44(d) applies to
paid or unpaid leave, and whether that
would depend on how existing recipient
employee conduct codes or employment
contracts address the issue of paid or
unpaid leave. Commenters asked
whether an employee-respondent
placed on leave may collect back pay
from the recipient, if the grievance
process determines there was
insufficient evidence of misconduct.
One commenter argued that
administrative leave must include pay
and benefits, as well as lodging if the
employee-respondent resided in campus
housing.
One commenter asserted that treating
non-student employees differently than
students or student-employees under
§106.44(d) constitutes discrimination.
Another commenter questioned why
recipients can deny employees
paychecks for months until the
conclusion of aformal grievance
process, but give immediate due process
for students to challenge an emergency
removal; the commenter asserted that
the recipient could simply provide a
free semester of college to cover any loss
to astudent yet the proposed rules do
not require arecipient to give back pay
to an employee. Some commenters
argued that § 106.44(c) emergency
removal requirements to undertake an
individualized safety and risk analysis
and provide notice and an opportunity
to challenge should also apply to
administrative leave so that employees
receive the same due process
protections as students. Commenters
argued that school investigations can
take several months and that being on
leave, especially without pay, can be a
severe hardship for many employees.
Commenters asserted that the
Department should explicitly require
recipients to secure aremoved
employee's personal property and be
responsible for any damage occurring to

30236

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

the property before the removed
employee can regain custody.
Commenters asserted that § 106.44(d)
should apply to student-employee
respondents and should be revised to
limit the provision to administrative
leave " from the person's employment,"
so that astudent-employee respondent
could still have access to the recipient's
educational programs but the recipient
would not be forced to continue an
active employment relationship with
that respondent during the
investigation. For example, commenters
argued, arecipient should not be
compelled to allow ateaching assistant
who has been accused of sexual
harassment to continue teaching while
the accusations are being investigated.
Commenters argued that § 106.44(d)
should reference disability laws that
protect employees parallel to the
references to disability laws in
§106.44(c).
Discussion: The Department
appreciates the support from
commenters for § 106.44(d), giving a
recipient discretion to place
respondents who are employees on
administrative leave during the
pendency of an investigation.
We acknowledge commenters'
concerns that § 106.44(d) does not
specify conditions justifying
administrative leave; however, we
desire to give recipients flexibility to
decide when administrative leave is
appropriate. If State law allows or
requires aschool district to place an
accused employee on " reassignment to
home" or alternative assignment,
§106.44(d) does not preclude such
action while an investigation under
§106.45 into sexual harassment
allegations against the employee is
pending.
The Department does not define
"administrative leave" in this provision,
but administrative leave is generally
understood as temporary separation
from aperson's job, often with pay and
benefits intact. However, these final
regulations do not dictate whether
administrative leave during the
pendency of an investigation under
§106.45 must be with pay (or benefits)
or without pay (or benefits). With
respect to the terms of administrative
leave, recipients who owe obligations to
employees under State laws or
contractual arrangements may comply
with those obligations without violating
§106.44(d). Similarly, these final
regulations do not require back pay to
an employee when the pending
investigation results in adetermination
that the employee was not responsible.
Further, this provision does not require
arecipient to cover the costs of lodging

for, or to secure the personal property
of, an employee placed on
administrative leave, although the final
regulations do not preclude arecipient
from taking such actions. We note that
these final regulations similarly allow—
but do not require—arecipient to repay
arespondent for expenses incurred as a
result of an emergency removal or to
take actions to secure personal property
during aremoval under § 106.44(c)
(whether the removed respondent was a
student, or an employee). We also note
that § 106.6(f) provides that nothing in
this part may be read in derogation of
an individual's rights, including an
employee's rights, under Title VII
and that other laws such as Title VII
may dictate whether administrative
leave should be paid or unpaid and
whether arespondent should be repaid
for expenses incurred as aresult of any
of the recipient's actions.
The Department acknowledges that
being placed on administrative leave—
especially if the leave is without pay—
may constitute ahardship for the
employee. However, no respondent who
is an employee may be kept on
administrative leave indefinitely,
because § 106.44(d) does not authorize
administrative leave unless a § 106.45
grievance process has been initiated,
and § 106.45(b)(1)(v) requires the
grievance process to be concluded
within adesignated reasonably prompt
time frame. As proposed in the NPRM,
§106.44(d) provided that arecipient
may place anon-student employee
respondent on administrative leave
during the pendency of an investigation;
this was intended to refer to an
investigation conducted pursuant to the
§106.45 grievance process. To clarify
this point, the Department replaces " an
investigation" with " agrievance process
that complies with § 106.45" in
§106.44(d) to make it clear that a
recipient may place anon-student
employee respondent on administrative
leave during the pendency of a
grievance process that complies with
§106.45. The Department also revised
§106.44(d) to provide that " nothing in
this subpart" instead of " nothing in this
section" precludes arecipient from
placing anon-student employee
respondent on administrative leave to
clarify that § 106.44(d) applies to
subpart D of Part 106 of Title 34 of the
979

For discussion of the revision to language in
§106.6(f) (
i.e., stating in these final regulations that
nothing in this part may be read in derogation of
an individual's rights instead of an employee's
rights, under Title VII), see the " Section 106.6(f)
Title VII and Directed Question 3 (Application to
Employees)" subsection of the " Clarifying
Amendments to Existing Regulations" section of
this preamble.
979

186

Code of Federal Regulations. This
revision makes it clear that nothing in
subpart D of Part 106 of Title, which
concerns nondiscrimination on the basis
of sex in education programs or
activities receiving Federal financial
assistance and which includes other
provisions such as § 106.44 and
§106.45, precludes arecipient from
placing anon-student employee
respondent on administrative leave
during the pendency of agrievance
process that complies with § 106.45.
The Department appreciates
commenters' suggestions that the same
due process protections (notice and
opportunity to challenge aremoval) that
apply to respondents under § 106.44(c)
should apply to an employee placed on
administrative leave under § 106.44(d).
This is unnecessary, because § 106.44(c)
applies to an emergency removal of any
respondent. Any respondent (whether
an employee, astudent, or other person)
who poses an immediate threat to the
health or safety of any student or other
individual may be removed from the
recipient's education program or
activity on an emergency basis, where
an individualized safety and risk
analysis justifies the removal. Thus,
respondents who are employees receive
the same due process protections with
respect to emergency removals (
i.e.,
post-removal notice and opportunity to
challenge the removal) as respondents
who are students.
The Department also clarifies that
pursuant to § 106.44(d), arecipient may
place anon-student employee
respondent on administrative leave,
even if the emergency removal
provision in § 106.44(c) does not apply.
With respect to student-employee
respondents, we explain more fully,
below, that these final regulations do
not necessarily prohibit arecipient from
placing astudent- employee respondent
on administrative leave if doing so does
not violate other regulatory provisions.
For example, placing astudentemployee respondent on administrative
leave with pay may be permissible as a
supportive measure, defined in § 106.30,
for acomplainant (for instance, to
maintain the complainant's equal
educational access and/or to protect the
complainant's safety or deter sexual
harassment) as long as that action meets
the conditions that asupportive
measure is not punitive, disciplinary, or
unreasonably burdensome to the
respondent. Whether arecipient
considers placing astudent-employee
respondent on administrative leave as
part of anon- deliberately indifferent
response under § 106.44(a) is adecision
that the Department will evaluate based
on whether such aresponse is clearly

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations
unreasonable in light of the known
circumstances. The Department will
interpret these final regulations in a
manner that complements an
employer's obligations under Title VII,
and nothing in these final regulations or
in Part 106 of Title 34 of the Code of
Federal Regulations may be read in
derogation of any individual's rights,
including any employee's rights, under
Title VII, as explained in more detail in
the " Section 106.6(f) Title VII and
Directed Question 3 (Application to
Employees)" subsection of the
"Clarifying Amendments to Existing
Regulations" section of this preamble.
Section 106.44(a) prohibits arecipient
from imposing disciplinary sanctions
against arespondent without following
agrievance process that complies with
§106.45. Administrative leave without
pay is generally considered disciplinary,
and would likely be prohibited under
§106.44(a) in the absence of the
§106.44(d) administrative leave
provision. The Department believes that
while an investigation is pending, a
recipient should have discretion to
place an employee-respondent on any
form of administrative leave the
recipient deems appropriate, so that the
recipient has flexibility to protect
students from exposure to apotentially
sexually abusive employee. Numerous
commenters asserted that educator
sexual misconduct is prevalent
throughout elementary and secondary
schools, and postsecondary
institutions. 980 For these reasons, the
final regulations permit, but do not
require, what may amount to an interim
suspension of an employee-respondent
(i.e., administrative leave without pay)
even though the final regulations
prohibit interim suspensions of studentrespondents. We reiterate that any
respondent may be removed on an
emergency basis under § 106.44(c).
We do not believe that employees
placed on administrative leave are
denied sufficient due process under
these circumstances, because in order
for § 106.44(d) to apply, a § 106.45
grievance process must be underway,
and that grievance process provides the
respondent (and complainant) with
clear, strong procedural protections
designed to reach accurate outcomes,
E.g., Charol Shakeshaft, Educator Sexual
Misconduct: A Synthesis of Existing Literature
(2004) (prepared for the U.S. Dep't. of Education)
(ten percent of children were targets of educator
sexual misconduct by the time they graduated from
high school); National Academies of Science,
Engineering, and Medicine, Sexual Harassment of
Women: Climate, Culture, and Consequences in
Academic Sciences, Engineering, and Medicine 61
(Frasier F. Benya et al. eds., 2018) ( describing the
prevalence of faculty- on-student sexual harassment
at the postsecondary level).
980

including the right to conclusion of the
grievance process within the recipient's
designated, reasonably prompt time
frame. As previously explained, the
Department revised § 106.44(d) to
clarify that arecipient may place anonstudent respondent on administrative
leave during the pendency of a
grievance process that complies with
§106.45.
Commenters erroneously asserted that
because § 106.44(d) applies only to
"non- student employees," arecipient is
always precluded from placing an
employee-respondent on administrative
leave if the employee is also astudent.
We decline to make § 106.44(d) apply to
student-employees or to change this
provision to specify that administrative
leave is " from the person's
employment." Consistent with
§106.6(f), where an employee is not a
student, we do not preclude arecipientemployer from placing anon-student
employee on administrative leave
during the pendency of agrievance
process that complies with § 106.45.
These final regulations do not prohibit
arecipient from placing astudentemployee respondent on administrative
leave if doing so does not violate other
regulatory provisions. As discussed
above, placing astudent-employee
respondent on administrative leave with
pay may be permissible as asupportive
measure, defined in § 106.30, and may
be considered by the recipient as part of
the recipient's obligation to respond in
anon-deliberately indifferent manner
under § 106.44(a). Where astudent is
also employed by their school, college,
or university, it is likely that the student
depends on that employment in order to
pay tuition, or that the employment is
important to the student's academic
opportunities. Administrative leave may
jeopardize astudent-employee's access
to educational benefits and
opportunities in away that anonstudent employee's access to education
is not jeopardized. Accordingly,
administrative leave is not always
appropriate for student-employees.
There may be circumstances that justify
administrative leave with pay for
student-employees, and the specific
facts of aparticular matter will dictate
whether arecipient's response in
placing astudent-employee on
administrative leave is permissible. For
example, if astudent-employee
respondent works at aschool cafeteria
where the complainant usually eats, a
recipient may determine that placing
the student-employee respondent on
administrative leave with pay, during
the pendency of agrievance process that
complies with § 106.45, will not

187

30237

unreasonably burden the studentemployee respondent, or the recipient
may determine that re- assigning the
student-employee respondent to a
different position during pendency of a
§106.45 grievance process, will not
unreasonably burden the studentemployee respondent. If arecipient
places aparty who is astudentemployee on administrative leave with
pay as asupportive measure, then such
administrative leave must be nondisciplinary, non-punitive, not
unreasonably burdensome, and
otherwise satisfy the definition of
supportive measures in § 106.30. With
respect to astudent-employee
respondent, arecipient also may choose
to take measures other than
administrative leave that could
constitute supportive measures for a
complainant, designed to protect safety
or deter sexual harassment without
unreasonably burdening the respondent.
For example, where an employee is also
arecipient's student, it is likely that the
recipient has the ability to supervise the
student-employee to ensure that any
continued contact between the studentemployee respondent and other
students occurs under monitored or
supervised conditions (
e.g., where the
respondent is ateaching assistant),
during the pendency of an investigation.
If arecipient removes arespondent
pursuant to § 106.44(c) after conducting
an individualized safety and risk
analysis and determining that an
immediate threat to the physical health
or safety of any students or other
individuals justifies removal, then a
recipient also may remove astudentemployee respondent from any
employment opportunity that is part of
the recipient's education program or
activity.
The Department is persuaded by
commenters who asserted that
analogous disability protections should
expressly apply for employeerespondents under § 106.44(d) as for
respondents under the § 106.44(c)
emergency removal provision. We have
revised § 106.44(d) of the final
regulations to state that this provision
may not be construed to modify any
rights under Section 504 or the ADA.
Changes: We have revised § 106.44(d)
to clarify that it will not be construed to
modify Section 504 or the ADA. 981 We
also revised § 106.44(d) to clarify that
nothing in subpart D of Part 106, Title
34 of the Code of Regulations, precludes
981 As discussed in the " Section 106.6(f) Title VII
and Directed Question 3 (Application to
Employees)" subsection of the " Clarifying
Amendments to Existing Regulations" section of
this preamble, we revised the reference to " this
section" to " this subpart" in § 106.44(d).

30238

Federal Register/Vol. 85, No. 97/Tuesday, May 19, 2020/Rules and Regulations

arecipient from placing anon-student
employee respondent on administrative
leave during the pendency of a
grievance process that complies with
§106.45.
Section 106.45 Recipient's Response
to Formal Complaints
General Requirements for § 106.45
Grievance Process
Section 106.45(a) Treatment of
Complainants or Respondents Can
Violate Title IX
Comments: Commenters including
students, professors, campus
administrators, and attorneys, expressed
appreciation and support for § 106.45(a).
Some commenters asserted that
§106.45(a) is awelcome addition
because in recent years, Federal judges
have expressed concerns about how
university treatment of respondents ( or
complainants) might run afoul of Title
IX and contradict Title IX's promise of
gender equity. Some commenters noted
that although Federal courts have not
assumed that all unfair procedures
depriving respondents of afair process
necessarily equate to sex
discrimination, 9112 numerous Federal
courts have identified plausible claims
of an institutions' sex discrimination
against respondents, and commenters
cited Federal cases 983 where courts
noted sex discrimination may exist
where an institution failed to investigate
evidence that the complainant might
also have committed sexual misconduct
in the same case, credited only female
witnesses, ignored exonerating evidence
because of preconceived notions about
how males and females behave, used
gender-biased training materials that
portray only men as sexual predators or
only women as victims, or denied the
respondent necessary statistical
information to test allegations of gender
bias.
Other commenters gave examples of
how they have observed sex-driven
unfair treatment against respondents in
982 Commenters cited: Nokes v. Miami Univ.,
1:17—CV-482, 2017 WL 3674910 ( S.D. Ohio Aug.
25, 2017); Salim v. Miami Univ., 110 F. Supp. 3d
774 (S.D. Ohio 2015); Bleiler v. Coll. of the Holy
Cross, No. 1:11—CV-11541, 2013 WL 4714340 (D.
Mass. Aug. 26, 2013).

983 Commenters cited: Doe v. Baum, 903 F.3d 575
(6th Cir. 2018); Doe v. Miami Univ., 882 F.3d 579
(6th Ch. 2018); Rossleyv. Drake Univ., 342 F. Supp.
3d 904 ( S.D. Iowa 2018); Doe v. Univ, cf Miss., No.
3:16—CV-63, 2018 WL 3570229 ( S.D. Miss. July 14,
2018); Doe v. Univ. of Pa., 270 F. Supp. 3d 799 (E.D.
Pa. 2017); Doe v. Amherst Coll., 238 F. Supp. 3d
195 (D. Mass. 2017); Doe v. Williams Coll., No.
3:16—CV-30184 (D. Mass. Apr. 28, 2017);
Saravanan v. Drexel Univ., No. 2:17—CV-03409,
2017 WL 5659821 (E.D. Pa. Nov. 24,2017); Marshall
v. Ind. Univ., No. 1:15—CV-00726, 2016 WL
4541431 ( S.D. Ind. Aug. 31, 2016).

campus Title IX proceedings. A few
commenters pointed out that when a
sexual harassment grievance process
favors females over males in an attempt
to be equitable to victims, the result is
often that male victims of sexual
harassment are not treated equitably;
some commenters cited to statistics
showing that similar percentages of men
(5.3 percent) and women ( 5.6 percent)
experience sexual violence other than
rape each year, 984 that about 14 percent
of reported rape cases involve men or
boys, one in six reported sexual assaults
is against aboy, one in 25 reported
sexual assaults is against aman, 985 and
that asurvey of 27 colleges and
universities revealed that 40.9 percent
of undergraduate heterosexual males
had experienced sexual harassment,
intimate partner violence, or stalking,
compared to 60.5 percent of
undergraduate heterosexual females . 9116
Some commenters opined that the
Department's withdrawn 2011 Dear
Colleague Letter contributed to more
instances of universities applying
grievance procedures in asexdiscriminatory manner (usually against
respondents, who, commenters argued,
are overwhelmingly male). At least one
commenter supportive of § 106.45(a)
cited awhite paper by NCHERM
cautioning colleges and universities to
avoid applying grievance procedures in
an unfair, biased manner (whether
favoring complainants, or favoring the
accused) and urging institutions to have
balanced processes .987 Several
commenters, including attorneys and
organizations with experience
representing accused students,
984 Commenters cited: Centers for Disease Control
and Prevention, National Center for Injury
Prevention and Control, The National Intimate
Partner and Sexual Violence Survey (NISVS): 2010
Summary Report Tables 2.1 and 2.2 (Nov. 2011).
985 Commenters cited: National Alliance to End

Sexual Violence, "Male Victims," ("About 14% of
reported rapes involve men or boys, 1in 6reported
sexual assaults is against aboy, and 1in 25 reported
sexual assaults is against aman."), https://www.end
sexualviolence.org/where_we stand/male-victims/.
986 Commenters cited: The Association of
American Universities, Report on the AA Campus
Climate Survey on Sexual Assault and Sexual
Misconduct (Westat 2015).
987 Commenters cited: National Center for Higher
Education Risk Management (NCHERM), White
Paper: Due Process and the Sex Police 14-15 ( 2017)
("There are always unintended consequences to
showing favoritism. If acollege is known to be
biased toward responding parties, this can chill the
willingness of victims/survivors to report. If a
college is known to be biased toward reporting
parties, avictim/survivor's sense of safety or justice
based on the campus outcome in the short run may
be quickly compromised by acourt order or lawsuit
reinstating the responding party, giving her a
Pyrrhic victory, at best. What is needed for all of
our students is abalanced process that centers on
their respective rights while showing favoritism to
neither. Not only is that best, it is required by
law. ").

188

supported § 106.45(a) because although
the provision only clarifies what is
already the intent of the law, the
provision is necessary to counter
institutional bias in favor of female
accusers and against male accused
students, as both are entitled to equally
fair procedures untainted by gender
bias; one such commenter referred to
§106.45(a) as an " essential corrective"
to gender bias that permeates campus
sexual misconduct proceedings, and
another believed that the provision will
encourage schools to be more careful in
how they treat both sides.
Discussion: The Department
appreciates commenters' support for
§106.45(a) and acknowledges that many
commenters have observed through
personal experiences navigating campus
sexual misconduct proceedings that
some recipients have applied grievance
procedures in amanner that shows
discrimination against respondents on
the basis of sex. We note that other
commenters have recounted personal
experiences navigating campus sexual
misconduct proceedings perceived to be
biased against complainants on the basis
of sex. To the extent that such
discriminatory practices occur,
§106.45(a) advises recipients against
sex discriminatory practices during the
grievance process and to avoid different
treatment favoring or disfavoring any
party on the basis of sex. However, to
clarify that § 106.45(a) applies as much
to complainants as to respondents, the
final regulations revise the language in
this provision but retain the provision's
statement that how arecipient treats a
complainant, or arespondent, " may"
constitute sex discrimination under
Title IX. The Department emphasizes
that any person regardless of sex may be
avictim or perpetrator of sexual
harassment and that different treatment
due to sex-based stereotypes about how
men or women behave with respect to
sexual violence violates Title IX's nondiscrimination mandate.
Changes: The final regulations revise
§106.45(a) to state more clearly that
treatment of acomplainant or
respondent may constitute sex
discrimination in violation of Title IX.
Comments: Some commenters
opposed § 106.45(a), claiming that this
provision would harbor perpetrators by
permitting them to claim aTitle IX
violation even if the recipient merely
opens an investigation into their
conduct, and would revictimize and
retraumatize survivors. Some
commenters argued that this provision
operates from apremise of false
equivalency since the respondent is not
involved in the process on the basis of
their sex but rather on the basis of their

[Exempt From Filing Fee
Government Code § 6103]

1 FAGEN FRIEDMAN & FULFROST, LLP
David R. Mishook, SBN 273555
2 dmishook@f3law.com
Jacqueline M. Litra, SBN 311504
3 j
litra@f31aw. com
70 Washington Street, Suite 205
4 Oakland, California 94607
Phone: 510-550-8200
5 Fax: 510-550-8211
6 Attorneys for SAN RAMON VALLEY UNIFIED
SCHOOL DISTRICT, MEGAN KEEFER,
7 KEITH ROGENSKI
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

COUNTY OF CONTRA COSTA, MARTINEZ

10
a

_
N
00

J
J

Ln
N
•
0
N

L

CD
•
n

0

Li 00 0-)

•X
E•

11

JOHN DOE, et al.,

12
13
14

CASE NO. NC21-1450

Petitioner,

DECLARATION OF JACQUELINE
LITRA IN SUPPORT OF OPPOSITION
TO EX PARTE REQUEST TO STAY
EMERGENCY REMOVAL

vs.
MEGAN KEEFER, et al.,

Date:
Time:
Dept.:

o U CO

E

(D M

CD
Ln

U 0M L?
0
c CD

U

15

Respondents.

August 9, 2021
1:30 p.m.
7

16
The Hon. Hon. Barry Baskin, Dept. 7
17
Trial Date:

None Set

18
19
20

I, Jacqueline Litra, declare as follows:

21

1.

Iam an attorney duly admitted to practice before this Court. Iam apartner with

22

Fagen Friedman & Fulfrost, LLP, attorneys of record for SAN RAMON VALLEY UNIFIED

23

SCHOOL DISTRICT, MEGAN KEEFER, and, KEITH ROGENSKI. If called as awitness, Icould

24

and would competently testify to all facts within my personal knowledge except where stated upon

25

information and belief.

26

2.

My office advises San Ramon Valley Unified School District ("District") in Title IX

27

matters and Iam familiar with the administrative action involving John Doe (whose name is known

28

to me). The Title IX administrative action is ongoing and is still at the investigative stage.
DECLARATION OF JACQUELINE LITRA IN SUPPORT OF
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

189

1

3.

A true and correct copy of my May 4, 2021 email to Petitioner's counsel, Dan Roth,

2 Esq., is attached hereto as "Exhibit A."
3

4.

A true and correct copy of the May 7, 2021 email from Kenneth Nelson, former Title

4 IX Coordinator, to Petitioner and Petitioner's parents regarding supportive measures is attached
5 hereto as "Exhibit B."
6

5.

A true and correct copy of my May 7, 2021 email to Mr. Roth offer supportive

7 measures to facilitate Petitioner's education during the emergency removal process is attached
8 hereto as "Exhibit C."
9

a

_
00

J

CU

U

•

•X
E•

00O'

10

such as in-home instruction or remote learning, were available to Petitioner as needed. Iexplained

11

to Mr. Roth that while both options offer the same academic opportunities, remote instruction would

12

require Petitioner to change the class periods he shares with Jane Roe, whereas, in-home instruction

13

would permit him to keep his current classes. A true and correct copy of emails exchanged between

14

the parties regarding the implementation of supportive measures for Petitioner from May 11, 2021

15

to May 12, 2021 is attached hereto as "Exhibit D"

o U •

Li
c

On May 10, 2021, Isetup acall with Mr. Roth to explain that supportive measures,

N

Ln
CD
N CD
Ln
•Nr,Ln
L
o 0
Li

6.

o
Ln
M L?
0

0

CD

16
17
18
19

Ideclare under penalty of perjury under the laws of the State of California that the foregoing
is true and correct.
Executed on this 61'day of August, 2021, at Lansing, Michigan.

20
21

(:) o_••

-X e
t

22
23

Jacqueline M. Litra

24
25

272-180/6158239.1

26
27
28
2
DECLARATION OF JACQUELINE LITRA IN SUPPORT OF
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

190

EXHIBIT A

191

Jacqueline M. Litra
From:
Sent:
To:
Cc:
Subject:

Jacqueline M. Litra
Tuesday, May 4, 2021 6:34 PM
Dan Roth
mkeefer@srvusd.net; Kenneth Nelson
RE: Challenge to Removal of Petitioner ;FERPA request - Declaration Attached

Categories:

Important

Dear Mr. Roth:
The purpose of emergency removal is to address imminent threats posed to any individual's physical health or safety
arising out of Title IX Sexual Harassment allegations. Emergency removal is not disciplinary and is not adetermination
of responsibility for Title IX Sexual Harassment allegations. Respondents are deemed not responsible for the allegations
until adetermination regarding responsibility is reached at the conclusion of the Title IX Sexual Harassment grievance
process. If the Title IX decisionmaker determines arespondent is responsible for violation of Title IX, the District may
impose disciplinary sanctions at that point.
Consistent with the Title IX regulations, Principal Keefer under took an individualized safety and risk analysis and
determined Respondent to be an immediate threat to the physical safety of student(s) or other individual(s) arising from
the allegations of sexual assault. As result, Respondent was eligible for emergency removal. Consistent with federal law,
Respondent (and his parent) was notified of the emergency removal and of his opportunity challenge it. (See 34 CFR §
106.44(c).)
Prior to Principal Keefer's determination, Respondent did allege that Complainant was fabricating the allegations against
him because he broke up with Complainant. Principal Keefer considered this allegation in making her assessment and
determination. Accordingly, her assessment and determination stand.
Supportive measures remain available to Respondent. The Title IX Coordinator can meet with Respondent discuss those
measures further.
Please let me know if you have any questions.
Sincerely,
Jacqueline Litra

13

Fagen Friedman & Fulfrost

LEP

Jacqueline M. Litra
Direct: ( 323) 330-6329 1
Mobile: ( 323) 829-8551
Email: jlitra@f3law.com I
Web: www.f3law.com
Please consider the environment before printing this email.
From: Dan Roth <dan@drothlaw.com>
Sent: Tuesday, May 4, 20214:37 PM
To: Jacqueline M. Litra <jlitra@f3law.com>

cc: Petitioner

>; Petitioner Parent
1

192

Petitioner Parent

Subject: Re: Challenge to Removal of Petitioner ; FERPA request - Declaration Attached

`EXTERNAL EMAIL**'

41

Dear Ms. Litra,
Please find below my communications with Principal Megan Keefer, along with the declaration I
provided this morning.
Sincere regards,
Dan Roth

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Tue, May 4, 2021 at 10:48 AM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,
Please contact me today to discuss my email from Friday. Iam attaching Petitioner's sworn declaration,
signed under penalty of perjury, which should provide everything you need to immediately reinstate
""°°°'
him to class. Petitioner is not adanger
to anyone else. As you can see from the April 13 text
messages included in the declaration,
broke up with ,R°°•°
on April 13 and refused to get back
together with her despite her pleading with him. It appears that in her upset, she fabricated this
heinous allegation against him. Further depriving Petitioner of his education in this context violates his
rights under Title IX and the U.S. and California constitutions.
1

to

letrtioner

111

My mobile number is Redacted . Ilook forward to speaking with you soon.
Sincere regards,
Dan Roth

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com
2

193

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Fri, Apr 30, 2021 at 12:11 PM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,
Irepresent California High School student

Petitioner

.Last week, you provided

Petitioner

the

attached letter, indicating that "the District has undertaken an individualized safety and risk
analysis and has determined that [ he] pose[s] an immediate threat to the physical health or
safety of astudent or other individual." As aresult,

Petitioner

is now receiving no instruction -

either live or remote - but is instead completing his freshman year of high school doing
independent learning.

Petitioner

has been removed from his academic environment and deprived

of his educational opportunities. This is effectively asuspension, which as amatter of longstanding federal law requires meaningful notice and ahearing - neither of which
has been
Petitioner

provided.
In order to mitigate this violation of

Petitioners

clearly- established constitutional rights, Iask that

you please take immediate action to reinstate

Petitioner

to his rightful place alongside his fellow

students for the remainder of the school year.
Pursuant to FERPA, please also provide

Petitioner

and me access to review all records constituting

the " individualized safety and risk analysis," including all "substantial evidence leading to
allegations of sexual assault(s) to students while on campus." See 20 U.S.C. § 1232g(a)(4)(A).
Sincere regards,
Dan Roth
LAW OFFICE OF DAN ROTH

803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 ( phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com
This e-mail message is for the sole use of the intended recipient(s), and contains
confidential and privileged information. Any unauthorized review, use, disclosure
or distribution is prohibited. If you are not the intended recipient, please contact
3

194

the sender by reply e-mail and destroy all copies of the original message. Thank
you.

4

195

EXHIBIT B

196

Jacqueline M. Litra
From:
Sent:

Kenneth Nelson < knelson@srvusd.net>
Friday, May 7, 2021 1:42 PM

To:

Petitioner ;Petitioner Parent sPetitioner Parent

Subject:

Supportive Measures Meeting

EXTERNAL EMAIL**
Good afternoon,

Iwould like to schedule ameeting with you and Petitionerto discuss the supportive measure available for him during the
Title IX Sexual Harassment Complaint process. We will provide supportive measure to support him during the Title IX
process and in receiving his education during the emergency removal. Please let me know your availability. Iunderstand
that Petitioner has an advisor/attorney. Petitioner's advisor/attorney can attend the supportive measures meeting but please let me
know if they will be attending.

Ken Nelson
Title IX Coordinator - SRVUSD
knelson •ci,srvusd.net
(925) 552-5052
Ken Nelson
Title IX Coordinator
knelson@srvusd.net
(925) 552-5052

Statement of Confidentiality: The contents of this e-mail message and any attachments are intended solely for
the addressee. The information may also be confidential and/or legally privileged. This transmission is sent for
the sole purpose of delivery to the intended recipient. If you have received this transmission in error, any use,
reproduction, or dissemination of this transmission is strictly prohibited. If you are not the intended recipient,
please immediately notify the sender by reply e-mail and delete this message and its attachments, if any.
E-mail is covered by the Electronic Communications Privacy Act, 18 USC SS 2510-2521 and is legally
privileged.

1

197

EXHIBIT C

198

Jacqueline M. Litra
From:
Sent:
To:
Cc:
Subject:

Jacqueline M. Litra
Friday, May 7, 2021 3:53 PM
Dan Roth
mkeefer@srvusd.net; Kenneth Nelson
RE: Challenge to Removal of Petitioner ;FERPA request - Declaration Attached

Dear Mr. Roth:
We understand how difficult this process is for all parties involved. The District is committed to supporting the parties. If
Respondent requires supportive measures to facilitate his education during the emergency removal, the District will
provide those. Director Nelson recently reached out to Respondent and his parents to schedule ameeting to discuss such
supportive measures. You are invited to be present for that meeting. If you decide to attend, Iwill join you.
As discuss in detail below, the District already responded to the challenge you posed to the emergency removal by
email. Nothing in your emails reflected arequest for ameeting for Respondent to challenge the basis for the emergency
removal. Your email to Principal Keefer on April 30, 2021, alleged that the emergency removal violated Respondent's
constitutional rights. Your email to Principal Keefer on May 4, 2021, submitted an document with images inserted
purported to be from atext message conversation between Respondent and Complainant. You also alleged that the
emergency removal violates Respondent's rights under Title IX and the U.S. and California constitutions.
After conferring with Mr. Keefer, Iresponded to your emails on her behalf on May 4, 2021. Iexplained the purpose of
emergency removals established in the Title IX Regulations and their non- disciplinary nature. Ialso emphasized that
supportive measures are available for Respondent and that the Title IX Coordinator was available to meet with
Respondent to implement those. Ialso responded to the challenge you posed to the emergency removal by email on
behalf of Principal Keefer and the District. Specifically: "Prior to Principal Keefer's determination, Respondent did
allege that Complainant was fabricating the allegations against him because he broke up with Complainant. Principal
Keefer considered this allegation in making her assessment and determination. Accordingly, her assessment and
determination stand."
Consistent with your email submissions, Respondent was provided the opportunity to present facts that might contradict
the basis for Principal Keefer's determination that emergency removal is justified. The District reviewed and considered
your emails and the document you submitted on behalf of Respondent.
If you are now requesting an opportunity for Respondent to be heard to challenge the emergency removal, the
District will immediately schedule ameeting for that purpose upon receipt of your confirmation.
Please understand that this is not an adversarial process. The District and its Title IX Coordinator are here to support both
Respondent and Complainant throughout this process. The District is in the process of conducting an investigation
consistent with the Title IX Regulations, in which both parties have been offered the opportunity to participate. The
District is responsible for gathering evidence sufficient to reach adetermination regarding responsibility on the
allegations. However, both parties have an equal opportunity to submit evidence.
Iwould be happy to discuss any of this further. Please let me know if you have any questions or would like to schedule a
time to discuss.
Sincerely,
Jacqueline Litra

1

199

0

Fagen Friedman & Fulfrost

LLP

Jacqueline M. Litra
Direct: ( 323) 330-6329 1
Mobile: ( 323) 829-8551
Email: jlitra@f3law.com I
Web: www.f3law.com
Please consider the environment before printing this email.
From: Dan Roth <dan@drothlaw.com>
Sent: Friday, May 7, 202112:27 PM
To: Jacqueline M. Litra <jlitra@f3law.com>
Cc: mkeefer@srvusd.net; Kenneth Nelson < knelson@srvusd.net >;

P.W­

Petitioner

P_

Subject: Re: Challenge to Removal of Petitioner ;FERPA request - Declaration Attached

`EXTERNAL EMAIL** -

41

11,

Dear Ms. Litra,

We are still awaiting aresponse to my email to Ms. Keefer last week expressing
desire to
challenge his emergency removal. At this point he has been deprived of his educational opportunities
for more than 10 days without ahearing, and must be reinstated. Failure to reinstate him constituted
an ongoing violation of
clearly-established constitutional rights, and will subject everyone
involved to suit and potential liability under 20 U.S.C. section 1983•
Petitioner's

Petitioner's

Sincere regards,
Dan
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (
phone)
(510) 295-2680 (
fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On May 4, 2021, at 6:33 PM, Jacqueline M. Litra <jlitra@f3law.com> wrote:
Dear Mr. Roth:
The purpose of emergency removal is to address imminent threats posed to any individual's physical
health or safety arising out of Title IX Sexual Harassment allegations. Emergency removal is not
disciplinary and is not adetermination of responsibility for Title IX Sexual Harassment
2

200

allegations. Respondents are deemed not responsible for the allegations until adetermination regarding
responsibility is reached at the conclusion of the Title IX Sexual Harassment grievance process. If the
Title IX decisionmaker determines arespondent is responsible for violation of Title IX, the District may
impose disciplinary sanctions at that point.
Consistent with the Title IX regulations, Principal Keefer under took an individualized safety and risk
analysis and determined Respondent to be an immediate threat to the physical safety of student(s) or other
individual(s) arising from the allegations of sexual assault. As result, Respondent was eligible for
emergency removal. Consistent with federal law, Respondent (and his parent) was notified of the
emergency removal and of his opportunity challenge it. (See 34 CFR § 106.44(c).)
Prior to Principal Keefer's determination, Respondent did allege that Complainant was fabricating the
allegations against him because he broke up with Complainant. Principal Keefer considered this
allegation in making her assessment and determination. Accordingly, her assessment and determination
stand.
Supportive measures remain available to Respondent. The Title IX Coordinator can meet with
Respondent discuss those measures further.
Please let me know if you have any questions.
Sincerely,
Jacqueline Litra

Jacqueline M. Litra
Direct: ( 323) 330-6329 1Mobile: ( 323) 829-8551
Email: jlitra@f3law.com I
Web: www.f3law.com
Please consider the environment before printing this email.
CONFIDENTIALITY NOTICE TO RECIPIENT(S): This e-mail communication and any attachment(s) may contain information that is confidential and/or
privileged by law and is meant solely for the intended recipient(s). Unauthorized use, review, duplication, disclosure or interception of this e-mail is
strictly prohibited and may violate applicable laws including the Electronic Communications Privacy Act. If you received this e-mail in error please notify
us immediately of the error by return e-mail and please delete this message and any attachment(s) from your system. Thank you in advance for your
cooperation.

From: Dan Roth <dan@drothlaw.com>
Sent: Tuesday, May 4, 20214:37 PM
To: Jacqueline M. Litra <jlitra@f3law.com>

cc: Petitioner

>; Petitioner Parent

StevePetitioner Parent

Subject: Re: Challenge to Removal of Petitioner ;FERPA request - Declaration Attached
**EXTERNAL EMAIL**

7

Dear Ms. Litra,
Please find below my communications with Principal Megan Keefer, along with the
declaration Iprovided this morning.
Sincere regards,
Dan Roth
3

201

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com
This e-mail message is for the sole use of the intended recipient(s), and contains confidential and
privileged information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are
not the intended recipient, please contact the sender by reply e-mail and destroy all copies of the original
message. Thank you.

On Tue, May 4, 2021 at 10:48 AM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,
Please contact me today to discuss my email from Friday. Iam attaching Petitioners sworn
declaration, signed under penalty of perjury, which should provide everything you need
to immediately reinstate him to class.
is not adanger to
or to anyone
else. As you can see from the April 13 text messages included in the declaration, Petitioner
broke up with
"""" on April 13 and refused to get back together with her despite her
pleading with him. It appears that in her upset, she fabricated this heinous allegation
against him. Further depriving
of his education in this context violates his rights
under Title IX and the U.S. and California constitutions.
Petitioner

111,R11I

1111R111

Petitioner

My mobile number is Redacted

.Ilook forward to speaking with you soon.

Sincere regards,
Dan Roth
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com
This e-mail message is for the sole use of the intended recipient(s), and contains confidential and
privileged information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are
not the intended recipient, please contact the sender by reply e-mail and destroy all copies of the original
message. Thank you.

On Fri, Apr 30, 2021 at 12:11 PM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,
Irepresent California High School student
Petitioner

Petitioner

.Last week, you provided

the attached letter, indicating that "the District has undertaken an

individualized safety and risk analysis and has determined that [ he] pose[s] an
immediate threat to the physical health or safety of astudent or other
individual." As aresult,
is now receiving no instruction - either live or remote
Petitioner

4

202

-but is instead completing his freshman year of high school doing independent
learning. Petitioner has been removed from his academic environment and deprived of
his educational opportunities. This is effectively asuspension, which as amatter of
long-standing federal law requires meaningful notice and ahearing - neither of
which Petitioner has been provided.
In order to mitigate this violation of Petitioner, sclearly- established constitutional
rights, Iask that you please take immediate action to reinstate Petitioner to his rightful
place alongside his fellow students for the remainder of the school year.
Pursuant to FERPA, please also provide Petitioner and me access to review all records
constituting the " individualized safety and risk analysis," including all "substantial
evidence leading to allegations of sexual assault(s) to students while on
campus." See 20 U.S.C. § 1232g(a)(4)(A).
Sincere regards,
Dan Roth
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 ( phone)
(510) 295-2680 (fax)

dan@drothlaw.com
www.drothlaw.com
This e-mail message is for the sole use of the intended recipient(s),
and contains confidential and privileged information. Any unauthorized
review, use, disclosure or distribution is prohibited. If you are not the
intended recipient, please contact the sender by reply e-mail and
destroy all copies of the original message. Thank you.

5

203

EXHIBIT D

204

Jacqueline M. Litra
From:

Dan Roth < dan@drothlaw.com>

Sent:

Wednesday, May 12, 2021 10:09 PM

To:
Cc:

Tucker Farrar
Megan Keefer; Kenneth Nelson ;
Petitioner ;Petitioner Parent ;Petitioner Parent; Jacqueline M. Litra

Subject:

Re: Supports for

Petitioner
etitioner

.
's
sreturn to Remote Learning

`EXTERNAL EMAIL**•

41

Thank you, Mr. Farrar. Please note that Imade an error in my initial email: the new Algebra class is
on 9.5, not 9.3, so the difference is more significant. Apologies for the confusion.
Best regards,
Dan
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Wed, May 12, 2021 at 4:25 PM Tucker Farrar <tfarrar@srvusd.net> wrote:
Dan,
Thank you for reaching out about Petiti oners first day. Ican understand how these disruptions would be challenging and I
am sorry for this.
Iwill work with his new English Teacher to ensure that we make the appropriate adjustments to the curriculum so that
he will have full access to the curriculum and will not be penalized and or miss out on learning objectives given the fact
that they are on different Chapter in To Kill aMockingbird.
Ihave reached out to his Teacher , his new PE teacher and Iassure you Teacher

will allow Petitioner to make up

the missed work from today using the PLT4M program and will not be penalized for any late efforts.
Previously Itaught math ( for 13 years) and Algebra for many of those, and from this Big Ideas Algebra Itextbook. I
assure you that the difference in pacing that would land aclass at sections 9.2 or 9.3 is not insurmountable. Iwill reach
Out to Math Teacher to explain that Petitioner is 1section behind so she can make accommodations for him to get caught
up. She might already have that under control for all Iknow. She has been teaching for 19 years and is one of our best
teachers. Ican also recommend our Cal High Peer Tutoring program, which is free, called Educore. Petitioner can sign up
for free tutoring sessions up to 5days aweek from skilled and trained math tutors. We still have room in the program
and Ihear many success stories of students who attend sessions and are doing much better in their classes ( math is
1

205

certainly aclass where many students take advantage of the Educore peer tutoring program). Ican also recommend
that Petitioner attend Student Support this week and next for math supports with

Math Teacher.

Student Support (Tues-Friday

from 2:35-3:15) was created for this exact situation. We knew that students would have learning disruptions and we
built aperiod where students can login and get 1:1 and small group support directly from their teacher. 15 minutes
one on one with ateacher in Student Support period can sometimes be similar to a75 minute period in the focus,
engagement, and live time questions and support that typically happens. Students tend to be much more focused and
learn at higher rates when they are one on one with their teacher. IHIGHLY encourage Petitioner to utilize that
Student Support time. And as long as Petitioner gets the ZOOM link there is no appointment necceeary.
None of the aforementioned issues will impact Petitioner's ability to earn the grades he deserves and he will not be
penalized for late work during this transition to remote learning.
Iwill follow up with you once Icheck in with the English and Math teachers about helping to accommodate the
difference and chapters and sections, respectively.
Please let me know if you have any questions.
Sincerely,
Tucker Farrar
Forwarded message
From: Dan Roth <dan@drothlaw.com>
Date: Wed, May 12, 2021 at 3:03 PM
Subject: Re: Challenge to Removal of Petitioner ;FERPA request - Declaration Attached
To: Megan Keefer <mkeefer@srvusd.net>
Cc: Jacqueline M. Litra <jlitra@f3law.com>, Kenneth Nelson <knelson@srvusd.net>,

,
Petitioner Parent

Petitioner
>, Petitioner Parent

Good Afternoon,
Iam writing to note afew issues related to

Petitioner's

first day of remote learning.

• English:
new classroom is on Chapter 24 of To Kill A Mockingbird, whereas his
previous class was on Chapter 8.
• PE: Petitioner did not receive aGoogle classroom link and was unable to attend today's class.
• Algebra:
new classroom is already on Unit 9.3, whereas his previous class was on Unit
9.2.
Petitioner's

Petitioners

Please let us know how the school will be making up for the lost instruction, and the potential impact
on
grades caused by the ongoing disruption to his education.
Petitioner's

Many thanks,
Dan

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
2

206

dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Tue, May 11, 2021 at 9:04 PM Dan Roth <dan@drothlaw.com> wrote:

That is great news - thank you, Ms. Keefer.
Best,
Dan

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Tue, May 11, 2021 at 8:58 PM Megan Keefer <mkeefer@srvusd.net> wrote:
Dear Mr. Roth,
Thank you for the confirmation. Petltlon er wilI receive emails from either his teachers or me with links to his remote
classes either tonight or tomorrow morning.
Sincerely,
Megan Keefer
Principal
California High School
CHS Educore Virtual Peer Tutoring Program
SRVUSD Reopening Together
SRVUSD Instructional Technology Webpage
Parent/Student IT Help
Student Password Support
Staff IT Help

3

207

F-1

On Tue, May 11, 2021 at 8:52 PM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,
Thank you so much. Yes, please do everything necessary to facilitate
learning tomorrow.

Petitioner

beginning remote

Many thanks,
Dan

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended
recipient, please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Tue, May 11, 2021 at 8:47 PM Megan Keefer <mkeefer@srvusd.net> wrote:
Dear Mr. Roth,
Yes, Icalled

Petitioner Parent

this evening asking her for approval to change Petitioner's schedule to begin remote learning

tomorrow. Would you like for me to facilitate this? Iwill need to have teachers email him with links to provide
Petitioner with

access to the remote classrooms. Please let me know if this is something you would like to happen.

Iwill include both

Petitioner

and you in future communications.

Sincerely,
Megan Keefer
Principal
California High School
CHS Educore Virtual Peer Tutoring Program
SRVUSD Reopening Together
SRVUSD Instructional Technology Webpage
Parent/Student IT Help
Student Password Support
4

208

Staff IT Help

0

On Tue, May 11, 2021 at 8:14 PM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Litra,
Thank you - we appreciate the District moving forward.
Principal Keefer, Iunderstand you called Petitioner Parent this evening to inquire about this
matter, and confirm whether or not this was what the family wanted. As
counsel, Iask
that you please include both him and me on all communications. If there needs to be acall this
evening in order to ensure
attendance via remote learning tomorrow, we can make that
happen.
Petitioners

Petitioner's

Many thanks,
Dan

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended
recipient, please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Tue, May 11, 2021 at 6:18 PM Jacqueline M. Litra <jlitra@f3law.com> wrote:
Dear Mr. Roth:

You are correct regarding the PE teacher. That was my mistake in preparing my prior email to you.

Period

Class

Teacher
5

209

Details

A

Biology

New period, same teacher

1

Spanish II

No change

2

English 9

New period, new teacher

3

Theatre 1

New period, same teacher

4

PE 9

New period, new teacher

5

Health

New period, new teacher

6

Algebra 1

New period, new teacher

The District is working to get this implemented for Respondent to be able to attend remotely tomorrow.

Sincerely,

Jacqueline

Jacqueline M. Litra
Direct: ( 323) 330-6329 1
Mobile: ( 323) 829-8551
Email: jlitra@f3law.com I
Web: www.f3law.com
Please consider the environment before printing this email.

From: Dan Roth <dan@drothlaw.com>

Sent: Tuesday, May 11, 20212:26 PM
To: Jacqueline M. Litra <jlitra@f3law.com>

Cc: mkeefer@srvusd.net; Kenneth Nelson < knelson@srvusd.net >; Petitioner

Petitioner Parent

>; Petitioner Parent

Subject: Re: Challenge to Removal of Brady Cruzen; FERPA request - Declaration Attached

`EXTERNAL EMAIL**

7

Good afternoon, Ms. Litra,

Thank you for your email and the proposed remote schedule. That schedule will work for
now, though of course we maintain our objection to anything short of Petitioners full-time return
to in-person learning. One possible correction: Ibelieve Petitioner's current PE teacher is

6

210

Teacher ,so new Teacher

wou ld represent another change of
teacher.

Pl
ease prov id e us the

logistics needed to get this going. Will Petitionerbe able to attend class remotely tomorrow?

Thanks,
Dan

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended
recipient, please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On Tue, May 11, 2021 at 1:27 PM Jacqueline M. Litra <jlitra@f3law.com> wrote:

Dear Mr. Roth:

Below is aproposed remote learning schedule for Respondent and his parents to consider:

Period
A

Class

Teacher

Details

Biology

New period, same teacher

1

Spanish II

No change

2

English 9

New period, new teacher

3

Theatre 1

New period, same teacher

4

PE 9

New period, same teacher

5

Health

New period, new teacher

6

Algebra 1

New period, new teacher

If Respondent and his parents would like to proceed with this schedule change, the District will implement the
changes.

211

Please let me know if you have any questions.

Sincerely,

Jacqueline

Jacqueline M. Litra
Direct: ( 323) 330-6329 1Mobile: ( 323) 829-8551
Email: jlitra@f3law.com IWeb: www.f3law.com
Please consider the environment before printing this email.

From: Dan Roth <dan@drothlaw.com>
Sent: Tuesday, May 11, 202110:50 AM
To: Jacqueline M. Litra <jlitra@f3law.com>
Cc: mkeefer@srvusd.net; Kenneth Nelson <knelson@srvusd.net>
Subject: Re: Challenge to Removal of Petitioner ; FERPA request - Declaration Attached

`EXTERNAL EMAIL**•

41

Dear Ms. Litra,

Thank you for speaking with me yesterday afternoon. Iwill write separately to confirm the
details of our conversation, but want to move forward with the most urgent matter: the
district's willingness to permit Petitioner to attend classes via remote learning. Petitioner would like to
move forward with that. As you and Idiscussed, the school will put him in different classes
from the four that he currently shares with the Complainant. While Ido not believe there is
any basis for Petltlonerto be removed from class at all, our number one goal is to mitigate some of
the loss to his education. Please let us know what steps we need to take so that Petitioner can be
returned to classroom learning as soon as possible.

Thank you also for pointing out that the declaration of Petitioners that Isent was unsigned. That
was my error, as Inoted on our call last night. As you can see from the attached, Petitioner signed
the declaration digitally on May 4at 10:29 PDT.

8

212

Best regards,
Dan

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or distribution is prohibited. If you are not the intended
recipient, please contact the sender by reply e-mail and destroy all copies of the original message. Thank you.

On May 4, 2021, at 6:33 PM, Jacqueline M. Litra <jlitra@f3law.com> wrote:

Dear Mr. Roth:

The purpose of emergency removal is to address imminent threats posed to any individual's
physical health or safety arising out of Title IX Sexual Harassment allegations. Emergency
removal is not disciplinary and is not adetermination of responsibility for Title IX Sexual
Harassment allegations. Respondents are deemed not responsible for the allegations until a
determination regarding responsibility is reached at the conclusion of the Title IX Sexual
Harassment grievance process. If the Title IX decisionmaker determines arespondent is
responsible for violation of Title IX, the District may impose disciplinary sanctions at that point.

Consistent with the Title IX regulations, Principal Keefer under took an individualized safety and
risk analysis and determined Respondent to be an immediate threat to the physical safety of
student(s) or other individual(s) arising from the allegations of sexual assault. As result,
Respondent was eligible for emergency removal. Consistent with federal law, Respondent (and
his parent) was notified of the emergency removal and of his opportunity challenge it. (See 34
CFR § 106.44(c).)

Prior to Principal Keefer's determination, Respondent did allege that Complainant was
fabricating the allegations against him because he broke up with Complainant. Principal Keefer
considered this allegation in making her assessment and determination. Accordingly, her
assessment and determination stand.
9

213

Supportive measures remain available to Respondent. The Title IX Coordinator can meet with
Respondent discuss those measures further.

Please let me know if you have any questions.

Sincerely,

Jacqueline Litra

Jacqueline M. Litra
Direct: ( 323) 330-6329 1
Mobile: ( 323) 829-8551
Email: jlitra@f3law.com I
Web: www.f3law.com
Please consider the environment before printing this email.

CONFIDENTIALITY NOTICE TO RECIPIENT(S): This e-mail communication and any attachment(s) may contain information that is confidential and/o
privileged by law and is meant solely for the intended recipient(s). Unauthorized use, review, duplication, disclosure or interception of this a-mai
strictly prohibited and may violate applicable laws including the Electronic Communications Privacy Act. If you received this e-mail in error please
us immediately of the error by return e-mail and please delete this message and any attachment(s) from your system. Thank you in advance for y
cooperation.

From: Dan Roth <dan@drothlaw.com>

Sent: Tuesday, May 4, 20214:37 PM
To: Jacqueline M. Litra <jlitra@f3law.com>

cc: Petitioner

>; Petitioner Parent

P.M.. P_

Subject: Re: Challenge to Removal of Petitioner ;FERPA request - Declaration Attached

EXTERNAL EMAIL**

7

Dear Ms. Litra,

Please find below my communications with Principal Megan Keefer, along with
the declaration Iprovided this morning.
10

214

Sincere regards,
Dan Roth

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential
and privileged information. Any unauthorized review, use, disclosure or distribution is
prohibited. If you are not the intended recipient, please contact the sender by reply e-mail and
destroy all copies of the original message. Thank you.

On Tue, May 4, 2021 at 10:48 AM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,

Please contact me today to discuss my email from Friday. Iam attaching
Petitioners sworn declaration, signed under penalty of perjury, which
should provide everything you need to immediately reinstate him to
class. Petitioneris not adanger to °°
m°'a'°a` or to anyone else. As you can see from the
April 13 text messages included in the declaration, Petitionerbroke up with °°
m°'a'°a'
on April 13 and refused to get back together with her despite her pleading
with him. It appears that in her upset, she fabricated this heinous allegation
against him. Further depriving
of his education in this context violates
his rights under Title IX and the U.S. and California constitutions.
Petitioner

My mobile number is

. Ilook forward to speaking with you soon.

Sincere regards,
Dan Roth

11

215

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 (phone)
(510) 295-2680 (fax)
dan@drothlaw.com
www.drothlaw.com

This e-mail message is for the sole use of the intended recipient(s), and contains confidential
and privileged information. Any unauthorized review, use, disclosure or distribution is
prohibited. If you are not the intended recipient, please contact the sender by reply e-mail and
destroy all copies of the original message. Thank you.

On Fri, Apr 30, 2021 at 12:11 PM Dan Roth <dan@drothlaw.com> wrote:

Dear Ms. Keefer,

Irepresent California High School student Petitioner .Last week, you
provided
the attached letter, indicating that "the District has
Petitioner

undertaken an individualized safety and risk analysis and has determined
that [ he] pose[s] an immediate threat to the physical health or safety of a
student or other individual." As aresult,
is now receiving no
Petitioner

instruction - either live or remote - but is instead completing his freshman
year of high school doing independent learning.
has been removed
Petitioner

from his academic environment and deprived of his educational
opportunities. This is effectively asuspension, which as amatter of longstanding federal law requires meaningful notice and ahearing - neither of
which Petitioner has been provided.

In order to mitigate this violation of Petitioners clearly- established
constitutional rights, Iask that you please take immediate action to
reinstate
to his rightful place alongside his fellow students for the
Petitioner

remainder of the school year.

12

216

Pursuant to FERPA, please also provide

Petitioner

and me access to review all

records constituting the " individualized safety and risk analysis," including
all "substantial evidence leading to allegations of sexual assault(s) to
students while on campus." See 20 U.S.C. § 1232g(a)(4)(A).

Sincere regards,
Dan Roth

LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
(510) 849-1389 ( phone)
(510) 295-2680 (fax)

dan@drothlaw.com
www.drothlaw.com
This e-mail message is for the sole use of the intended
recipient(s), and contains confidential and privileged
information. Any unauthorized review, use, disclosure or
distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies
of the original message. Thank you.

Statement of Confidentiality: The contents of this e-mail message and any attachments are intended
solely for the addressee. The information may also be confidential and/or legally privileged. This
transmission is sent for the sole purpose of delivery to the intended recipient. If you have received this
transmission in error, any use, reproduction, or dissemination of this transmission is strictly prohibited. If
you are not the intended recipient, please immediately notify the sender by reply e-mail and delete this
message and its attachments, if any.
E-mail is covered by the Electronic Communications Privacy Act, 18 USC SS 2510-2521 and is legally
privileged.

Statement of Confidentiality: The contents of this e-mail message and any attachments are intended solely
for the addressee. The information may also be confidential and/or legally privileged. This transmission is
sent for the sole purpose of delivery to the intended recipient. If you have received this transmission in error,
any use, reproduction, or dissemination of this transmission is strictly prohibited. If you are not the intended
13

217

recipient, please immediately notify the sender by reply e-mail and delete this message and its attachments,
if any.
E-mail is covered by the Electronic Communications Privacy Act, 18 USC SS 2510-2521 and is legally
privileged.

Statement of Confidentiality: The contents of this e-mail message and any attachments are intended solely for
the addressee. The information may also be confidential and/or legally privileged. This transmission is sent for
the sole purpose of delivery to the intended recipient. If you have received this transmission in error, any use,
reproduction, or dissemination of this transmission is strictly prohibited. If you are not the intended recipient,
please immediately notify the sender by reply e-mail and delete this message and its attachments, if any.
E-mail is covered by the Electronic Communications Privacy Act, 18 USC SS 2510-2521 and is legally
privileged.

Tucker Farrar
Assistant Principal
Supporting Students A-G
California High School
Pronouns: He/Him/His
Educore Peer Tutoring @ CHS
Currently Reading/Listening
The Indifferent Start Above, Daniel James Brown

0

'Start by doing what's necessary; then do what's possible; and suddenly you are doing the
impossible."
- Francis of Assisi

14

218

Statement of Confidentiality: The contents of this e-mail message and any attachments are intended solely for
the addressee. The information may also be confidential and/or legally privileged. This transmission is sent for
the sole purpose of delivery to the intended recipient. If you have received this transmission in error, any use,
reproduction, or dissemination of this transmission is strictly prohibited. If you are not the intended recipient,
please immediately notify the sender by reply e-mail and delete this message and its attachments, if any.
E-mail is covered by the Electronic Communications Privacy Act, 18 USC SS 2510-2521 and is legally
privileged.

15

219

[Exempt From Filing Fee
Government Code § 6103]
FAGEN FRIEDMAN & FULFROST, LLP
1 David R. Mishook, SBN 273555
dmishook@f3law.com
2 Jacqueline Litra, SBN 311504
jlitra@f3law.com
3 70 Washington Street, Suite 205
Oakland, California 94607
4 Phone: 510-550-8200
Fax: 510-550-8211
5
Attorneys for SAN RAMON VALLEY UNIFIED
6 SCHOOL DISTRICT, MEGAN KEEFER,
KEITH ROGENSKI
7
SUPERIOR COURT OF THE STATE OF CALIFORNIA
8
COUNTY OF CONTRA COSTA, MARTINEZ
9
10

a

J
J

_
N
117
N

O

1•n

•CDC)U7
u,.:1ox
•W LL
w.
c •' —
R L) C5

Etm••

V C2
N d
V
U

Q
O

cn

ea
U-

,

1W)

CASE NO. NC21-1450

Petitioner,

O

n

L

JOHN DOE, et al.,
11

DECLARATION OF DAVE KRAVITZ IN
SUPPORT OF OPPOSITION TO EX
PARTE REQUEST TO STAY
EMERGENCY REMOVAL

12
VS.
13
MEGAN KEEFER, et al.,
14
15

Date:
Time:
Dept.:

16

The Hon. Hon. Barry Baskin, Dept. 7

17

Trial Date:

Respondents.

August 9, 2021
1:30 p.m.
7

O
to

None Set

18
19
20

I, Dave Kravitz, declare as follows:

21

1.

Ihave been the Title IX Coordinator for SAN RAMON VALLEY UNIFIED

22

SCHOOL DISTRICT ("District") since June 11, 2021. If called as awitness, Icould and would

23

competently testify to all facts within my personal knowledge except where stated upon

24

information and belief.

25
26
27

2.

Iam familiar with the administrative action involving John Doe (whose name is

known to me). The Title IX administrative action is ongoing and is still at the investigative stage.
3.

The District's 2020-2021 school year ended for students on June 3, 2021.

28
DECLARATION OF DAVE KRAVITZ IN SUPPORT OF
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

220

1

4.

Iam scheduled to meet with Petitioner regarding additional supportive measures

2 available to him during the 2021-2022 school year.
3

5.

While the emergency removal is in effect, the District will implement supportive

4 measures to support Petitioner in accessing the District's educational programs remotely.

The

5 District will allow Petitioner to choose between enrolling in the District's Virtual Academy or its
6 Venture School. Both options offer ahigh quality District education to students who need remote
7 instruction and provide aUC-aligned (e.g., "A-G") curriculum. Virtual academy provides classes
8 that meet five days per week, online, in aremote classroom with acredentialed District teacher
9 following adaily bell schedule. This program, instituted due to the COVID-19 Pandemic, offers

IL

J
J

•j

N
W

H

ON

o

•G

U- .: w x

ev

2

LL
w

0

,0 0
-

E •• C
m • Y•
U_ C3
_ •

ea

U_

tn
c

10

the same academic opportunities to students in an online environment. Venture School offers a

11

traditional independent study program outside of the traditional school setting as a flexible,

12

alternative method of study, equal in quality and quantity to what students receive in traditional in-

13

person school. Study and assigned work in this program takes about the same amount of time as

14

in-person school and uses District approved curriculum, but the schedule of the school day is less

15

restricted. All courses are taught by credentialed District teachers who meet with each student at

16

least once aweek. The District has a school counselor and social worker available to provide

17

support and guidance in the areas of academic and social/emotional support.

18
19
20

6.

If Petitioner is deemed not responsible for the alleged sexual harassment at the

conclusion of the Title IX process, he will be invited to return to traditional in-person instruction.
7.

The parent of Jane Roe recently informed me that she was concerned about

21

Petitioner attending school with Jane Roe and requested advanced notice and opportunity to

22

request atransfer for Jane Roe if Petitioner would be returning to in-person instruction at the same

23

school as Jane Roe.

24
25

Ideclare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct.

26
27
28

Executed on this 61 day of August, 2021, at Danville, California.
2
DECLARATION OF DAVE KRAVITZ IN SUPPORT OF
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

221

1
2
3
4
5

Dave LKravitz
272-180'6158204.1

6
7
8
9
10

a
J

•
J
`•
,4•i
N

11

0

12

O

W)
•F wNOO
U) cz Lo

LL

- f
0 x
`o u

_n
• •o
oC)
EcmcT
at`g
N

j
•

L?

13
14
15

eo

LL
=0
n •'
m
cu

16

m
LL

17
18
19
20
21
22
23
24
25
26
27
28

3
DECLARATION OF DAVE KRAVITZ IN SUPPORT OF
OPPOSITION TO EX PARTE REQUEST TO STAY EMERGENCY REMOVAL

222

1

PROOF OF SERVICE

2

Doe v. Keifer et aL
Contra Costa Superior Court Case No. NC21-1450

3
STATE OF CALIFORNIA, COUNTY OF ALAMEDA
4
At the time of service, Iwas over 18 years of age and not aparty to this action. Iam
5 employed in the County of Alameda, State of California. My business address is 70 Washington
Street, Suite 205, Oakland, CA 94607.
6
On August 6, 2021, Iserved true copies of the following document(s) described as
7 OPPOSITION TO EX PARTE MOTION TO STAY EMERGENCY REMOVAL;
DECLARATION OF JACQUELINE LITRA; DECLARATION OF DAVE KRAVITZ on
8 the interested parties in this action as follows:
9
10
a

_

11

00
CD

12

J

N

Ln
0
L

Li

' , Ln
o 0
•
•XM

13

00O'

14
o U E

• ••
a•NMo
Ln
Li
M L?
0
0

c

CD

15
16

Mark M. Hathaway
HATHAWAY PARKER
445 S. Figueroa Street, 31st Floor
Los Angeles, CA 90071
Telephone: (213) 529-9000
Facsimile: (213) 529-0783
E-Mail: mark@hathawayparker.com
BY E-MAIL OR ELECTRONIC TRANSMISSION: Based on acourt order or an
agreement of the parties to accept service by e-mail or electronic transmission, Icaused the
document(s) to be sent from e-mail address dmishook@f3law.com to the persons at the e-mail
addresses listed in the Service List. Idid not receive, within areasonable time after the
transmission, any electronic message or other indication that the transmission was unsuccessful.
Ideclare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct.

17
Executed on August 6, 2021, at Oakland, California.
18
19
20
21
22
23
24
25
26
27
28

223

EXHIBIT 8

224

1
2
3
4
5
6
7
8
9
10

MARK M. HATHAWAY
(CA 151332; DC 437335; NY 2431682)
JENNA E. PARKER (CA 303560)
HATHAWAY PARKER INC.
445 S. Figueroa Street, 31st Floor
Los Angeles, California 90071
Telephone: (213) 529-9000
Facsimile: (213) 529-0783
E-Mail: mark@hathawayparker.com
E-Mail: jenna@hathawayparker.com
DAN ROTH (CA 270569)
LAW OFFICE OF DAN ROTH
803 Hearst Avenue
Berkeley, CA 94710
Telephone: (510) 849-1389
Facsimile: (510) 295-2680
E-mail: dan@drothlaw.com
Attorneys for Petitioner John Doe

11
12

SUPERIOR COURT OF THE STATE OF CALIFORNIA

13

FOR CONTRA COSTA COUNTY

14
15

JOHN DOE, an individual, minor through his
parent and next friend JANE DOE,
)

[Hon. Barry Baskin, Dept. 7]
Petitioner,

16

)
PETITIONER'S REPLY TO OPPOSITION
) TO APPLICATION FOR STAY ORDER

17

V.

18

MEGAN KEEFER, an individual, in her )
official capacity as Principal, California High
School and Title IX Coordinator Designee,
California High School; KEITH ROGENSKI,
an individual, in his official capacity as )
Assistant Superintendent of Human )
Resources; SAN RAMON VALLEY )
UNIFIED SCHOOL DISTRICT, aCalifornia )
corporation; and DOES 1through 20, )
inclusive
)

19
20
21
22
23

Case No.: NC21-1450

Respondents.

Date:
Time:
Dept:

August 9, 2021
1:30 p.m.
7

))

24
25
26
27
28
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
1

225

TABLE OF CONTENTS

1
2

I.

THE FINAL EMERGENCY REMOVAL ORDER IS REVIEWABLE BY THIS COURT
AND SUBJECT TO WRIT OF MANDATE RELIEF.

5

3
4
5
6

A.

CODE CIV. PROC., § 1094.5.

5

B.

CODE CIV. PROC., § 1085

6

C.

EMERGENCY REMOVAL UNDER TITLE IX FEDERAL REGULATION 34
C.F.R. 106.44, SUBD. (C).

6

7
8

D.

9

OFFICE FOR CIVIL RIGHTS ("OCR") COMPLAINT PROVIDES NO
PRIVATE RIGHT OF ACTION AND NO REMEDY FOR IMPROPER
REMOVAL WITH NO EMERGENCY AND NO EVIDENCE THAT STUDENT
POSES AN IMMEDIATE THREAT.

7

RIGHT TO DUE PROCESS AND FAIRNESS APPLIES TO K-12 AND POSTSECONDARY EDUCATION

8

10
11
12
13

E.

II. LEGAL STANDARD FOR ISSUANCE OF STAY

8

III. CONCLUSION

9

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
2

226

TABLE OF AUTHORITIES

1

Page(s)

2
Federal Cases

3
4
5
6

Coplin v. Concjo Valley Umfied School District (1995)
903 F. Supp. 1377

8

Goss v. Lopez (1975)
419 U.S. 565

8

7
California Cases

8
9
10
11

Armistead v. State Personnel Board (1978)
22 Cal. 3d 198

City cfMountain View v. SiAperior Court (1975)
54 Cal.App.3d 72

12

Collins v. Thurmond (
2019)

13

41 Cal.App.5th 879

14
15
16
17
18
19
20
21

5

5

8

Doe v. Regents cf University cf Calfornia (
2018)
28 Cal.App.5th 44

8

Friends cf the Old Trees v. Department cfForestry & Fire Protection (1997)
52 Cal.App.4th 1383

5

Kumar v. National Medical Enterprises, Inc. (1990)
218 Cal.App.3d 1050

6

Mandavi v. Fair Employment Practice Com. (1977)
67 Cal. App. 3d 326

5

O'Connell v. SiAperior Court (
2006)
141 Cal.App.4th 1452

8

22
23

Poschman v. Dumke (1973)
31 Cal. App. 3d 932

24

5
Federal Regulations

25
26
27
28

34 C.F.R. 106.3

7

34 C.F.R. 106.44

6

34 C.F.R. § 106.3

8

PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
3

227

1
2

34 C.F.R. § 106.3 (a)

7

34 C.F.R. § 106.44, subd.(c)

6

3
California Statutes

4
5
6

Code Civ. Proc.
§1085

6

§1094.5

5,8

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
4

228

1
2

REPLY MEMORANDUM OF POINTS AND AUTHORITIES
I.

3
4
5

Respondents concede that the "emergency removal" decision is final and will remain in place
indefinitely. (Opposition 2:25-26.)

6
7

Petitioner brought his ex parte application after informal efforts to attend in-person classes starting
on August 10, 2021 were fruitless.

8
9

THE FINAL EMERGENCY REMOVAL ORDER IS REVIEWABLE BY THIS
COURT AND SUBJECT TO WRIT OF MANDATE RELIEF.

A petitioner for relief in administrative mandamus is pursuing aremedy which fundamentally lies in
equity. (
City cfMountain View v. SiAperior Court (
1975) 54 Cal.App.3d 72, 81-82.)

10

A. CODE CIV. PROC., § 1094.5.

11

Administrative mandamus is available for review of "any final administrative order or decision made

12

as the result of aproceeding in which by law ahearing is required to be given, evidence required to be

13

taken, and discretion in the determination of facts is vested in the inferior tribunal, corporation, board, or

14

officer ..." (Code Civ. Proc. § 1094.5, subd. (a).)
Here, the relevant procedural background is:

15
16

1) The Emergency Removal order was issued on April 22, 2021. (Motion Exhibit 4, p. 1.)

17

2) Respondents held ahearing s on the Emergency Removal on May 19, 2021. (
Exhibit 4, p. 1.)

18

3) On May 21, 2021, Respondents upheld their determination that Petitioner "poses an

19

immediate threat to the physical health or safety of astudent(s) or other individual(s)."

20

(Exhibit 4, p. l; see Opposition 2:25-26.)
Respondents' Emergency Removal order decision is now final. Petitioner has no further avenue of

21
22

administrative appeal to exhaust and Petitioner has no plain, speedy, and adequate remedy in the

23

ordinary course of law, other than the relief sought in his Petition.

24
25
26
27
28

1

Purely documentary proceedings can satisfy the hearing requirement of Code Civ. Proc., § 1094.5, so

long as the agency is required to accept and consider evidence from interested parties before making its
final decision. (See Poschman v. Dumke (1973) 31 Cal. App. 3d 932, 938, disapproved on other grounds
in Armistead v. State Personnel Board (
1978) 22 Cal. 3d 198, 204, fn. 3; Mandavi v. Fair Employment
Practice Com. (
1977) 67 Cal. App. 3d 326, 334 [compilation of cases holding that ahearing within the
meaning of Code of Civil Procedure section 1094.5 may be apurely documentary proceeding]; Friends
cfthe Old Trees v. Department (- fForestry & Fire Protection (
1997) 52 Cal.App.4th 1383, 1391.)
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
5

229

1
2
3
4
5
6
7
8
9
10
11

B. CODE CIV. PROC., § 1085
Ordinary mandate is atraditional remedy by which acourt compels an inferior tribunal to perform a
legally required duty. (Code Civ. Proc., § 1085.) Here the duty is to allow Petitioner to attend his
public high school.
Respondents' citation to Kumar v. National Medical Enterprises, Inc. (
1990) 218 Cal.App.3d 1050,
1052, is not instructive. In Kumar, adoctor challenged the trial court's remand and seeking
unconditional reinstatement of full staff privileges. The Court of Appeal dismissed the appeal, holding
that the doctor had no right to appeal the trial court's order, since after the trial court set aside the
decision of the hospital's governing board of directors, there was no final administrative decision from
which he could appeal. Here, the final Emergency Removal order remains with no further
administrative appeal possible.

12
13
14
15
16
17
18
19
20
21

C. EMERGENCY REMOVAL UNDER TITLE IX FEDERAL
REGULATION 34 C.F.R. 106.44, SUBD. (C).
(c) Emergency removal. Nothing in this part precludes arecipient from
removing arespondent from the recipient's education program or activity
on an emergency basis, provided that the recipient undertakes an
individualized safety and risk analysis, determines that an immediate threat
to the physical health or safety of any student or other individual arising
from the allegations of sexual harassment justifies removal, and provides
the respondent with notice and an opportunity to challenge the decision
immediately following the removal. This provision may not be construed to
modify any rights under the Individuals with Disabilities Education Act,
Section 504 of the Rehabilitation Act of 1973, or the Americans with
Disabilities Act.
(34 C.F.R. § 106.44, subd. (c).)

22
23
24
25
26
27
28

Respondents issued their Emergency Removal order on April 22, 2021 based on the allegations of
sexual harassment; however, Petitioner timely challenged the removal order as lacking any evidentiary
support that Petitioner posed that an immediate threat to the physical health or safety of any student or
other individual. Respondents presented no evidence that Petitioner poses athreat and presents no
evidence in their Opposition filed this morning.

Respondents' determination that Petitioner "poses an

immediate threat to the physical health or safety of astudent(s) or other individual(s)" in the absence of
any such showing, is arbitrary and capricious.
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
6

230

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

D. OFFICE FOR CIVIL RIGHTS ("OCR") COMPLAINT PROVIDES NO
PRIVATE RIGHT OF ACTION AND NO REMEDY FOR IMPROPER
REMOVAL WITH NO EMERGENCY AND NO EVIDENCE THAT
STUDENT POSES AN IMMEDIATE THREAT.
Respondents are incorrect that "[e]ven interim decisions may be redressed through acomplaint with
OCR, acting on behalf of DOE. (34 C.F.R. § 106.3 (a).)" (Opposition 5:5-6.)

The Dept. of Education's

Office for Civil Right reviews SRVUSD's process but provides no private right of action and no remedy
to astudent. 34 C.F.R. 106.3 provides:
§106.3 Remedial and affirmative action and self-evaluation.
(a) Remedial action. If the Assistant Secretary finds that arecipient has
discriminated against persons on the basis of sex in an education program
or activity under this part, or otherwise violated this part, such recipient
must take such remedial action as the Assistant Secretary deems necessary
to remedy the violation, consistent with 20 U.S.C. 1682.
(b) Affirmative action. In the absence of afinding of discrimination on the
basis of sex in an education program or activity, a recipient may take
affirmative action to overcome the effects of conditions which resulted in
limited participation therein by persons of aparticular sex. Nothing herein
shall be interpreted to alter any affirmative action obligations which a
recipient may have under Executive Order 11246.
(c) Self-evaluation. Each recipient education institution shall, within one
year of the effective date of this part:
(1) Evaluate, in terms of the requirements of this part, its current
policies and practices and the effects thereof concerning admission
of students, treatment of students, and employment of both
academic and non-academic personnel working in connection with
the recipient's education program or activity;
(2) Modify any of these policies and practices which do not or may
not meet the requirements of this part; and
(3) Take appropriate remedial steps to eliminate the effects of any
discrimination which resulted or may have resulted from adherence
to these policies and practices.
(d) Availability of self-evaluation and related materials. Recipients
shall maintain on file for at least three years following completion
of the evaluation required under paragraph (c) of this section, and
shall provide to the Assistant Secretary upon request, adescription
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
7

231

1

of any modifications made pursuant to paragraph (c) (ii) of this
section and of any remedial steps taken pursuant to paragraph (c)

2

(iii) of this section.

3

(34 C.F.R. § 106.3.)

4
5

E. RIGHT TO DUE PROCESS AND FAIRNESS APPLIES TO K-12 AND
POSTSECONDARY EDUCATION.

6

The Fourteenth Amendment of the United States Constitution guarantees the right to procedural due

7
8
9
10
11
12
13
14
15

process. It is triggered when astate agency seeks to deprive aperson of protected interests. (
Goss v.
Lopez (1975) 419 U.S. 565, 572.) A state cannot deprive aperson of apublic education without
providing sufficient procedural due process. (
Ccplin v. Concjo Valley Unafied School District (
1995)
903 F. Supp. 1377.) "California has enshrined the right to education within its own Constitution.
Accordingly, "established California case law holds that there is afundamental right of equal access to
public education, warranting strict scrutiny of legislative and executive action that is alleged to infringe
on that right." (
O'Connell v. SiAperior Court (
2006) 141 Cal.App.4th 1452, 1465.)" (
Collins v.
Thurmond (
2019) 41 Cal.App.5th 879, 896.)
Code Civ. Proc., § 1094.5 requires that ( 1) there be "afair trial," which "means that there must have

16
17
18
19
20
21
22
23

been ` afair administrative hearing"'; (2) the proceeding be conducted "in the manner required by law";
(3) the decision be "supported by the findings"; and (4) the findings be "supported by the weight of the
evidence," or where an administrative action does not affect vested fundamental rights, the findings
must be "supported by substantial evidence in the light of the whole record.

,2

(
Code Civ. Proc., §

1094.5 (a)-(c).) Here, Petitioner's fundamental right to access to his public-school educational programs
and activities are denied by Respondents' improper administrative removal order.

II.

LEGAL STANDARD FOR ISSUANCE OF STAY.

24
25
26

Petitioner's moving paper provide the correct standard for issuance of astay under Code Civ. Proc.,
§1094.5. The court has discretion to issue the stay, unless Respondents can satisfy the Court that astay

27
28

2 The Court may refrain from evaluating the sufficiency of evidence if there are errors in the
administrative process. (
Doe v. Regents of University (- fCal, fornia (
2018) 28 Cal.App.5th 44, 61.)
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
8

232

1

is against the public interest, which Respondents cannot do as they have presented no evidence of an

2

emergency and no evidence that Petitioner poses an immediate threat.

3
4

III.

CONCLUSION

5
6
7

Based on the foregoing, the moving papers and the Petition, Petitioner respectfully requests that this
Court issue astay of Respondents final Emergency Removal administrative order or decision.
HATHAWAY PARKER

8
9
10
11
12

DATED: August 6, 2021

By:
RK M. HATH , 4 AY
JENNA E. PARKER
Attorney for Petitioner

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
9

233

1
2
3
4
5
6

PROOF OF SERVICE
STATE 0FCALIFORNIA
jsS.

COUNTY OF LOS ANGELES
lam employed in the County of Los Angeles, State of California, lam over the age of 18 and not apasty to the within action;
mybusiness address is 445 South Figueroa Sheet, 311 1Flooi, Los Angeles, CA 90071
On August6,2021,1seived the foregoing documentdescilbed PETITIONER'S REPLY TO OPPOSITION TO APPLICATION
FOR STAY ORDER on allinteiested pasties listed below by tiansm ruing to allinteiested pasties atrue copy theieofas follows;

7

Jacqueline M Lltfa
Fagan Filedm an & Fulffost LLP
6300 Wilsh ie Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone, ( 323) 330-6300
Fax, ( 323 ) 330-6311
Ein ail; jlitia 5o, f31a w . c
oin
ATT0RNEYSFOR RESPONDENTS

8
9
10
11

David Mishook
Fagan Filedm an & FuIfiosi LLP
70 Washington Sheet, Suite 205
0akland,Califoin!a 94607
Phone;510,550,8200
Fax;510.550.8211
Em ail; dm ishook5o, Qlaw,com
ATT0RNEYSFOR RESPONDENTS

12
13

❑

14

in achine Iused coin plied with Rule 20033) and no eiioi was iepoited by the in achine, Pursuant to Rule 2005•ij, 1caused the
in achine to print atiansmission fecofd of the tiansm ission, acopy of which is attached to this declaration,

15

❑

16
17
18
19
20
21
22

BYFACSIMILETRANSMISS10Nfiom FAX numbei•213j529-0783 tothefaxnumbeisetfoith above , The facsimile

BV MAIL by placing atrue copy theieofenclosed in asealed envelope addressed as setfoith above,

am readily

fain iliac with the firm's practice of collection and processing coiiespondence for in ailing, Undeithat practice it would be
deposited with U. S,postaIseivice on thatsam eday with postage thereon fully prepaid at Los Angeles,Califoin!a in the
oidinaiy course of business. Iam a are that on in otion of pasty served, service is piesum e invalid if postal cancellation date
of postage in etei date is in ore than one ( 1) day after date of deposit for in ailing in affidavit,
❑

BV PERSONAL SERVICE by delivering acopy of the docum ent•s) by hand to the addressee of Icause such envelope

to be delivered by process sewer,
❑

BV EXPRESS SERVICE by depositing in abox of other facility iegulaily in aintained by the express service cashes of

delivering to an authorized couilei of dilvei authorized by the express service cashes to receive docum ants, in an envelope of
package designated by the express service cashes with delivery fees paid of provided for, addressed to the person on whom it
is to be seived,

❑X BV ELECTRONIC TRANSMISSION by tiansm ruing aPDFversion of the docum ent•s) by electronic in all to the paiiy•s)
identified on the service list using the e- mail addiess•es) indicated.

23
24
25
26

❑X Ideclaie undeipenalty ofpeijuiy undeithe laws of the State ofCalifoinia that the above is true and coiiect,
❑ 1declaie undeipenalty ofpeijuiy undeithe laws of the United States ofAmeiica that the above is true and coiiect.
Executed on August 6, 2021 in Los Angeles, California
Adiian'a Rec
endez

27
28

PETITIONER'S REPLY TO OPPOSITION TO APPLICATION FOR STAY ORDER
10

234

EXHIBIT 9

235

1 MARK M. HATHAWAY
CA 151332; DC 437335; IL 6327924; NY 2431682)
2 ENNA E. PARKER CA 303560)
HATHAWAY PARKER
3 445 S. Figueroa Street, 31 st Floor
Los Angeles, California 90071
4 Telephone: 213) 529-9000
Facsimile: ( 13) 529-0783
5 E-Mail: mark hathawayparker.com
E-Mail: jennathathawayparker.com
6
DAN ROTH (CA 270569)
7 LAW OFFICE OF DAN ROTH
803 Hearst Avenue
8 Berkeley, CA 94710
Telephone: 510) 849-1389
9 Facsimile: ( 10) 295-2680
E-mail: dan@drothlaw.com
10
Attorneys for Petitioner
11
12

SUPERIOR COURT OF THE STATE OF CALIFORNIA

13

FOR THE COUNTY OF CONTRA COSTA

14
15

JOHN DOE, an individual, minor through his
parent and next friend JANE DOE,
Petitioner,

16
17

V.

18

MEGAN KEEFER, an individual, in her
official capacity as Principal, California High
School and Title IX Coordinator Designee,
California High School; KEITH ROGENSKI,
an individual, in his official capacity as
Assistant Superintendent of Human
Resources; SAN RAMON VALLEY
UNIFIED SCHOOL DISTRICT, aCalifornia
corporation; and DOES 1through 20,
inclusive

19
20
21
22
23

Case No.: NC21-1450
[Hon. Barry Baskin, Dept. 7]
NOTICE OF ORDER DENYING
PETITIONER'S EX PARTE
APPLICATION FOR STAY OF
ADMINISTRATIVE DECISION
PENDING COURT REVIEW OF WRIT
PETITION
Date: August 9, 2021
Time: 1:30 p.m.
Dept: 7

Respondents.

24
25
26

TO ALL PARTIES AND THEIR ATTORNEYS OF RECORD:
PLEASE TAKE NOTICE that on August 9, 2021 at 1:30 p.m., Petitioner's ex parte

27

application for stay of administrative decision pending court review of writ petition came on for

28

hearing before Honorable Barry Baskin in Department 7. Mark Hathaway, of Hathaway Parker,
NOTICE OF ORDER DENYING PETITIONER'S EX PARTE APPLICATION FOR STAY
1

236

1 and Dan Roth, of Law Office of Dan Roth, appeared on behalf of Petitioner. David R. Mishook
2

and Jacqueline M. Litra, of Fagen Friedman & Fulfrost, LLP, appeared on behalf of Respondent.

3

Judge Barry Baskin, having considered the parties' pleadings and oral arguments, denied

4

Petitioner's ex parte application for stay of administrative decision pending court review of writ

5 petition.
6

No court reporter was present and there is no transcript of the ex parte hearing.
HATHMWAY PARKER

7
8
9
10

Dated: August 10, 2021

B
rk M. Hathaw
Jenna E. Parker
Attorneys for Petitioner

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
NOTICE OF ORDER DENYING PETITIONER'S EX PARTE APPLICATION FOR STAY
2

237

PROOF OF SERVICE

1
2

3
4

STATE 0FCALIFORNIA

jss,

COUNTY OF LOS ANGELES
lam employed in the County of Los Angeles, State of California, lam over the age of 18 and not apasty io the within action;
mybusiness address is 445 South Figueroa Sheet, 311 1Flooi, Los Angeles, CA 90071.

5 On August 10, 2021,1seived the foregoing documenidescilbed NOTICE OF ORDER DENYING PETITIONER'S EX PARTE
6
7

8
9

10
11
12
13
14
15
16
17
18
19
20

APPLICATION FOR STAY OF ADMINISTRATIVE DECISION PENDING COURT REVIEW OF WRIT PETITION on all
interested pasties listed below by tiansm ruing io all interested pasties atrue copy thereof as follows;
Jacqueline M L11fa
Fagan Friedman & FuIfiosiLLP
6300 Wilsh ie Blvd Ste 1700
Los Angeles, CA 90048-5219
Phone 323j330-6300
Fax, ( 323 ) 330-6311
Ein ail; jlitia @ f31a w . c
oin
ATT0RNEYSFOR RESPONDENTS

David Mishook
Fagan Filedm an & Fulffosi LLP
70 Washington Sheet, Suite 205
0akland,Califoin!a 94607
Ph one; 510.550.8200
Fax;510.550.8211
Emall:dmishook@f3law.com
ATTORNEYS FOR RESPONDENTS

❑ BV FACSIM ILE TRANSMISSION from FAX num bei ( 213) 529-0783 io the fax num b
eiseifoith above, The facsim ile
in achine Iused coin plied with Rule 2003 3) and no eiioi was iepoited by the in achine, Pursuant io Rule 2005•1j, 1
caused the
in achine io print atiansm ission fecofd of the tiansm ission, acopy of which is attached io this declaration,
❑ BV MAIL by placing atrue copy thereof enclosed in asealed envelope addressed as seifoith above, I
am readily fain iliac
with the firm's practice of co Ile ciion and processing coiiespondence foimailing, Undeithaipiacilce iiwouId be deposited with
U.S. postal service on that sam eday with postage thereon fully prepaid a Los Angeles, California in the oidinaiy course of
business. I
am a are that on in otion of pasty served, service is piesum e invalid if postal cancellation date of postage in eie1
date is in ore than one ( 1) day after date of deposiifoi in ailing in affidavit,
❑ BV PERSONAL SERVICE by delivering acopy of the documeni•sjby hand io the addressee oilcause such envelope io
be delivered by process sewer,
❑ BV EXPRESS SERVICE by depositing in abox of other facility iegulaily in ainiained by the express service cashes of
delivering io an authorized couilei of dilvei authorized by the express service cashes io receive docum ants, in an envelope of
package designated by the express service cashes with delivery fees paid of provided for, addressed io the person on whom ii
is 10 be seived

21

❑x BY ELECTRONIC TRANSM ISS10N by tiansm itting aPDFversion of the docum eni•s) by electronic in ailio the paiiy s)
identified on the service list using the e- ma11 addiess•esjindicaied,

22

❑x Ideclaie undeipenaliy ofpeijuiy undeithe laws of the State ofCalifoinia that the above is true and coiiect,

23
24

❑ Ideclare under penalty of peijuiy under the laws ofthe United Siaies_of Am erica that the above is true and coiiect.
Executed on August 10, 2021 in Los Angeles, California

25

Adilana'Recendez

26
27
28
NOTICE OF ORDER DENYING PETITIONER'S EX PARTE APPLICATION FOR STAY
3

238

State of California
)
County of Los Angeles )
)

Proof of Service by:
US Postal Service
Federal Express

I, Stephen Moore
, declare that I am not a party to the action, am over 18 years of
Wilshire Blvd., Suite
820, 6,
Los Angeles,
California
90017; ca@counselpress.com
age and my business address is: 626
62OLYH6WUHHW,
Suite
Los Angeles,
California
9001.
On 8/11/2021 declarant served the within: Exhibits in Support of Petition for Writ of Supersedeas,
Prohibition and/or Other Appropriate Relief

upon:
Copies

FedEx

USPS

Copies

FedEx

USPS

Copies

FedEx

USPS

ELECTRONICALLY SERVED VIA TRUEFILING
ON ALL PARTIES LISTED ON THE ATTACHED
SERVICE LIST.

Copies

FedEx

USPS

the address(es) designated by said attorney(s) for that purpose by depositing the number of
copies indicated above, of same, enclosed in a postpaid properly addressed wrapper in a Post
Office Mail Depository, under the exclusive custody and care of the United States Postal Service,
within the State of California, or properly addressed wrapper in an Federal Express Official
Depository, under the exclusive custody and care of Federal Express, within the State of
California
I further declare that this same day the original and copies has/have been
hand delivered for
filing OR the original and copies has/have been filed by
third party commercial carrier for
next business day delivery to:
ELECTRONICALLY FILED VIA TRUEFILING:
CALIFORNIA COURT OF APPEAL
First Appellate District, Pre-Division (Writs)
350 McAllister Street, First Floor
San Francisco, California 94102

I declare under penalty of perjury that the foregoing is true and correct:
Signature: /s/ Stephen Moore, Senior Appellate Paralegal, Counsel Press Inc.; ca@counselpress.com

SERVICE LIST
Electronic Service via TrueFiling on the Following

Jacqueline M. Litra (SBN 311504)
FAGEN FRIEDMAN & FULFROST LLP
6300 Wilshire Blvd., Suite 1700
Los Angeles, California 90048-5219
jlitra@f3law.com
Tel: (323) 330-6300

David Mishook (SBN 273555)
FAGEN FRIEDMAN & FULFROST LLP
70 Washington Street, Suite 205
Oakland, California 94607
dmishook@f3law.com
Tel: (510) 550-8200

Attorneys for Real Parties in Interest,
Megan Keefer, Keith Rogenski, and
San Ramon Valley Unified School District

Attorneys for Real Parties in Interest,
Megan Keefer, Keith Rogenski, and
San Ramon Valley Unified School District

